<html>
<title> - U.S. TSUNAMI WARNING SYSTEM AND S. 50, ``THE TSUNAMI PREPAREDNESS ACT OF 2005''</title>
<body><pre>[Senate Hearing 109-93]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-93
 
 U.S. TSUNAMI WARNING SYSTEM AND S. 50, ``THE TSUNAMI PREPAREDNESS ACT 
                               OF 2005''

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation







                 U.S. GOVERNMENT PRINTING OFFICE

22-845                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001


















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 2, 2005.................................     1
Statement of Senator Cantwell....................................    53
    Prepared statement...........................................    56
Statement of Senator DeMint......................................    51
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     2
Statement of Senator E. Benjamin Nelson..........................    46
Statement of Senator Smith.......................................    49
    Prepared statement...........................................    51
Statement of Senator Stevens.....................................     1
    Letter, dated February 1, 2005 to Hon. Ted Stevens from Jane 
      T. Dana, Acting General Counsel, Department of Commerce....    13

                               Witnesses

Bement, Jr., Dr. Arden L., Director, National Science Foundation.    21
    Prepared statement...........................................    22
Cox, Dr. Daniel, Director, O.H. Hinsdale Wave Research 
  Laboratory, Oregon State University............................    58
    Prepared statement...........................................    59
Frist, Hon. Bill, Senate Majority Leader, U.S. Senate............     2
Groat, Charles G., Director, U.S. Geological Survey..............    31
    Prepared statement...........................................    32
Hansen, Roger A., Professor, University of Alaska Fairbanks; 
  Director, Alaska Earthquake Information Center.................    69
    Prepared statement...........................................    71
Kelly, Brigadier General John J., U.S. Air Force (Retired), 
  Deputy Under Secretary of Commerce for Oceans and Atmosphere, 
  National Oceanic and Atmospheric Administration (NOAA).........    14
    Prepared statement of Vice Admiral Conrad Lautenbacher, Jr...    16
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     5
Marburger, III, Dr. John H., Director, Office of Science and 
  Technology Policy, Executive Office of the President...........     9
    Prepared statement...........................................    10
Shea, Eileen L., Project Coordinator, East-West Center, Honolulu, 
  Hawaii.........................................................    63
    Prepared statement...........................................    65
    Letter with Attachments, dated February 9, 2005 to Senators 
      Stevens and Inouye.........................................    77

                                Appendix

Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement......................................................    83
Carlson, Doug, Honolulu, Hawaii, prepared statement..............    83
Response to letter dated February 7, 2005 from Chairman Stevens 
  and Co-Chairman Inouye to:
    Dr. Arden L. Bement, Jr......................................   107
    U.S. Geological Survey.......................................   111
    Vice Admiral Conrad C. Lautenbacher, Jr......................    94
Response to written questions submitted to Dr. Arden L. Bement, 
  Jr., by:
    Hon. Maria Cantwell..........................................   109
    Hon. Mark Pryor..............................................   110
Response to written question submitted by Hon. Maria Cantwell to 
  Roger A. Hansen................................................   118
Response to written questions submitted to Charles G. Groat by:
    Hon. Maria Cantwell..........................................   121
    Hon. Daniel K. Inouye........................................   127
    Hon. Mark Pryor..............................................   128
Response to written questions submitted to Brigadier General John 
  J. Kelly by:
    Hon. Maria Cantwell..........................................    88
    Hon. Daniel K. Inouye........................................    85
    Hon. Mark Pryor..............................................    91
Response to written questions submitted to Dr. John H. Marburger, 
  III by:
    Hon. Maria Cantwell..........................................   101
    Hon. John McCain.............................................    99
    Hon. Mark Pryor..............................................   103























 U.S. TSUNAMI WARNING SYSTEM AND S. 50, ``THE TSUNAMI PREPAREDNESS ACT 
                               OF 2005''

                              ----------                              


                      WEDNESDAY, FEBRUARY 2, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Welcome to our first hearing. We're honored 
to have Senate Majority Leader Bill Frist and, soon, Senator 
Mary Landrieu here to testify on their recent trip to the 
countries impacted by the Indian Ocean tsunami. We do thank 
them for their willingness to come.
    In 1994, Senator Inouye and I, along with Senator Hatfield 
of Oregon, directed NOAA to develop the National Tsunami Hazard 
Mitigation Program. We had had a tsunami in 1968, after the 
earthquake. But this was in response to a small tsunami that 
impacted the West Coast. It reflected the concern we all shared 
about the frequency of tsunamis in the Pacific. This bill is 
intended to build on the current tsunami warning network that 
we have in the Pacific.
    I thank the witnesses for being here today.
    Let me yield to Senator Inouye, our Co-Chairman.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I'd like to join our Chairman in welcoming 
our distinguished panel of witnesses, especially the Leader, as 
they testify on a catastrophe that has left the world in shock, 
and governments scrambling to react.
    We all saw the devastation, the incredible human suffering, 
and the obliteration of entire communities. The destruction hit 
everyone and everything in its path, without regard to national 
or ethnic identity, level of economic development, or 
technological sophistication.
    Our response, as a global community, must, similarly, cut 
across superficial distinctions among nations and people. Our 
response, however, must not be a disorderly surge of activity 
and investment dictated by emotions.
    Mr. Chairman, may I request that the rest of my statement 
be made part of the record?
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I would like to join our Chairman in welcoming our distinguished 
panel of witnesses today. As they testify on a catastrophe that has 
left the world in shock, and governments scrambling to react. The 
tsunami that struck the coasts of the Indian Ocean struck without 
regard to national or ethnic identity, level of economic development, 
or technological sophistication. I believe that our response as a 
global community must similarly cut across superficial distinctions 
among nations and peoples.
    That response, however, must not be a disorderly surge of activity 
and investment dictated by emotions. Rather, we must study carefully 
the nature of the threat of tsunami, assess our capacity for detecting 
and forecasting these natural disasters, and make a plan that both 
makes sense, and is sustainable over time.
    Protecting human life and property from natural disaster requires 
the ability to reliably detect and forecast, the capacity to broadcast 
warnings in a timely and informative manner, and the knowledge in 
communities of how to respond and evacuate to safety. Above all, 
however, it requires the willingness to invest resources to prepare for 
a threat that is largely unseen and unpredictable--until the last 
moment, when a monstrous wave actually strikes.
    As we came to understand the broader threat that tsunami posed, Ted 
Stevens and I worked together in 1994 to direct the National Oceanic 
and Atmospheric Administration (NOAA) to develop a Tsunami Hazard 
Mitigation Program. We are pleased to report that this program has laid 
the foundation for tsunami preparedness in the Pacific. The National 
Oceanic and Atmospheric Administration has taken the lead in this 
effort with support from other federal partners, such as the U.S. 
Geological Survey, and the National Science Foundation. We look forward 
to hearing reports and testimony from these agencies as they describe 
where their work has brought us today.
    The appalling scope of the Indian Ocean tragedy illustrates the 
importance and necessity of our work of the past 10 years, and with 
stark clarity, we can see that despite our best efforts, much remains 
to be done. Now, as before, Senator Stevens and I have come together to 
lead the charge toward national and international tsunami preparedness 
by introducing our bill, S. 50, the Tsunami Preparedness Act, which 
many of our colleagues here in this room have chosen to cosponsor.
    I hope that today's testimony will shed additional light on how we 
may further improve our bill and come to grips with national and global 
tsunami preparedness. In particular, I look forward to the testimony of 
Ms. Eileen Shea, an authority on risk management in the Pacific. Her 
report on how the Pacific community has come together to form a 
family--or ``ohana''--in order to pool resources for disaster 
preparedness will be most informative. I welcome her perspectives on 
how our risk management ohana can integrate tsunami preparedness into 
an overall portfolio of planning and preparation.

    The Chairman. Thank you very much.
    Unless there's objection, we'll have Senators make their 
statements after the Leader and Senator Landrieu make their 
statements.
    Welcome. Dr. Frist, we welcome your statement.

  STATEMENT OF HON. BILL FRIST, SENATE MAJORITY LEADER, U.S. 
                             SENATE

    Senator Frist. Thank you.
    Mr. Chairman and Senator Inouye, Members of the Committee, 
it is a real honor for the two of us to present to you, and to 
share some of our findings on a trip that we made, very early, 
to the tsunami region. We had a wonderful opportunity to see 
the very best of compassion and caring expressed and, at the 
same time, witness the devastation, destruction, sorrow, and 
the pain that we all know characterized this tsunami. Thanks 
for holding this hearing as we look at ways to prevent, as well 
as to respond to, disasters such as the tsunami. This is a very 
important hearing.
    Senator Landrieu and I, on the spur of the moment, did 
leave the United States to witness this destruction, 
predominantly in Sri Lanka. As mentioned, 150,000 people, at 
least, have died, over five million homes destroyed, thousands 
remain missing. A real focus on children, will be reflected in 
both of our comments.
    Many of the nations' first responders came to help. But I 
have to say, right up front, it gives us a great deal of pride 
to watch our Marines, very early on, as part of the 12,000 to 
15,000 military personnel who responded quickly with usable 
forces. It was very impressive to see them coming, moving 
debris, working with USAID, working in a very cohesive fashion.
    The destruction is exactly as described. I have a slide up. 
It's a little bit shaded, because it's taken through the window 
of an airplane, but the coast is there. You can see, for those 
several hundred meters, there's total destruction. What was 
amazing is, when you flew in a helicopter, there's no end to 
it. It goes for miles--10 miles, 20 miles, 50 miles, 100 miles, 
1,000 miles.
    Much remains to be done. Much has been done already. We 
have psychological trauma that is going to take years to deal 
with. We have shelter needs that will take years to deal with. 
The immediate recovery and response, indeed, was quite 
impressive.
    Amidst all the tragedy, what was clear to me is that, in 
terms of the response, it was not the absence of food, because 
food was provided fairly quickly, and not the absence of 
hospitals, although they were overcrowded, but it was the 
access to something as basic as water, that we all take for 
granted. What happened with the tsunami, the wells that people 
had were filled with saltwater, which is not potable water. You 
had water buckets that were washed away totally; therefore, 
people, however they got their water initially, were not able 
to do that.
    We had a focus on water. I have a slide up right now that 
shows the aid that's delivered really typifies everybody coming 
together, with USAID written on the side of that package. You 
see Sri Lankan physicians from the Sri Lankan Red Cross there, 
aid delivered from around the country in the background there, 
the types of quarters in refugee camps, schools that were taken 
over to house many people.
    Quick action was taken; and, therefore, we didn't see 
epidemics of malaria or pooling of water that might have 
resulted. Dredging took place. So as water came in and washed 
in, early dredging prevented those pools of water from which 
malaria could have arisen, from which typhoid fever could have 
arisen, a breeding ground for mosquitoes.
    Now we need to look at long-term solutions, which is part 
of what this hearing is today.
    One area that I want to focus on is this area of public 
health, particularly as it does relate to water. The conditions 
that we witnessed in the tsunami's aftermath are common 
conditions around the world. There's about 1.2 billion people 
who don't have access to potable water today. That will result, 
probably, in about 135 million deaths over the next 15 to 20 
years, all because of this lack of access to clean water.
    Three proposals that I'd like to mention:
    First, clean water should be, ought to be, a major priority 
in our development programs, the U.S. development programs. And 
they're not. Today, we spend about 3 percent of our 
international development and humanitarian assistance budget on 
water. That's only about $600 million of $20 billion. We must 
work to improve the water quality, not only in the areas that 
were tsunami-damaged, but, indeed, throughout the world. I 
mentioned 1.2 billion people, today, don't have access to clean 
water; 2.4 billion people don't have access to basic 
sanitation. It applies to children, specifically, because there 
are 4 billion cases, diarrheal cases a year, and that results 
in 1.8 million deaths of children under the age of 5 each and 
every year, something that absolutely can be prevented.
    I show this slide because what is in my hand are these 
little packets that we had the opportunity to deliver. This 
little packet, which costs about 7 cents to make, if we had put 
in any kind of water, addresses both bacteria and parasites. 
And this little packet costs 7 cents to make, and will give 
about 45 days of clean water, which is pretty amazing. This 
shows that there are inexpensive solutions that we need to be 
both mobilized up to develop, which we have--this is just 1 of 
about 4 types of packets like this--but also to be able to 
distribute very, very quickly, and that was one of the things 
that Senator Landrieu and I had the opportunity to do.
    No. 2, we, I believe, need to use medical assistance and 
public health as a currency for peace as we engage others 
around the world. We've missed it in the past, but I believe 
medicine and public health can be used as a vital tool for 
international diplomacy as we look ahead and decide how to 
spend our resources.
    The assistance that we give other nations has its greatest 
impact when it is on the ground, when it touches individuals in 
very intimate and in very personal ways, at the community 
level.
    I throw this slide in here, because this is a hospital that 
we visited, and this is one of the victims from the tsunami who 
had come in. You see the Sri Lankan physicians, in the past we 
met Scandinavian physicians, they all make a difference, 
directly impacting people's lives, with their expertise, but 
also by reaching out and touching people in a very intimate 
way. And we have missed it. We don't have any national or 
international programs now that focus on what I will come back 
to, and that is a global health corps.
    I do intend to promote a new version of the type of Peace 
Corps that we reach out very directly as a global health corps. 
It would bring together medical professionals, it would bring 
together people in this country who want to donate a period of 
time. It might be a month, it might be 6 months, it might be a 
year, in terms of technology and expertise in public health and 
medicine, and it also would allow them to come back to this 
country and help educate us and the American people. When you 
look at the big, big killers that are out there today, it is 
still infectious disease. It is HIV/AIDS. It is malaria. It is 
tuberculosis. So it is a win-win for everyone. This global 
health corps, I'll be talking more about in the future, but at 
least wanted to introduce the concept.
    So, No. 1, water should be injected into our development 
policy in foreign aid. And, No. 2, let's begin to think of 
using medicine and public health as a currency for peace, part 
of our diplomacy. And a good way to start that is a global 
health corps.
    Third, and last, we should leverage private dollars to 
develop water infrastructure around the world. We've done it 
pretty well in the United States of America, but we have not 
done it elsewhere around the world. We are the Nation who can 
do that. Private companies, not state entities, will ultimately 
do the hard work of providing clean, potable water.
    In the tsunami-ravaged areas, we saw private businesses, 
big and small, respond and assist in everything from water 
purification, through packets like this, to logistics. And what 
we can do, and should do, is leverage those private dollars 
into the field, looking for ways to develop, and ways we can do 
it, and certain models to develop, private/public partnership 
to inject this capital and help people with their water 
projects.
    In closing, I'll just show this one slide. Again, this was 
from our trip, because it was one of the clinics that we 
visited. And there are two children there, because, as Senator 
Landrieu will say, this tsunami had a huge impact on children. 
It reminds me of the medical response. These two kids were 
sleeping in the same bed, because the infrastructure is not 
fully developed. And as we reinvest in these parts of the 
world, I hope that we can inject both water infrastructure, as 
well as public-health infrastructure.
    We have much to do. We've got to be bold. I think this 
hearing is a great start to look both at prevention and 
appropriate response. The first steps, indeed, can be quite 
modest. I do hope that my colleagues will support these 
proposals in responding with water as a major priority in 
development assistance; No. 2, a global health corps; and, No. 
3, policy which will leverage private and public dollars to the 
benefit of kids like this that are sitting with me in the 
hospital.
    Thank you, Mr. Chairman.
    The Chairman. Senator Landrieu?

              STATEMENT OF HON. MARY L. LANDRIEU, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. It is a pleasure 
for me to join Senator Frist today and give very brief 
comments, because he's covered so much of what we realized on 
the trip.
    Let me begin just by thanking you, acknowledging a new 
Member of this Committee, Senator David Vitter, who I'm sure 
will be joining us shortly. His willingness to tackle complex 
problems will, no doubt, continue the impressive work of 
Senator John Breaux, who served for many years, and most 
admirably, on this Committee.
    I want to just ditto, if I could, the points made by 
Senator Frist, but add a few new points, if I could.
    Jokingly, I told him I'd be happy to accompany him on this 
trip, if he did not require me to go in any operating room, 
which, I'm pleased to report, he lived up to his end of the 
bargain.
    Senator Frist. But we got close.
    Senator Landrieu. Well, we got close, but he--I was 
successful in staying out of the operating rooms.
    But I want to thank you for your introduction of the 
Tsunami Warning System bill, which we're here to testify on 
today, our need to invest in coastal communities, and the 
immediate and long-term impact of this tragedy on children and 
families.
    First, I would like to say that it's hard to describe the 
destruction in words. Truly. Not just the intensity of it, but 
the expanse of the coastline affected. In an instant, Mr. 
Chairman, thousands of people and structures on miles of 
coastline were simply eliminated, swallowed up, washed away by 
a massive surge of water. The only warning that millions of 
people had was the ominous and awe-inspiring retreat of the 
ocean's waters, revealing hundreds of feet of sand and beach. 
Then, in a rush of water, the magnitude of this force wiped out 
3,000 miles of shoreline, and carried with it the homes and 
lives of hundreds of thousands of people.
    To give those in our country a better understanding of the 
magnitude, this chart would be helpful. I've tried to explain 
this. It would be as if you took an eraser, started at 
Galveston, Texas, and just erased the coastline all the way up 
to Bar Harbor, Maine, back as long as a football field, in some 
instances, or a fourth of a mile to a mile in other instances, 
eliminated.
    The most amazing thing that we saw was actually the fact 
that the palm trees survived. I've been through many hurricanes 
in my life, as many of you all have--and, Mr. Chairman, 
yourself, you've witnessed a lot of the weather's ferociousness 
in Alaska--but Senator Frist and I commented, as we flew over 
this coastline, mile and mile, that the palm trees managed to 
just bend with the wave, and after the wave receded, came back 
up. But there were no homes or people or structures underneath 
the palm trees, themselves.
    It reminds me to testify, this morning, that we should 
think of our coastal communities like palm trees, and build 
them in a way that they can weather these inevitable natural 
disasters, whether they be tsunamis or hurricanes or the surge 
of saltwater intrusion. With adequate and improved warning, 
better planning, and more robust investments in the right kind 
of infrastructure, our coastal communities here in America and 
around the world will continue to grow and thrive decade after 
decade.
    Above all, these astonishing images. While the death toll 
was staggering--it could be over 150,000, 226,000, it's going 
to be hard to actually get an accurate estimate, of course; in 
many of these countries the census is not as sophisticated as 
ours--and over 500,000 were injured. But while the death toll 
is staggering, it is also extremely disturbing to realize that 
many of these people could have been saved, even with minimal 
time involved. People could have simply walked to safety. 
Experts say that oceans may give people as much as 5-minute 
warnings to escape to higher ground. Five minutes could have 
saved hundreds of thousands of lives. Mr. Chairman, even the 
smallest of toddlers and the most frail of seniors can walk the 
length of a football field, out of the reach of this wave.
    So I'm pleased to lend my support and eye-witness accounts 
to the Tsunami Preparedness Act. This legislation will improve 
methods of detecting and warning coastal residents about 
tsunamis, establish important mitigation programs, enhance our 
research, and assist our friends abroad, as Senator Frist said, 
and build peace.
    But warning, Mr. Chairman, is not enough. We must also 
invest and reinvest in our natural barriers, and constantly 
review our evacuation routes. This giant wave, not only killed 
a quarter of a million people, it also, as I said, obliterated 
the natural coastal barriers in the region. The United Nations 
Environmental Program estimates the damage to the environment 
could topple 675 million in loss of natural habitat, an 
important ecosystem function. This number could not only--
should not only concern environmentalists that seek the worthy 
goal of preserving nature's wonders, it should also concern 
those whose safety and economic livelihood depend on these 
barriers being intact. We know something about that in 
Louisiana, and so do you in Alaska. Restoring the reefs and 
barrier islands and shorelines of these areas will help long-
term disaster risk reduction. Without the barriers that act as 
nature's own line of defense against flooding, storm surges, 
waves, hurricanes, and even tsunamis, human lives are at risk.
    Mr. Chairman, as I told you, from Louisiana, I know how 
vulnerable coastal communities are. 122 million people in 
America, 53 percent, live in coastal counties or parishes. The 
most common threat to these communities is the rapid rise of 
the water tables, hurricanes, saltwater intrusion.
    I'd like to show the next chart, briefly, and then end with 
just one or two comments.
    In the same area that I showed, the areas in red are 
basically areas in our southern part of the country that are 
below sea level. And I'm sorry I did not have the charts for 
the Pacific and the Atlantic coasts. But just the Gulf Coast 
region will show you, in red, it is 1.5 meters below sea level.
    I ask this Committee, as we pass this legislation, what 
have we done if we warn people of danger, but don't help them 
escape it? In the hurricanes that ravaged Florida and the Gulf 
Coast region last year, people left their homes, only to get 
stuck in gridlock on highways trying to escape the 150-200 
mile-and-hour winds that were projected along the Gulf Coast.
    So I ask, as you all look forward, not only to this piece 
of legislation, but in the Oceans Act or oceans legislation 
that is emerging from the recent study, to think carefully 
about that. While our work here today will focus on warning, we 
must also focus on what this disaster means, or disasters like 
this could mean, to our own communities in Louisiana.
    And, finally, one sentence, Mr. Chairman, about the 
families. Nations are, in fact, built on roads and 
infrastructure and railroads. But nations are primarily built 
on families, strong families, united, protective of one 
another, and focused on building and protecting their 
communities. Everything we do, in this Committee or the Foreign 
Ops Committee or in any other Committee in this Congress, 
should be focused on rebuilding these 11 nations, family by 
family, picking the one child that was left, uniting them with 
the one aunt that was left, finding the one grandfather that 
may still have a fishing boat intact, and trying to put them 
together to help rebuild these nations, and, in doing so, 
remind ourselves that building families in America is the best 
way we can assure our future.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you both very much.
    Leader, last year in the Foreign Operations appropriations 
bill, we put $100 million in there as an add-on to start a 
program for clean water throughout the world, fashioned after 
the system that we started in Alaska to deal with the 240-odd 
villages in Alaska that, until recently, did not have clean 
water and sewer. We figure that the cost is about $2,000 a 
well. As we go into places like African villages, it's much 
less than what's in our state. But I do believe we should 
followup on your idea with regard to try and find a way to deal 
with this access-to-clean-water problem. And it's--I don't know 
how much of it's within the jurisdiction of this Committee, but 
we're going to take a look and try to work with you on that 
aspect.
    Does anyone have any comment or a statement to make to the 
Senators?
    [No response.]
    The Chairman. We thank you both very much.
    Senator Frist. Thank you, Mr. Chairman.
    The Chairman. We look forward to working with you----
    Senator Landrieu. Thank you, Mr. Chairman.
    The Chairman.--on this legislation.
    Senator Frist. I do appreciate that focus in 
appropriations, just real quickly, because I think every 
Committee needs to go back and look, because we've had this 
lack of coordination, and we absolutely know that that well, 
for $2,000, going back to what Senator Landrieu closed on, has 
an economic impact, has an impact on family. It is a huge 
women's issue throughout Africa. We traveled throughout 
Mozambique, had a large bipartisan group, last year, and, 
indeed, when you talk to women who are walking 3 to 4 hours a 
day, each day, for water, and you look at their children, you 
see the huge economic, social, and family impact that a simple 
well, $2,000, can have on a community.
    So thank you for your leadership there.
    The Chairman. Thank you very much. Appreciate you both 
being here.
    Our second panel of witnesses are Jack Marburger, the 
Director of the Office of Science and Technology Policy; John 
Kelly, the Deputy Under Secretary for Commerce for Oceans and 
Atmospheres; Dr. Arden Bement, Director of the National Science 
Foundation; and Dr. Charles Groat, the Director of the U.S. 
Geological Survey.
    We do thank you for being here today, and would urge you to 
take your positions.
    I must state to Members and to the audience that Admiral 
Lautenbacher, sadly, is seriously ill and cannot be with us. We 
will schedule another time for him to appear. But we do send 
our best wishes to him.
    May we proceed in the way that I presented your names, 
gentlemen? Your statements will be printed, in full, in the 
record, and we ask you to summarize them as concisely as you 
are able to do so. It's a highly technical subject, so we do 
not want to shut you off or limit you unnecessarily.
    Mr. Marburger?

      STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, 
 OFFICE OF SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF 
                         THE PRESIDENT

    Dr. Marburger. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for inviting me today to discuss the 
Administration's plans for the U.S. Tsunami Warning System.
    I'll keep my oral remarks short. Thank you for including my 
written testimony in the record.
    I, too, have just returned from the tsunami-devastated 
area. And I, too, was sobered by the extent by the extensive 
damage I saw there.
    I attended a ministerial meeting on regional cooperation on 
tsunami early warning arrangements in Phuket, Thailand. Science 
ministers from approximately 46 countries were invited, 
including all the countries affected by the December 26th 
earthquake and tsunami.
    The greatest tragedy of this colossal natural disaster is 
that many of the deaths, as Senator Frist indicated, could have 
been prevented, if only a warning system had been in place to 
alert people in harm's way. Preventing deaths in future similar 
catastrophes will require a high degree of international 
cooperation, and I will mention, later, steps the 
Administration has taken, and plans to take in the future, for 
securing international cooperation and developing a global 
tsunami warning system as part of the Global Earth Observation 
System of Systems, or GEOSS.
    Mr. Chairman, about 85 percent of tsunamis worldwide occur 
in the Pacific Ocean, where life-threatening ones appear about 
once per decade. Because of this risk, the U.S. has led in the 
development of tsunami detection and monitoring technologies, 
and has cooperated since 1968 in the International Coordination 
Group for the Tsunami Warning System in the Pacific, which 
currently has 26 member countries. This system operates under 
the auspices of UNESCO's Intergovernmental Oceanographic 
Commission, or the IOC.
    The world's most advanced tsunami-detection systems, NOAA's 
Deep-Ocean Assessment and Reporting of Tsunami buoys--they're 
called ``DART buoys''--are deployed as part of the U.S. Pacific 
Tsunami Warning System. The Administration's plan includes 
enhancing the existing Pacific Warning System to provide more 
comprehensive coverage and faster alerts to broader 
populations.
    Tsunamis occur less frequently in the Atlantic Ocean, the 
Caribbean, and the Indian Ocean, but, obviously, they are still 
a threat. Their potential impact is increasing because of the 
global migration of populations to coastal areas. By 2025, for 
example, approximately 75 percent of the U.S. population will 
live in coastal communities.
    The current risk, measured by the frequency of occurrence 
times the consequences, justifies the investment in expanded 
detection warning and disaster-reduction systems. The 
Administration's plan, which you will hear more about in other 
testimony, will expand our detection and warning capabilities 
to the Atlantic and Caribbean, permitting very effective 
detection capability in the event of a U.S. coastal tsunami.
    Of course, some of the components of a tsunami detection 
warning and disaster reduction system are unique to the tsunami 
hazard, such as the sensors for deep-ocean detection of tsunami 
waves, but much of such a system has value for other hazards, 
as well. The communications infrastructure, the emergency 
evacuation and response plans, damage-assessment tools, public 
education programs, and many other components are relevant, in 
general, for disaster preparedness, mitigation, and response.
    Many federal agencies cooperate to provide technical 
support for tsunami readiness. Those represented here today: 
NOAA, USGS, and the National Science Foundation lead the 
effort, but agencies like the Department of Homeland Security, 
with the Disaster Warning System, and NASA's Satellite Remote 
Sensing, also contribute to tsunami detection and warning, as 
well as to post-incident damage assessment and response. Such 
interagency science and technology activities are coordinated 
through the National Science and Technology Council, managed by 
my office, to ensure optimal use of public funds.
    The U.S. and the international community are well prepared 
to create a global tsunami warning system. Catalyzed by the 
U.S., the Intergovernmental Group on Earth Observations----
    The Chairman. I'm constrained to tell you, we would 
appreciate it if you would summarize, that we have another 
panel.
    Dr. Marburger. this is actually an abbreviated version of 
the whole statement.
    Mr. Chairman, I'd like to thank you for this opportunity. 
I'd just indicate that we are cooperating with other nations in 
an effective organization. We're ready to carry out the intent 
of a bill that is introduced, and Administration plans which 
are consistent with that bill.
    [The prepared statement of Dr. Marburger follows:]

 Prepared Statement of Dr. John H. Marburger, III, Director, Office of 
    Science and Technology Policy, Executive Office of the President
    The recent tragic earthquake and resulting tsunami in the Indian 
Ocean was a natural disaster of almost unimaginable proportion. The 
U.S. and the world have responded generously with aid to those who have 
been hurt and with resources to assist in assessing and responding to 
the damage. What made this event even more tragic is that many of the 
deaths were preventable--if only an effective warning system had been 
in place to alert the communities that were in harm's way. The 
Administration is committed to helping ensure that warning and response 
systems are put in place--domestically and internationally--that will 
substantially reduce loss of life and property in the future.
The Tsunami Threat
    A tsunami is a series of very long, fast-moving waves that can 
travel long distances across the open ocean at speeds up to 500 mph. As 
the tsunami approaches shore, the successive waves may slow to speeds 
of 20-30 mph and grow substantially in height, with the first wave 
commonly not the largest or most destructive. Tsunamis are generated by 
any rapid, large scale sea disturbance. Approximately 90 percent are 
generated by undersea earthquakes, but not all undersea earthquakes 
generate tsunamis. They may also be caused by events such as volcanic 
eruptions or major landslides.
    Approximately 85 percent of tsunamis occur in the Pacific Ocean 
because of this ocean's encircling major seismic zones that are 
associated with the volcanoes of the ``Pacific Ring of Fire.'' Since 
1946, five Pacific Ocean tsunamis have cost the U.S. more than 300 
lives and hundreds of millions of dollars in property damage. Because 
of the much greater frequency of Pacific Ocean tsunamis, prior U.S. and 
global efforts to develop tsunami warning systems have focused on this 
region. Since 1968, the U.S. and other Pacific region nations have 
cooperated in the International Coordination Group for the Tsunami 
Warning System in the Pacific (ICG/ITSU), which currently has 26 member 
states. This system operates under the auspices of UNESCO's 
Intergovernmental Oceanographic Commission (IOC). Currently, the 
world's most advanced tsunami detection systems, NOAA's Deep Ocean 
Assessment and Reporting of Tsunami (DART) systems, are deployed in the 
U.S. Pacific Tsunami Warning System.
    Although less likely, tsunamis have some potential of occurring in 
the rest of the world's oceans, including the Indian Ocean, Caribbean, 
and Atlantic Ocean. Even though the probability is small, the potential 
for tsunami-related loss of life and property is increasing because of 
population migrations to coastal areas. The United Nations reports that 
already two-thirds of the world's population crowd near the coastline, 
and within three decades, if trends continue, 75 percent of humanity 
will reside in coastal areas. By 2025 nearly 75 percent of all 
Americans are expected to live in coastal counties, many of whom will 
be in tsunami risk areas. Given a tsunami's great destructive power, 
expanding tsunami protection for U.S. coastal communities and 
developing global early detection and warning systems are justified.
    While plans to expand the world's tsunami detection and warning 
capabilities for global coverage were already in development when the 
December 26 tsunami struck, this event has focused international 
attention on the need for tsunami detection and warning and has created 
opportunities for enhanced international cooperation in developing and 
deploying such systems.
Disaster Warning and Reduction Systems
    Some of the components of a tsunami detection, warning and disaster 
reduction system are unique to the tsunami hazard, such as the sensors 
for deep ocean detection of tsunami waves. But, I would like to 
emphasize that a great deal of the investment is not confined to 
tsunamis alone. The communications infrastructure, emergency evacuation 
and response plans, damage assessment tools, public education programs, 
and other components are relevant to many types of disasters.
    I would like to outline the generic components for a successful 
disaster detection, warning, and reduction system, including how these 
components relate specifically to the tsunami hazard. A complete system 
includes:

  <bullet> Risk assessment, which is enabled by the detailed modeling 
        of coastline communities and by increased scientific 
        understanding of the formation and propagation of tsunamis;

  <bullet> Detection, to reliably indicate whether a tsunami has 
        occurred, avoiding costly false alarms and the associated 
        erosion of public confidence;

  <bullet> Warning, including the initial issuance; transmission to 
        affected countries, regions, and communities; and communication 
        to the affected population;

  <bullet> Activation of a response plan, already in place in the local 
        communities;

  <bullet> A ``ready public,'' able to respond in an efficient and 
        timely manner through preparedness education;

  <bullet> Situational awareness, with monitoring of the incident until 
        an ``all clear'' has been sounded;

  <bullet> Resilient infrastructure, protective shelters, reliable 
        supply routes, food and water, medical supplies and medical 
        evacuation procedures; and ultimately

  <bullet> Lessons learned; a post-incident evaluation with feedback to 
        enable future improvements.

Science and Technology for Tsunami Readiness
    Mobilizing federal science and technology to support tsunami 
readiness requires the contributions from a number of federal agencies, 
and also requires a coordinated approach. The agencies represented here 
today, NOAA, USGS, and NSF, lead our tsunami readiness effort, but the 
contributions of other agencies, such as the Department of Homeland 
Security in disaster warning systems and NASA in satellite remote 
sensing, contribute in a variety of ways to tsunami detection and 
warning, as well as to post-incident damage assessment and response. 
Federal science and technology challenges that draw on the strengths of 
more than one agency are coordinated through the National Science and 
Technology Council (NSTC). In particular, coordination through the 
Subcommittee on Disaster Reduction and the Interagency Working Group on 
Earth Observations has been critical in assuring the best use of our 
collective capabilities.
    Although we are focused here today on what it will take to deploy a 
system that will allow faster and more accurate tsunami detection and 
warning, I would like to point out some of our other significant 
contributions to tsunami warning and disaster reduction:

  <bullet> Our ability to do accurate risk assessment and prediction is 
        supported by basic research on seismic and tsunami processes as 
        well as by advances in numerical modeling and simulations of 
        these processes and of their impact on coastal communities.

  <bullet> Enhanced community warning systems and improved disaster 
        response capabilities are being developed by FEMA and other 
        agencies, capitalizing on an ``all hazards'' approach to 
        disaster-resilience.

  <bullet> Research findings from the social and behavioral sciences 
        are being employed to improve emergency response planning.

  <bullet> Advanced satellite communications technologies and data 
        relay allow real-time monitoring of the situation, and 
        satellite remote sensing images and products are being used by 
        relief agencies to assess the extent of the damage and 
        determine where relief efforts are most critical and how best 
        to carry them out. Satellite images from the December 26 
        tsunami also provided the first large-scale, open ocean data of 
        a major tsunami event.

  <bullet> And, tsunami education programs are being developed and used 
        with at-risk populations, such as NOAA's National Weather 
        Service TsunamiReady Program that provides public education and 
        preparedness measures for vulnerable U.S. coastal communities.

    Tsunami detection begins with seismic monitoring. The Global 
Seismographic Network, which is managed jointly by the USGS and NSF 
with international partners, currently has a network of 137 seismic 
stations that have been installed around the world in a variety of 
configurations. The seismographs detect earthquakes and, judging from 
the location, type and magnitude of the earthquake, can indicate the 
possible generation of a tsunami. In many areas of the globe, the 
presence of a tsunami can only be confirmed as the tsunami nears shore 
and is detected by tidal gauges. However, in the Pacific Ocean NOAA has 
deployed six Deep Ocean Assessment and Reporting of Tsunami (DART) 
systems consisting of a seafloor pressure sensor that can detect a 
tsunami as it passes and relay the information to a moored surface buoy 
for communication via satellite to Tsunami Warning Centers. DART 
systems provide earlier and more accurate tsunami detection and 
significantly reduce costly false alarms.
    U.S. plans for improved initial tsunami detection and warning hinge 
on deploying more DART systems to cover at-risk areas of the world's 
oceans, and on improving the Global Seismographic Network to provide 
enhanced coverage as well as improved analysis and communications of 
earthquake activity. Additional research into seismic and tsunami 
processes, and public education and preparedness programs, are also 
essential. The Administration has outlined detailed plans for an 
enhanced U.S. system that will provide nearly 100 percent detection 
capability for the U.S. coasts, and we have proposed to commit $37.5 
million over the next two years to build and deploy this system. You 
will hear the details of this proposal from the other members of this 
panel.
International Coordination for Tsunami Readiness
    Tsunamis and many other naturally occurring phenomena are global in 
scale and require international cooperation in response. The 
Administration is committed to working with our international partners 
on the process of developing a global tsunami detection, warning and 
response capability.
    In the aftermath of December 26, a number of countries have called 
for expanded tsunami warning systems both in the Indian Ocean and 
globally. Australia, Germany, Japan, India, China and other countries 
quickly announced proposals for establishing early warning systems for 
tsunamis or, in the case of China, for all natural disasters. A number 
of countries and organizations have also proposed special international 
meetings on these topics. We are endorsing and promoting coordination 
of efforts among likely key contributors as well as incorporation of 
these efforts into existing mechanisms for global cooperation on 
disaster warning and reduction.
    We propose that coordination be carried out through the 
Intergovernmental Group on Earth Observations (GEO). Enhanced Earth 
observation was a core element of the 2003 G-8 Evian Action Plan on 
Science and Technology for Sustainable Development. The World Summit on 
Sustainable Development in Johannesburg in 2002 also called for greater 
integration of Earth observation systems. Responding to this priority, 
the U.S. hosted the first Earth Observation Summit in Washington, DC in 
July 2003. As a result of this meeting, the GEO was established to 
organize the development of a comprehensive, coordinated, and sustained 
Global Earth Observation System of Systems (GEOSS). 56 countries are 
currently GEOSS partners, including India, Indonesia and Thailand. All 
nations are invited and encouraged to join. GEO has developed a ten-
year plan that is focused on nine societal benefits, including ``reduce 
loss of life and property from disasters'' and ``protect and monitor 
our ocean resources.'' Once implemented, this plan could not only 
revolutionize our understanding of the Earth and how it works, but how 
countries cooperate.
    It is important to note that UNESCO's Intergovernmental Ocean 
Commission (IOC) is a GEO member and the coordinating body of the 
existing Tsunami Early Warning System in the Pacific. Efforts to 
establish a tsunami early warning system in the Indian Ocean can 
benefit from the experience and expertise of the IOC, not only in 
coordinating the Pacific Early Warning System, but also in addressing 
the full range of ocean and coastal problems through the sharing of 
knowledge, information and technology among countries.
    At the World Conference on Disaster Reduction, January 18-22, in 
Kobe Japan, the U.S. delegation affirmed U.S. commitment to working 
with our international partners on a global tsunami warning system. I 
have just returned from the Ministerial Meeting on Regional Cooperation 
on Tsunami Early Warning Arrangements in Phuket, Thailand, at which we 
considered a Thai proposal for developing a regional tsunami early 
warning system for the Indian Ocean and Southeast Asia. The U.S. has 
proposed that the development of any regional or global tsunami warning 
system--particularly in the Indian Ocean--be coordinated through GEO 
and be a top, near-term priority for GEOSS. This discussion will 
continue when the Group meets in Brussels, February 14-16 and formally 
adopts the GEOSS 10-year implementation plan. After the implementation 
plan is ratified by the GEOSS partners in February, specific country 
commitments and steps forward will be important topics for the G-8 
summit in July 2005.
    As part of the strategic planning for this international ``system 
of systems,'' the U.S. has developed its own Strategic Plan for the 
U.S. Integrated Earth Observation System which, like the international 
plan, focuses on the nine societal benefit areas. This strategic plan 
was developed by the NSTC Interagency Working Group on Earth 
Observations, and provides the essential framework for the U.S. 
contribution to the GEOSS implementation plan. The expansion of the 
U.S. tsunami warning system will be implemented in the context of this 
U.S. Integrated Earth Observation System and as a U.S. contribution to 
GEOSS.
    I should also mention that Admiral Lautenbacher is the U.S. Co-
Chair of GEO, along with Japan, the European Commission, and South 
Africa, and that Dr. Groat is the U.S. representative to GEO. They will 
also speak in more detail about the development of GEOSS and the U.S. 
contributions to this important international project.
Conclusion
    In closing, I would like to quote David Broder of the Washington 
Post on this topic: ``Just as the world has managed to put aside 
political, religious, and ethnic rivalries to help the victims of this 
disaster, so the scientists and environmentalists meeting in Brussels 
will have an opportunity to show their foresight in making such 
calamities less likely. The United States leadership in this 
international effort is a source of pride for the nation.''

    The Chairman. We thank you very much. I apologize for the 
interruption.
    General Kelly, we're pleased to have your statement.
    Before your statement, I would place in the record the 
letter we received from the General Counsel of your Department 
which advises us that the Administration does support this 
bill.
    [The information referred to follows:]

                                           February 1, 2005
Hon. Ted Stevens,
Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC.

    Dear Mr. Chairman:

    This letter provides you with the Department of Commerce's views on 
S. 50, the ``Tsunami Preparedness Act''. The recent catastrophic event 
in the Indian Ocean highlights the threat tsunamis pose to many coastal 
communities, and the need to defend American communities against future 
tsunamis. The Department supports the Committee's efforts to strengthen 
the National Oceanic and Atmospheric Administration's (NOAA) tsunami 
detection, forecast, warning, mitigation and education and outreach 
programs. In light of this event, as well as this past hurricane 
season, the Department believes that we should take this opportunity to 
strengthen and clarify NOAA's responsibilities for protecting lives and 
property from the broad spectrum of natural hazards the nation faces. 
We would like to work with the Committee this year to pass the 
Administration's NOAA Organic Act, which provides the necessary 
authorities and flexibility for NOAA to effectively and efficiently 
carry out its mission, including tsunami warnings.
    While the Department supports the Committee's legislative intent to 
address tsunamis through the authorization process, we are concerned 
that the specificity in the proposed bill could unintentionally limit 
NOAA's ability to effectively manage these programs. Our major concerns 
are with sections 3(b), which could restrict NOAA's ability to apply 
new technologies and techniques, and 3(d)(4), 3(e), 4(c)(6), 6(a)(1), 
6(b) and 7(c), which seek to restrict the authority of NOAA and the 
Administrator, and which would impair NOAA's ability to manage its own 
resources and priorities. Further, we are concerned that S. 50 does not 
vest authorities in the Secretary of Commerce, who is responsible for 
all Department of Commerce programs.
    Finally, the Department requests that all funding authorized for 
this purpose be consistent with the amounts contained in the 
Administration's proposal for strengthening the U.S. Tsunami Warning 
System, which was released on January 14, 2005. The Department of 
Commerce appreciates the opportunity to present views on S. 50 and 
looks forward to working with you to ensure NOAA has the necessary 
authorities to respond effectively to all natural hazards, including 
tsunamis.
    The Office of Management and Budget has advised that there is no 
objection to the transmittal of these views from the standpoint of the 
Administration's program.
        Sincerely,
                                              Jane T. Dana,
                                             Acting General Counsel

 STATEMENT OF BRIGADIER GENERAL JOHN J. KELLY, U.S. AIR FORCE 
             (RETIRED), DEPUTY UNDER SECRETARY OF 
   COMMERCE FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
               ATMOSPHERIC ADMINISTRATION (NOAA)

    General Kelly. Mr. Chairman, thank you for those kind 
remarks about my boss. I'll pass them to him, and hopefully 
that will help speed his recovery. I know he really wanted to 
be here today to talk about this subject, because he keenly 
cares about it.
    The Chairman. Well, he is a great friend, and we visited 
with him when he visited the Hawaii Tsunami Center, just 
recently. So we do send our best wishes.
    General Kelly. Chairman Stevens, Senator Inouye, Members of 
the Committee, I thank you for the opportunity to testify about 
NOAA's activities with tsunamis, and I appreciate you 
submitting my written remarks and including them in the record.
    What I'll briefly focus on this morning is the U.S. Tsunami 
Warning Program, how the U.S. can help the world better prepare 
for tsunamis, and NOAA's role in the Tsunami Warning Program.
    NOAA and its predecessor agencies have provided tsunami 
warning services to this nation since 1949. In 1996, as you 
mentioned, the National Tsunami Hazard Mitigation Program was 
established, and it is a NOAA-led effort, to forge partnerships 
with federal and state entities to detect and, most 
importantly, prepare for, and respond to, tsunamis.
    Your continued support for that program has helped prepare 
this nation for the next tsunami in three ways. One, creation 
of tsunami flooding and inundation maps; the use of these maps 
to establish TsunamiReady committees; and improvements in 
tsunami warning services through research, better use of 
seismic and deep-ocean tsunami data, and the development of 
forecast models. NOAA is proud of the collective 
accomplishments that both we, on the federal side, and with our 
partners in the states have accomplished, and believe your 
investments and NOAA's efforts have already paid big dividends. 
Yet the tragedy in the Indian Ocean shows that we need to do 
more to accelerate and expand our tsunami preparedness in this 
country.
    The current Tsunami Warning System consists of two warning 
centers, the Richard H. Hagemayer Center, in Hawaii, and the 
West Coast Alaska Tsunami Warning Center, in Palmer, Alaska. 
These centers are responsible for issuing all tsunami warning/
watch advisory and information messages.
    As Dr. Marburger mentioned, NOAA research activities 
developed the Deep-Ocean Assessment and Reporting of Tsunamis, 
or DART, buoys to measure tsunamis in the deep ocean, and to 
transmit this information back to the warning centers. These 
instruments accurately characterize the size of a tsunami by 
measuring the pressure wave from the deep-ocean floor as it 
passes. Tsunamis as small as half a centimeter have been 
measured.
    In November of 2003, the DART buoys demonstrated their 
effectiveness. A large earthquake occurred in the Aleutian 
Islands and generated a tsunami. The two warning centers 
evaluated the tsunami, based on data from the DART buoy, and 
confirmed only a small wave. This accurate prediction of the 
non-destructive tsunami is estimated to save the government of 
Hawaii about $68 million in preparation costs. We also have 
about 100 water gauges used by the Tsunami Warning Center to 
provide information on the magnitude of the tsunami.
    The NOAA Hagemayer Warning Center also serves as the 
operational center for the International Tsunami Warning Center 
of the Pacific, which is comprised of 26 nations. The center's 
primary responsibility is to issue tsunami warnings in the 
Pacific Basin for tsunamis that may cause damage far away from 
their source; however, it is the responsibility of the member 
nation to issue local warnings.
    On Sunday the 26th of December, within 7 minutes of 
notification, and within 15 minutes of the Indonesian 
earthquake, both centers issued tsunami information bulletins. 
However, an effective tsunami warning system requires many 
components: one, an assessment of the hazard; two, near-
realtime data; three, highspeed data-analysis capabilities; 
four, a highspeed tsunami warning communications system; and, 
last, but probably most important, an effective local 
communications infrastructure for the timely and effective 
dissemination of warning and evacuation requirements. 
Unfortunately, such a system does not exist in the Indian 
Ocean.
    With global attention on this important matter, we have a 
great opportunity to better prepare the world for tsunamis 
through the development of a Global Earth Observation System of 
Systems. The United States has been leading this effort for the 
past 2 years. Next month, in Brussels, 54 nations of the world, 
and the European Union, will gather together to reach an 
agreement that will begin the development of GEOSS.
    Vice Admiral Lautenbacher is the co-chair of that effort, 
and we are going to work to ensure that the GEOSS's first order 
of priority is to develop a global tsunami warning system. It 
is my hope that positive changes in technology, education, and 
cooperation will emerge from what happened in the Indian Ocean.
    The Bush Administration recently announced that we are 
committed to completing the current U.S. Tsunami Warning System 
by mid-2007. NOAA's contribution to that system includes 
modernizing and expanding the existing DART buoy network. We 
plan on installing 32 new operational DART buoys--25 in the 
Pacific, 7 in the Atlantic and the Caribbean. And, as you well 
know, Mr. Chairman, the weather in the Aleutians is a real 
challenge, and it complicates our ability to repair the DART 
buoys when they malfunction; and so, we are going to place, in 
the Aleutian area, in the water, three backup buoys, so if a 
primary one goes down, we'll automatically have an ability to 
continue to get that data.
    We will also procure and install 38 new sea-level 
monitoring and tide gauge stations, and expand the operation of 
the Alaska and Hawaii Tsunami Warning Centers to 24 hours a 
day, 7 days a week. NOAA forecasters will then be better able 
to protect the United States, and will be able to alert 
communities within minutes of a tsunami-producing effect.
    As you mentioned, Mr. Chairman, the Department of Commerce 
does support Senate Bill 50, the Tsunami Preparedness Act, and 
you do have the letter of support from the Department.
    In closing, I appreciate your efforts to help better 
prepare this country for the next tsunami, because it's not a 
question of if there will be one, it is when it will be and 
where it will be.
    Thank you.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]

Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr., U.S. Navy 
   (Retired), Undersecretary of Commerce for Oceans and Atmosphere; 
     Administrator, National Oceanic and Atmospheric Administration
    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to testify before you regarding the National Oceanic and 
Atmospheric Administrations (NOAA) activities with tsunamis. I am Vice 
Admiral (retired) Conrad Lautenbacher, Jr., Undersecretary of Commerce 
for Oceans and Atmosphere and NOAA Administrator.
    As the world and our Nation mourn the loss of life from the Indian 
Ocean tsunami tragedy, we recognize the very real threat of tsunamis 
and ask, ``Could it happen here? '' We need to be able to answer that 
question with a high degree of confidence.
    We know a tsunami can affect any community along the coast of the 
United States. This is particularly true for the Pacific coast, where 
tsunamis have been more frequent. The recent event in Southeast Asia 
and Africa highlights the need to identify steps we can take to 
mitigate the potential impact of such an event here at home.
    NOAA and its predecessor agencies have provided tsunami warning 
services for our Nation since 1949. Following the 1992 Northern 
California earthquake/tsunami, Congress asked NOAA to examine tsunami 
preparedness of the U.S. West Coast and the National Tsunami Hazard 
Mitigation Program (NTHMP) was born. The NTHMP is a NOAA led effort to 
forge federal/state partnerships to detect, prepare and respond to 
tsunamis. Your continued support for this program has prepared our 
country for the next U.S. tsunami in three main ways: (1) Creation of 
tsunami flooding/inundation maps using advanced numerical models; (2) 
Use of these maps to develop evacuation procedures, road signs to guide 
evacuation, educational programs to raise tsunami awareness, and the 
establishment of TsunamiReady communities; and (3) Improvements in 
tsunami warning services through the use of better seismic and deep 
ocean tsunami data and the development of tsunami forecast models. NOAA 
is proud of the collective accomplishments of federal partners (USGS, 
NSF, and FEMA) along with our state partners (Alaska, California, 
Hawaii, Oregon, and Washington). Over the past 8 years we have 
identified what needs to be done, but so far there are inundation maps 
for only 30 percent of the Pacific states coastline, local communities 
are in need of warning dissemination systems, and the NOAA tsunami 
warning system needs more deep ocean tsunami detectors to improve 
warning services. Your investments and NOAA's efforts to date have paid 
large dividends, yet, in the face of the Sumatra tsunami, we believe 
our Nation should accelerate and expand our tsunami preparedness 
efforts.
    In this testimony, I will describe our existing tsunami warning 
program, including a brief overview of our work with the International 
community; specific actions NOAA took during the recent tsunami; and 
then briefly outline the Administration's plan for developing a global 
tsunami warning system.
    Tsunamis are natural disasters that can form in all of the world's 
oceans and inland seas, and in any large body of water near seismic 
activity. Each region of the world appears to have its own cycle of 
frequency and pattern for generating tsunamis that range in size from 
small events (no hazards) to the large and highly destructive events. 
Eighty-five percent of tsunamis occur in the Pacific Ocean and its 
marginal seas. This is not surprising as the Pacific Basin covers more 
than one-third of the earth's surface and is surrounded by a series of 
mountain chains, deep-ocean trenches and island arcs called the ``ring 
of fire.''
    Most seismic activity occurs in this ring of fire where the main 
tectonic plates forming the floor of the Pacific collide against one 
another or against the continental plates that surround the ocean 
basin, forming subduction zones. While tsunamis can be generated by any 
sudden pressure source in the water, such as a meteor, landslide, etc., 
most are generated from earthquakes. Large earthquakes can create 
tsunamis that may be locally devastating, their energy decays rapidly 
with distance. Usually they are not destructive more than a few hundred 
kilometers away from their sources. That is not the case with tsunamis 
generated by great earthquakes in the North Pacific or along the 
Pacific coast of South America. On the average of six times per 
century, a tsunami caused by an earthquake in one of these regions 
sweeps across the entire Pacific Ocean, is reflected from distant 
shores, and sets the entire ocean in motion for days. Although not as 
frequent, destructive tsunamis have also been generated in the Atlantic 
and the Indian Oceans, the Mediterranean Sea and even within smaller 
bodies of water, such as the Sea of Marmara, in Turkey. There have also 
been tsunamis in the Caribbean, but the lack of any recent tsunami in 
that area has lowered the level of interest and hindered establishing a 
warning program in that area.
    According to NOAA's National historical tsunami databases, during 
the 105-year period from 1900 to 2004:

  <bullet> 923 tsunamis were observed or recorded in the Pacific Ocean.

  <bullet> 120 tsunamis caused casualties and damage, most near the 
        source. Of these, at least 10 caused widespread destruction 
        throughout the Pacific.

  <bullet> The greatest number of tsunamis during any one year was 23 
        in 1938. While most were minor, one event did result in 17 
        deaths.

  <bullet> There was no single year during this period that was free of 
        tsunamis.

  <bullet> 19 percent of all tsunamis were generated in or near Japan; 
        9 percent were generated off Alaska and the west coasts of 
        Canada and the United States; and 3 percent were generated near 
        Hawaii.

    The U.S. Tsunami Warning System consists of two warning centers: 
the Richard H. Hagemeyer Pacific Tsunami Warning Center (PTWC) in Ewa 
Beach, Hawaii; and the West Coast/Alaska Tsunami Warning Center (WC/
ATWC) in Palmer, Alaska. NOAA conducts research on tsunamis, operates 
essential ocean buoys and tide gauges to detect tsunamis, and works 
with other federal, state, local government agencies and universities 
as our partners in the tsunami warning mission.
    The Richard H. Hagemeyer Pacific Tsunami Warning Center in Hawaii 
was established in 1949 in response to the unpredicted 1946 Aleutian 
tsunami, which killed 165 people on the Hawaiian Islands. In 1967, the 
West Coast/Alaska Tsunami Warning Center in Palmer, Alaska, was created 
as a result of the 1964 Great Alaska earthquake and tsunami. These 
centers are responsible for issuing all tsunami warning, watch, 
advisory, and information messages to emergency management officials 
and the public throughout their respective areas of responsibility. The 
Pacific Center covers United States interests and territories 
throughout the Pacific, including Hawaii, while the West Coast/Alaska 
Center covers Alaska, and the west coast of North America from British 
Columbia, Canada through California.
    About 100 water level gauges are used by the Tsunami Warning 
Centers and are operated by the United States and our international 
partners. These gauges are along the coasts of islands or continents 
around the Pacific Rim. NOAA operates many of these stations, including 
33 from NOAA's National Water Level Observation Network in the Pacific 
Ocean basin, which are equipped with software to support the Tsunami 
Warning System. Water levels from these gauges can be sent directly to 
NOAA Tsunami Warning Centers and others who want the information. NOAA 
is working to upgrade the nationwide network with a real-time 
capability to provide a continuous (minute-by-minute) stream of water 
level data for integration with tsunami warning systems and research 
applications. NOAA also helps support many coastal gauges located in 
other countries around the Pacific.
    NOAA operates six Deep-ocean Assessment and Reporting of Tsunamis 
(DART) buoys. NOAA research activities developed these buoys to measure 
tsunamis in the deep ocean and to transmit the information back to the 
Warning Centers in near real time. These instruments accurately 
calculate the size of the tsunami by measuring the pressure it exerts 
on the deep ocean floor as the wave passes over. Tsunamis as small as 
0.5 cm have been measured. NOAA began placing DART buoys in the Pacific 
Ocean in 2002 and plans to have a complete coverage of potential 
Pacific tsunami source zones over the next few years.
    In November 2003, the buoys demonstrated their effectiveness. A 
large earthquake occurred in the Aleutian Islands and generated a 
tsunami. The two Tsunami Warning Centers evaluated the tsunami using 
coastal gauge data but did not ``stand down'' until a reading arrived 
from the nearest DART buoy confirming only a small tsunami. During post 
analysis of the event, DART data were used for a model simulation and 
the output from the simulation accurately predicted the 2 cm tsunami 
recorded at Hilo, Hawaii. This NOAA model is still being developed, but 
an initial version will be transferred to the warning centers for test 
operations this year. DART data and the forecast model show much 
promise to help accurately predict tsunami impacts. In the history of 
the Pacific Warning Center, 75 percent of its warnings to Hawaii have 
been for non-destructive tsunamis. The DART data combined with forecast 
models promise to significantly reduce false alarm rates as well as 
provide a better measure of the severity of destructive tsunamis for 
Hawaii and all other parts of the Pacific. The accurate forecasting of 
a non-destructive tsunami in November 2003 saved Hawaii an estimated 
$68M in projected evacuation costs.
    The Pacific Center also serves as the operational center for the 
International Tsunami Warning System of the Pacific, which is comprised 
of 26 member nations of the Pacific Rim. These members share seismic 
and water level information with the Pacific Center so the Center can 
determine whether a tsunami was generated in the Pacific Basin and 
assess its strength. The Pacific Center's primary responsibility is to 
issue tsunami warnings for Pacific Basin teletsunamis--tsunamis that 
can cause damage far away from their source. It is not the Center's 
responsibility to issue local tsunami warnings from seismic events 
outside of the United States. For example, if an earthquake occurs off 
the coast of Japan and a local tsunami is generated, it is Japan's 
responsibility to issue a local tsunami warning. However, it is the 
Pacific Center's responsibility to warn all participating Nations in 
the Pacific Basin if the Japanese tsunami will cause damage far from 
its source.
    Only Australia and Indonesia have coastlines bordering both the 
Pacific and Indian Ocean coasts. None of the other countries impacted 
by the Indian Ocean tsunami have coasts bordering the Pacific Ocean and 
therefore they do not receive tsunami bulletins via the automated 
dissemination network.
    Thailand and Indonesia are member states within the International 
Tsunami Warning System in the Pacific (ITSU), but their participation 
has been limited. Thailand has no coast along the Pacific, and 
Indonesia's tsunami threat is primarily outside the Pacific Basin. As a 
member of the International Coordination Group (ICG) for ITSU, the U.S. 
has actively encouraged non-member States to become ICG/ITSU members. 
Under the IGC/ITSU, the U.S. has actively supported the need for global 
tsunami mitigation actions and will continue to provide support through 
the development of a Global Earth Observation System of Systems 
(GEOSS), an effort in which the UNESCO Intergovernmental Oceanographic 
Commission, the UN International Strategy for Disaster Reduction 
(ISDR), and a number of other UN agencies and programs participate.
    NOAA Tsunami Warning Centers have no authority or responsibility to 
issue tsunami warnings for the Indian Ocean basin. However, knowing the 
concern Pacific countries might have about the potential devastating 
impact a large earthquake and resulting tsunami can inflict, on Sunday, 
December 26, 2004, at 8:14 p.m. EST, within 15 minutes of the 
Indonesian earthquake, both centers issued Tsunami Information 
Bulletins. These bulletins included location and initial magnitude 
(8.0) information and an assessment that there was no tsunami threat in 
the Pacific. As the Indian Ocean is outside the NOAA tsunami area of 
responsibility, NOAA Tsunami Warning Centers have no procedures in 
place to issue a warning for this region. An hour and 5 minutes after 
the earthquake, as additional information came in from seismic 
monitoring stations around the world, another bulletin was issued by 
both Centers revising the magnitude of the earthquake to 8.5. This time 
the bulletin contained a statement that the potential existed for a 
tsunami near the epicenter. Unfortunately, there was no sea-level data 
or other information available to substantiate or evaluate a tsunami 
until 3\1/2\ hours after the earthquake when news reports began coming 
indicating casualties in Sri Lanka and Thailand. At about the same 
time, data from the one sea-level gauge in the Indian Ocean (Cocos I; 
west of Australia) was received indicating a 45cm peak-to-trough non-
destructive tsunami.
    Sea-level gauges are essential elements of the current Tsunami 
Warning System in the Pacific. When strategically located, they are 
used to quickly confirm the existence or non-existence of tsunami waves 
following an earthquake, to monitor the tsunami's progress, and to help 
estimate the severity of the hazard. There was no data available from 
the Indian Ocean to help the warning centers know what was occurring.
    An effective tsunami warning system requires (1) an assessment of 
the tsunami hazard, (2) near real-time seismic and oceanographic (sea-
level change) data; (3) high-speed data analysis capabilities; (4) a 
high-speed tsunami warning communication system; and (5) an established 
local communications infrastructure for timely and effective 
dissemination of the warning and evacuation requirements. It is also 
critical that coastal populations are educated and prepared to respond 
appropriately to tsunami warnings and calls for evacuations. For the 
Pacific Basin, these tsunami warning requirements are well known. 
Unfortunately, for the Indian Ocean basin, they were basically non-
existent.
    There are currently 6 DART buoys in the Pacific operated by NOAA--3 
off the coast of Alaska, 2 off the coast of the western U.S., and one 
in the eastern Pacific. These first buoys of the currently envisioned 
29 buoy array are an example of a successful transition of buoys from 
research and development into an operational system. Presently, three 
of the deployed DART buoys are non-operational due to failure of the 
sea floor pressure unit (buoys 46401 and 46402; Aleutian Islands) and 
communication module inside the surface buoy (buoy 46404; Pacific 
Northwest/Washington). The Washington buoy has been out of service for 
15 months for various reasons. Initially there was a power failure, but 
when the buoy was retrieved an explosion occurred. Service to all buoys 
was stopped while a safety stand-down was held to determine the cause 
of the explosion and while a redesigned buoy compartment was 
implemented in all buoys. Upon service, the Washington buoy's sea floor 
unit failed, indicating a problem with undersea cabling. A technical 
stand-down led to further refinement of the cables. Weather conditions 
further delayed our attempts to bring this buoy back online; the sea 
floor unit was repaired during a service visit in January. 
Unfortunately, subsequent to that visit the buoy experienced failure of 
the communications module. A service visit to repair the Washington 
buoy is expected in mid-February. Of the two buoys in the Aleutian 
Islands, one has been out of service for 6 months and the other for 1 
month. As many of you are aware, particularly you Mr. Chairman, the 
seas are particularly rough in this region during the winter months. We 
are currently waiting for a safe weather window, and will service the 
buoys as soon as that window of opportunity presents itself.
    The government of Chile purchased one DART buoy from NOAA, and that 
buoy is now operating off the northwest coast of Chile; another buoy is 
in the process of being purchased by Chile at this time. Japan also 
operates a few cabled deep ocean sensors off its Pacific coasts. The 
NOAA buoys represent the only current deep ocean capability available 
to the Tsunami Warning Centers to detect tsunamis. In July of last 
year, staff from the Pacific Center had discussions with Japanese 
representatives about the possibility of allowing PTWC access to data 
from the Japanese cabled buoys.
    While technical equipment is required for detection and 
communication, equally important are continued research and 
development, and education and outreach to mitigate potential impacts 
from tsunamis. People must have the knowledge and information to act 
during potentially life threatening events. Outreach and education 
efforts, such as NOAA's own StormReady and TsunamiReady programs, are 
key components of the U.S. National Tsunami Hazard Mitigation Program 
(NTHMP). These programs foster interaction between emergency managers 
and their citizens, provide robust communications systems, and 
establish planning efforts before certification. NOAA also developed 
multi-hazard risk and vulnerability assessment training and decision 
support tools using GIS mapping technology to highlight populations, 
infrastructure and critical facilities at risk for coastal hazards. 
These tools and other support are critical to land use planning, pre-
disaster planning, mitigation efforts, and targeted dissemination of 
outreach, education and information about high-risk areas.
    The International Strategy for Disaster Reduction (ISDR) was 
launched by the General Assembly of the United Nations to provide a 
global framework for action to reduce human, social, economic, and 
environmental losses due to natural and man-made hazards. The ISDR aims 
at building disaster-resilient communities, highlighting the importance 
of disaster reduction as an integral component of sustainable 
development. ISDR is the focal point within the United Nations system 
for coordination of strategies and programs for disaster reduction and 
to ensure synergy between disaster reduction activities and those in 
the socioeconomic and humanitarian fields. One particularly important 
role of ISDR is to encourage both policy and awareness activities by 
promoting national committees dedicated to disaster reduction and by 
working in close association with regional initiatives. As part of this 
effort, tsunami hazard maps have been produced for over 300 coastal 
communities in over 11 countries, including 130 communities throughout 
the United States.
    The United Nation's Education, Scientific, and Cultural 
Organization's (UNESCO) Intergovernmental Oceanographic Commission 
(IOC) has developed products to help countries implement tsunami 
response plans. Road signs and other mitigation products are available 
through the NTHMP (http://www.pmel.noaa.gov/tsunami-hazard). In 
summary, Tsunami Response Plans are probably the most cost-effective 
way to create a tsunami resilient community. To be successful, 
communities must remain committed to a continuous, long-term education 
program. Tsunamis are infrequent events and it is important to ensure 
future generations understand tsunami safety.
    Protecting near-shore ecosystems, like coral reefs, is equally 
important for maintaining disaster-resilient communities. The 
international media and South Asian officials reported less destruction 
in locations protected by wave-absorbing healthy coral reefs. NOAA and 
our federal, state, territorial, and international partners work to 
protect and preserve coral reef ecosystems.
    The United States will continue working closely with the 
international community to help implement recommended tsunami detection 
and warning measures for the Indian Ocean Basin and other regions of 
the world currently without adequate tsunami warning capability. A 
comprehensive global tsunami warning program requires deploying DART 
buoys along each of the world's major subduction zones; adding real-
time sea-level monitoring/tide gauge stations; establishing Regional 
Centers for Disaster Reduction, assessing hazards, promoting education 
and outreach efforts; and conducting research and development.
    As recently announced, the Bush Administration has a plan to 
upgrade the current U.S. Tsunami Warning System. NOAA's contribution to 
this plan includes procuring and installing 32 new DART buoys, 
including 25 new buoys in the Pacific and 7 new buoys for the Atlantic 
and Caribbean. We expect to have the complete network of DART buoys 
installed and operational by mid-2007; 20 buoys should be operational 
in FY06, with the final 12 in place in FY07. In addition to the DART 
buoys, NOAA will procure and install 38 new sea level monitoring/tide 
gauge stations. The Administration has allocated $24M, over the next 
two years, to NOAA for this effort, including $18.1M for the Pacific 
Basin and $5.9M for Atlantic/Caribbean/Gulf.
    There were many lessons learned from the Indian Ocean tsunami. A 
key point to make is that, for all coastal communities, the question is 
not ``if '' a tsunami will occur, but ``when.'' We know what causes a 
tsunami to develop, and we know a great deal about how to track them 
and forecast their path. With expansion of the U.S. Tsunami Warning 
System, NOAA forecasters will be able to detect nearly 100 percent of 
tsunamis affecting the United States and will be able to respond and 
alert communities within minutes of a tsunami-producing event. With 
expanded education and outreach via NOAA's TsunamiReady program and 
other efforts, we can rest assured that our coastal communities have 
the opportunity to learn how to respond to a tsunami event and that we 
have minimized the threat to American lives.
    With global attention on this important matter, we have a great 
opportunity to help the world better prepare for tsunamis through the 
development of a Global Earth Observation System of Systems (GEOSS). 
This system would include a real-time global seismic monitoring 
network, a real-time DART network, and a near real-time sea level 
monitoring network. I will be a member of the U.S. delegation at the 
Third Earth Observation Summit (February 16, 2005; Brussels, Belgium) 
and will work to ensure that the development of a global tsunami 
warning system is a high priority for the larger Global Earth 
Observation System of Systems and the Integrated Ocean Observing 
System.
    In closing, I would like to thank Members of this Committee for 
their work in developing S. 50, the Tsunami Preparedness Act. The 
catastrophic event in the Indian Ocean highlights the threat tsunamis 
pose to all coastal communities, and the need to defend American 
communities against future tsunamis. The Department of Commerce 
supports the purposes of this legislation to authorize and strengthen 
the National Oceanic and Atmospheric Administration's tsunami 
detection, forecast, warning, mitigation and education and outreach 
programs. As you know, the Department believes that in addition to 
improving the ability to detect and forecast tsunamis, it is equally 
important to educate citizens on what actions to take when they receive 
a tsunami alert. The Department supports and appreciates the language 
that calls for strengthening the TsunamiReady program, an 
administrative initiative to educate and prepare communities for 
survival before and during a tsunami.
    We look forward to working with Congress and other Nations around 
the world to help take the pulse of the planet and make our world a 
safer place. Attached to this written testimony submitted for the 
record is an article published in the International Tsunami Information 
Center Tsunami Newsletter, which provides detailed information about 
NOAA's Pacific Tsunami Warning Center. Much more information about 
tsunamis can be found at http://wcatwc.arh.noaa.gov, http://
www.pmel.noaa.gov/tsunami/, http://www.prh.noaa.gov/ptwc/, and http://
www.ngdc.noaa.gov/spotlight/tsunami/tsunami.html.

    The Chairman. Thank you very much.
    Dr. Bement, the National Science Foundation Director, 
please?

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Thank you, Mr. Chairman, Ranking Member Inouye, 
and Members of the Committee. Thank you very much for the 
opportunity to present testimony on the National Science 
Foundation's role in providing greater----
    The Chairman. Could you pull that microphone up closer, 
please?
    Dr. Bement. Is this better?
    So, again, I thank you for the opportunity to present 
testimony on the National Science Foundation's role in 
providing greater understanding and education of tsunami events 
through science and engineering research.
    Because the National Science Foundation has the mission to 
build the nation's scientific and engineering knowledge 
capacity and capability, NSF and the communities we support 
have a responsibility to undertake relevant research in the 
context of these events.
    Through rapid-response reconnaissance teams supported by 
the National Science Foundation, we have moved quickly to focus 
the U.S. research community's efforts to understand the nature 
of this event, identify relevant lessons for future disasters, 
and build on the research that we have funded in the past.
    Our rapid-response research teams include problem-focused 
interdisciplinary collaborations. In these collaborations, NSF 
is working with international partners and countries directly 
affected, or neighboring the disaster, to improve 
communications, collaboration, and priority-setting as the 
immediate and longer-term research efforts get underway.
    This disaster has raised awareness of, and attention to, 
earthquakes and tsunamis and their predictability. NSF has long 
funded the research and instrumentation aimed at detecting and 
understanding the impacts of these phenomena.
    Prominent examples include the realtime Global 
Seismographic Network, or GSN, the data from which forged the 
critical core of the early warning of this event.
    From the figures accompanying my written testimony, we see 
the power of this warning system. Figure 1, on the easel, with 
the globe in the center, depicts the location of the GSN 
stations in relation to the epicenter of the quake, which is in 
the center of the diagram. Figure 2 illustrates the collected 
seismic measurements from these stations made as the wave front 
traveled around the world. These charts illustrate the power of 
this network, which is operated by the Incorporated Research 
Institutions for Seismology.
    The GSN is funded, in partnership, by NSF and the United 
States Geologic Survey, and it is a primary international 
source of data for earthquake location and also tsunami 
warning.
    NSF also funds research designated to support damage and 
loss prediction and avoidance. These efforts include the 
effects of earthquakes and tsunamis on buildings, bridges, and 
critical infrastructure systems. Additionally, research efforts 
center on estimating economic consequences, human and societal 
impacts, and emergency response and warning capabilities. For 
example, engineers and scientists at the Earthquake Engineering 
Research Centers and the Southern California Earthquake Center 
are working to establish the nature, attenuation, and impacts 
of subduction-type earthquake ground-shaking. These centers are 
developing hazard assessments that can be applied to critical 
infrastructure design in areas threatened by earthquake and 
tsunami hazards.
    Mr. Chairman, more than 75 million Americans in 39 states 
live in areas at risk for earthquakes. The NSF has recently 
established the George E. Brown, Jr., Network for Earthquake 
Engineering Simulation, or NEES, as we refer to it. This is a 
major national infrastructure project that is revolutionizing 
earthquake engineering research. It allows NSF-funded 
researchers to create physical and computational simulations in 
order to study how earthquakes and tsunamis affect our critical 
infrastructure. The NEES Tsunami Wave Basin at Oregon State 
University is the world's most comprehensive facility for 
studying tsunamis and storm waves.
    Mr. Chairman, thank you, again, for the opportunity to 
testify on a topic of great importance to the science and 
engineering communities. I hope that I have conveyed to you the 
NSF's serious approach to generate new knowledge about the 
natural phenomena that lead to tsunami events, also the design 
of safer coastal structures, the development of early warning 
and response systems, and effective steps for disaster 
recovery.
    Thank you very much.
    [The prepared statement of Dr. Bement follows:]

  Prepared Statement of Dr. Arden L. Bement, Jr., Director, National 
                           Science Foundation
    Good morning. Mr. Chairman, Ranking Member Inouye, and Members of 
the Committee, thank you very much for the opportunity to present 
testimony on the National Science Foundation's role in providing 
greater science and research to understanding tsunami events.
    The events surrounding the December 26, 2004, Sumatra-Andaman 
Island earthquake and Indian Ocean tsunami constitute disasters for the 
natural, social, and constructed environments in the region. Because 
the National Science Foundation (NSF) has the mission to build the 
nation's scientific and engineering knowledge capacity and capability, 
NSF and the communities we support have a responsibility to undertake 
relevant research in the context of the events.
    NSF has moved quickly to focus the U.S. research community to 
address the disaster, response, and relevant lessons for future 
disasters, building on the research related to these topics that we 
have funded in the past. Later in my testimony, I will detail the ways 
our previous research has contributed to the ability of the United 
States and others to understand and respond to the disaster, and 
information on the NSF's role in supporting the U.S. research 
community's immediate response to the tragedy.
    This disaster has revealed several areas in which understanding--as 
well as infrastructure--were insufficient to deal with the crisis, and 
where NSF's research communities can bring basic knowledge and relevant 
infrastructure to bear. The U.S. communities include problem-focused, 
interdisciplinary research teams, often with international partners in 
mutually beneficial and sustainable collaborations. NSF is working with 
counterpart organizations in countries directly affected by the 
disaster, as well as other countries in the region, to improve 
communications, collaboration, and priority setting as the immediate 
and longer-term research efforts get underway.
    This disaster has raised awareness of and attention to the 
phenomena of earthquakes and tsunamis, and their predictability. NSF 
has long funded scientific and engineering research infrastructure 
aimed at detecting and understanding the impacts of these phenomena. 
Prominent examples include the real-time Global Seismographic Network 
(GSN), the data from which forged the critical core of the early 
warning of the December 26, 2004, earthquake. This Network, operated by 
the Incorporated Research Institutions for Seismology, is funded in 
partnership by NSF and the United States Geological Survey, and is the 
primary international source of data for earthquake location and 
tsunami warning.
    We also fund research designed to support damage and loss 
prediction and avoidance for the United States and elsewhere, including 
earthquake and tsunami effects on buildings, bridges, and critical 
infrastructure systems, and estimates of economic consequences, human 
and societal impacts, and emergency response. For example, engineers 
and scientists at the Earthquake Engineering Research Centers and the 
Southern California Earthquake Center are working to establish the 
nature and attenuation of subduction-type earthquake ground shaking, 
and to develop probabilistic hazard assessments that can be applied to 
critical infrastructure design in areas threatened by earthquake and 
tsunami hazards. NSF has recently established the George E. Brown, Jr. 
Network for Earthquake Engineering Simulation (NEES), a major national 
infrastructure project to create a complete system of test facilities. 
The project is revolutionizing earthquake-engineering research. NSF-
funded researchers create physical and computational simulations in 
order to study how earthquakes and tsunamis affect buildings, bridges, 
ports, and other critical infrastructure. The NEES Tsunami Wave Basin 
at Oregon State University is the world's most comprehensive facility 
for studying tsunamis and storm waves.
    These globally historic earthquake and tsunami events have 
heightened awareness in the engineering and science research 
communities of the huge responsibilities to create new knowledge about 
our human and organizational environments, natural biologic systems, 
constructed environments, and about our vulnerabilities in the face of 
damaging forces. It is important that the work includes all aspects of 
environmental damage, mitigation, response, and recovery.
The National Science Foundation Research Portfolio
    The tremendous loss of lives and destruction of the natural and 
built environments resulting from the December 26 events brought to the 
forefront questions about disaster preparation, mitigation, response, 
and recovery. NSF's research investments have developed a knowledge and 
human resource base over broad areas relevant to these questions. 
Current and past pertinent research activities include:
    Earthquakes: The Sumatra earthquake occurred along a subduction 
zone where tectonic plates collide. These subduction quakes are the 
largest and most destructive type of earthquake, and cause most of the 
world's tsunamis. NSF researchers have been making exciting 
advancements in subduction zone research including new techniques and 
facilities that define the structure, chemistry and dynamics of active 
subduction zones. A prime example is the findings about the Cascadia 
subduction zone in the U.S. Pacific Northwest. This fault structure 
generated a 9.0Mw earthquake on January 26, 1700, with a tsunami that 
destroyed whole forests on the largely uninhabited Oregon coast, 
toppled buildings on Vancouver Island, and killed coastal dwellers in 
Japan.
    Tsunami Generation: NSF research includes field studies using 
research vessels and other platforms and facilities, including the 
Integrated Ocean Drilling Program's (IODP) drill ship the Joides 
Resolution. NSF research aims to understand the processes by which 
earthquakes, large slumps, and other landslips generate tsunami waves, 
and to model how tsunamis interact with the shore zone, including the 
nature of present and past sediment deposits left by tsunamis.
    Rapid Response Reconnaissance: NSF supports the Earthquake 
Engineering Research Institute (EERI) and its Learning from Earthquakes 
(LFE) project that trains and deploys rapid-response teams of civil 
engineers, geoengineers, and social scientists to earthquakes that 
occur around the world. These teams identify information resources, 
research needs, and provide ground truthing for remotely sensed 
observations. NSF also funds the Natural Hazards Research and 
Applications Information Center at the University of Colorado at 
Boulder, which supports rapid-response research by social science 
researchers, and leads the world as a clearinghouse for 
multidisciplinary and social science studies of hazards and disasters.
    Remote Sensing: Remote-sensing technologies quantify damage over 
large geographic areas and provide reconnaissance information where 
access to impacted areas is difficult. For the first time, high-
resolutions sensors (Quickbird and Ikonos), moderate-resolution sensors 
(SPOT, LandSat, and IRS), and low-resolution sensors (MODIS, Aster) are 
recording the Indian Ocean events in near real-time. With this 
information it will be possible to identify and quantify damage and 
impacts to critical infrastructure systems (including electric power 
systems, water supply, sewage, transportation, safe shelter buildings, 
ports, and harbors). Such assessments can then be verified by on-the-
ground inspections.
    Physical and Computational Simulation: Tsunami disasters are 
dominated by coastal damage and loss of life. Scientists and engineers 
need to predict site-specific wave run-up patterns and determine 
tsunami-induced forces and scour effects to enable better design of 
waterfront structures and help guide decision-making processes 
including vulnerability assessment. NSF research has developed scenario 
simulations for tsunami hazard mitigation, including tsunami 
generation, hydrodynamics, warning transmission, evacuation, human 
behavior, and social and environmental impacts. The NEES Tsunami Wave 
Basin is being used to construct and test large-scale, realistic models 
of infrastructure--such as shorelines, underwater pipelines, port 
facilities, and coastal communities.
    Sensor Networks: NSF research investigates new uses for and new 
kinds of sensors and networks for health monitoring and damage 
assessment of the civil infrastructure, both physical and cyber. 
Flexible and scalable software architectures and frameworks are being 
developed to integrate real-time heterogeneous sensor data, database 
and archiving systems, computer vision, data analysis and 
interpretation, numerical simulation of complex structural systems, 
visualization, probabilistic risk analysis, and rational statistical 
decision making procedures. NSF has also funded research on socio-
technical arrangements for bringing information to policymakers.
    Risk Assessment: Risk assessment and decisions about preparing for 
risks are immediately relevant topics that NSF-funded scientists have 
researched in depth. Basic science and engineering research provides 
the in-depth understanding needed to design effective detection, 
warning, mitigation, response, and recovery programs. Research on risk 
communication and decision-making regarding low-probability, high-
consequence events is being applied to many types of disasters. Key for 
application of engineering knowledge is to establish the basis for 
performance-based design to be applied to all critical infrastructure 
systems and facilities of the constructed environment.
    Warning Systems and Evacuation: NSF has supported extensive and 
long-term research on warning systems and evacuation, with clear 
implications for managing tsunami events. NSF research includes basic 
work on integrated warning systems for rapid-onset extreme events, 
including detection, modeling, and communications technologies, and 
also the social and organizational components needed for effective 
warnings: societal and community public education and preparedness, 
appropriate authorities and resources for organizational and 
governmental entities responsible for warning and evacuation processes, 
appropriate messages and means of dissemination to at-risk populations, 
and the management and maintenance of warning systems over time. One 
specific focus for research has been sensor networks that must 
``funnel'' a sudden impulse of data that is generated due to an 
anomalous event such as an earthquake, terrorist attack, flood, or 
fire. The objective is to understand how to design sensor networks to 
adequately handle these impulses of data and to feed the information 
into public warning systems.
    Behavioral Responses: Emotional and cognitive responses to stress 
as well as vulnerability and resiliency in the face of threat and 
terror are the focus on current research in social psychology. Research 
in geography and regional science examines patterns of settlement that 
lead to social vulnerability and the differential impact of hazards, 
including earthquake hazards, on different groups. An earlier study 
exploring the restoration of assumptions of safety and control 
following the 2001 terror attacks has direct implications for 
understanding the restoration of human wellbeing following these 
devastating events.
    Human and Socio-technological Response: Behavioral and social 
science research funded by NSF provides insights about how people 
respond to disasters and identifies the short- and long-term effects. 
Scientists have documented and analyzed social phenomena in the 
immediate wake of disasters, such as altruism, volunteerism, 
convergence, and improvisation. These phenomena vary by country and 
culture. NSF researchers are developing distributed, reliable, and 
secure information systems that can evolve and adapt to radical changes 
in their environment. Such systems would deliver critically important 
services for emergency communication and management through networked 
information services and up-to-date sensor data over ad-hoc flexible, 
fault-tolerant networks that adapt to the people and organizations that 
need them. Such technology facilitates access to the right information, 
for the right individuals and organizations, at the right time. This is 
necessary to provide security, to serve our dynamic virtual response 
organizations, and to support the changing social and cultural aspects 
of information-sharing among organizations and individuals.
    Emergency Response Research: The complex problems associated with 
earthquake and tsunami hazard mitigation and response strategies 
necessitate interdisciplinary and international research efforts, 
including modeling and computational simulation, large-scale laboratory 
modeling, geographical information and communication systems, and 
social sciences and planning. NSF supports research on social, 
political, and managerial aspects of emergency response activities and 
aid provision, including need-based distribution of assistance within 
diverse societies.
    Ecology: Research on the ecology of infectious disease contributes 
to understanding the dynamics of epidemics and change, particularly in 
the context of ecological changes such as those following natural 
disasters. Disturbance ecology examines how biological populations, 
communities and ecosystems respond to extreme natural and human events, 
including hurricanes and tsunamis. Long-term ecological research is 
critical to understanding the base line conditions, without which the 
changes resulting from catastrophic events such as earthquakes and 
tsunamis cannot be understood.
    Microbial Genome Sequencing: NSF funded research on microbial 
genome sequencing provides key information that enables identification 
and understanding of the life functions and ecology of microbes that 
play critical roles in the environment, agriculture, food and water 
safety, and may cause disease in humans, animals, and plants. Genome 
sequence information can be utilized to develop tools to detect 
disease-causing organisms and develop countermeasures such as 
antimicrobial chemicals and vaccines.
    Education and Human Resources: NSF has dozens of active projects 
funded that target or include Earth science education and understanding 
of natural hazards. For example, the NSF National Science, Mathematics, 
Engineering, and Technology Education (SMETE) Digital Library program 
is supporting a multi-year project to develop a data-oriented digital 
library collection on education in plate tectonics, the central Earth 
science paradigm governing earthquakes and resultant tsunamis. Such a 
collection works to ``bridge the gap'' between science data archives 
and libraries, and improves access to the historic and modern marine 
geological and geophysical data. Further, the project is enhancing the 
professional development of teachers through interactions with a local 
school district and with teachers nationwide. Also, NSF has supported 
the incorporation of advanced technologies in K-12 learning materials 
in Earth science, including visualizations and working with images from 
space, real-time data, and experimentation with models and simulations 
(techniques used in earthquake events to generate model predictions of 
tsunamis). This work was utilized to update and improve one of the most 
widely used high-school Earth science textbooks.
NSF Investments in Research Infrastructure
    The natural disaster raised awareness of and attention to the 
phenomena of earthquakes and tsunamis, and their predictability. NSF 
has long funded scientific and engineering research infrastructure 
aimed at detecting and understanding the impacts of these phenomena. 
Prominent examples include:

  <bullet> IRIS, GSN--Real-time Global Seismographic Network (GSN) data 
        forged the critical core of the early warning of the December 
        26, 2004, Sumatran Earthquake. The GSN, operated by IRIS 
        (Incorporated Research Institutions for Seismology) and funded 
        in partnership by NSF and the United States Geological Survey, 
        is the primary international source of data for earthquake 
        location and tsunami warning.

  <bullet> Engineers and scientists at the Earthquake Engineering 
        Research Centers \1\ (EERCs) and the Southern California 
        Earthquake Center (SCEC at the University of Southern 
        California) are working to establish the nature and attenuation 
        of subduction-type earthquake ground shaking, and to develop 
        probabilistic hazard maps and shaking levels due to subduction 
        earthquakes in all oceans. This information will support damage 
        prediction for the U.S. and elsewhere, including earthquake and 
        tsunami effects on buildings, bridges and other lifelines, and 
        estimates of economic, safety, and emergency response 
        consequences.

    \1\ MAE (Mid America Earthquake Center at the University of 
Illinois, Urbana-Champaign), MCEER (Multidisciplinary Center for 
Earthquake Engineering Research at the University of Buffalo) and PEER 
(Pacific Earthquake Engineering Research Center at the University of 
California, Berkeley).
---------------------------------------------------------------------------
  <bullet> NSF has completed construction of the George E. Brown, Jr. 
        Network for Earthquake Engineering Simulation (NEES), a major 
        national infrastructure project to create a complete system of 
        test facilities that is revolutionizing earthquake engineering 
        research. NSF-funded researchers create physical and numerical 
        simulations in order to study how earthquakes and tsunamis 
        affect buildings, bridges, ports, and other critical 
        infrastructure. The NEES Tsunami Wave Basin at Oregon State 
        University is the world's most comprehensive facility for 
        studying tsunamis and storm waves.

The National Science Foundation's Immediate Response
    For more than three decades, NSF has supported quick-response 
disaster studies that dispatch scientists and engineers to the 
aftermath of crises ranging from hurricanes and earthquakes to the 
terrorist attacks of September 11, 2001. Researchers were in the field 
within days after the South Asian tsunami to gather critical data 
before it was lost to nature and reconstruction. The ephemeral 
information, including assessments of physical damage to both the built 
and natural environments, as well as social science research that will 
help emergency teams and local leaders better direct future rescue 
efforts, is vital for scientists and engineers to understand and 
prepare for future disasters.
    A variety of mechanisms are available to support quick-response 
research, including the following: (1) Small Grants for Exploratory 
Research (SGER), which may be awarded in order to gather data that is 
likely to disappear over time after the impact of disasters; (2) 
supplements to existing awards to fund data collection; (3) specific 
continuing grants that support quick-response field reconnaissance and 
research across a variety of disciplines; and (4) flexibility inherent 
in existing awards that allows for the support of post-disaster 
investigations. NSF has already utilized all of these types of support 
in responding to the December 26, 2004, earthquake and tsunami in the 
Indian Ocean.
    Several programs and projects have established funding to send 
rapid response teams to disaster sites:
    NSF Earthquake Engineering Research Centers are undertaking work on 
damage assessment. The Multidisciplinary Center for Earthquake 
Engineering Research (MCEER) sent a team of researchers to Thailand in 
partnership with the Asian Institute of Technology and the Earthquake 
Disaster Mitigation Research Center from Japan. Shubharoop Ghosh from 
ImageCat will join a team led by Prof. Yamazaki of Chiba University. 
The team is examining impacts of the earthquake and tsunami upon 
buildings and critical infrastructure. Research is also being supported 
by the earthquake centers on validating the potential of remote sensing 
data to accurately assess damage and impacts.
    Multidisciplinary research has been undertaken through the NSF-
funded Learning From Earthquakes (LFE) Program that is managed by the 
Earthquake Engineering Research Institute (EERI), a non-profit 
institution in Oakland, California. LFE is sending two teams to Sri 
Lanka, Thailand, the Maldive Islands, and India. The teams will gather 
data on estimated wave heights, extent of inundation, geological 
scouring, and other perishable information related to the physical 
aspects of tsunamis. They will coordinate their work with teams from 
Japan and Australia.
    In addition, other EERI activities will collect data. Jose Borrero, 
University of Southern California, was one of the first U.S. 
researchers to gain access to one of the hardest-hit area of Sumatra. A 
13-member team of engineers led by EERI member Sudhir Jain, Indian 
Institute of Technology, Kanpur, is investigating the structural damage 
and impacts on port facilities along the eastern coast of India, as 
well as on the Adaman and Nicobar Islands.
    These initial EERI teams include geotechnical, structural, and 
coastal engineers; geologists; geophysicists; and experts in fluid 
mechanics. In subsequent efforts, a joint EERI/ASCE team of engineers 
will travel to the area along with social scientists from the Disaster 
Research Center at the University of Delaware. They will focus on 
damage to lifelines, including highways, bridges, ports and harbors, 
water delivery systems, sewage facilities, and other utilities. They 
will also begin to document the resulting impacts on communities and 
the entire region. These impacts include search and rescue operations, 
medical response, multinational relief, organizational response, 
effects on children and families, shelter and housing, and social and 
economic impacts. Members of EERI and other earthquake engineering 
experts who reside in the affected countries will also contribute the 
results of their independent investigations. These reports will be 
compiled on the EERI website, published by EERI as part of the LFE 
program, and made available internationally.
    NSF's Network for Earthquake Engineering Simulation (NEES) is a 
major source of information about tsunamis. The O.H. Hinsdale Wave 
Research Laboratory at Oregon State University, home to the largest 
tsunami research facility in the world, was sought out as a source of 
answers to the pressing questions in the wake of the disaster. The lab 
hosted local news teams as well as CNN, NBC's `` Today Show,'' the 
Discovery Channel, and Spiegel TV from Germany.
    The Directorate for Geosciences is offering SGERs and award 
supplements to study physical processes in the earthquake-tsunami zone. 
For example, NSF-funded investigators from the California Institute of 
Technology who were already studying uplift or subsidence of atolls in 
the earthquake zone returned to Sumatra immediately after the event to 
measure earthquake-related vertical displacements. Additionally, 
scientists from the University of California-San Diego plan to resurvey 
a network of approximately fifty geodetic monuments in North Sumatra, 
the Mentawai Islands, and Banda Aceh to determine coseismic and 
postseismic deformation caused by the Sumatra earthquake. These new 
data will provide critical geodetic constraints for the seismographic 
inversion of the earthquake source to constrain models of the 
subsequent devastating tsunamis and to contribute to the study of the 
great earthquake cycle in that region. The NSF-funded geodetic 
consortium UNAVCO Inc. is coordinating efforts by the scientific 
community to measure the post-earthquake distortion in the region of 
the earthquake. The NSF-funded seismology consortium IRIS (Incorporated 
Research Institutions for Seismology) is leading efforts to develop 
real-time, finite-fault modeling techniques so that information on the 
actual characterization of the earthquake source can be updated 
continuously as real-time seismic data are received.
    The oceanographic communities are actively mapping the earthquake 
rupture zone, studying aftershock events, and venting of natural fluids 
using ocean bottom seismometers, ships, remotely operated vehicles, and 
potentially autonomous undersea vehicles. In addition, the NSF's 
Division of Ocean Sciences will sponsor a series of free, on-line 
workshops for K-12 teachers that will provide them with lesson plans, 
teaching materials, and access to scientists so that they can present 
the latest scientific tsunami information to their students. These 
workshops will reach several thousand teachers this month alone, with 
additional workshops possible dependent upon demand. A major challenge 
for these oceanographic studies is gaining permission from the 
Indonesian government to conduct research in its territorial waters.
    The Directorate for Computer and Information Science and 
Engineering will be offering SGERs and award supplements to extend 
projects on sensor networks for damage identification, information 
about the location of survivors, emergency response infrastructure 
technology, and the ability of organizations to respond to man-made and 
natural disasters. The San Diego Supercomputer Center at the University 
of California, San Diego has offered computational and data integration 
and data backup resources to local universities, facilities, or 
government agencies that might need them.
    The Human and Social Dynamics (HSD) priority area has allocated $1 
million to support SGERs for multidisciplinary research, including such 
issues as warning systems, disaster epidemiology, crisis decision-
making, emergency response, and short-term and long-term recovery and 
mitigation. These awards will be established by the end of February 
2005. Additional funding will be available from the NEES program to 
archive data collected under these SGERs in the central data repository 
operated by NEES Consortium, Inc. The Directorate for Social, 
Behavioral, and Economic Sciences has also made special funds available 
for SGERs pertinent to learning from this event.
Conclusion
    Mr. Chairman, as you well know NSF has as its mission the promotion 
of the progress of science, the advancement of the national health, 
prosperity and welfare, and the securing of the national defense. Since 
science is truly global in nature, NSF engages in these activities in 
collaboration with international partners. As such, NSF will continue 
to respond to disasters such as the earthquake and tsunami events in 
partnership with others in the global science and engineering 
communities.
    The South Asian tsunami disaster is representative of an entire 
class of catastrophic disasters: events that are low probability yet 
have high consequences. With the right information, communities and 
nations can characterize such risks and determine how to allocate 
resources for detection, warning, and preparedness.
    Research into decision-making provides insights and tools for 
characterizing such risks and for addressing future questions about 
allocating resources to detection and warning. NSF, in cooperation with 
the world research community, including the scientists, engineers, and 
students from the affected countries, will continue to generate new 
knowledge about the natural phenomena of these events, the design of 
better coastal structures, the development of early warning and 
response systems that can mitigate loss of life, and recovery from such 
disasters. These new bodies of knowledge need to be transferable to all 
regions of the world that can benefit from these efforts. With NSF 
support, scientists will continue to study societal vulnerability to 
natural hazards with a view to building resilience through increased 
knowledge and preparedness, improved natural resource management, and 
other policy strategies so that we may help stem the loss of life and 
property in future events.
    Mr. Chairman, thank you again for this opportunity to testify on a 
topic of great importance to the world community. I hope that I have 
conveyed the serious approach that NSF has taken to help generate new 
knowledge about the natural phenomena that lead to tsunami events, the 
design of safer coastal structures, the development of early warning 
and response systems, and effective steps for disaster recovery.
    I would be pleased to answer any questions you might have.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Thank you very much.
    Dr. Groat, from the U.S. Geological Survey?

STATEMENT OF CHARLES G. GROAT, DIRECTOR, U.S. GEOLOGICAL SURVEY

    Dr. Groat. Thank you, Senator Stevens.
    Senators Frist and Landrieu gave you a good sense of the 
dramatic impact that this dramatic event had. Let me give you a 
sense, in beginning, of the forces of the earth that caused it.
    The December 26, 2004, a magnitude-nine earthquake was 
initiated 20 miles below the sea floor off the western coast of 
Sumatra. It was the fourth-largest earthquake to strike the 
planet since 1900, and the largest since a magnitude-9.2 struck 
your state, Alaska, Senator Stevens, in 1964. As with other 
giant earthquakes, this one took place along the subduction 
zone, where the tectonic plates that make up the earth's rigid 
outer layer are thrust beneath one another. This thrusting 
resulted in a rupture that propagated northward along the plate 
boundary fault for over 750 miles. Along the length of that 
fault, the sea floor was jolted upward as much as 15 feet, 
lifting trillions of gallons of water into the air, and 
resulting in the forces that provided the tsunami.
    While not all tsunamis are caused by earthquakes, most of 
them are. So, therefore, the earthquake monitoring system that 
Director Bement referred to is critical in providing 
information about where tsunamis are likely to occur. And so, 
the network is extremely important, and it has to be up to the 
task of providing information about the earthquakes in a very 
sophisticated and very timely manner. The GSN that he referred 
to is the key part, on a global scale, of doing that. And with 
128 globally distributed seismic sensors that are all very 
modern, we have the infrastructure in place to provide the core 
part of the knowledge that is necessary to interpret whether 
earthquakes will generate tsunamis or not, if they occur in 
ocean basins.
    A little closer to home, in the United States, the USGS 
operates an advanced national seismic system which provides 
seismic data to NOAA's Tsunami Warning Centers. That system 
includes a 63-station backbone network that is, itself, very 
modern, and provides information supported by 17 regional 
seismic networks that ensure that the United States has 
adequate and detailed coverage for providing this kind of 
information.
    As a result of the Indian Ocean tsunami, the President 
announced and asked the Departments of Commerce and Interior to 
determine whether our systems were adequate. As a result of 
that, the United States Geological Survey has put together a 
plan to upgrade our seismic system capabilities and our 
interpretive capabilities, both to provide NOAA with the 
information it needs as to whether these earthquakes that occur 
on plate boundaries will generate tsunamis, and also to provide 
information locally to the United States coastal communities, 
as they need it.
    So let me close by just indicating what it is we're doing.
    We're implementing 24-by-7 operations at our National 
Earthquake Information Center, where the information is 
gathered and sent out.
    We're upgrading the hardware and software there to make 
sure that we have the sophisticated processing that's necessary 
to give the interpretive information, both on the global sense 
and in the U.S. sense.
    We're also improving the detection response time of the 
Global Seismographic Network by making data from all stations 
realtime. In other words, we get the information when it's 
received by the stations, not with any delays. Only 80 percent 
of that network is realtime right now.
    We're also increasing the maintenance schedules for all of 
the stations so that we have data available as continuously as 
possible.
    We're also providing some new software that was generated 
by the California Integrated Seismic Network, which is a USGS 
university and state partnership, to speed USGS-generated 
earthquake information directly to local emergency managers. 
And this is extremely important in coastal communities, because 
earthquakes that generate tsunamis close to shore have to be 
responded to very quickly. There isn't the time, nor the 
instrumentation, between those and the shore to provide the 
warnings. So the earthquake is a key part of what coastal 
communities need to have in which to base their warning 
systems. So we're upgrading our ability to do that.
    And, finally, we're also increasing the geologic studies 
that occur around the margins of the United States and in the 
Caribbean to understand the past frequency of tsunamis, which 
gives us some sense of when and where they occur, and the 
magnitude of those.
    The Sumatra Earthquake, which contributed significantly to 
the loss of lives and property, also continues us to forward 
our comprehensive concern about earthquakes, themselves, 
because they do occur more frequently, and they do destroy 
lives and property on a more regular basis, and in a very 
destructive basis. And through the National Earthquake Hazards 
Reduction Program, in which we partner with the National 
Science Foundation with NIST and with FEMA, we will also work 
with other agencies and universities to improve tsunami hazard 
assessments and warnings, and to expand our knowledge of 
tsunami generation and the impacts, and to evaluate the 
research and operational requirements for effective hazards 
planning, warning, and response systems.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Groat follows:]

 Prepared Statement of Dr. Charles G. Groat, Director, U.S. Geological 
                                 Survey
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to discuss the recent tragedy in South Asia and what can be 
done to reduce the threat that tsunamis and earthquakes pose to coastal 
communities in the United States and around the globe. Events such as 
this serve as a tragic reminder of our vulnerability to natural 
hazards. While the United States is not as vulnerable to tsunamis as 
other regions of the world, we do face significant risk.
    On December 29, the President asked the Departments of the Interior 
and Commerce to determine whether our systems are adequately prepared 
for a tsunami on our coasts. As a result, the Administration announced 
its commitment to implement an improved domestic tsunami detection and 
warning system. As part of the President's plan, the U.S. Geological 
Survey (USGS) will strengthen its ability to detect global earthquakes 
both through improvements in the Global Seismographic Network (GSN), 
which we support jointly with the National Science Foundation (NSF), 
and through around-the-clock analysis of earthquake events. The changes 
that are proposed for USGS clearly have a dual purpose, improving our 
capacity to respond to earthquakes as well as supporting the tsunami 
warning program of the National Oceanic and Atmospheric Administration 
(NOAA).
    In addition to earthquake monitoring and reporting, the USGS 
conducts a number of activities aimed at improving tsunami hazard 
assessments, education, and warnings, including geologic investigations 
into the history of and potential for tsunami occurrence, coastal and 
marine mapping, and modeling tsunami generation. Although most tsunamis 
are caused by earthquakes, they can also be caused by volcanic 
eruptions, submarine landslides, and onshore landslides that cause 
large volumes of rock to fall into the water. All of these tsunami-
generating hazards can impact the United States. Consequently, a broad 
range of USGS work in earthquake, volcano and landslide hazards, and 
coastal and marine geology, contribute to better understanding of 
tsunami impacts and occurrences.
    Additionally, USGS is playing a role in relief efforts for nations 
impacted by the December 26 disaster by providing relief organizations 
worldwide with pre- and post-tsunami satellite images and image-derived 
products that incorporate information on population density, elevation, 
and other relevant topics. These images and products are being used by 
relief organizations to determine where relief efforts are most 
critical and how best to carry out those relief operations. In our 
efforts to assist and improve relief efforts, we work closely with 
partners at NOAA, the U.S. Agency for International Development, other 
federal agencies, and in academia. For example, USGS scientists are 
part of international teams conducting post-tsunami investigations in 
Sri Lanka and Indonesia with the goal of applying the knowledge 
developed to other vulnerable areas in the United States and around the 
globe.
    USGS is also working with NOAA and other domestic and global 
partners through the Global Earth Observing System of Systems (GEOSS) 
and other mechanisms. Through GEOSS, improved monitoring capabilities 
must be firmly linked into all-hazards warning systems and, the most 
important link in the chain, public education and mitigation programs. 
As we move forward, we must bear in mind that this was an earthquake 
disaster as well as a tsunami disaster, and we must learn from both. 
This is not just a scientific endeavor; it is a matter of public 
safety.
Earthquake and Tsunami of December 26, 2004
    This was the second year in a row in which a deadly earthquake 
occurred near the end of the year. In 2003, a magnitude 6.6 quake 
struck Iran's ancient city of Bam, killing over 30,000 people. In 2004, 
the deadly quake was a magnitude 9 earthquake that initiated 20 miles 
below the seafloor off the western coast of Sumatra, the fourth largest 
earthquake to strike the planet since 1900 and the largest since a 
magnitude 9.2 earthquake struck Alaska in 1964. The earthquake and 
resulting tsunami killed more than 150,000 people around the Indian 
Ocean, two-thirds of them in northern Sumatra, whose inhabitants 
experienced not only the severe shaking from the earthquake but also 
the tsunami's full force.
    As with other giant earthquakes, this one took place along a 
subduction zone, where one of the tectonic plates that make up the 
Earth's rigid outer layer is being thrust beneath another (see Figure 
1). The Sunda trench is the seafloor expression of such a plate 
boundary where the Indian plate is thrusting under the overriding Burma 
plate. The size of an earthquake is directly related to the area of the 
fault that is ruptured. This rupture propagated northward along the 
plate boundary fault for over 750 miles beneath the Nicobar and Andaman 
Islands almost to Burma with a width of over 100 miles and slip along 
the fault averaging several tens of feet.
    It is difficult to comprehend the scope of a magnitude 9 
earthquake. When we hear the term earthquake magnitude, we think of the 
Richter scale, which was the first of several scales developed to 
measure the earthquake size from the seismic waves they generate. These 
scales are logarithmic such that each whole number represents an order 
of magnitude larger in the seismic waves generated. So a magnitude 7 
earthquake is 10 times larger than a magnitude 6 and 100 times larger 
than a magnitude 5. However, the amount of energy released goes up much 
faster. This magnitude 9 earthquake released 32 times more energy than 
a magnitude 8 earthquake and 1000 times more energy than a magnitude 7 
earthquake such as the one that struck the San Francisco Bay area in 
1989. The energy released by the Sumatra earthquake is roughly equal to 
that released by all the earthquakes, of every size, everywhere in the 
world since the mid-1990s. It's important to remember that our own 
coasts, Alaska in 1964 and the Pacific Northwest in 1700, were the site 
of earthquakes as large as the Sumatra earthquake.
    A great deal of that energy was transferred to the Indian Ocean's 
waters and ultimately to its surrounding shores. Along the length of 
the fault rupture, the seafloor was jolted upward by as much as 15 
feet, lifting trillions of gallons of sea water--a volume more than 30 
times that of the Great Salt Lake--and generating the tsunami that 
swept both east, inundating the coast of Sumatra, Thailand and Burma, 
and west, crossing the open ocean at hundreds of miles per hour on its 
way to the coasts of India, Sri Lanka, and eventually eastern Africa.
    Tsunamis strike the Indian Ocean less frequently than the Pacific 
Ocean, which is ringed by subduction zones, but there have been at 
least a half dozen Indian Ocean tsunamis caused by earthquakes in the 
past 200 years. What had been the deadliest tsunami in the region was 
not caused by an earthquake but by the explosion of Krakatau volcano in 
1883. The tsunami generated by the collapse of that volcano killed 
36,000 people on Java, Sumatra and neighboring islands.
    It is important to emphasize that not all large subsea earthquakes 
generate tsunamis. For example, four days before the Sumatra 
earthquake, a magnitude 8.1 earthquake struck the seafloor south of New 
Zealand near the Macquarie Islands. Instead of generating a thrusting 
motion as in a subduction zone, this earthquake occurred on a strike-
slip fault, moving side to side like the San Andreas Fault, a motion 
much less efficient at creating a tsunami. No tsunami was generated. 
Even earthquakes generated in subduction zones may not produce tsunami, 
depending on whether the fault rupture reaches the seafloor, the amount 
of displacement on the fault and other factors. One of the key roles of 
a tsunami detection system is to avoid false warnings that cause costly 
and unnecessary evacuations that can undermine people's willingness to 
heed warnings in the future. In addition to buoys and tide gauges, 
seismic data may be able to provide an additional check, and research 
in this area could improve our ability to recognize tsunami-causing 
events in minutes.
U.S. Earthquake Monitoring Networks and Their Role in Tsunami Warning 
        Center Operations
    To monitor earthquakes in the United States, the USGS has begun to 
install and operate the Advanced National Seismic System (ANSS), which 
was established by the National Earthquake Hazard Reduction Program 
(NEHRP) in 2000 (Pub. L. 106-503). The system includes a 63-station 
ANSS Backbone Network, which is capable of locating most felt 
earthquakes nationwide and provides data in near-real-time to USGS. 
Extending our capability in high-hazard areas of the country are 17 
regional seismic networks that provide detailed coverage and rapid 
response, local expertise in event analysis and interpretation, and 
data. Our ANSS partnerships--which include universities, state 
government agencies and NSF--greatly leverage USGS seismic monitoring 
capabilities. The key products of the system are rapid and accurate 
earthquake locations and magnitudes, delivered directly to users for 
emergency response.
    In several of the highest-risk urban areas in the United States, 
dense arrays of seismic sensors designed to record strong ground motion 
have been deployed under ANSS. These areas include the Los Angeles, San 
Francisco, Seattle, Anchorage and Salt Lake City metropolitan regions. 
When triggered by an earthquake, data from these sensors are 
automatically processed into detailed maps of ground shaking 
(``ShakeMaps''), which in turn feed loss estimation and emergency 
response. Also, because earthquake losses are closely tied to the 
vulnerability of buildings and other structures, USGS monitors 
earthquake shaking in structures in support of engineering research, 
performance-based design, and rapid post-earthquake damage evaluations. 
If placed in certain critical facilities, these sensors can contribute 
to critical post-earthquake response decisions.
    USGS has set a minimum performance goal of determining automated 
locations and seismic magnitudes within 4 minutes or less in the U.S. 
This is exceeded in many ANSS regions; for example, the magnitude 6.5 
San Simeon, California, earthquake of December, 2003, was automatically 
located within 30 seconds. Earthquake data, including locations, 
magnitudes, other characterizations and, where requested, the actual 
seismograms, are automatically transmitted from USGS and regional 
centers to federal response departments and agencies such as the NOAA 
tsunami warning centers, the Department of Homeland Security, including 
the Federal Emergency Management Agency (FEMA), state governments, 
local emergency managers, utility operators, several private sector 
entities, and the public and media. USGS does not currently have 24 
<greek-e> 7 earthquake analysis, but analysts are on-call in the event 
of a large earthquake worldwide. The Administration has recently 
proposed 24 <greek-e> 7 operations as a key needed improvement in 
response to the Indian Ocean tsunami disaster.
    To monitor seismic events worldwide, the Global Seismographic 
Network (GSN) maintains a constellation of 128 globally distributed, 
modern seismic sensors. USGS operates about two-thirds of this network, 
and the University of California, San Diego, operates the other third 
with NSF support. NSF also funds the IRIS (Incorporated Research 
Institutions for Seismology) Consortium to handle data management and 
long-term archiving. Two GSN stations were the first to detect the 
December 26, 2004, Sumatra earthquake, and automated analysis of these 
data generated the ``alerts'' of strong recorded amplitudes sent to 
NOAA and USGS. At the present time, about 80 percent of GSN stations 
transmit real-time data that can be used for rapid earthquake analysis 
and tsunami warning. The Administration is requesting funding to extend 
the GSN's real-time data communications, as well as to improve station 
uptime through more frequent maintenance. These changes will result in 
improved tsunami warning in the United States and globally.
    Through the National Tsunami Hazard Mitigation Program, the USGS, 
NOAA, FEMA, and five western States (Alaska, California, Hawaii, Oregon 
and Washington) have worked to enhance the quality and quantity of 
seismic data provided to the NOAA tsunami warning centers and how this 
data is used at the state and local level. This program has funded USGS 
to upgrade seismic equipment for regional seismic networks in Northern 
California, Oregon, Washington, Alaska and Hawaii. The seismic data 
recorded by the USGS nationally and globally are relayed to the NOAA 
tsunami warning centers. USGS and NOAA also exchange earthquake 
locations and magnitude estimates, with USGS providing the final 
authoritative magnitudes of events. USGS is also working with emergency 
managers in the Pacific Northwest to support public warning systems in 
coastal communities there.
    Improving earthquake monitoring in the United States--with 
consequent improvements to public safety and the reduction of 
earthquake losses--can be achieved through the modernization and 
expansion of the ANSS, including expansion of seismic sensor networks 
nationwide, the upgrading of the associated data processing and 
analysis facilities, and the development of new earthquake products. 
Funding over the past three years has focused on installation of over 
500 new seismic sensors in high-risk urban areas. The FY05 
appropriation for ANSS is $5.12 million. The President's proposed 
increase in funding to USGS in response to the tsunami disaster would 
allow USGS to make critically needed improvements to performance in one 
key element of ANSS, providing 24 <greek-e> 7 operations capacity and 
completing software and hardware upgrades to speed processing times. 
These improvements will enhance USGS support of NOAA's tsunami warning 
responsibility.
The Threat From Tsunamis and Great Earthquakes in the Pacific
    The concentration of U.S. tsunami warning efforts in the Pacific 
reflects the greater frequency of destructive tsunami in that ocean. 
Approximately 85 percent of the world's tsunamis occur in the Pacific. 
This is due to many subduction zones ringing the Pacific basin--the 
source of submarine earthquakes of large enough magnitude (greater than 
 cents7) to produce tsunami. While Hawaii's position in the middle of 
the Pacific makes it uniquely vulnerable to ocean-wide tsunami, this 
chain of volcanic islands also faces a hazard from locally generated 
tsunami due to local earthquakes or submarine landslides. In 1975, a 
magnitude 7.2 earthquake just offshore the island of Hawaii caused a 
tsunami that killed 2 with maximum runup height (elevation reached by 
tsunami as they move inland from the shoreline) of 47 feet.
    U.S. Insular Areas in the Pacific also face a threat both from 
ocean-wide tsunami as well as ones generated locally. The volcano 
Anatahan in the Northern Marianas, which began actively erupting on 
January 5, 2005, serves as a reminder that inhabitants and U.S. 
military interests in the Commonwealth of the Northern Mariana Islands 
and the Territory of Guam are threatened by nine islands with active 
volcanoes that have the potential to generate hazardous ash plumes as 
well as tsunamis through eruption-induced collapse. The risks from 
tsunamis to the inhabited islands are poorly understood, and tsunami 
inundation modeling is needed to assess the threat represented by such 
an event.
    Our knowledge of what may be the greatest risk to the United States 
does not come from our tsunami experiences of the last half century, 
but rather to the detective work of USGS and other scientists in the 
Pacific Northwest. In contrast to the San Andreas Fault, where the 
Pacific and North American plates are sliding past one another, a 
subduction zone known as Cascadia lies offshore further north, its size 
nearly identical to that of the rupture zone of the Sumatra earthquake 
(see Figure 2). On January 26, 1700, the Cascadia subduction zone broke 
in a great earthquake, probably from northernmost California to the 
middle of Vancouver Island. Along the Pacific coast in Oregon, 
Washington, California, and British Columbia, this huge event of the 
same general size of the Sumatra earthquake, caused coastal marshes to 
suddenly drop down several feet. This change in land elevation was 
recorded by the vegetation living in and around the coastal marshes. 
For example, along the Copalis River in Washington State, Western Red 
Cedar trees that have lifespans of over 1000 years were suddenly 
submerged in salt water. Over the next few months, those trees died. By 
comparing tree rings of the still standing dead trees with nearby trees 
that were not submerged, paleoseismologists established that the trees 
were killed during the winter of 1699-1700.
    Digging through river bank deposits along the Copalis and other 
rivers in Cascadia, paleoseismologists found a pervasive, black sand 
sheet left by the tsunami. Because the sands deposited by the tsunami 
are transported by the tsunami waves, paleoseismologists can combine 
the location of tsunami sands with the change in marsh elevation to get 
an approximate idea of the length of the rupture for the 1700 
earthquake. Tsunami sands have been found from Vancouver Island to 
Humboldt Bay in California.
    Once paleoseismologists found evidence of the 1700 event, they 
combed written records in Japan to see if evidence existed of an 
unknown tsunami wave. Several villages recorded damage in Japan on 
January 27, 1700, from a wave that people living along the coast could 
not associate with strong ground shaking. The coast of Japan had been 
hit, not unlike Sri Lanka and Somalia, by a distant tsunami, but this 
tsunami came from the west coast of North America. By modeling the 
travel time across the Pacific, paleoseismologists were able to 
establish the exact date of the last Cascadia subduction zone event.
    Based on estimates of the return interval, USGS scientists and 
others have estimated that there is a 10-14 percent chance of a repeat 
of the Cascadia magnitude 9 earthquake and tsunami event in the next 50 
years. Since that initial discovery in the early 1980s, many of the 
elements of the seismic systems for the Pacific Northwest described 
above have been put in place along with improved building codes to 
address the higher expected ground shaking and increased public 
education through the efforts of state and local emergency managers.
    The December 26, 2004, earthquake and tsunami together cause us to 
focus on the similar threat from the Cascadia subduction zone that 
faces the Pacific Northwest as well as our long Alaskan coastline. Here 
I cannot emphasize enough the critical role played by our partners in 
state and local government, especially the state emergency managers. 
Largely through the efforts of the National Tsunami Hazard Mitigation 
Program partnership, much has been accomplished. Seismic systems have 
been improved, allowing NOAA's West Coast and Alaska Tsunami Warning 
Center to issue warnings within minutes of a significant offshore 
earthquake. Inundation maps, graphic representations of estimates of 
how far inland future tsunami waves are likely to reach, are available 
for most major communities in northern California, Oregon, and 
Washington. Working with FEMA, public education has been stressed, and 
emergency managers have begun installing all-hazard warning systems. 
USGS is co-funding a $540,000 pilot project in Seaside, Oregon with 
FEMA and NOAA to develop risk identification products that will help 
communities understand their actual level of risk from tsunami in a way 
that could be conveyed on existing flood maps. The goal of the project 
is to develop techniques that can be used to determine the probability 
and magnitude of tsunami in other communities along the west coast of 
the United States.
Tsunami Threats in the Atlantic
    With respect to tsunami hazard risk to the U.S. East coast, it 
should be noted that subduction zones are scarce in the Atlantic Ocean. 
But the Atlantic Ocean is not immune to tsunami. A tsunami following 
the great 1755 Lisbon earthquake, generated by collision of the African 
and Eurasian tectonic plates, devastated coasts of Portugal and 
Morocco, reached the British Isles, and crested as much as 20 feet high 
in the Caribbean.
    In 1929, the magnitude 7.2 Grand Banks earthquake triggered a 
submarine landslide and tsunami that struck Newfoundland's sparsely 
settled coast, where it killed 27 people with waves as high as 20 feet. 
An event like this, involving a submarine landslide, may be the most 
likely scenario for the Atlantic coast. Scars of past large submarine 
landslides abound on the continental slope off the U.S. Atlantic coast. 
As in the 1929 Grand Banks event, some of the slides probably resulted 
from large earthquakes. If earthquakes are the primary initiator of the 
observed landslide features, the hazard to the Atlantic coast is 
limited as large earthquakes rarely occur in the vicinity of the U.S. 
and Canada Atlantic coast--perhaps once a century, on average (Boston 
area, 1755; Charleston, 1866; Newfoundland, 1929). Additionally, this 
type of tsunami would affect a much smaller geographical area than one 
generated by a subduction zone, and its flooding effect and inundation 
distance would be limited. Much work is needed, however, to more fully 
understand the triggering of submarine landslides and the extent of 
that threat in the Atlantic.
    Another tsunami scenario for the Atlantic coast that has been 
widely publicized is a landslide involving collapse of part of the 
Cumbre Vieja volcano in the Canary Islands into the sea. While this 
collapse would be dramatic and might indeed induce a transatlantic 
tsunami, such a collapse may occur only once every hundred thousand 
years. Furthermore, unlike the West Coast with the abundant record of 
past ocean-wide tsunami deposits, no such regionally extensive deposits 
have been found to date along the Atlantic coast.
Tsunami Threats in the Caribbean
    The Caribbean is subject to a broad range of geologic processes 
that have the potential to generate tsunami. Indeed, the Caribbean 
tectonic plate has almost all of the tsunami-generating sources within 
a small geographical area. Subduction zone earthquakes of the type that 
generated the Indian Ocean tsunami are found along the Lesser Antilles 
and the Hispaniola and Puerto Rico trenches. Other moderately large 
earthquakes due to more local tectonic activity take place probably 
once a century, such as in Mona Passage (1918 tsunami) and in the 
Virgin Islands basin (1867 tsunami). Moderate earthquakes occur that 
may trigger undersea landslides and thus generate tsunami. An active 
underwater volcano (Kick'em Jenny near Grenada) where sea floor maps 
show previous episodes of flank collapse also poses a tsunami hazard. 
Above-water volcanic activity occurs, wherein the Lesser Antilles 
periodically generate landslides that enter the sea to cause tsunami. 
And finally, the possibility exists of tele-tsunami from the African-
Eurasian plate boundary, such as the great Lisbon earthquake of 1755 
described above.
    In 1867, an 18-foot high tsunami wave entered St. Thomas' Charlotte 
Amalie at the same time that a 27-foot wave entered St. Croix's 
Christiansted Harbor. Were that to occur again today, the 10-fold 
increase in population density, the cruise ships, petroleum carriers, 
harbor infrastructure, hotels and beach goers, nearby power plants, 
petrochemical complexes, marinas, condominiums, and schools, would all 
be at risk.
    On October 11, 1918, the island of Puerto Rico was struck by a 
magnitude 7.5 earthquake, centered approximately 15 kilometers off the 
island's northwestern coast, in the Mona Passage. In addition to 
causing widespread destruction across Puerto Rico, the quake generated 
a medium sized tsunami that produced runup as high as 18 feet along the 
western coast of the island and killed 40 people, in addition to the 76 
people killed by the earthquake. More than 1,600 people were reportedly 
killed along the northern coast of the Dominican Republic in 1946 by a 
tsunami triggered by a magnitude 8.1 earthquake.
    In contrast to the Caribbean, the Gulf of Mexico has low tsunami 
risk. The region is seismically quiet and protected from tsunami 
generated in either the Atlantic or the Caribbean by Florida, Cuba, and 
broad continental shelves. Although there have been hurricane-generated 
subsea landslides as recently as this fall, there is no evidence that 
they have generated significant tsunami.
Lessons Learned: What the United States Can Do to Better Prepare Itself 
        and the World
    Natural hazard events such as the one that struck Sumatra and the 
countries around the Indian Ocean on December 26, 2004, are 
geologically inevitable, but their consequences are not. The tsunami is 
a potent reminder that while the nations surrounding the Pacific Ocean 
face the highest tsunami hazard, countries around other ocean basins 
lacking basic tsunami warning systems and mitigation strategies face 
considerable risk. Reducing that risk requires a broad, comprehensive 
system including rapid global earthquake and tsunami detection systems, 
transmission of warnings in standardized formats to emergency officials 
who already know which coastal areas are vulnerable through inundation 
mapping and tsunami hazard assessment, and broadcast capabilities to 
reach a public already educated in the dangers and how to respond. For 
tsunami crossing an ocean basin, an adequate system of earthquake 
sensors, Deep-ocean Assessment and Reporting of Tsunamis (DART) buoys, 
and tide gauges should allow for timely warnings if the rest of the 
system is in place. For tsunami generated near the coastline, time is 
considerably more critical. For tsunami warnings to be effective, they 
must be generated and transmitted to the affected coastline within a 
few minutes of detection, local emergency responders must be prepared, 
the population must be informed, and the entire system must be executed 
without delay.
    The Sumatra earthquake and its devastating effects will encourage 
us to continue forward on the comprehensive NEHRP approach to 
earthquake loss reduction. USGS is committed to do so in partnership 
with FEMA, the National Institute of Standards and Technology, and NSF 
to translate research into results through such initiatives as ANSS, 
the George E. Brown, Jr. Network for Earthquake Engineering Simulation, 
the plan to accelerate the use of new earthquake risk mitigation 
technologies, and development of improved seismic provisions in 
building codes.
    As part of the President's plan to improve tsunami detection and 
warning systems, the USGS will:

  <bullet> Implement 24 <greek-e> 7 operations at the National 
        Earthquake Information Center and upgrade hardware and software 
        systems in order to improve the timeliness of alerts for global 
        earthquakes. As part of the upgrade, USGS will fully develop 
        what is now a prototype system to estimate the number of people 
        affected by strong ground shaking after an earthquake using our 
        ShakeMap model and databases of global population. Known as 
        Prompt Assessment of Global Earthquakes for Response (PAGER), 
        this system can provide aid agencies and others with a quick 
        estimate of how significant the casualties might be well in 
        advance of reports from affected areas where communications may 
        be down.

  <bullet> Support research to develop more rapid methods for 
        characterizing earthquakes and discriminating likely 
        tsunamigenic sources.

  <bullet> Improve the detection response time of the Global 
        Seismographic Network by making data from all stations 
        available in real time via satellite telemetry and improving 
        station up-time through increased maintenance schedules. 
        Improved coverage in the Caribbean region will be achieved 
        through the addition of stations and upgrades of existing 
        stations through international partnerships and cooperation.

  <bullet> Further the use of software developed by the California 
        Integrated Seismic Network (a USGS, university and state 
        partnership) to speed USGS-generated earthquake information 
        directly to local emergency managers with a dual use capability 
        to also provide NOAA tsunami warnings.

  <bullet> Enhance existing USGS geologic and elevation mapping for 
        coastal areas in the Caribbean. Such mapping is critical to 
        development of improved tsunami hazards assessments for Puerto 
        Rico and the U.S. Virgin Islands.

    The USGS will also continue its ongoing efforts to improve tsunami 
hazard assessment and warnings through geologic investigations into the 
history of and potential for tsunami occurrence; coastal and marine 
mapping; modeling tsunami generation, source characterization, and 
propagation; and development of assessment methods and products such as 
inundation maps with NOAA, FEMA, and other partners. USGS will also 
continue strong partnerships with state tsunami and earthquake hazard 
mitigation groups and contribute to public awareness efforts. An 
example of the latter is the 2001 publication, USGS Circular 1187, 
Surviving a Tsunami: Lessons Learned from Chile, Hawaii and Japan, 
which was prepared in cooperation with the Universidad Austral de 
Chile, University of Tokyo, University of Washington, Geological Survey 
of Japan, and the Pacific Tsunami Museum. Continuing investigations of 
the Indian Ocean tsunami provide a critical opportunity to expand our 
knowledge of tsunami generation and impacts and to evaluate the 
research and operational requirements for effective hazard planning, 
warning, and response systems.
    Mr. Chairman, I thank you for this opportunity to appear before the 
Committee and would be happy to answer any questions now or for the 
record. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much.
    We have just created a new Subcommittee on Disaster 
Prevention and Prediction. We hope that that Subcommittee will 
keep your two agencies pretty busy, because we think we have to 
find some way to make this a more robust system.
    Let me ask you, Dr. Marburger, what's the timeline for the 
Administration's improved Tsunami Detection and Warning System? 
Can you tell us the timeline, how soon are you going to move 
into it? As I understand it, we're going to finish the one 
we've already got going, but there's a tremendous expansion of 
it. How long is it going to take us to do that?
    Dr. Marburger. That's correct. The agencies indicate to us 
that they ought to be able to have substantial improvement of 
the existing system within 2 years, at the end of 2 years, if 
I'm not mistaken. Fortunately, all the technology is available. 
The systems are up and running, and it's improvements and--
improved maintenance and additional deployment of things like 
these new buoys that's required. So it should be doable in a 
relatively short period of time. Mid-2007 are the dates that 
I've heard. They can be confirmed by others.
    The Chairman. As I understand it, General Kelly, several of 
these buoys are not working right now. The DART is on the 
surface of the ocean. They're connected to a detector at the 
bottom. Tell us what is leading to the malfunction of these 
warning devices now?
    General Kelly. Many things.
    The Chairman. I can't hear you, I'm sorry.
    General Kelly. Many things. And you are correct, there are 
six DART buoys sited in the water today. Three of the six are 
not operational. One has not been operational since October of 
2003. There are two complicating factors. One is the weather, 
the weather in the Aleutians, there's a narrow window when we 
can get boats in there, or ships in there, to repair them, and 
then, two, a number of components have failed, different 
components have failed at different times. And so, part of our 
plan is, in fact, to put a better buoy in place of the existing 
ones, and then expand the network.
    The Chairman. Could you put that chart up again, showing 
where these new buoys are going to be----
    General Kelly. Yes, sir.
    The Chairman.--and where the existing ones are? As I 
understand it, half of the buoys we've detected--we've deployed 
right now are not functioning?
    General Kelly. That is correct.
    The Chairman. Which ones?
    General Kelly. (Indicating.) The red ones.
    The Chairman. Tell us, for the record.
    General Kelly. Three along the Aleutians.
    The Chairman. Three along the Aleutian chain.
    General Kelly. Yes. Yes, sir.
    The Chairman. And what's the plan for replacing those?
    General Kelly. Within the last--within the last several 
weeks, we--or last month--we attempted to repair one, got it in 
the water, and then a component malfunctioned. And we are ready 
now, as soon as we get a break in the weather--we have forward-
deployed the parts into Alaska--as soon as we get a break in 
the weather--and we need about 7 days of good weather--we'll 
get a ship out there and replace the buoys.
    The Chairman. Whose job is it to maintain and assure that 
they are functioning?
    General Kelly. NOAA's.
    The Chairman. Which part of NOAA?
    General Kelly. The National Weather Service.
    The Chairman. Do they have the equipment to do that?
    General Kelly. Well, they certainly don't own the ships to 
do it, and they use the NOAA Corps to do that, or we contract 
out. But they have--we have a National Data Buoy Center in Bay 
St. Louis, which has the capability----
    The Chairman. Where do you have it?
    General Kelly. Bay St. Louis, Mississippi. And----
    The Chairman. The center's in Mississippi, and all the 
buoys are in the Pacific?
    General Kelly. Well, no, sir, we have other kinds of buoys 
along the Gulf Coast and along the United--and along the----
    The Chairman. We're talking about tsunami warning now.
    General Kelly. Well, yes, sir, but we're also talking about 
buoy technology. And they have engineers and they have 
scientists, and they work closely with the Pacific Marine 
Environmental Lab. So our operational and maintenance repair 
facility is in Bay St. Louis, Mississippi.
    The Chairman. How long have they been down, those three?
    General Kelly. One has been down since October 2003, one 
was down in--one went down in December 2004, and another went 
down in August 2004.
    The Chairman. Is there a specific program looking at the 
reliability of these buoys we're going to deploy?
    General Kelly. Yes, sir.
    The Chairman. Who's in charge of that?
    General Kelly. We're working jointly with the Pacific 
Marine Environmental Lab and our experts at the National Data 
Buoy Center.
    The Chairman. All right. That worries me a great deal. If 
we're going to spend money expanding the system we're going to 
put out there--the buoys have been failing at this rate, it, 
sort of, looks to me like the taxpayer may be just financing a 
facade.
    General Kelly. It is not our intent to put a one-for-one 
replacement of the buoys that are out there as we expand this 
network. We need to put out buoys that are more robust and 
survive longer. And, in fact, given the challenges that we've 
had in--as I mentioned earlier, including--included in the plan 
will be three buoys that I will call ``in-water backups,'' so, 
in case one does malfunction, we will still have something 
providing us data.
    The Chairman. Thank you very much.
    Dr. Groat, the problem of these earthquakes and prediction 
and tying them into this system, can you tell us, we have these 
buoys deployed, but you're not relying on those buoys for your 
predictions and detection of earthquakes, are you?
    Dr. Groat. No, sir. We rely on the Global Seismic Network, 
local networks that are subsidiary to it, to understand the 
earthquakes and the potential for generating a tsunami. Many 
earthquakes are very large, but don't generate tsunamis, even 
those that occur in the ocean. The key is getting that 
earthquake interpretation to NOAA in a timely fashion so that 
if it's likely to have generated a tsunami, then they can be 
prepared to use that information.
    The Chairman. Is there a way to tie together what you've 
got and the other systems here to make a prediction telling us 
if an earthquake occurs at any particular place, there will or 
not be a tsunami? We seem to only get tsunamis as a reaction to 
the earthquakes, mainly in the Pacific, right?
    Dr. Groat. Correct.
    The Chairman. So are we tied together--can we say, if 
there's an earthquake at such-and-such a place on the Aleutian 
chain, there probably would be a tsunami that would go any 
particular direction?
    Dr. Groat. With the upgrades that we've talked about in our 
seismic monitoring system and the data processing, we will do a 
better job of predicting whether the earthquake was of a type 
that would generate a tsunami. There are many large 
displacements that go this way, and they don't generate 
anything.
    The Chairman. OK. But if you can predict there's going to 
be a tsunami, can you predict where it's going to go?
    Dr. Groat. Well, they go--it's, sort of, like dropping a 
rock in a pond, the waves go in all directions. So once we know 
where it is, then we can watch where the waves will go. And we 
can predict that pretty well.
    The Chairman. Thank you. That's what I was looking for. I 
watched the Discovery channel the other night. You all did a 
very good job on that, and I did not know that until then, that 
it is like dropping a stone in a pond. There will be tsunamis 
everywhere if it's located, say, around Senator Inouye's 
country, it's possible it could affect the whole Pacific, 
right?
    Dr. Groat. Very much so.
    The Chairman. Senator Inouye?
    Senator Inouye. Like most of my colleagues, I'm concerned 
about the six DART buoys. Three have been out of commission for 
about 15 months. And if it weren't for the tragedy of biblical 
proportions, the likelihood is that this Congress would not 
have been notified. Am I correct?
    General Kelly. Yes, sir.
    Senator Inouye. We would not have known that three were out 
of commission.
    General Kelly. You're correct. But I would point out that 
the DART buoys, while important, are not the only components in 
the network.
    Senator Inouye. I realize that there are many circumstances 
that would cause problems, such as weather and the budget. Why 
was it impossible for NOAA to notify the Congress that three of 
the six were out of business?
    General Kelly. Senator, within NOAA, there are a number of 
observing systems out there. And, as a matter of practice, we 
routinely don't notify the Congress when a given sensor, or a 
series of sensors, goes out.
    Senator Inouye. You don't know whether the system is 
working or not?
    General Kelly. Well, no. We know, but we don't routinely 
notify the Congress. We sometimes have problems with 
satellites, with a given sensor on a satellite, and, at least 
in my experience, we have not routinely provided an update to 
the Congress of a problem with a satellite sensor. We try to 
work through it, and, in most cases, get it resolved.
    The Chairman. Would the Senator yield just there?
    Senator Inouye. Sure.
    The Chairman. Who do you notify when a buoy goes down?
    General Kelly. When a buoy goes down, the head of the 
National Weather Service gets notified, the two Tsunami Warning 
Center directors get notified, and it is the responsibility of 
the head of the National Weather Service to get those buoys 
repaired.
    The Chairman. So they don't tell your Governor, or mine.
    Senator Inouye. These buoys are obviously very important. 
They not only prevent the loss of lives, they prevent the 
unnecessary expenditure of funds. I'm just thinking to myself, 
if that disaster that we experienced in Indonesia and Sri Lanka 
had occurred in Washington or Oregon or Alaska, and we weren't 
warned because the three buoys were not operational, the 
atmosphere in this room would be, I think, much more heated.
    General Kelly. I agree with you, Senator Inouye, but I 
believe that, while the three buoys are important, we still 
have the capability to warn. And even if that earthquake had 
occurred somewhere in the Pacific, warnings would have gone 
out. Because even with the three buoys being down, the Pacific 
Tsunami Warning Center did issue a--what we call an information 
advisory that a tsunami had, in fact, been generated. So, while 
the three are down, and that's regrettable, and we're working 
to get them repaired, we are not totally defenseless because 
those three are down. And I am not trying to condone the fact 
that they are down, or they've been down as long as they have, 
but I think it is important that we don't leave here thinking 
that we are totally defenseless in providing information and 
warnings. And you are correct that one of the great benefits of 
those DART buoys are, it gives confirmation as to the 
characterization and the magnitude of the tsunami, and, in 
fact, helps reduce the number of what we call false alarms, and 
then saves the local governments money, in terms of responding. 
And, frankly, most importantly, a whole string of false-alarm 
tsunami warnings will cause the citizens not to pay attention 
to it, and that is a critical thing we need to work against.
    Senator Inouye. By indicating your position, you're not 
suggesting we don't need any more DART buoys.
    General Kelly. No, sir, I am not indicating we don't need 
any more DART buoys. They will improve the system. I am trying 
to get the message across that we are not totally defenseless 
with the existing systems, and the citizens of Hawaii and the 
citizens of Alaska and the West Coast of the United States 
ought not to get unduly alarmed.
    Senator Inouye. I have just one more question, to any one 
of you. Within 24 hours after the disaster in Southeast Asia, 
major stations, such as CNN and all of the networks began 
criticizing, and suggesting that they should have been notified 
so that they could have used their offices and facilities to 
warn the people. Is that a valid criticism? Could that have 
been done?
    Dr. Marburger. Well, it certainly could have been done. I 
do not know what the protocol is for notifications, but the 
National Weather Service is notified instantly, and usually 
their information is shared immediately with the media.
    General Kelly. Senator Inouye, it is my belief that many of 
those news organizations did, in fact, get the tsunami bulletin 
that was sent out from the Hagemayer Warning Center in Hawaii. 
I think what they were asking for was some type of protocol 
being established wherein the watch officer might make a 
telephone call to them or somehow take an explicit step to get 
the information to them.
    Senator Inouye. Is that a valid request?
    General Kelly. I think we have to do some analysis of it 
and what we are talking about. Now, let's take the National 
Hurricane Center. When hurricanes are coming, there is a large 
press presence in the Hurricane Center. Fortunately, with 
hurricanes, we have a bit more time to start alerting the 
public. With tsunamis--and while this earthquake, as Dr. Groat 
said, was one of the more massive in the century, I mean, we 
had time to watch the tsunami perpetuate across the Pacific. 
Frequently, in Alaska and Hawaii you only have minutes, and I'm 
just not sure, given one watch officer trying to issue 
bulletins, clarify the bulletins, that there's sufficient time 
for him to be talking to the press. There may be other 
arrangements that can be made with the press for them to get 
the information differently.
    The Chairman. There was another criticism, in that we did 
notify the countries involved, but the receiving facility was 
not operational. Is that a valid one?
    General Kelly. When you're talking about the ``receiving,'' 
you're talking about the receiving system in the in-country?
    Senator Inouye. Yes.
    General Kelly. As I said in my testimony, we have an 
agreement with 26 countries in the Pacific Rim to provide 
information to them, and then they have the responsibility of 
developing their local warnings and distributing them to their 
country. No such system exists in the Pacific Ocean, so I--I'm 
sorry, in the Indian Ocean--and so, that is--there's some truth 
in that, that countries were not prepared to deal with it.
    As I said in my testimony, tsunami preparedness has a 
number of variables in it. To my mind, the most important one 
is, when you get the warning, have you got a way, internally, 
to get it out to your citizens, and have you educated them and 
worked with them so that they know what to do? Thanks to both 
of your help with the Tsunami Mitigation Program legislation in 
1996, we've been able to do a fair amount of that work on the 
West Coast and in Hawaii.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Gentlemen, if necessary, Senator Inouye and I 
will send you a letter, to each of your agencies, for this 
request. We would ask that you report back to us, in 2 weeks, 
what it would take to establish a system to notify the entities 
who have been mentioned--specifically, 911, the Weather 
Channel, the emergency disaster systems that exist in the 50 
states.
    The Chairman. We're concerned primarily with this country 
because of our Committee's jurisdiction. I'm sure others will 
be asking the question about the international aspects of the 
system to come. But, right now, we thought we had a system, and 
we found, when this occurred, that it was--half of it was 
dormant, was not working. And we think we ought to have a 
system that not only--we're notified if something's gone wrong, 
but we also have adequate apparatus to detect the problem and 
get at it now.
    And, beyond that, though, I think that the news media have 
a legitimate cause to object. There's no reason why we can't 
have an interconnection with 911 or with the Weather Channel or 
with the disaster system or with FEMA. That can--we also handle 
communications, gentlemen, and that can be done automatically. 
Once you press the button, it can be very ubiquitous and go 
throughout the country, if it's set up right.
    So we'd like to know, What will it take to do that? And if 
you need money, the appropriations bills are coming up, we'll 
see to it you'll get it.
    General Kelly. Mr. Chairman, I may have misunderstood your 
question. I thought, when you were talking about the press, you 
were talking about internationally. We work--we, in NOAA, work 
very, very closely with the Weather Channel. We work very, very 
closely with FEMA. We will provide the information you 
requested. I will be surprised, in fact, if those organizations 
you talked about did not have information about this tsunami. 
The fact was, though, that the tsunami was not going to impact 
the United States, and, therefore, some of their interest may 
not have been as great on it. But internationally--dealing with 
the international press, I'm not sure what the arrangements 
are.
    The Chairman. Well, of course, we're talking here about 
when it might be coming our way, and those buoys are supposed 
to tell us that.
    General Kelly. Well, that's what I'm telling you. I believe 
the system is in place if this one would have affected the 
United States.
    The Chairman. Yeah. I'm sorry to take your time.
    Senator Nelson?

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman. And thank you, 
gentlemen, for helping us understand what is involved in 
detecting and--tsunamis and communicating the information.
    As it relates to a globalization for a warning system so 
that it's not only--we're not only capable of communicating the 
information to affected locations, what would be involved in 
making sure that the receiving end of the information is 
capable of, not only receiving, but acting on this information? 
If the information goes out, and there's no reaction to it, 
obviously, then, it's not terribly helpful. We will have 
committed our--we will have fulfilled our responsibility, but 
we're certainly not going to get the result we're looking for. 
And if $350 million of aid is going from the United States, 
given the fact that there's also private aid that will go, what 
would be involved in making sure that we have receivers at the 
other end so that there could be action taken on it? And, also, 
what barriers might we encounter? And some idea of the cost. I 
suspect that if we're looking at this in terms of dollars and 
cents, there may be a way to quantify it. There is no way to 
quantify or qualify the untold misery and loss of life and the 
disruption to entire areas around the world.
    Dr. Marburger?
    Dr. Marburger. Yes, let me take a crack at that.
    First, the most important part of the receiving nation's 
capability must be communications and education systems, 
country by country, in the affected countries. And it is 
necessary for some of those countries in the Indian Ocean 
periphery to build from scratch. There's a great deal of 
unevenness in the state of development in those countries, as 
you well know. The most capable countries are already on their 
way toward building systems like ours in their countries.
    Senator Ben Nelson. Were they in the process of doing that 
before this, or is this subsequent to the event?
    Dr. Marburger. I believe that some of those countries were, 
countries like India and Australia and Indonesia, Thailand all 
have important capabilities. And as a result of the meeting 
that I attended last weekend in Thailand, it became clear to me 
that those countries are likely to be the centers. Just as the 
U.S. and Japan and some other countries around the Pacific have 
strong systems, I believe those systems will begin to emerge in 
the Asian nations around the Indian Ocean.
    The U.S. will participate in advising and helping those 
nations to develop strong programs, which include more than 
just the sensing systems. We have a great deal of experience. 
We work closely with the UNESCO IOC, and they are on the scene 
and helping to advise those countries, as well. I believe that 
aid will be required, and that aid will be delivered through 
the normal channels, but, at this time, I can't make an 
estimate of how much might be necessary.
    Senator Ben Nelson. Could somebody else help us? Yes?
    Dr. Bement. I think education and preparation is vitally 
important, especially in being able to do risk and 
vulnerability assessment. It's critically important that there 
be lifelines that are robust and can function under this type 
of a disaster. And I think our field surveys will inform that 
process.
    We're discovering that there are many bridges that were not 
pinned to their support structures, that were washed away. That 
affected, not only food and water supply, but also medical 
evacuation. There are many structures on the coastal regions 
that were not built to earthquake codes. We're still sorting 
out what was earthquake-related and what was tsunami-related. 
Unfortunately, they both reinforced one another.
    But detection is one thing. Casting that detection into a 
suitable warning system based on risk and vulnerability 
assessment that's done before-the-fact, so you can at least 
have an understanding of how much damage can be done and what 
prior preparation would help mitigate the event, I think, is 
critical----
    Senator Ben Nelson. So----
    Dr. Bement.--in this particular instance.
    Senator Ben Nelson.--our ability to detect, without the 
capability to followup, is inadequate in order for these 
countries to be able to respond, even though we may. And I 
suspect that those three buoys will be corrected rather quickly 
in the Alaskan area. I sense the Chairman's----
    Dr. Bement. I think Dr. Marburger, in his----
    Senator Ben Nelson.--interest in doing that, yes.
    Dr. Bement.--Dr. Marburger, in his written testimony, I 
think spelled out all the elements that are needed for a robust 
system, and it involves, not only detection and warning, it 
requires a good response plan, a good recovery plan, and it 
also requires an infrastructure that has lifelines that will 
survive the event.
    Senator Ben Nelson. Now----
    Dr. Groat. Senator, could I--oh, excuse me.
    Senator Ben Nelson. Sure. Yes, Dr. Groat?
    Dr. Groat. Just one particularly challenging aspect of 
this, not only internationally, but domestically, that we all 
have to worry about is the fact that if the rock drops in the 
pond, and the waves come from some great distance, we have 
plenty of time--literally hours, in some cases. And if there is 
a structure in place to get warnings to citizens--news media, 
weather--whatever it happens to be--were in decent shape, 
particularly in the United States. The challenge comes if this 
subduction-zone-caused earthquake-generated tsunami is just a 
few miles off the coast, as it was in the case of Sumatra, 
where we have very little time, then the challenge of getting 
that information, that it is likely to have generated a 
tsunami, into the hands of the response agencies, even when 
they're sophisticated, as they generally are in the United 
States, and then eliciting the proper response from the 
citizens, is a super challenge for all of us. And that's where 
these communication links and education links and programs, 
such as the program that NOAA supports, are so important, and 
the engagement of local governments and regional governments 
and all of the preparedness agencies is so critical.
    So literally you have little time, other than to say 
there's a likely tsunami, the tide gauges and others indicate 
that it may be coming is to--the run-for-your-life business has 
to be communicated very quickly and very effectively. And 
that's a challenge even in our country, where we could probably 
do it pretty well, but in the countries that we were just 
talking about, it's a whole other order of magnitude to do 
that.
    Senator Ben Nelson. Is it possible for us to improve from 
``pretty well'' to ``very well''?
    Dr. Groat. I think we can. I think the Subcommittee you 
described as having created is going to create a much broader 
awareness of the array of natural hazards that we have. 
Tsunamis are certainly one, but earthquakes, landslides, 
hurricanes, all of those things that affect populations very 
quickly, need to be paid attention to, not only from how-they-
occur, when-they-occur warnings systems, but creating that 
education process that puts our populations-at-risk at less 
risk. And I think this Subcommittee can go a long way in 
helping that happen.
    Senator Ben Nelson. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you for your comments.
    If the information we're getting from some people about 
global climate change is correct, we may be in for a lot more 
of these than we anticipate right now, so I think it's 
essential that we take this action. That's why we created that 
Subcommittee.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I wonder if I can 
ask that my longer opening statement be included in the record.
    The Chairman. Sure. It will be.
    Senator Smith. Gentlemen, thank you for being here and for 
considering our implications of S. 50, which is the subject of 
this hearing.
    As a Senator from a coastal state, I'm very mindful that 85 
percent of tsunamis occur in the Pacific. I'm also mindful that 
Oregon is right in the middle of a Cascadia Subduction Zone. 
Apparently, according to your written testimony, Dr. Groat, 
about every few hundred years there's a major shift in this 
zone. And the last time it shifted was in 1700, and that that 
produced a tsunami on the Oregon coast the equivalent of what 
occurred in Southeast Asia. And I understand you're saying that 
there is a 10 to 15 percent chance that that will occur in the 
next 50 years.
    Dr. Groat. That's correct.
    Senator Smith. I guess, on the basis of that, that we're at 
the end of that likely millennial period where we could suffer 
another. I'm wondering if S. 50, and the changes that are 
proposed in that bill, are sufficient to give Oregonians, 
Washingtonians, Californians, and Alaskans the warning time 
that they would need to avoid the kind of devastation we saw in 
Southeast Asia.
    I say that, because I understand that this plate is close 
enough to the coast of Oregon that it would only give coastal 
residents somewhere between 10 to 30 minutes to retreat. Are 
the systems in place to save their lives?
    Dr. Groat. Let me first comment, Senator, from the role 
that the USGS plays in this--and that is that if the upgrades 
that we're talking about in the seismic systems, and the 
ability to interpret the information that would occur from an 
earthquake in the zone you just described, were processed and 
communicated in the way--I think, in a technical sense, the 
bill does recognize the role that we would play in providing 
that information to the appropriate places and to the 
appropriate agencies. I would have to rely on others to comment 
as to whether--once that got communicated, whether there was a 
system in place that would, in fact, warn Oregonians quickly 
enough to respond in the way that I just described.
    Senator Smith. I'm mindful, having come from my state 
legislature, that we have done a great deal of work on this 
issue, but I wonder if you're aware, Are other states on the 
Pacific Coast--are they making sufficient preparations for 
warning systems? I mean----
    General Kelly. Senator, let me address it from the National 
Weather Service point of view. Within the National Weather 
Service, we have a program called TsunamiReady. It is not a 
very complicated program. It is--you ask the coastal community 
to have some point where the warning information could come. 
You ask that that be manned 24 hours a day, 7 days a week. You 
ask that they have developed a communications system to get 
that warning out to the citizens in that community, and that 
they have thought through where we would evacuate the citizens 
to in the event that warning came, and they have some scheme or 
practice schedule to practice evacuations.
    And if they have that, we, in the Weather Service, 
designate them as TsunamiReady. They get a number of big 
placards that go on the state highways and the roadways coming 
in. There's little notes at the bottom of them which says 
things like, ``If you feel the ground shake, get away from the 
waterfront.'' That's applicable in your State of Oregon. We 
work in the state of Washington. It's in the State of Hawaii. 
It's in the state of Alaska. The local forecast offices up and 
down the West Coast work with the local emergency managers.
    I would love to tell you that 99 percent of the local 
communities are enrolled in that TsunamiReady program, but I 
would be misleading you. I think up and down the West Coast 
there may be a combination of 15 cities, slash, counties that 
are in the program.
    So what we need to do is redouble our efforts to start 
working with the local areas, because, in the final analysis, 
the local communities have to be where the action will take to 
get the citizens ready to move out of the way of this event.
    Senator Smith. Are you gentlemen, in your positions, are 
you familiar with the Hinsdale Wave Research Center at Oregon 
State University?
    Dr. Bement. Well, the National Science Foundation supports 
that center, so we're very familiar with it.
    Senator Smith. I had the privilege of touring that with Dr. 
Cox, who will be on the next panel. I hope you make good use of 
it. It is a spectacular facility that certainly taught me a lot 
about tsunamis, long before this one occurred in Southeast 
Asia. And it's a remarkable asset that we have to spread 
information about what we're facing if you live on the coast.
    And I'm wondering about inundation mapping. Can that help 
ensure that coastal residents immediately know when to go and 
what to do? How----
    Dr. Bement. I think that's part of the prevention and 
education. Some of our reconnaissance teams now are trying to 
infer wave heights based on water lines and inundation surveys 
that they're currently doing, because one of the weak points in 
our predictive models are the runup part of the event, where it 
hits the shore. And enclosed bays, estuaries, and the beach 
gradient can have a big effect on how large that wave will be 
when it hits. And those are areas where we need to refine our 
current models.
    Senator Smith. Not only refining the models, but my 
question is, because of what happened in Asia, Do you have 
sufficient funding to complete these inundation mappings? 
Because I think that that--if not, we need to get you the 
money, because people need to know where they can go, in their 
geography, to avoid the wave.
    Dr. Bement. Well, we do need to respond to that in our 
future-year budgets. Currently, we're planning workshops this 
spring and summer to assimilate and understand the data coming 
back from the survey teams. And based on those reports, we will 
be developing longer-range research activities, and we'll 
probably have to incorporate that in our budget for next year.
    Senator Smith. I would strongly urge you to do that. 
Senator Stevens has a lot of sway on the Appropriations 
Committee. And I just think if you need funding for inundation 
mapping----
    Dr. Bement. Well, I did shift some funding for next fiscal-
year request to help address some of that, but it may not be 
adequate.
    Senator Smith. Anything that it needs--you need to make it 
adequate, on behalf of the people of Oregon, please do it.
    Dr. Bement. Thank you.
    Senator Smith. Thanks.
    [The prepared statement of Senator Smith follows:]

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon
    Mr. Chairman, I want to thank you for holding this hearing and for 
including on today's witness list Dr. Daniel Cox from the O.H. Hinsdale 
Wave Research Center at Oregon State University (OSU). I had the 
opportunity to tour OSU's research facilities with Dr. Cox last year. I 
look forward to hearing from him as well as the other panelists. I want 
to thank each of today's witnesses for being here.
    As a Senator from a coastal state, I have a very obvious interest 
in today's proceedings. Eighty-five percent of tsunamis occur in the 
Pacific Ocean. While in the United States we have been fortunate not to 
have experienced destruction on the scale currently seen in southeast 
Asia, the recent tragedy reminds how important it is that our 
communities are prepared in the event that a major tsunami strikes our 
coast.
    Running along the Pacific Northwest--stretching from northern 
California to British Columbia--lies the Cascadia Subduction Zone. 
Research has shown that the Cascadia Subduction Zone has unleashed 
massive earthquakes off the coast of the Pacific Northwest every few 
hundred years. The last such quake occurred in January 1700. This event 
was similar in magnitude to the Sumatra earthquake and sent huge tidal 
waves barreling into the shores of the Pacific Northwest.
    In testimony prepared for today, Dr. Groat writes that ``there is a 
10-14 percent chance of a repeat of the Cascadia magnitude 9 earthquake 
and tsunami event in the next 50 years.'' Scientists estimate that 
given the proximity of the subduction zone to the coast--approximately 
70 miles off shore--it would take a tsunami roughly 10 to 30 minutes 
from the time the fault line ruptured to strike the Oregon coast.
    Warning and detection systems are important, but alone they are not 
enough to protect our coastal communities. Our coastal residents must 
know where to go and what to do when the ground begins to shake. To 
protect the safety of our coastal residents, we must continue to work 
with our state and local partners to accelerate tsunami inundation zone 
mapping and ensure contingency plans are in place for rapid evacuation 
of vulnerable low-lying communities.
    I was pleased to join Senator Inouye, Senator Stevens, and a number 
of my other Senate colleagues last week in introducing the Tsunami 
Preparedness Act of 2005. By improving tsunami detection and warning 
systems, as well as inundation mapping and community outreach and 
education, I am hopeful that this legislation will go along way toward 
helping our coast be better prepared should a tsunami strike. 
Thankfully, these events are rare and the cost of preparing for them is 
miniscule compared to the loss of life and property that could result 
if we are caught ill-equipped.
    Mr. Chairman, I thank you again for holding this hearing and for 
the opportunity to speak. I look forward to learning more from today's 
panelists. I also ask unanimous consent that the testimony of the 
Oregon Coastal Zone Management Association be entered into the 
Committee record.

    The Chairman. Senator DeMint?

                 STATEMENT OF HON. JIM DeMint, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    I'm from South Carolina, so I'm on the Atlantic side, and I 
think what you're suggesting, we're not at nearly as much risk, 
is that what I understand from the panel? Although there may be 
some applications that we need on the East Coast.
    Just a quick question, I guess, to anyone on the panel, in 
the--is, I appreciate the information that you've shared. I 
certainly don't pretend to be anywhere near an expert on what 
you're talking about after a few minutes, but, based on what 
you've told me, I have a--somewhat of a concern that we might 
be quickly expanding antiquated technology in order to cover 
our bases as quickly as we can. The failure rate of these buoys 
is apparently a concern to everyone who's heard that, and it 
doesn't sound like a quick fix or a few new parts is going to 
solve the service problem of these. And my question is simply, 
Has there been a coordinated attempt to look at all the 
technology that's available to see if water-based is really the 
way to go? Are there land-based water-level measurements that 
could go out several hundred miles that could give, 
particularly states like Oregon that expect a very short 
notice, a quicker way to respond than something that's floating 
around in the ocean that may not be working? That would be my 
only question. I think everyone is going to be interested in 
funding whatever works. But from what I've heard today, I'm a 
little concerned that what we may be funding might not be the 
most reliable way to go.
    General?
    General Kelly. Senator, on the observation side, there are 
two components to it. One, there is--there are the DART buoys. 
Larger in number are the tide gauges I mentioned. We're going 
to put some 38 new ones in. There are a number of tide gauges 
up and down the United States coasts today. They serve multiple 
purposes, not just for tsunamis.
    The utility of the DART buoy is, with it being out in the 
deep water, you get an earlier confirmation as to whether a 
tsunami has or has not occurred. On the side that it has not 
occurred, that prevents the number of false alarms from being 
too high. On the fact that it did occur, then you can give more 
positive statements to the citizens that something not very 
nice is coming their way.
    Yes, we have challenges with the DART buoys. We've had 
trouble maintaining them. I would point out that we know of no 
other country in the world that has developed a technology like 
this. The Germans contend they have a system. But the best I 
can determine, no one has ever gotten any data from the system 
and been able ever to see--to operate.
    So I don't want to minimize the technical accomplishments 
that the researchers that have developed these DART buoys have 
made in doing it. And, yes, indeed, we do have some reliability 
problems with them, but when you're dealing with high-tech 
equipment--and I'm not trying to minimize that--that's not an 
unusual thing. It is not our intention to, with all the new 
DART buoys that are going out there, to replicate old 
technology that has given us maintenance problems. We are going 
to try to make it more robust.
    But we believe the data from the DART buoys is an essential 
element of the observing network. It is not the only element, 
as I tried to say earlier. It's regrettable that three of the 
six are down. We still have some capability. We would like to 
have more capability. But we do believe that the DARTs are an 
important part, and we are going to try to make them more 
reliable.
    Senator DeMint. I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I ask that my 
statement be inserted in the record.
    The Chairman. Without objection, it is so ordered.
    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for holding this hearing on the Tsunami Preparedness Act of 
2005. I had an opportunity, in the last 10 days, to visit the 
Pacific Marine Environmental Laboratory in Seattle that is part 
of the NOAA operations. And, first and foremost, I want to 
thank the Chairman and the Ranking Member for their diligence 
on this issue.
    When a crisis happens, you go back and look and see how 
prepared we are to date, and one thing that is very clear to me 
is that Senator Stevens and Senator Inouye, because of 
incidents that have happened in their states, have put a lot of 
energy into focusing on this issue and getting us where we are 
to date.
    I had the chance to see the current DART buoy, and to 
understand the information system that connects to it and how 
it relays information. And I also got a chance to see the next-
generation buoys, which will be much easier to deploy. So I 
have a good sense of where we're heading with the technology, 
which, for taxpayers and security reasons, will be much more 
cost-efficient and reliable. Instead of spending hundreds of 
thousands of dollars on a research vessel trying to go out 
hundreds of thousands of miles to deploy this, we might even be 
able to push them out of an airplane or off of any kind of 
vessel. So we're making good progress.
    That doesn't mean that we, in the Northwest, don't want to 
know when the current buoys are going to be fixed. And I know 
my colleagues have raised these questions already, so I won't 
say anything other than we're very concerned, and we'd like 
them to be, obviously, operational as quickly as possible.
    The one thing that is clear when you see the technology at 
the Pacific Marine Environmental Laboratory is that this act is 
really about the preparedness element. It is about mapping. It 
is, in the sense of what happened in Indonesia, understanding 
that the effects of such devastation basically wipe out roads 
and bridges and they hinder not just evacuation, but also 
support in the future.
    So my question to General Kelly or to Dr. Groat is just, 
How far can--how fast can we get this mapping done? As you 
know, the last time we had a major earthquake was in the year 
1700. A 30-foot-high tsunami smashed into our coastline, and 
the USGS estimates that there is a 10 to 14 percent chance that 
another major Cascadia quake could happen in the next 50 years. 
We're very interested in how soon the mapping could happen. And 
exactly, then, what does the mapping provide us, in the sense 
of local law enforcement and others, regarding the certainty of 
our preparedness efforts?
    Dr. Bement. Senator Cantwell, the field data that's coming 
back will help inform the mapping process. But we currently 
have remote sensors--high resolution, medium resolution, low 
resolution sensors that are actually gathering data in real 
time of the affected regions in this latest disaster. Once we 
assimilate that data, we will be able to accelerate, I think, 
the mapping effort. And by learning through our predictive 
models we can infer what the damage zones would be if such an 
earthquake were to happen, for example, at the Cascadia fault 
line, which is about as large as the fault line in the Indian 
Ocean. The extent. It's almost a similar event.
    As far as timelines are concerned, I'm not at the position 
to really lay that out in any great detail, but I think we're 
going to be much better informed about how to go about doing 
that.
    Dr. Groat. If I could comment, Senator Cantwell, you've hit 
upon a very sensitive point, I think, with both U.S. Geological 
Survey and NOAA. There are several kinds of maps that are 
useful in this process. Inundation maps clearly are important. 
Accurate maps upon which models can be built are important. But 
they depend on, in our case, the topographic maps that show the 
details of the topography on the onshore areas, and, in the 
case of NOAA's responsibilities, the bathymetric maps that are 
offshore. Having the most modern, current information about 
what the land looks like and what the sea bottom looks like is 
really critical to providing the information for inundation 
maps and for providing information to response agencies about 
surges in areas that might be affected.
    I know in our case--and I can't speak for General Kelly--
getting that information as current as it needs to be--many of 
our maps are 27 years old--so that it reflects the coast as it 
is today, and the infrastructure as it is today, is a real 
challenge for us. And if we're talking about funding challenges 
to provide information needed for those efforts, this is one, 
in our case, where the topography--the mapping of the 
topography needs to be modern, needs to be current, needs to be 
digital, so that it can go into the models and into the 
inundation mapping. And I know General Kelly has similar 
concerns.
    General Kelly. I'll just second what Dr. Groat said. It is 
a challenge to get current surveys of the undersea and what the 
shoreline and the surface--sea surface is.
    Senator Cantwell. So are we talking years?
    Dr. Groat. I think the capabilities are there now, with 
LIDAR and some of the technologies that provide information 
about the landscape in digital form, to turn those into digital 
map products, that we don't have to be talking about very many 
years in critical coastal areas. In other words, we're not 
talking about decade-long programs. I think in a matter of a 
few years, with the funding, we could have current, update 
digital information about the areas of the coast that are 
likely to be impacted by this sort of event.
    Dr. Bement. I can say that, if you look at just the area--
the terrain that's above the water level, the inland terrain, 
there are geodetic surveys that are currently underway, some 
involving Caltech, other universities that are involved. And 
that's part of the survey work that's currently going on at the 
present time. Now, how all that geodetic information will be 
factored back into topological maps and update the maps, that's 
outside the science area. That's more than the----
    Dr. Groat. We do have a framework for that, called the 
National Map, and it's an attempt to bring information from the 
sources that Dr. Bement described, and others who are gathering 
relevant digital information about the landscape, into one 
framework so that it is the same around the coast, so we have a 
product that has set standards, set approaches to providing 
this information that everyone can use in a standardized 
fashion.
    So we do have the framework, we do have a lot of 
organizations gathering it. What we don't have is sufficient 
support to gather that information as quickly as we would like 
to have it.
    Senator Cantwell. Well, I think that was the point I was 
trying to draw out. It's not a next-week project, but it isn't, 
also, a 10-year time-frame before we'll have the results we 
need.
    Dr. Groat. Exactly.
    Senator Cantwell. And the sooner that we can get to the 
mapping, the better preparedness plans we'll be able to 
develop.
    I see my time is almost up, Mr. Chairman, but if I could 
just ask another question about inland waterways.
    I think a lot of people think of this tsunami threat as 
unique to coastal regions, but Puget Sound, with its population 
base, cities of Seattle and Tacoma and up the coastline of 
Puget Sound, Bellingham and others, may be as susceptible to a 
tsunami threat as the outer coasts. How do you see the 
inundation mapping efforts helping to prepare large communities 
with, in terms of not just evacuating communities but also 
protecting infrastructure?
    Dr. Groat. I think the mapping is, as you're pointing out 
very accurately, needs to extend into those inland bodies, 
those sounds, those estuaries, those bays, that are accessible 
to the sea, where waves can come in--as they have in all cases 
with these tsunamis, if there is an inlet, they'll come through 
them--and that the infrastructure, as well as the people in 
there, needs to be accurately represented so--on these maps. 
And that's part of the National Map, is to include not just the 
terrain, but the infrastructure that's there--houses, 
buildings, bridges, so forth. And that needs to be as much in 
place for areas facing--you know, areas on these inland bodies 
connected to the sea as it is on the raw coast. And that is 
part of the structure that we're talking about.
    Senator Cantwell. I see. And if I could just throw this 
in--if we had this mapping done prior to December 26, 2004, and 
we knew what was going to happen in Indonesia--which, in fact, 
I know the minute the earthquake happened, people ran to the 
lab at the Pacific Marine Environmental Laboratory in Seattle 
and started trying to model scenarios, but by the time they got 
information, the tsunami was actually hitting--but say we had 
gotten all this mapping done 3 or 5 years ago. What would we 
have done differently in preparing that community?
    Dr. Marburger. Let me say, the main problem in the Indian 
Ocean countries was not the technical warning. The main problem 
was the absence of local public education and local 
communications systems. That was the biggest thing that was 
there. There were warnings available, based on seismic data 
alone, that were transmitted to some spots in the Indian Ocean 
that could receive them and knew what to do, but the biggest 
challenge that we have is to provide infrastructure in those 
nations so that they can educate their people and communicate 
with them when they get the information.
    So while simulations and additional instrumentation in the 
Indian Ocean are important, nevertheless, the most important 
thing is the public education and the identification of the 
critical infrastructure long before the tsunami hits.
    Dr. Bement. One thing that's going to be a major unknown is 
what really changed as a result of the tsunami and the 
earthquakes with regard to the relationship between groundwater 
and surface water and what damage was done to the aquifers that 
may not be reversible. Had that information been baselined, we 
might be able to detect or determine what changes took place. 
Now, that's one thing we can yet do in our own coastal regions, 
is to develop that baseline data, so that we would be better 
informed what possible damage might be done to aquifers and 
other sources of fresh water.
    General Kelly. Senator Cantwell, you put your finger on the 
real challenge. And while the death--the number of deaths pale 
in comparison to what happened in the Indian Ocean, it was a 
very active hurricane season last year. They were, overall, 
very well forecast. The Government of Haiti was provided good 
forecasts and good information on what was likely to happen 
with the hurricane, and they still lost 3,000 of their citizens 
due to flooding. And it's my belief, in large measure, that 
that's tied to the infrastructure challenge that that 
particular government faced. And so, it cuts across all natural 
disasters, and it is a big challenge.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Thank you very much, gentlemen.
    I'll just drop a little pebble in this small bowl up here. 
Do you ever think what would happen if the Madrid fault slipped 
again? I mean, I heard that bells rang in the churches in 
Boston and the Mississippi changed its course. So, I mean, we 
still have problems all over this country. It's not necessarily 
coastline.
    And, second, back years ago, the Navy was building up Adak, 
and we finally ended up with about five different naval bases 
on that little island. We built a tsunami-proof shelter. We 
didn't build any more, because of the cost of that one. But 
there are things we must think about, and that is, can we get a 
tsunami-proof shelter in the areas where they might be needed? 
I would--I hope that our Subcommittee that we're going to 
create will go into things like that.
    And we look forward to working with you, but we're very 
serious about this coordination thing, now, and I hope you will 
help us by giving us your ideas of, what could we do to assure 
that there would be proper notification to all the public 
sources that would help disseminate news.
    [The prepared statement of Senator Cantwell follows:]

   Prepared Statement of Maria Cantwell, U.S. Senator from Washington
    Thank you, Mr. Chairman.
    And thank you for holding this hearing and for championing this 
critical bill. Your leadership and foresight--along with that of 
Senator Inouye--created the existing tsunami warning system, and I look 
forward to working with you to further upgrade and modernize this 
essential service.
    Mr. Chairman, the loss of life and infrastructure incurred as a 
result of the recent tsunami in the Indian Ocean provides a jarring 
reminder of the need to evaluate the risk of tsunamis to our own 
coastal populations.
    That's why this well thought out bill, developed in cooperation 
with the Administration, is so important. I am pleased to be a 
cosponsor of it.
    I recently visited the Pacific Marine Environmental Laboratory in 
Seattle, which provides research support for all aspects of the U.S. 
tsunami program. While I was greatly impressed with their work, I also 
learned that we can and must do more.
    Whether it is developing more reliable monitoring buoys, or 
improving our nation's vulnerability assessments, more resources are 
needed.
    I also learned more about the massive Cascadia fault that lies off 
the coasts of Washington, Oregon, and Northern California and the fact 
that it is similar in size and geologic character to the fault that 
produced the devastating Indian Ocean tsunami.
    A major Cascadia earthquake--the last which occurred in the year 
1700 and led to a 30-foot high tsunami smashing into Washington's 
coastline--could happen at any time. The U.S. Geological Survey 
estimates there is a 10 to 14 percent chance of another major Cascadia 
quake within the next 50 years.
    Since a Cascadia-generated tsunami would allow for only 10 to 20 
minutes of warning, I am pleased that this legislation includes 
community-based tsunami hazard mitigation program and an acceleration 
of critical vulnerability assessments and inundation maps. This 
information is critical for coastal communities to plan for future 
tsunami events.
    I'd also like to thank Senator Inouye and Stevens for accomodating 
my request and including language in this bill that requires an 
assessment of tsunami risks in vulnerable inland bodies of water. 
Earthquakes within the Puget Sound have historically produced 
significant tsunamis, which today would cause significant flooding 
along the waterfront of Seattle and other inner coastal communities.
    So again, Mr. Chairman, thank you for holding this hearing. I fully 
support the Tsunami Preparedness Act and believe it is essential if we 
are to prevent the devastation caused by the Indian Ocean tsunami from 
one day becoming realty on our coasts as well.

    Senator Inouye?
    Senator Inouye. I just wanted to clarify the record. In 
November of 2003, one of the DART buoys issued data and 
suggested that a massive tsunami was on its way to Hawaii. But 
thanks to the efficiency of NOAA, they immediately clarified 
the data and suggested it was not hitting us. And we've 
calculated that it saved the State of Hawaii about $70 million; 
otherwise, we would have spent all that money. So I want to 
thank you very much.
    And, Mr. Chairman, may I submit written questions?
    The Chairman. Yes. *
---------------------------------------------------------------------------
    * Written questions and responses are printed in the Appendix.
---------------------------------------------------------------------------
    The Chairman. I'd appreciate it if you would respond to 
questions that will be submitted by the individual Senators. 
And, again, we thank you, gentlemen, for joining us. We 
consider this to be a very important first hearing.
    We'll now turn to the second panel--or maybe the third 
panel, Dr. Roger Hansen, Professor of the University of Alaska 
in Fairbanks, the Director of the Tsunami Warning and 
Environmental System for Alaska; second, Ms. Eileen Shea, 
Project Coordinator of the East West Center, of Honolulu, 
Hawaii; and, third, Dr. Daniel Cox, the Director of the 
Hinsdale Wave Research Laboratory at Oregon State University.
    Senator Smith has a conflict, so, as a matter of courtesy, 
Dr. Cox, we're going to call on you first.
    We do hope that you all will give us a summary of your 
statements, or at least shorten them somewhat, but all of your 
statements will be printed in the record as though read.
    Senator Smith. Mr. Chairman?
    The Chairman. Senator Smith?
    Senator Smith. May I thank you for that courtesy and also 
welcome Dr. Cox. He has taken the redeye to be here. Senator 
Cantwell and I know that flight very well. Welcome.
    The Chairman. Dr. Cox, I welcome you. I left Oregon State 
College to go to war, some 50-odd years ago. Nice to see you 
here.

   STATEMENT OF DR. DANIEL COX, DIRECTOR, O.H. HINSDALE WAVE 
          RESEARCH LABORATORY, OREGON STATE UNIVERSITY

    Dr. Cox. Thank you very much, Mr. Chairman and Members of 
the Committee, for this opportunity to discuss the research 
that we're doing at Oregon State in the Hinsdale Wave Research 
Laboratory. I'm the director of that laboratory, and also 
associate professor in civil engineering.
    We are home to the world's largest facility specifically 
constructed for tsunami research, and I'd like to give you, 
just, sort of briefly, the history of it, just to show you that 
this has been many, many years in the making, planning long 
before I got there. I've only been there for about 2\1/2\ 
years.
    And I'd also like to tell you just, sort of, how the 
tsunami community has come together, a little bit about what 
we're learning about today's--the recent events, and then how 
we're trying to improve the nation's ability to respond to 
tsunami disasters, emergency planning, and so on.
    In the 1990s, there was a series of NSF workshops to decide 
what are the nation's needs for tsunami research. And, as a 
result of these workshops, there was a proposal to come up with 
a very large wave basin. This is a large rectangular concrete 
basin that can very accurately repeat a tsunami-like wave. It's 
called a soliton. And the main purpose of this facility is to 
provide proof that the numerical models are working well. We've 
heard a lot of testimony today talking about inundation mapping 
and the reliance on these maps for telling people where to go, 
directing them, deciding what kind of infrastructure will be in 
place after the tsunami event happens, and so on. But all of 
these computer models have to be tested very carefully before 
we rely on them.
    And we use, to some degree, the fieldwork that's been done, 
trying to piece together the clues from the site reconnaissance 
surveys. But they don't have enough information. They don't 
give you the wave height, the wave direction in all locations. 
And so, we can very accurately make physical models with very 
carefully controlled conditions, and then compare the results 
of the physical models with what the numerical models predict. 
And that's how we use our facility.
    We also use it as a sort of a center for the research 
community. It's a great place where people gather and share 
ideas, exchange information. We had two of our professors going 
to Madras, to India, to look at the survey, the damage, and 
then they'll come back, share their results, hold a series of 
seminars, and so on. So it's also provided a great focal point 
for the research community.
    There was also a report published by the National Research 
Council for the NEES program. And, in that report, it outlines 
very specifically what are the challenges for the research in 
our areas--and that includes better understanding of the 
tsunami inundation that we heard about earlier today--and also 
the tsunami impact, what happens when that wave hits buildings 
and bridges and other critical lifelines that would be 
necessary in an evacuation.
    The long-term goal is really to develop a comprehensive 
numerical model that includes not only the hydrodynamics of the 
wave and the wave impact and the debris flow, but also includes 
human factors--how people will respond in a crisis--and this 
will greatly improve our ability to plan for tsunami attacks--
tsunami disasters.
    So I just--I'd like to finish here and just say that I 
think we have an extremely unique tool here for the Nation to 
use. It's a shared-use facility. It's hosted at Oregon State, 
but it's really designed with a number of researchers in mind. 
We bring them here, we do the--the research--the tsunami 
research is supported by the National Science Foundation. So if 
their proposals are accepted, then their work is supported in 
our lab for free, or by the National Science Foundation.
    And, yeah, with that, I'd be happy to answer any questions 
that you might have.
    [The prepared statement of Dr. Cox follows:]

  Prepared Statement of Dr. Daniel Cox, Director, O.H. Hinsdale Wave 
              Research Laboratory, Oregon State University
    Thank you, Mr. Chairman and Members of the Committee for the 
opportunity to discuss how research will continue to improve our 
nation's ability to deal with tsunami risks. I am Daniel Cox, Director 
of the O.H. Hinsdale Wave Research Laboratory at the Oregon State 
University College of Engineering, home to the world's largest and 
most-wired facility specifically designed for tsunami research.
    Today, I would like to provide some information on how this new 
Tsunami Wave Basin facility is helping this country better prepare for 
the next tsunami scenario, including development of more effective 
tsunami warning systems, safer evacuation routes and procedures, and 
better building and bridge design.
    As mentioned in previous testimony and elsewhere, advanced 
numerical models are essential for tsunami mitigation and evacuation 
procedures. These simulation tools have been developed at research 
universities like Oregon State over the past several decades. The 
guidance and validation of these models, especially the inundation 
process of the tsunami wave impacting the coast and flowing over the 
land, has been achieved through careful comparison with laboratory 
studies. It is important that we continue to use the latest numerical 
techniques to improve their predictive capability and systematically 
test their accuracy with benchmark data before we rely on them for 
emergency planning, zoning, and construction guidelines.
Background on the Development of the Next-Generation, Shared-Use 
        Facility for Remote Tsunami Research
    In the 1990s a series of NSF-supported workshops were convened by 
the tsunami research community to determine the needs for supporting 
the further development of tsunami research and numerical models. These 
workshops led to a document that outlined the requirements of a large 
wave basin, capable of generating solitons (or solitary waves which 
have tsunami-like behavior). In addition to the physical requirements 
and instrumentation of the new facility, the workshops stressed 
collaboration and a close integration of physical experiments and 
computer simulations through data sharing and research guidance based 
on field work and practical applications. Many of the researchers who 
participated in these early workshops were also actively involved in 
post-tsunami surveys, for example in Nicaragua, Indonesia, and Papua 
New Guinea. Their graduate students have gone on to successful careers 
at places like the NOAA's Pacific Marine Environmental Laboratory to 
work on tsunami inundation mapping.
    In the late 1990s, the need for a tsunami wave basin was recognized 
at the NSF, and funding for up to two facilities was included in the 
initial call for proposals in the first solicitation of the George E. 
Brown Jr. Network for Earthquake Engineering Simulation (or NEES) 
program. Through a competitive proposal process, Oregon State 
University was awarded a $4.8M grant, which was augmented by 
approximately $1.2M from the Oregon State University College of 
Engineering. One of the first steps was to establish an advisory board 
of tsunami experts, coastal engineers, and computer scientists from 
universities such as Cal Tech, Cornell, USC, and Delaware, as well as 
government agencies including NOAA. A second step was to actively 
engage the tsunami and coastal research community for input on the 
design of the new facility, instrumentation, and data sharing 
requirements. In parallel with this, the Principle Investigators of the 
tsunami project at Oregon State continued to work with the entire NEES 
consortium. The NSF funding also helped the OSU College of Engineering 
attract a world-class team of tsunami experts, computer scientists, and 
ocean engineers who appeared in many national media reports following 
the Asian tsunami last December. Construction of the new facility was 
completed ahead of schedule and commissioned during a ceremony on 
September 13, 2003. The Tsunami Wave Basin at Oregon State University 
was selected as one of four out of 15 NEES sites showcased in the NSF's 
live demonstration of the NEES program in November, 2004.
    The Tsunami Wave Basin facility itself (Figure 1) is a large, 
rectangular basin, measuring 160 ft. long by 87 ft. wide by 7 ft. deep 
(48.8 m x 26.5 m x 2.1 m) with a wavemaker consisting of a series of 
programmable wave boards at one end. These paddle-like wave boards can 
be programmed to move in a carefully prescribed motion that generates a 
soliton (or solitary wave), which is a simplified form of a tsunami. At 
the end of the basin opposite of the wavemaker, researchers install 
contoured terrain characteristic of coastal features, such as bays or 
points of land. On this terrain, researchers can place models of 
coastal infrastructure such as bridges and buildings, for example, 
instrumented with sensors to measure the impact of the wave or debris. 
It is important to note that although the soliton is a simplified 
representation of the tsunami, it is complex enough to provide a strict 
test for numerical models. In other words, if a numerical simulation 
can not reproduce the simplified conditions of the laboratory, it will 
have little use as a decision-making tool. In addition to the 
construction of the physical basin, the NSF grant provided for the 
development of cutting-edge information technology (IT) infrastructure. 
This IT infrastructure assists in experimental planning, archiving, and 
sharing of data. It also enables researchers anywhere in the nation to 
remotely participate in experiments in real-time, saving travel costs 
and speeding research.
Grand Challenges for the Network for Earthquake Engineering Simulation 
        (NEES) and Tsunamis
    A National Research Council report published in 2003 outlines the 
challenges in earthquake engineering as well as a research agenda for 
the NEES program, including tsunamis. The report provides the 
historical perspective of tsunami research, critical knowledge gaps, 
and outlines short-term and long-term research goals.
    The report recommends that:

        ``A complete numerical simulation of tsunami generation, 
        propagation, and coastal effects should be developed to provide 
        a real-time description of tsunamis at the coastline for use 
        with warning, evacuation, engineering, and mitigation 
        strategies.''

    The short-term goals outlined in this report include:

        1. Better understanding of tsunami inundation--how the wave 
        travels over dry land.

        2. Better understanding of sediment transport under tsunamis.

        3. Quantify the impact forces of the tsunami wave and debris on 
        structures.

        4. Determine the effects on buildings and groups of buildings.

        5. Work with the National Tsunami Hazard Mitigation Program 
        (NTHMP) to refine research needs to best support NOAA's 
        mission.

    Medium-term goals include:

        1. Verify and validate numerical models for defining runup 
        limits.
        2. Work with the geotechnical community to study the mechanics 
        of landslide generated tsunamis.

    The long-term goal is summarized as:

        Develop comprehensive, interactive scenario simulations that 
        integrate the physical aspects (generation, propagation, 
        inundation) with societal issues such as transmission of 
        warnings to the public, evacuation, environmental impacts, 
        rescue tactics, and short-term and long-term recovery 
        strategies.

What is the Role of the Tsunami Wave Basin for Future Tsunami 
        Disasters?
    The intended purpose of the Tsunami Wave Basin at Oregon State 
University is to provide the research community with a controlled 
environment for the systematic study of primarily tsunami inundation 
and tsunami generation from landslides.
    Post-tsunami (reconnaissance) surveys provide new insights and 
valuable lessons learned about the real effects of the actual events. 
However, it is impossible to collect sufficient and accurate data from 
surveys to improve numerical models because the data/information are 
ephemeral and difficult to obtain. There is no way to make advance 
preparations to obtain data since it would be a formidable task to 
install a sufficient number of sensors in the field prior to a very 
unpredictable and rare tsunami event. For example, the speed of the 
wave is an important variable when considering evacuation or the safe 
design of buildings or bridges, but this data are rarely available. 
Wave height and direction are also extremely important but elusive 
quantities.
    All numerical models require known boundary conditions and initial 
(or starting) conditions. Because we have almost no quantitative 
information about the real tsunami as it approaches the shore, we can 
not properly prescribe the initial condition, and therefore we can not 
easily compare the damage at the site to the damage predicted in the 
model. The laboratory, however, provides us with a tool that can 
provide boundary and initial conditions as well as the resultant force 
of the tsunami as it impacts the coast. We can prescribe the same 
initial condition to the numerical simulation and then through 
comparisons with laboratory data, we can verify (or refute) the 
accuracy of the simulations. The increasing computational speed of 
numerical simulations has shown that we can simulate large geographical 
regions with complex shapes. The remaining questions are the accuracy 
of these simulations and inclusion of realistic features such as wave-
impacts and debris flows.
Development of Collaborative Tools for Natural Hazards Mitigation
    We have been developing three separate but closely related research 
programs on integration of hazard mitigation tools and information: (1) 
tsunami scenario simulations, (2) computational portal, and (3) tsunami 
digital library. These activities heavily rely on the advanced 
information technologies, and have direct impacts on hazard mitigation 
practice.
Scenario simulations:
    An alternative to a full-scale field investigation is to perform 
repeatable and precisely controlled ``scenario'' simulations. A 
scenario simulation means a case study, either in a real or 
hypothetical background setup. Tsunami phenomena and effects are 
simulated for given geographical, seismological, geological, and 
societal conditions. Simulations must be comprehensive and integrated 
not only in tsunami generation, propagation, runup motion (flow 
velocities and inundation) and flow-structure interactions, but also 
other types of simulations such as warning transmission to the public, 
evacuation, environmental impacts, rescue tactics, and short-term and 
long-term recovery strategies. The simulation exercises should include 
physical models, numerical models, informatics, human behavior, 
communication simulations, and other exercises that will integrate the 
tsunami source with its eventual effects on communities and the 
environment. This activity is by nature a multi-university, multi-
community, and multi-disciplinary effort. The goal is to provide damage 
estimates based on best available information, ultimately leading to 
earthquake related risk analysis/assignment for an urban region and to 
provide a rich problem-solving environment for the education of 
students. A tsunami simulation scenario must actually expand this 
concept to include the modeling of human behavior, since a primary 
emphasis of tsunami hazard mitigation is not only minimization of 
structural damage but also the saving of lives through evacuation. It 
is emphasized that this type of work must be collaborative. The 
collaboration with only a few researchers is insufficient; the entire 
community involvement is essential for the success.
Tsunami digital library:
    In recent years, the Internet has become the primary source of 
information and data. Before the Internet, the challenge was limited 
access to information and data. Now the problem is locating information 
relevant to their discipline and validating the quality of such 
information. Existing web search technologies are insufficient to 
retrieve information that is relevant to a particular scientist's 
context and guaranteed to have some level of quality assurance. New 
technology for information search that addresses both quality and 
context will substantially increase the effectiveness of scientists 
studying natural hazards and their mitigation, enabling greater 
understanding of hazards and more effective preparedness and response.
    Such information and data are highly diverse, and serve a very 
diverse community. The unique information challenges presented by 
tsunamis, the history of research collaboration among the tsunami 
scientific community, and increasing public awareness of the danger to 
life posed by natural hazards combine to make tsunamis an obvious focus 
for the first digital library of natural hazard information. The 
software components to be developed as part of this project will be 
used to develop digital libraries for other natural hazard domains.
Computational portal:
    Numerical modeling is an essential tool for advancing our 
understanding of natural hazards, allowing us to study hazard 
characteristics, impacts, and prediction. At the same time, highly 
sophisticated models impose complex requirements for data, 
computational resources, and knowledgeable interpretation. Typically, 
it is individual researchers and mitigation personnel who must grapple 
with these problems. We are developing a coordinated, Web-based 
environment for sharing knowledge about tsunami prediction and 
mitigation. It will provide points-of-entry through which users can 
access computational models without the difficulties usually involved 
in managing data, computing resources, and other operational 
requirements.
Summary
    The Tsunami Wave Basin at Oregon State University provides tsunami 
researchers with a unique tool to develop and test the next-generation 
of numerical models for tsunami simulations. The basin is designed as a 
shared-use laboratory, meaning that is researchers from around the 
country can access it through the Network for Earthquake Engineering 
Simulation program supported by the National Science Foundation through 
2014.
    I would be happy to answer any questions you might have.


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Thank you very much.
    Senator do you have any questions? I'd be pleased to yield 
to you.
    Senator Smith. Thank you very much, Senator.
    Dr. Cox, thank you for being here. I very much enjoyed the 
tour that you gave me. Having listened to today's testimony--
and yours, as well--I'm curious as to your thoughts, if you've 
had a chance to review S. 50 and the Administration's proposal 
from an academic perspective. Do you see these proposals as 
adequate, in terms of research, mapping, and education? Do you 
think--is this a sufficient step forward?
    Dr. Cox. I think it's a step in the right direction, and I 
think the points that are outlined today, the importance of 
education--once you have a warning system, and you tell 
people--you've got to tell them what to do, and they have to 
know how to respond. There's no time to educate them during the 
time of crisis. So I think these are all steps in the right 
direction.
    We've talked about inundation mapping. The future of 
inundation mapping is really trying to start to measure the--or 
map the intensity of the event, not just where the last water 
line is. And the intensity is really related to whether or not 
a building is going to withstand the attack or not. So there's, 
I think, a lot more work that we need to do to better prepare 
ourselves for the inevitable tsunami.
    Senator Smith. Thank you, Dr. Cox, for being here, and, Mr. 
Chairman, for your courtesy. I appreciate that.
    The Chairman. Thank you, Senator.
    May we proceed, then? Ms. Shea?

  STATEMENT OF EILEEN L. SHEA, PROJECT COORDINATOR, EAST-WEST 
                    CENTER, HONOLULU, HAWAII

    Ms. Shea. Thank you, Mr. Chairman, Senator Inouye, Members 
of the Committee. It's my honor to be here today, and thank you 
for the invitation to talk about S. 50, the U.S. Tsunami 
Preparedness Act, as well as your general interest in building 
disaster-resilient coastal communities.
    I first sat in this hearing room over 30 years ago, as a 
NOAA employee, in Congressional Affairs, and I believe that S. 
50 represents just another step in your long legacy in this 
Committee of commitment to the coastal communities, the coastal 
resources, and the coastal businesses of this nation. And, 
therefore, it is an honor to be here.
    I'd actually like to just touch on three things, in 
particular, and they have all come up, in one form or another, 
today.
    The first is, I want to commend the Committee for taking a 
multi-hazard perspective on this bill and on building our 
resilience to tsunamis and other natural hazards. The same 
coastal communities in Southeast Asia and along the United 
States that are subject to tsunamis are also subject to other 
natural disasters--coastal flooding, typhoons, hurricanes, high 
wind and wave events. All of those events have the potential to 
threaten life and property, and all of those events are things 
that we need to address if we're going to build what I like to 
call an effective risk-management information system.
    I believe that S. 50 and much of the discussion in the 
testimony today is headed in the direction of building that 
kind of risk-management information system, but I'd like to 
pick up on something that, Senator Inouye, you mentioned in 
your opening remarks, Senator Cantwell has, Senator Nelson has, 
others have mentioned, the idea of focusing on the receivers of 
these informations. It really doesn't matter how accurate and 
how efficient the arm of a quarterback is. If there isn't a 
person at the other end waiting to receive it, and a team of 
people--NGOs, the media, the civil-society community leaders, 
the governments, at a local level--a team of people who can 
help get that individual down the field and in the end zone.
    It is essential, if we are to pursue building disaster-
resilient coastal communities, that we do focus on those 
receivers of this information. An effective warning system, 
like we've heard discussed by many of the panelists today, is a 
part of that information system, but we really must invest in 
that education program.
    And TsunamiReady communities is a good example of helping 
to reach out to communities and prepare them, but it's only 
part of the picture. And we've heard several witnesses today, 
as well as several of the Members, talk about the broader 
education effort, formal and informal education, technical 
training, and also leadership training, building the next 
generation of leaders of these institutions that will be 
responsible for warning and response.
    The second element of a--for me--of an effective risk-
management system is this concept of a better understanding of 
vulnerability and our choices for adaptation, our choices for 
building resilience. We've heard much talk today about these 
inundation maps. These are parts of tools for understanding how 
exposed we are to a risk. How sensitive are we to a risk? The 
other part of the equation is, how prepared are we to deal with 
that? How resilient are we? How much like those palm trees that 
Senator Landrieu mentioned are we, are our businesses, our 
infrastructure, our key economic sectors, and the people in our 
communities who call the coastal zone ``home''? Building that 
partnership, building those--that understanding of 
vulnerability, and our ability to adapt is an essential part of 
what we're about.
    I think that it's important to remember that building this 
understanding of vulnerability is not just a matter of funding 
a few socioeconomic studies. It's about establishing a new way 
to doing science. It's about participatory research in which 
the decisionmakers and the community leaders and the scientists 
and the technical experts work together in a process of shared 
learning and joint problem-solving.
    It's also important to remember that this is probably best 
done at a regional level. One size does not fit all when it 
comes to education programs, warning systems, or adaptation. 
It's really important, I think, as we consider the next steps, 
that we consider the regional effect.
    And, finally, it's important to build critical 
partnerships. I don't have to add much to the discussion today 
about the international partnerships involved in the tsunami, 
but I will mention that--and thinking about those receivers 
again--that one institution that wasn't mentioned in the 
tsunami arena is the International Tsunami Information Center 
in Honolulu, which is the focus of the receiving-education--
reaching out, education and training both in the U.S. and 
abroad.
    Finally, I would like to touch on a regional activity. 
There is, in the Pacific now, something called the Pacific Risk 
Management Ohana. ``Ohana'' means family. ``Ohana'' means 
working together. Three years ago, under the leadership of the 
NOAA Pacific Services Center, all of the federal agencies in 
the Pacific Islands region who work in disaster management sat 
around a table together to talk about better coordinating the 
work that they do. As a result of that initial meeting, the 
scientific institutions active in risk management in the 
Pacific, the Federal agencies active in risk management in the 
Pacific, and state and local entities and organizations are all 
now acting together in the context of PRiMO, a coordinated 
effort on the part of all of those interested institutions to 
work together.
    In one way, it's an example of the kind of coordination 
that you're calling for in S. 50. In other, it's a reflection 
of how important it is to do this at the regional level, 
because it is at the regional level where we can work together, 
touch each other in ways that the Majority Leader mentioned 
today. It's about understanding the people, the resources, and 
the businesses in these communities. And I think we're on our 
way.
    Thank you for the opportunity. I'll be happy to answer any 
questions.
    [The prepared statement of Ms. Shea follows:]

 Prepared Statement of Eileen L. Shea, Project Coordinator, East-West 
                        Center, Honolulu, Hawaii
    Mr. Chairman, Senator Inouye, Honorable Members, ladies and 
gentlemen, ALOHA and thank you for the opportunity to share some 
thoughts on the U.S. tsunami warning system and enhancing our efforts 
to build disaster-resilient coastal communities in the wake of the 
December 2004 Indian Ocean tsunami. Your initiative and leadership in 
this endeavor is crucial and is an important next step in this 
Committee's longstanding legacy of commitment to the communities, 
businesses and natural resources that call the coastal zones of the 
world home. According to the Global Forum on Oceans, Coasts and 
Islands, coastal areas (within 60 km of the shoreline) are home to 50 
percent of the world's populations and two-thirds of the world's 
largest cities are located on coasts. The final report of the U.S. 
Commission on Ocean Policy notes that approximately 52 percent of the 
U.S. population resides in coastal counties which constitute 25 percent 
of the U.S. land area and include economic activities that contribute 
approximately $4.5 trillion (roughly half) of the Nation's annual GDP. 
I am honored by your invitation to contribute to your deliberations. My 
thoughts today are based largely on my work in climate vulnerability 
assessment and risk management in the Pacific, including the use of 
climate forecast information to support decision-making.
    The tragic loss of life and property associated with the December 
2004 Indian Ocean earthquake and tsunami highlights the complex and 
close relationship between achieving national development goals and the 
ability to anticipate, prepare for, respond to and recover from natural 
disasters. Increasingly, international and regional development bodies 
like the United Nations Development Programme, the World Bank and the 
Asian Development Bank are recognizing that effectively managing the 
risks associated with natural disasters such as tropical cyclones, 
coastal inundation from storm surge, droughts, floods and geologic 
hazards such as earthquakes and tsunamis, is an essential component of 
an effective, long-term development strategy.
    It is important to remember that the same nations that suffered the 
greatest impacts from the December 2004 tsunami are also highly 
vulnerable to other natural disasters. Typhoons, floods, and high wind 
and wave events are frequent visitors to the same coastal communities 
affected by the recent tsunami. As we take steps to reduce the 
vulnerability of coastal communities to high-impact, low-frequency 
events such as future tsunamis, we should also be strengthening their 
resilience in the face of other, more frequent and often devastating 
natural disasters including weather and climate-related extreme events 
such as hurricanes and typhoons, floods, landslides, drought and high 
wind and wave events. In other words, a comprehensive, multi-hazard 
approach is needed that establishes the social (human, institutional 
and political) as well as scientific and technical infrastructure 
necessary to anticipate and manage risks. If we focus only on the 
tsunami hazard itself, I fear that we will be like the proverbial 
general planning for the past war.
    In the 2004 World Disasters Report: Focus on Community Resilience, 
the International Federation of Red Cross and Red Crescent Societies 
advocates a stronger emphasis on proactive, people-centered approaches 
to building resilience--rather than simply understanding and describing 
a community's vulnerability to natural and man-made disasters. In this 
context, the 2004 report highlights the importance of ``understanding 
the ability of individuals, communities or businesses not only to cope 
with but also to adapt to adverse conditions and to focus interventions 
at building on those strengths'' with an emphasis on risk reduction and 
development work. I commend your Committee for emphasizing a 
comprehensive, longer-term approach in your initial planning for an 
effective U.S. response to the December 2004 tsunami. In this context 
and in light of other testimony, let me highlight the particularly 
important elements of such a program. These elements include:

        First, building information systems that support pro-active, 
        comprehensive risk management;

        Second, improving understanding of vulnerability and effective 
        adaptation strategies; and

        Third, establishing and sustaining the critical partnerships 
        required to develop disaster-resilient coastal communities.

Comprehensive Risk Management Information Systems
    Following the December 2004 disaster, we all focused on what could 
have been done to prevent such an awful loss of lives. Immediate 
attention was, appropriately, given to the technical systems that can 
provide the basis for more effective advance warning of future 
tsunamis. The expansion of seismic and ocean monitoring programs, the 
establishment of warning centers and the improvement of communications 
infrastructure to disseminate warnings and alerts are all critical and 
should be pursued aggressively. In this context, I would like to 
reinforce the importance of providing warnings and forecasts in 
language and formats that are accessible, understandable, useful and 
usable. In many parts of the U.S. and the world, this will involve 
translation into local languages and the use of relatively simple forms 
of communication such as radio, phone, facsimile and visual and 
auditory cues (such as warning flags and sirens) as well as the 
involvement of trusted, local knowledge brokers such as NGOs, 
religious, civic and, in the case of indigenous populations, 
traditional leaders and teachers. As we saw with the Indian Ocean 
tsunami, many of the most vulnerable populations lived in remote 
communities without access to the communications infrastructure of 
large urban centers. Reaching these communities remains perhaps the 
biggest challenge for disaster warning systems. Meeting that challenge 
should be of the highest priority as we move toward a pro-active risk 
management information system since the system will only be effective 
if it reaches those in danger.
    Decades of natural hazards research, responding to weather extremes 
as well as my own experience in exploring adaptation to climate-related 
extreme events in the Pacific suggests, however, that good 
international and local warning systems are only one part of an 
effective risk management information system. As a colleague of mine 
pointed out recently, a successful pass in the NFL requires not only a 
skilled quarterback but a skilled receiver who not only knows where on 
the field to be to catch the ball but also what he's expected to do 
once he has the ball. In addition to knowing that more effective 
warnings are produced and disseminated, we should also be concerned 
with enhancing the knowledge, skills and capabilities of the receivers 
of those warnings including disaster management agencies and other 
national and local government officials, community and business 
leaders, NGOs and other key elements of civil society such as women's 
and youth groups and, ultimately, the public.
    The concept of enhancing public awareness is, of course, not new in 
the disaster management world. There is a strong foundation of ongoing 
disaster preparedness education programs underway funded by a number of 
U.S. Government agencies (e.g., NOAA, FEMA, USGS), other national and 
local governments; scientific and educational institutions as well as 
regional and international organizations and technical institutions. 
NOAA's Tsunami Ready Communities program is a good example of this 
existing foundation. I hope that our response to the Indian Ocean 
tsunami will provide us with an opportunity to strengthen those 
programs and expand their focus beyond warning and immediate response 
to include a broader public awareness of the social, institutional and 
political challenges associated with building more disaster-resilient 
coastal communities.
    In this context, warning and communications system improvements 
should be accompanied by a broad education program designed to enhance 
the cadre of individuals and institutions in the region capable of 
assessing vulnerability, communicating warnings and managing risks 
associated with natural disasters. Such a program should include:

  <bullet> Targeted technical training to increase awareness of recent 
        scientific developments in key hazard areas (e.g., tsunamis, 
        weather extremes, climate variability and change) and make new 
        tools and technologies in vulnerability assessment risk 
        management decision support available to a wider Asia-Pacific 
        community;

  <bullet> Leadership training programs in risk assessment and 
        management for representatives of government agencies, 
        businesses, universities, NGO's, and coastal communities; and

  <bullet> Formal and informal education programs and materials to 
        broaden public awareness and understanding of disaster risk 
        reduction challenges and opportunities by introducing them to 
        the multi-disciplinary suite of issues involved in development 
        and implementation of risk reduction strategies. Such a program 
        would recognize the importance of knowledge of local 
        communities and cultures as well as the technical aspects of 
        risk assessment and management including: environmental science 
        and technology, land use planning, health, civil society, and 
        cultural aspects of leadership, problem solving and decision-
        making.

    As we move forward, we also need to more effectively engage the 
media as a critical component of an effective, comprehensive risk 
management information system.
Understanding Vulnerability and Promoting Enhanced Resilience
    An effective risk management information system also requires a 
better understanding of the multi-hazard vulnerability of coastal 
communities with an emphasis on strengthening the resilience of 
critical infrastructure, key economic sectors, valuable natural 
resources and, most importantly, the people who call those communities 
home. As some of today's witnesses have suggested, the provision of 
high-resolution imagery, geospatial (GIS) technology, risk and 
vulnerability maps and model-based decision support tools are important 
elements of work in this arena. I encourage the Committee to complement 
these traditional vulnerability assessment tools with an integrated 
program of research and dialogue focused on building disaster-resilient 
coastal communities that would draw on the broad multi-disciplinary 
expertise of and technical capabilities of partners in government, 
academia, business and civil society. Such a program would recognize 
the connections among social, economic and environmental goals to 
reduce significant risks and build sustainable communities. In our 
internal deliberations following the tsunami, my own organization, the 
East-West Center, has decided that the multi-hazard approach to 
building resilience in coastal communities is the framework in which we 
will organize our post-tsunami program.
    Emphasizing a multi-hazard approach to comprehensive risk 
management such a program might include:

  <bullet> Targeted research to improve our understanding of the links 
        between disaster risk reduction and sustainable development; 
        assess vulnerabilities for key sectors, resources and 
        populations; identify and explore opportunities to minimize the 
        economic and social impacts of disasters; support the 
        integration of traditional and local knowledge and practices 
        with new scientific insights and technology to enhance risk 
        management and adaptation; and explore local, national and 
        regional governance options for effective risk management;

  <bullet> Enhanced risk reduction information services including the 
        provision of high-resolution imagery, geospatial (GIS) 
        technology and model-based decision support tools as well as 
        support for local, regional and international discussions to 
        support the emergence of an effective, multi-hazard warning and 
        disaster risk management systems at local, national, regional 
        and international levels; and

  <bullet> Dialogue on local, national, regional and international 
        governance options for effective risk management--exploring how 
        to better coordinate the roles of government, civil society and 
        local communities in disaster warning, response and risk 
        reduction.

    This last item reflects the importance of using a collaborative, 
participatory approach that effectively engages the scientific 
community and decision-makers in a process of shared learning to 
understand vulnerability and enhance resilience. Returning to my 
earlier football analogy--as we all know, that successful long pass 
requires more than just the quarterback and his receiver; it requires a 
team of individual players and coaches each contributing their special 
talents and unique expertise as part of a coordinated team effort 
informed by history, a shared understanding of individual roles and 
expectations and months or years of practice in working together toward 
a common goal. In thinking about building and sustaining disaster-
resilient coastal communities, we'll want to build a powerhouse team of 
international, regional and international institutions, government 
officials, businesses, resource managers, scientists, engineers, 
educators, NGOs, the media and community leaders--each bringing their 
own insights and expertise to the table in a combined effort focused on 
the future.
Building and Sustaining Critical Partnerships
    Building these partnerships will be a critical factor in our 
success. As the overwhelming response to the December 2004 Indian Ocean 
tsunami demonstrates, there are a large and diverse number of players 
on a risk management team ranging from individual community volunteers 
to international organizations like the United Nations. Many of the 
witnesses today have emphasized the importance of setting the 
international elements of a U.S. tsunami response program in the 
context of existing multi-national programs and institutions such as 
the United Nations International Strategy for Disaster Reduction 
(ISDR); the United Nations Educational, Scientific and Cultural 
Organization (UNESCO); the United Nations Development Programme (UNDP); 
the World Bank and regional development banks; and the planned Global 
Earth Observing System of Systems (GEOSS) among others. Earlier I 
referred to the importance of integrating local and cultural knowledge 
to enhance the effectiveness of technology and, in this context, we 
will also want to capitalize on the expertise and networks of a number 
of regional organizations and institutions. In the Pacific, for 
example, development of an effective multi-hazard, risk management 
system will likely involve technical, government leaders; disaster 
management and development agencies from all Pacific Rim nations, 
including the United States; the UNESCO International Tsunami 
Information Center; the South Pacific Applied Geosciences Commission 
(SOPAC), the Secretariat for the Pacific Regional Environment Programme 
(SPREP), scientific, technical and educational institutions throughout 
the region. Hawaii alone, for example, is home to a number of technical 
and educational institutions that stand ready to contribute to the 
emergence of an effective, multi-hazard risk management system in the 
Asia-Pacific region including the East-West Center, the Pacific 
Disaster Center, the University of Hawaii, and the Center of Excellence 
for Disaster Relief and Humanitarian Assistance as well as the regional 
programs of a number of U.S. Government agencies such as NOAA, USGS, 
FEMA and others. As we consider the more local components of a 
comprehensive risk management system, of course, the team will expand 
to include state and local agencies, communities and NGOs. Coordinating 
the work of these diverse partners is a challenge but meeting that 
challenge is essential to fulfilling our shared obligation to this and 
future generations.
    I'd like to take a moment to highlight an ongoing partnership in 
the Pacific that is already beginning to demonstrate the value of 
innovative collaboration and cooperation in the area of risk 
management. About three years ago, the NOAA Pacific Services Center 
convened a roundtable discussion among the various federal, state and 
local agencies, scientific and educational institutions and regional 
organizations active in disaster management in the American Flag and 
U.S. Affiliated Pacific Islands. Those individual players are now 
working together as part of a Pacific Risk Management Ohana (PRiMO). 
The Hawaiian word Ohana means family and, as the name suggests, the 
various agencies and organizations active in PRiMO are identifying 
opportunities to work together in creative new ways to advance critical 
elements of an effective local and regional multi-hazard risk 
management system including: coastal and ocean observing systems; data 
management; decision support tools; communications infrastructure and 
information dissemination; post-disaster evaluation and performance 
indicators; education, outreach and training; and traditional knowledge 
and practices. The enhanced level of collaboration represented by PRiMO 
helps put the Pacific in a strong position to take advantage of new 
technological capabilities and support the emergence of a comprehensive 
risk management information system in the region. An enhanced program 
of risk assessment and adaptation in the Pacific could contribute 
significantly to enhancing the resilience of the communities, 
businesses and natural resources of the region and, I believe, provide 
a demonstration of the value of not only new technologies but also of 
innovative institutional partnerships focused on comprehensive risk 
management.
Concluding Remarks
    The overwhelming magnitude of the disaster generated by the 
December 2004 Indian Ocean earthquake and tsunami will, I suspect, keep 
the images of suffering and devastation in our minds for some time. 
With those vivid images has come a remarkable level of energy, 
generosity and commitment to assist those in need. I fear, however, 
that if history is precedent, that commitment--like the images from the 
newspapers and television--will begin to fade in the collective memory 
of those not immediately affected by the tragedy. The testimony of 
today's witnesses and this Committee's leadership in developing an 
effective, long-term response, however, suggests that this tragedy can 
lead to a new level of collaboration and commitment that will last far 
into the future. From the devastation of a single event in the Indian 
Ocean, I believe that we can work together to build disaster-resilient 
coastal communities in the United States and around the world. Perhaps 
the ultimate legacy of this recent disaster will be the emergence of a 
comprehensive risk management program that will protect the people, 
communities, economies and natural resources who call this planet home.
    Mahalo nui loa--thank you very much--for the opportunity to share 
these thoughts with you and Godspeed in your deliberations. I would be 
happy to answer any questions you may have.

    The Chairman. Thank you.
    Dr. Hansen?

 STATEMENT OF ROGER A. HANSEN, PROFESSOR, UNIVERSITY OF ALASKA 
   FAIRBANKS; DIRECTOR, ALASKA EARTHQUAKE INFORMATION CENTER

    Dr. Hansen. Thank you, Mr. Chairman and Members of the 
Committee, for inviting me today.
    I am the----
    The Chairman. Pull that mike toward you.
    Dr. Hansen. I'm the state seismologist for Alaska, and a 
research professor at the Geophysical Institute at the 
University of Alaska Fairbanks. I've been invited today to give 
testimony on the tsunami warning system in Alaska.
    Today, tsunami safety in Alaska comes from a strong 
partnership between several state and federal agencies as a 
result of the participation in the National Tsunami Hazard 
Mitigation Program, which has been----
    The Chairman. I'm sorry to tell you again. I can see people 
back there straining to hear you, Doctor. Pull that mike right 
up to you, please.
    Dr. Hansen. Is this better? OK.
    Today, tsunami safety in Alaska comes from a strong 
partnership between several state and federal agencies as a 
result of the participation in the National Tsunami Hazard 
Mitigation Program, which has been aided in Alaska by expanded 
roles for the University of Alaska, the State Geological 
Survey, the State Emergency Management Agency, and the West 
Coast and Alaska's Tsunami Warning Center, run by NOAA. This 
program consists of hazard assessment of our coastal 
communities through tsunami forecasting, monitoring and warning 
guidance, and education and mitigation at the local levels. I 
will speak briefly on each of these topics.
    On March 27th, 1964, a magnitude 9.2 earthquake ripped 
through the Prince William Sound in Southern Alaska, generating 
a devastating tsunami. Though the death toll in 1964 is 
minuscule compared to the Indian Ocean disaster, Alaska today 
still faces difficult challenges for warning its at-risk 
communities of the occurrence of tsunamis.
    These challenges come, in part, from the nature of our 
remote location, our irregular coastlines with complex 
bathymetry and topography, the vast size of our state, where 
our coastlines extend from equivalent distance of California to 
the tips of Florida, that we live in one of the most 
seismically active regions of the world, and the lack of 
infrastructure throughout the area for both operations and 
maintenance of monitoring systems, and for consistent and 
timely communication of warning messages.
    Warning guidance. First and foremost, we must be able to 
detect events that can trigger tsunamis. And this is done with 
the use of seismology and seismic networks as the primary 
method to detect earthquakes that may cause tsunamis. Sea-level 
data, both tide gauges and deep-ocean buoys, are also monitored 
to verify the existence of, and the danger posed by, tsunamis. 
But our primary hazard comes from the local tsunami generated 
by nearby large earthquakes in or near the coast of Alaska.
    The deep-ocean buoys, while a part of the larger warning 
system designed for the Pacific-wide tsunamis, are secondary 
indicators for local Alaska warnings. This is because a locally 
generated tsunami wave will likely hit most of Alaska's coast 
long before it reaches the deep-ocean buoys. Therefore, we must 
rely on the rapid warnings that can be issued from the 
detection of large earthquakes by a seismic network.
    Modern seismic recordings can provide rapid information on 
earthquake location, size, and the distribution of sea-floor 
deformation that generates tsunamis. However, since much of the 
seismic network in Alaska has been in operation since the 
1960's, many stations are in need of modernizations to achieve 
this goal.
    Over the past few years, the Alaska Earthquake Information 
Center, the state's seismic network operator, was tasked, 
through the National Hazard Program, to develop 18 of these 
modern stations for Alaska and ensure the timely delivery of 
this data to the warning centers. The university program has 
now increased the number of modern stations that we can provide 
to augment this sparse improvement, and, through applied 
research efforts, provides some enhanced information on the 
local earthquakes. However, even with the funding of both the 
national program and the university program, nearly 75 percent 
of Alaska's seismic network still relies on outdated equipment. 
This leaves vast areas of Alaska, and, in particular, the very 
seismically active Aleutian Islands, still underpopulated with 
modern seismic stations.
    Mitigation. It is important to recognize that a tsunami 
warning system must go beyond just the ability to detect a 
tsunami and send a warning message. The most important aspect 
of tsunami warning systems is the existence of a mechanism for 
disseminating warning information to the people on the 
shorelines and for the recipient of the warning messages to 
understand how to react.
    Tsunami hazard mitigation requires a long-term sustained 
effort of continuing public education and responsible planning 
decisions in coastal communities. The power of education is 
clear.
    The state of Alaska partners are well aware of our 
difficulties in reaching our more than 80 communities at risk 
to tsunamis. Improving the warning communication and outreach 
infrastructure at the state and local level for both emergency 
managers and the public represents the most important 
improvement to be made in Alaska for saving lives.
    Hazard assessment. Tsunami warning and safety procedures 
require an understanding of hazards and risks associated with 
tsunamis. In Alaska, led by researchers at the University of 
Alaska Fairbanks, we are evaluating the risk by constructing 
inundation maps for all the at-risk communities through our 
super-computer modeling of tsunami water waves from scenario 
earthquakes and landslides.
    Reliable modeling results, however, require that we have 
accurate bathymetry. And, in fact, we need this bathymetry to a 
resolution that is not available in Alaska today.
    Much of the sea floor along the shallow waters off the 
coast of Alaska have not been mapped in many years. Some areas 
not since before the 1964 Prince William Sound magnitude 9.2 
earthquake. And note that large earthquakes can change 
bathymetry in local areas of the sea floor by tens of meters.
    Collection of improved bathymetry along Alaska's coastal 
communities should be a top priority for enhanced funding of 
any tsunami program. In addition, it is important to stabilize 
the funding necessary to create the numerical models and 
inundation maps.
    In summary, Alaska has in place a partnership to address 
the threat from tsunamis, yet we still have continuing needs 
for improved monitoring with seismic and tide-gauge networks, 
scientific infrastructure for numerical forecasting of 
tsunamis, and the civil infrastructure to educate and warn 
people.
    Thank you, again, Mr. Chairman and the Members of the 
Committee. I'm happy to answer any questions you have.
    [The prepared statement of Dr. Hansen follows:]

Prepared Statement of Roger A. Hansen, Professor, University of Alaska 
       Fairbanks; Director, Alaska Earthquake Information Center
    Mr. Chairman and Members of the Committee, thank you very much for 
inviting me to testify. My joint appointment as the State Seismologist 
for Alaska and as a Research Professor at the Geophysical Institute of 
the University of Alaska Fairbanks (UAF) places me in a unique and 
advantageous position to partner in a tsunami hazard mitigation program 
for Alaska bringing together operational monitoring, education, and 
research activities. I have been involved in the National Tsunami 
Hazard Mitigation Program (NTHMP) since its inception as a co-author of 
the Implementation Plan nearly 10 years ago, and continuing to this day 
as a strong facilitator and member of the NTHMP Steering committee 
representing Alaska. My unique position also serves to manage the 
Alaska Earthquake Information Center which operates and maintains the 
over 400 station Alaska Seismic Network for regional monitoring of 
earthquakes and volcanos in Alaska. Our decades long collaboration and 
partnership with the Alaska Tsunami Warning Center for seismic data 
exchange has been recently strengthened by our involvement in the NTHMP 
and the related Tsunami Warning and Environmental Observatory for 
Alaska (TWEAK) programs. TWEAK has funded the creation of a virtual 
center at UAF, called the Alaska Tsunami Center and Observatory, that 
combines the strengths of the Geophysical Institute, the Institute of 
Marine Sciences, and the Alaska Regional Supercomputer Center into one 
organization in partnership with our federal and state agencies.
    Tsunami Safety in Alaska comes from a strong partnership between 
several state and federal agencies. The NTHMP was created with the 
understanding that the best way to address the hazards posed by 
tsunamis was through a state/federal partnership that leveraged an 
improved ``coordination and exchange of information to better utilize 
existing resources.'' Through participation in the NOAA National 
Tsunami Hazard Mitigation Program (NTHMP), this partnership provides 
improved levels of warning guidance, hazard assessment, and mitigation; 
allowing an integrated response in Alaska to a potentially tsunamigenic 
earthquake.
    It is important to recognize that tsunami warning systems require a 
sophisticated infrastructure that goes well beyond just the ability to 
detect a tsunami and send a warning message. This infrastructure must 
include a continuing partnership between the state and federal agencies 
and the local communities at risk to assess the hazard and provide 
levels of mitigation to minimize the risk to life and property. Nowhere 
in the U.S. is such a partnership more important than in Alaska. Much 
of Alaska is remote, with little built infrastructure for 
communications, harsh winters, and communities that are located in one 
of the most seismically active regions of the world. Our primary hazard 
comes from the ``local'' tsunami generated by nearby large earthquakes 
in or near the coast of Alaska, rather than from the ``distant'' 
tsunami that travels across the open ocean. In this case, the deep 
ocean buoys, or ``tsunameters'', while a part of the larger warning 
system designed for U.S. Pacific-wide tsunamis, are secondary 
indicators for Alaska warnings, because a locally generated tsunami 
wave will hit the Alaska coast long before it reaches the deep ocean 
buoys. We must rely on the rapid warnings issued from the detection of 
the earthquake; and even more so on education, hazard assessment, and 
mitigation as to how to respond to the potential of a tsunami.
    The U.S. Tsunami Warning System consists of two warning centers: 
the Pacific Tsunami Warning Center (PTWC) in Ewa Beach, Hawaii and 
(important to Alaska) the West Coast/Alaska Tsunami Warning Center (WC/
ATWC) in Palmer, Alaska. These centers work in cooperation with other 
NOAA units to perform their mission. In Alaska, state agencies such as 
the Alaska Department of Homeland Security and Emergency Management 
(ADHS&EM) and the Alaska Division of Geological and Geophysical Surveys 
(ADGGS), and the Alaska Tsunami Center and Observatory at the 
University of Alaska Fairbanks (UAF), are strong partners in the 
tsunami warning mission.
Warning Guidance
    First and foremost, we must be able to detect events that can 
trigger tsunamis. The current tsunami warning systems are triggered by 
information from earthquake seismic networks. Typically, earthquake 
magnitudes above certain levels cause tsunami warnings to be issued. In 
Alaska the WC/ATWC has the responsibility for issuing all tsunami 
warning, watch, advisory, and information messages to emergency 
management officials. As earthquakes trigger most tsunamis, the WC/ATWC 
monitors data from seismic networks throughout Alaska and worldwide. 
While the WC/ATWC maintains a backbone network of 11 seismic stations 
in Alaska, in order to monitor for large coastal earthquakes they 
receive a subset of about 40 stations from the 400-station combined 
seismic network of the Alaska Earthquake Information Center (AEIC) and 
Alaska Volcano Observatory (AVO). The data are processed in near-real-
time and initial warnings for tsunamis from large earthquakes are based 
solely on seismic data. This is the reason that it is so critical to 
have modern instrumentation for application to modern techniques for 
rapid determination of earthquake magnitude. Sea level data (both tide 
gauges and deep ocean buoys) are also monitored to verify the existence 
of and danger posed by tsunamis. Bulletins are issued through standard 
NWS channels, such as the NOAA Weather Radio and the NOAA Weather Wire 
as well as the FAA NADIN2 system, FEMA's National Warning System, State 
Emergency channels, and other means. (All Alaska earthquakes are then 
re-processed by AEIC utilizing the entire combined Alaska Seismic 
Network and included in the authoritative catalog at AEIC). The NTHMP 
funded upgrades to  cents55 seismic stations in regional networks 
throughout the western U.S. This leveraged NTHMP resources with the 
already substantial investments in seismic networks in order to provide 
high quality data to the tsunami warning centers. AEIC was tasked 
through NTHMP to develop 18 of these stations for Alaska for delivery 
to the warning centers. At the request of ATWC, the TWEAK program has 
now substantially increased the number of modern stations AEIC can 
provide to augment this sparse improvement. Yet many vast areas of 
Alaska (and in particular the Aleutian Islands) still remain 
underpopulated with modern seismic stations.
Hazard Assessment
    Well recognized in the NTHMP, a second part of the tsunami warning 
and safety procedure requires an understanding of hazards and risks 
associated with tsunamis in Alaska. Without a clear understanding of 
what areas are at risk and which areas are unlikely to be flooded, it 
is impossible to develop effective emergency response plans and 
education programs. To ensure reliable tsunami early detection and 
hazard assessment capabilities, it is essential to create a numerical 
model to forecast future tsunami impact and flooding limits in specific 
coastal areas. The NTHMP made it a priority to develop the expertise 
within each state for providing tsunami flood maps for the states 
communities at risk. In Alaska we are evaluating the risk by 
constructing inundation maps for at-risk communities through modelling 
of the tsunami water waves from scenario earthquakes and landslides. 
This effort for Alaska is being led by the UAF Alaska Tsunami Center 
and Observatory in close collaboration with ADHS&EM, ADGGS, the UAF 
SuperComputer Center, and other state and federal partners. As 
inundation maps for communities are completed, they are presented to 
both state and local emergency managers who then use the information 
for planning and exercising evacuation routes and safe zones for the 
communities visitors, tourists, and local residents. Maps for several 
communities on Kodiak Island, Homer, Seldovia, and Seward have been or 
are nearly completed, and we now wait for needed information on 
bathymetry for the many other at-risk communities for which maps will 
be made. The earlier example of the remoteness of Alaska again affects 
our productivity in map generation. Many regions along the shallow 
waters off the coast of Alaska have not been mapped in many years. Some 
areas not since before the 1964 Prince William Sound M9.2 earthquake. 
Reliable modelling results require that we have accurate bathymetry to 
a resolution that is not generally available except in the lower 48 
states, and at a very few communities in Alaska. Collection of improved 
bathymetry should be a top priority for enhanced funding of any tsunami 
program. In addition, it is important to stabilize the infrastructure 
necessary to create the numerical models within Alaska.
Mitigation and Response
    Arguably the most important aspect of tsunami warning systems is 
the existence of a mechanism for disseminating warning information to 
the people and businesses on the shorelines. It has been recognized 
that tsunami hazard mitigation requires a long-term sustained effort. 
Tsunami mitigation needs to be an institutionalized part of continuing 
public education, emergency management and responsible planning 
decisions in Alaska's coastal communities. Tsunami education materials, 
inundation maps, community evacuation maps and signs, warning sirens, 
and numerous other mitigation-related products are being developed as 
part of the NTHMP program. These materials are brought to communities 
by a team of scientists and statewide emergency planners on a routine 
schedule to establish the infrastructure for education and outreach 
with respect to tsunami hazards and warnings. This infrastructure of 
communication between UAF, WC/ATWC, emergency management officials, 
ADGGS, and local communities is what allows warnings to be disseminated 
and acted upon in an efficient manner throughout the Alaska 
Communities. The TWEAK program is assisting this through an active 
education and outreach program, as well as partnering with ATWC and 
ADHS&EM to purchase and install tsunami warning sirens in at risk 
communities. Discussions with the emergency management community and 
the Director of the Alaska Tsunami Warning Center both concluded that 
the most useful improvement to be made to the warning system in Alaska 
is to improve the warning and communication infrastructure at the local 
level for both emergency managers and the public. Again, increased 
funding for tsunami programs for Alaska should also include as a top 
priority resources for expanding the warning dissemination 
infrastructure and mitigation activities.
What is Needed for the Future
    While Alaska has created an infrastructure for efficient tsunami 
warning and safety procedures, our efforts are only beginning. As 
mentioned earlier, the weak link of information and communication must 
include not only improvements to infrastructure and data collection and 
processing, but also include a continuing state/federal partnership for 
education and outreach.
    Important to tsunami safety for Alaska, the TWEAK program between 
UAF and the Alaska regional level of the NOAA Weather Service, is a 
program in support of the NTHMP that provides direct assistance to the 
issues most critical to tsunami safety in Alaska. The TWEAK program has 
brought the federal, state, and university partners within Alaska into 
a mature organization of tsunami activities described above. A virtual 
center, called the Alaska Tsunami Center and Observatory, has combined 
the strengths of the Geophysical Institute, the Institute of Marine 
Sciences, and the Alaska Regional SuperComputer Center in one 
organization in partnership with our federal and state agencies. This 
Center will continue to support the goals of the National Tsunami 
Hazard Mitigation Program that are unique to the difficult setting of 
Alaska through improvements and enhancements in monitoring, modeling, 
and education and outreach.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Dr. Hansen. Sorry to be 
reading a memo that just came in from my office. I'm told that 
you just made a little history, Doctor, you just lectured your 
graduate students at the University of Alaska who are tuned in 
and watching this on a live broadcast through our Webcast. So 
thank you for coming here. And your students, I'm sure, will 
appreciate the fact that you're here and they're there.
    [Laughter.]
    Dr. Hansen. They got a free breakfast.
    [Laughter.]
    The Chairman. I think we ought to thank them. You realize 
what time they had to get up to watch you?
    Dr. Hansen. Yes.
    The Chairman. It's 4 hours earlier than we are.
    But, anyway, I want to ask you, first, Dr. Cox, Am I 
correct, in reading your testimony, that you think you could 
test things like buildings?
    Dr. Cox. Yes, sir.
    The Chairman. Could you test a model of a tsunami survival 
hut, if we could devise one?
    Dr. Cox. Yes, sir.
    The Chairman. Could you devise one?
    Dr. Cox. We're working on it. And I think, also----
    The Chairman. Are you thinking something that's big enough 
for a lot of people, or just a little one for individual 
islands?
    Dr. Cox. It--I'm at a loss for words. But the--what we're 
looking at is really, Can the computer--let's say, Could a 
numerical simulation correctly predict the impact force on the 
building, however that building is constructed. And so, what we 
measure in our laboratory is the actual force of that wave on a 
building.
    But we're--and then, let's say, for example, how--let's 
say, if you were to design breakaway walls, for example, if--
let's say, in a hotel, a modern hotel, if you had two strong 
walls and two weak walls, at what point would the weak walls 
break away, for example?
    The Chairman. But I'm going at it a different way. When we 
did the----
    Dr. Cox. Sure.
    The Chairman.--the building in Adak, we looked at what 
could survive a wave going over it and coming back over it. OK?
    Dr. Cox. Yes.
    The Chairman. In terms of a lot of people. Can you look at 
that for the purpose of determining, could we start a program 
of some sort of fairly inexpensive shelters designed in a 
fashion that could resist a wave, force it to go over it and 
come back over it?
    Dr. Cox. Yes, sir. And in addition to the design of one 
particular building, what we're finding out from the field 
surveys is that it's often the arrangement of the buildings 
that can either increase or decrease the forces. So that's 
something else we'll be testing in the laboratory, is, how does 
the arrangement of particular buildings improve our ability to 
withstand the tsunami.
    The Chairman. Well, we devised wings that were capable of 
standing up at greater than the speed of sound, so I think you 
ought to be able to find a way. But the question is, can you do 
it so we can produce them and really help the world to provide 
some shelters for these people, like in areas just--what we 
just witnessed out there.
    Dr. Cox. Yes, sir, that's one of the goals at the 
laboratory. Sure.
    The Chairman. Thank you.
    Ms. Shea, you--how do you interface with the concept of, 
you know, warning to people in the outer islands?
    Ms. Shea. It's a very big challenge. Part of it is a 
communications challenge, actually, not just the physical 
technological systems, but also language, and communicating in 
language that is understandable. But the other is actually 
building local networks of people who are skilled in 
understanding what's coming through as a warning and then can 
communicate locally, in local languages and in local context. 
So----
    The Chairman. Do you use commercial media?
    Ms. Shea. Absolutely. And, in fact, the role of the media 
is important, but it's also important to remember that many of 
the communities, those remote fishing communities, for example, 
that were--whose structures were completely wiped away, didn't 
have access to some of the media. In the United States, we can 
rely on the media the way the Weather Service has done for 
years. And I think it's really important that we consider the 
role of the media in warnings in the United States, as well as 
internationally. But I also think we have to build that local 
community network, those community leaders entrusted--those 
trusted information brokers in a community who can help.
    The Chairman. A lot of them didn't have a public media----
    Ms. Shea. That's right.
    The Chairman.--wireless media.
    Ms. Shea. That's right. And----
    The Chairman. My feeling is, maybe we should assist them to 
get wireless media so it will be there. It would be maintained 
by the local people. You put up some warning system, someone's 
going to forget to turn it on.
    Ms. Shea. Yeah.
    The Chairman. It's really providing a continuous service, 
in terms of some sort of weather service or whatever it might 
be. I should think, on a wireless basis, they would have gotten 
the information much better out there.
    Ms. Shea. I think that's true. And I think there are also 
some fairly low-tech solutions that include Hi-Fi radio, HF 
radio, and satellite downlinks in a wireless way from warning 
centers that then can be rebroadcast by HF radio. That's 
relatively inexpensive. The other is, then, combining that 
wireless link, the information that comes from the wireless 
link, with low-tech capabilities like warning flags or siren 
systems. Those two can be used without having to rely on that 
infrastructure that you so rightly point out is not available 
in many of these communities.
    The Chairman. Dr. Hansen, how about using those graduate 
students out there--I assume they're still watching--why don't 
you review our proposal to have this new Subcommittee of 
Disaster Prediction and Prevention, and ask them what they 
think we ought to go into. What should we ask the Subcommittee 
to start out on? What's the most important areas that we could 
look at to see where there are deficiencies in prediction and 
prevention? Could you do that for us?
    Dr. Hansen. Yes.
    The Chairman. Thank you.
    Dr. Hansen. I will.
    The Chairman. Senator Inouye?
    Senator Inouye. As we have demonstrated, it usually 
requires a disaster of biblical proportions to get all of us 
acting. For example, it took the tsunami disaster in Southeast 
Asia to bring about the creation of the Disaster Prevention and 
Prediction Subcommittee.
    I don't know if you have the expertise to respond, but do 
you believe that the bill that we are proposing, S. 50, would 
do what you believe is necessary?
    Ms. Shea. Yes. I think it's a really good start. I think 
that if I were looking at S. 50, I might suggest broadening the 
education components of S. 50, and I also might suggest that we 
look at ways of broadening that vulnerability and adaptation 
research component. And, in particular, leveraging ongoing 
activities. These same communities that are subject to tsunamis 
are also, as several people have mentioned today, subject to 
other coastal threats. There are other coastal warning systems 
out there. There are climate forecast systems out there, in the 
United States and around the world. And if we can leverage 
those, find those partnerships, we can make a significant 
advance in the receiver end of this problem without an 
investment of a significant amount of new resources. It's 
really about bringing those partnerships.
    Senator Inouye. Would you favor this Committee with the 
memos carrying out those proposals?
    Ms. Shea. Absolutely. Be happy to, Senator. Happy to.
    Senator Inouye. It would be very helpful.
    Ms. Shea. Great.
    [The information follows:]

                                           East-West Center
                                     Honolulu, HI, February 9, 2005
Hon. Ted Stevens,
Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC

Hon. Daniel K. Inouye,
Ranking Minority Member,
Commerce, Science, and Transportation Committee,
Washington, DC

    Dear Sirs:

    Thank you, again, for the opportunity to testify last week on S. 50 
and the evolution of an effective U.S. tsunami warning and preparedness 
program. As I mentioned at the hearing, I am honored to be able to 
contribute in some small way to your efforts to build more disaster-
resilient coastal communities in the U.S. and around the world. During 
the hearing, you asked me to provide you with some written suggestions 
to strengthen S. 50, including an outline of the elements of regional 
pilot projects focused on building the resilience of coastal 
communities. By way of this letter, I am pleased to respond to that 
request for additional information.
    First, I would like to reinforce the importance of setting tsunami 
warning and preparedness programs in a multi-hazard, risk management 
context as mentioned in Section 2(a)(10) of S. 50. As we discussed 
during the hearing, many of the elements of a program designed to 
improve warnings and enhance resilience in the face of low-frequency, 
high impact events such as tsunamis will also make important 
contributions to enhancing the resilience of coastal communities in the 
face of other natural hazards such as extreme weather events (floods, 
hurricanes, high wind and wave events) as well as the consequences of 
climate variability and change. I would encourage the Committee to 
respond to Section 2(a)(10) with a new title/section authorizing NOAA 
to work with other federal partners, state governments, academia, the 
extramural research community, and the private sector to implement a 
Disaster-Resilient Coastal Communities Vulnerability and Adaptation 
Program. Such a program would complement and build on the tsunami-
specific hazard mitigation program called for in Section 4 of S. 50 but 
would provide a broader context in which to support various activities 
that can help coastal communities respond to a variety of hazards/
threats. Pursuant to your request, I have included a description of the 
key components of such an integrated program as Appendix A to this 
letter.
    As we discussed briefly last week, this kind of integrated 
vulnerability assessment and adaptation program is perhaps best 
implemented on a regional scale since one size does not fit all when it 
comes to understanding vulnerability, providing useful and usable risk 
assessment information or developing effective risk management 
strategies. I would like to strongly endorse the idea of initiating 
this program through one or more regional pilot projects that would 
both demonstrate the value of the integrated programmatic approach 
described above and move quickly to reduce the vulnerability--enhance 
the resilience--of coastal communities particularly at risk to tsunamis 
and other natural hazards such as weather and climate-related extreme 
events.
    As I mentioned last week, I believe that the Pacific might be one 
such region based on its vulnerability to tsunamis, a dependence on 
climate-sensitive resources and sectors such as fisheries, tourism and 
agriculture; ongoing work in tsunami, weather and climate forecasting 
and assessment; and the institutional partnerships reflected in the 
Pacific Risk Management Ohana (PRiMO). Based on the testimony of my 
colleague from the University of Alaska, I believe that Alaska would be 
another high-priority candidate for a regional pilot program for many 
of the same reasons. I might suggest that a third regional program 
might be considered for the Atlantic seaboard with its vulnerability to 
coastal flooding and hurricanes. I would encourage consideration of at 
least three years for a regional pilot project along the lines 
described above with an eye toward sustaining the partnerships 
established during the pilot phase.
    My review of S. 50 identified a few additional specific suggestions 
for strengthening the bill. I have included those suggestions in 
Appendix B to this letter.
    Mahalo nui loa for the opportunity to provide this additional 
information as you continue your deliberations on S. 50.
        Aloha pumehana,
                                            Eileen L. Shea,
                                                   East-West Center
                               Appendix A
Key Components of a Disaster-Resilient Coastal Communities 
        Vulnerability and Adaptation Program
    Such a program would complement and build on the tsunami-specific 
hazard mitigation program called for in Section 4 of S. 50 but would 
provide a broader context in which to support various activities that 
can help coastal communities respond to a variety of hazards/threats. 
Such an integrated program might include:

  <bullet> The development of multi-hazard vulnerability maps that help 
        governments, businesses and communities characterize and assess 
        their current risks in the face of a variety of natural hazards 
        and provide a baseline for assessing future risks;

  <bullet> Multi-disciplinary vulnerability assessment research and 
        dialogue to improve understanding of a coastal community's 
        exposure and sensitivity to hazards as well as providing 
        insights into adaptation options (policies, engineering, 
        resource management) that would either reduce exposure and 
        sensitivity or enhance resilience. The ultimate focus of this 
        component of the program would be the integration of risk 
        management considerations in the context of economic 
        development and community development planning and policies. As 
        I mentioned last week, this will involve more than a few, 
        isolated studies of the socioeconomic impacts of hazards/
        natural disasters. Such a program will be most effective when 
        it incorporates a collaborative, participatory approach that 
        effectively engages scientific and technical experts as well as 
        policy officials and decision-makers in government, businesses, 
        academia, NGOs and community leaders in a process of shared 
        learning and joint problem solving.

  <bullet> Risk management education programs, including: (a) technical 
        training on recent scientific developments in key hazard areas 
        (e.g., tsunamis, weather extremes, climate variability and 
        change) and new technologies; (b) leadership training to 
        enhance the cadre of individuals and institutions responsible 
        for risk assessment and risk management programs; and (c) 
        formal and informal education programs and materials including 
        public awareness brochures and campaigns as well as curriculum 
        development;

  <bullet> Risk assessment technology development including (but not 
        limited to) developing practical applications of the insights 
        gained from risk perception and risk communication research as 
        well as the provision and application of new tools and 
        technologies such as high resolution imagery and modeling, 
        remote sensing and in situ observations and imagery, geospatial 
        (GIS) technology, innovative uses of current and planned 
        observing systems and model-based decision support tools;

  <bullet> Risk management data and information services including: (a) 
        access to observational data and derived products from relevant 
        observing systems including, but not limited to the tsunami 
        observing system of buoys and tide gauges authorized in S. 50 
        as well as the weather, climate and hazard/risk management 
        components of regional and global observing systems (e.g., the 
        Integrated Ocean Observing System, the Global Climate Observing 
        System and the Global Environmental Observations System of 
        Systems); (b) developing and maintaining multi-disciplinary 
        data sets on the nature and consequences of key hazards; and 
        (c) development and provision of new, integrated data products 
        that support risk assessment and risk management programs; and

  <bullet> Risk communication systems that build on existing warning 
        and forecast systems such as the expanded tsunami warning 
        system called for in S. 50 as well as ongoing weather, climate 
        and ocean monitoring and forecasting systems. This component of 
        the program would also provide a focus for exploring the 
        applicability of a variety of communications tools and 
        technologies as well as the development of the social network 
        of individuals and institutions involved in risk/hazard 
        warning, response and recovery.

    This kind of integrated vulnerability assessment and adaptation 
program is perhaps best implemented on a regional scale since one size 
does not fit all when it comes to understanding vulnerability, 
providing useful and usable risk assessment information or developing 
effective risk management strategies. Criteria for identifying 
appropriate regional pilot projects in the context of S. 50 might 
include:

  <bullet> Vulnerability to tsunamis as well as weather, climate and 
        other coastal hazards;

  <bullet> Dependence on economic sectors and natural resources that 
        are particularly sensitive to coastal hazards such as coastal 
        inundation as well as weather and climate-related extreme 
        events such as hurricanes, floods, and high wave events;

  <bullet> Opportunities to link to and leverage related ongoing 
        regional risk observation, research, forecasting, assessment, 
        education and risk management programs such as: the Pacific 
        Risk Management Ohana (PRiMO) and/or the Alaska Tsunami 
        Preparedness Program discussed during the February 2 hearing; 
        NOAA's Regional Integrated Science and Assessment (RISA) 
        program which focuses on climate-related risk management; 
        regional coastal ocean observing system programs in support of 
        the U.S. Integrated Ocean Observing System (IOOS); and state 
        coastal zone management programs with strong hazards/risk 
        reduction components;

  <bullet> Evidence of strong, interagency collaboration in the area of 
        risk management; and

  <bullet> Access to NOAA and other federal agency programs, facilities 
        and infrastructure in tsunami and other coastal hazards 
        monitoring, warning, forecasting, research, assessment and data 
        management.

    I would encourage the Committee to consider funding such regional 
pilot programs for a three-to-five year period with annual funding 
levels reaching approximately $1M.
                               Appendix B
Additional Specific Suggestions to Strengthen S. 50
    The following specific suggestions to further strengthen S. 50 are 
also offered for your consideration:

  <bullet> Add to the end of Section 2(a)(l0) ``and a sustained program 
        of education and risk assessment to support the development of 
        effective response strategies;

  <bullet> In Section 7, Global Tsunami Warning and Mitigation Network, 
        explicitly identify and authorize expanded support for the 
        International Tsunami Information Center which NOAA hosts as 
        part of the UNESCO/IOC tsunami program;

  <bullet> Also in Section 7, I would encourage you to authorize NOAA 
        to contribute to international tsunami education and 
        vulnerability and adaptation programs as well as the detection 
        equipment and technical advice already included in S. 50;

  <bullet> Consider combining the discussion of ``Transfer of 
        Technology, Maintenance and Upgrades'' that currently comprises 
        Section 3(d) with the ``Tsunami System Upgrade and 
        Modernization'' provisions of Section 6 under Section 3;

  <bullet> More explicitly call out the importance of engaging state 
        coastal zone management programs in the implementation of S. 
        50; and

  <bullet> Include a section on data management to authorize expanded 
        support for efforts by NOAA to support the data management 
        requirements associated with the expanded observing system 
        called for in S. 50.

    In the context of this latter item, I might suggest inclusion of a 
new subsection--possibly under Section 3, Tsunami Detection and Warning 
Systems--that would authorize and direct NOAA to support the data 
management requirements associated with the Tsunami Detection and 
Warning System called for in S. 50. From my perspective, these 
requirements would include:

  <bullet> Quality control and quality assurance for the ocean 
        observation and geophysical data from the tsunami detection and 
        monitoring system;

  <bullet> Archiving and maintaining ocean observation data from the 
        tsunami detection and monitoring system;

  <bullet> Supporting the integration of ocean observations from the 
        tsunami detection and monitoring system with other national and 
        international water level measurements such as the Global Sea 
        Level Monitoring System (GLOSS);

  <bullet> Supporting the integration of ocean observations from the 
        tsunami detection and monitoring system with other elements of 
        the global and coastal components of the Integrated Ocean 
        Observing System (IOOS) and the Global Environmental Observing 
        System of Systems (GEOSS); and

  <bullet> Supporting the development of and access to data sets and 
        integrated data products designed to support multi-hazard 
        regional vulnerability assessment and adaptation programs such 
        as those called for in Title__.

    In addition to national data centers such as NODC, NGDC and NCDC, 
NOAA should look to regional data centers like the NOAA Integrated 
Environmental Applications and Information Center (NIEAIC) in Honolulu, 
HI to fulfill the requirements described in this section.

    Senator Inouye. Dr. Cox, this Committee has heard that 
Japan has already developed buildings, in place and 
operational, for tsunami purposes. Have you heard about them?
    Dr. Cox. Yes, sir.
    Senator Inouye. Are they working?
    Dr. Cox. To my knowledge, they're working. But I think 
that--if I could just continue that--I think the--how many 
people you could put into the building versus, you know, 
getting people to higher ground, I--I mean, I can't speak for 
the United States, but I think we have to consider whether or 
not we have a--sort of, a high concentration of people in a 
particular area, let's say at a resort community or something 
like that, then I think such a building might make sense. I 
think other times we have to consider just evacuating everybody 
to higher ground. I think we heard earlier that we can't have, 
sort of, a one-size-fits-all policy, but I think sometimes it 
may make sense to build tsunami-resistant structures in high-
density places like a resort community.
    Senator Inouye. Dr. Hansen, I think statistics indicate 
that the State of Alaska is more prone than any other state to 
earthquakes and tsunamis. Are you satisfied that the warning 
system we have today is sufficient?
    Dr. Hansen. No, I'm not. I believe that it's insufficient 
in ways of getting the information out to the local 
communities. We're----
    Senator Inouye. How would you----
    Dr. Hansen.--in need of improving that.
    Senator Inouye.--improve that?
    Dr. Hansen. Right now, we're trying to establish--we're 
trying to exercise our established partnership to get out 
education and outreach programs. We visit communities. We've 
put together videos to help educate the populations of Alaska 
about the tsunami in our state. In addition, we're trying to 
work with leveraged moneys from the National Hazard Program and 
the university program to get sirens put out that have been 
developed under this--the National Program. Sirens then need to 
be triggered somehow, and so, we're working with the NOAA 
Tsunami Warning Center to put together the infrastructure we'll 
need to get out to communities where, say, NOAA Weather Wire 
doesn't work, or it doesn't work very well, and improve that 
infrastructure to get information out beyond just the local 
manager, but to the people that are in danger.
    Senator Inouye. Ever since the end of World War II, the 
State of Hawaii has maintained an air-raid siren system, and it 
blows off once a month, and some of the tourists go berserk, 
not knowing whether it's a bombing attack or tsunami, but it 
serves a little purpose.
    Ms. Shea, do you think it works?
    Ms. Shea. Oh, absolutely. I think that for low-frequency 
events, like tsunamis, I think we tend to forget--the 
population tends to forget, in the long period of time. But I 
think it's useful in the sense that when we hear it, in Hawaii, 
and we know that what it means is, if it's the first Monday of 
the month, we know it's a test. And if it's not the first 
Monday of the month, then we know there's something to be 
concerned about, and then we do turn to the television, the 
radio, call the local agencies, call the State Civil Defense. 
So it absolutely does work. Those low-technology but high-
impact systems are really quite effective.
    Senator Inouye. Oftentimes, when we venture into something 
that's complex and new, we set up pilot programs. Do you think 
a pilot program would work in this situation?
    Ms. Shea. I think it would. I think pilot programs would 
be, in fact, very useful. And I think--again, look for those 
opportunities where you have areas at high risk--Alaska, the 
Pacific comes to mind in the case of tsunami--and also those 
areas where you're built--where these partnerships of other--of 
agencies working together already exist. And I think--so I 
think that--I think we've heard enough testimony today to 
suggest that there are probably a couple of places, at least, 
where a pilot project could demonstrate that partnership, 
demonstrate the different kinds of technology, and demonstrate 
the value of building this comprehensive risk-management 
information system.
    Senator Inouye. See, we have no idea what the costs will 
be, and a pilot program might be helpful.
    Ms. Shea. Yes.
    Senator Inouye. Can members of the panel provide us with 
your ideas of what, if any, the pilot program should look like?
    Ms. Shea. Absolutely.
    Senator Inouye. I would appreciate that.
    Dr. Cox. Yes, thank you.
    Senator Inouye. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    And, Dr. Hansen, I think I'm indebted to you for this, a 
copy of ``Ocean Fury: Tsunamis in Alaska.'' Let me read to the 
Senator, what this says. It says, ``Future tsunamis will hit 
Alaska. Taking its cue from the survivors of 1964, this program 
explains how scientists, local officials, and emergency 
responders are working together to reduce the loss of life and 
property when tsunamis assault Alaska's coast again. With the 
aid of 3D computer graphics, scientists describe how different 
kinds of tsunamis form, how they can travel at jetliner speeds, 
sometimes striking shorelines with little or no time to escape. 
More important, this program describes what you should do to 
improve your chances of surviving the next tsunami.''
    I hope, Dr. Hansen, you've provided a copy of this to every 
school in the state.
    Dr. Hansen. The emergency management group is doing that 
kind of thing, that's exactly right.
    The Chairman. That should be a program that all young 
people should look at so they can understand there's something 
out there to prepare for.
    We thank you very much. You demonstrate that this a issue 
of substantial concern to where we come from, the two of us, 
and we appreciate you--have you got another copy? I'll give 
that to Senator Inouye.
    Dr. Hansen. I don't with me, but I can get you one.
    The Chairman. One of those graduate students will mail me 
one.
    [Laughter.]
    The Chairman. We do thank you very much for taking the time 
to come here. It's very important. This is our first hearing. 
The two of us, as Co-Chairmen of this Commerce Committee, we 
wanted everyone to understand this is going to be one of our 
number-one targets, to really deal with prevention and 
detection of disasters.
    Thank you very much.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, thank you for holding this hearing today. The 
December 26th Indian Ocean Tsunami was a terrible tragedy.
    The sheer devastation inflicted by the tsunami reminds us all how 
vulnerable our coastlines are to widespread damage. In California, this 
is a serious threat because we are home to miles of beautiful coastal 
communities, well within reach of potential damage caused by tsunamis.
    Californians have confronted tsunamis in the past. On March 28, 
1964, a tsunami originating from an earthquake near Alaska hit the 
Northern California community of Crescent City, killing 10 people, and 
damaging 91 homes and 197 businesses. The power of this tsunami was so 
intense, large buildings in Crescent City were uplifted by the force of 
the waves.
    The Cape Mendocino earthquake in 1992 created a tsunami that 
wreaked havoc along California's northern coastline. Thankfully, there 
were no deaths, but the 1992 tsunami highlights the need for 
notification of a tsunami as well as public outreach efforts.
    One of the many lessons learned from the 1964 and 1992 tsunamis was 
that proper warning and evacuation truly saves lives. First, we need to 
ensure there are enough buoys to protect the California coast from 
tsunamis. Currently, only three out of the six buoys deployed in the 
Pacific Ocean are functional.
    Second, coastal communities need adequate funding so that they can 
become tsunami ready. Since the time of the 1964 tsunami, Crescent City 
has made tremendous strides to protect its residents by implementing 
tsunami emergency plans, installing warning sirens, and creating a 
tsunami education program. As a result, Crescent City has been honored 
by NOAA as a TsunamiReady community.
    However, much more is needed to make sure all of our coastal 
communities are as well prepared as Crescent City is today.
    After consulting with the California Office of Emergency Services 
(OES), my staff has been informed that California is in dire need of 
more funding that will help map potential inundation zones, and that 
will help educate the public.
    According to OES, only $88,000 in federal funding is given annually 
for tsunami evaluation and preparation in California's 15 coastal 
communities, and only two are TsunamiReady by NOAA standards. Tsunami 
taskforces in California have said they need more money to erect 
warning signs on county beaches, plan evacuation routes, and conduct 
public outreach efforts.
    Mr. Chairman, we must do more to ensure that our citizens living 
near the coast are well-educated and better prepared to deal with a 
tsunami, and our emergency officials have the necessary funding to 
achieve this goal.
    Thank you, Mr. Chairman.
                                 ______
                                 
          Prepared Statement of Doug Carlson, Honolulu, Hawaii
    Mr. Chairman, it is highly probable that tens of thousands of 
people died around the Indian Ocean rim on December 26, 2004 because an 
agency of the United States Government was unprepared to issue an 
effective tsunami warning to the region's population. This inference 
can be made with great certainty based on the public record and the 
statements of numerous Federal Government employees.
    The warning failure occurred even though Pacific Tsunami Warning 
Center (PTWC) scientists first suspected the existence of the tsunami 
as much as two-thirds of an hour before the first waves struck Sri 
Lanka, India and Thailand. That is clearly established in the tsunami 
timeline by the National Oceanic and Atmospheric Administration. (Ref: 
http://www.noaanews.noaa.gov/stories2004/s2358.htm)
    It's true that scientists did not initially know that a 9.0 
magnitude earthquake had struck near Indonesia. They first calculated 
the magnitude at 8.0, which they felt would have triggered only a 
localized tsunami or no tsunami at all.
    Others may wish to investigate the too-low estimate of the 
earthquake's strength with a goal of improving early forecasting 
techniques. The intent of my testimony, however, is to demonstrate that 
the communications protocols that existed on December 26 were 
inadequate to issue an effective warning and that U.S. officials may 
not have been sufficiently trained or sensitized to the importance of 
calling on the news media for assistance.
    We know from numerous media interviews with the scientists that 
about an hour after the earthquake they felt a need to alert people in 
the Indian Ocean region about a possible tsunami. We also know that 
they felt handicapped by the absence of a high-tech tsunami detection 
and alert-dissemination system in the region. Nothing around the Indian 
Ocean approximates the sophistication of the Pacific Rim tsunami 
warning network.
    To their credit, the Center's personnel wanted to take some kind of 
action to alert the region. According to the Center's director, as 
quoted in The International Herald Tribune: ``We wanted to try to do 
something, but without a plan in place then, it was not an effective 
way to issue a warning, or to have it acted upon.'' (Ref: http://
www.iht.com/articles/2004/12/28/news/warning.html)
    Without a notification plan, the scientists resorted to telephoning 
their colleagues in south Asia, with virtually no success. What they 
did not do was telephone the major international news media, such as 
the Associated Press, CNN, the BBC, Reuters or any other news 
organization with world-wide communications capabilities.
    In other words, in the 41 minutes between issuing a bulletin that 
mentioned a possible tsunami and when the first waves are now thought 
to have reached Sri Lanka, the scientists used the telephone to call 
one person at a time rather than call the mass media to help issue a 
warning through their broadcast and cable networks.
    A NOAA spokesperson later gave what may be the most telling comment 
about the PTWC's crisis communications preparedness: ``Not only was the 
center focused on warning agencies, it does not have an official list 
of media contacts.'' (Ref: 
http://www.washtimes.com/upi-breaking/20050107-050909-7208r.htm)
    Would alerting the news media in those first critical minutes have 
made a difference in how many people died in south Asia? With proper 
planning and coordination of media protocols, I'm certain lives could 
have been saved.
    And I'm not alone. Many others around the world have questioned the 
lack of an effective warning. A woman in Sri Lanka who lost her father, 
sister and niece was interviewed by National Public Radio: ``Why didn't 
we receive warning? We had two hours after Indonesian quake, and at 
least five minutes warning would have helped. Five minutes would have 
saved my father's life.'' (Ref: http://www.npr.org/templates/story/
story.php?storyId=4277/95)
    On January 11, the day NOAA's administrator visited the PTWC and 
met with the Honolulu news media, I posted questions on my web log site 
that I felt might well be directed to him. They are still relevant 
today:

  <bullet> Will NOAA release the PTWC's crisis communications plan? (If 
        not, why not?)

  <bullet> What liaison did NOAA accomplish with the major media 
        (Associated Press, CNN, BBC, etc.) before 12/26 to ensure 
        emergency phone calls to these media would produce timely 
        warnings to their audiences?

  <bullet> Are PTWC scientists trained to telephone the media to issue 
        life-saving warnings?

  <bullet> Is the PTWC too high-tech oriented? Do you think low-tech 
        telephone calls have a place in your pre-crisis planning and 
        emergency warning protocols?

  <bullet> Have you ordered changes in the PTWC warning protocols since 
        the tsunami?

  <bullet> Does NOAA accept responsibility for an internal procedural 
        failure that might have cost the lives of tens of thousands of 
        people in South Asia?

  <bullet> What is NOAA telling south Asia nations about its 
        performance on 12/26?

  <bullet> What are your personal feelings about NOAA's performance on 
        12/26?

    The administrator did answer many media questions that day, 
including a variation of the last one. According to the Honolulu Star-
Bulletin, he called the PTWC staff's actions ``excellent'' and faithful 
to the warning procedures in place. ``This is a group that believes in 
saving lives and protecting property at all costs,'' he said. (Ref: 
http://starbulletin.com/2005/01/12/news/index1.html)
    The sad fact is the ``warning procedures in place'' on December 26 
saved no lives and protected no property. Nothing PTWC scientists knew 
or did that day helped people in the tsunami danger zone.
    I respectfully submit to this Committee that the PTWC's apparent 
inability to issue effective warnings is unacceptable. I have proposed 
a five-point program that would help NOAA shift its thinking and its 
culture to include meaningful media notification after future tsunami-
generating earthquakes:

  <bullet> NOAA should accept constructive criticism--rather than 
        deny--that actions it could have undertaken likely would have 
        saved lives in south Asia.

  <bullet> NOAA should resolve to change its communications culture to 
        include reevaluating the scope of its information-disseminating 
        mission--i.e., whether its mission extends beyond the Pacific 
        Rim.

  <bullet> NOAA should rewrite its communications protocols to include 
        early telephone calls to news organizations that have the 
        capability of sending worldwide tsunami warnings.

  <bullet> NOAA should accomplish high-level coordination with the 
        management of these news agencies to ensure proper execution of 
        the alerts when received by the media.

  <bullet> NOAA should train its personnel to respond to suspected 
        tsunamis by making direct person-to-person contact with major 
        news outlets based on prior planning.

    The media can be an efficient way to send warnings to threatened 
populations when time is of the essence, and NOAA would do well to 
integrate them into its crisis communications planning. Thank you for 
the opportunity to contribute to your deliberations on this important 
matter.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                    Brigadier General John J. Kelly
Failure of DART Buoys and Long Term Tsunami Funding Needs
    General Kelly, in your testimony, you noted the failure of three of 
the six Deep-Ocean Assessment and Reporting of Tsunami (DART) buoys 
used to detect tsunami in the event of an earthquake. As you know, 
these buoys are extremely important to our coastal communities, both in 
detecting tsunami that pose a threat to these communities, and in 
preventing expensive evacuations by detecting false alarms. I am 
concerned that these problems have existed for over 15 months and 
Congress is just now learning of this situation.
    Had there been a devastating tsunami in the Pacific this December, 
instead of in the Indian Ocean, and we found out 3 of the DART buoys 
were down, this hearing would have a very different tone. We would like 
to avoid ever having such a situation arise.
    Question 1. What are NOAA's plans for instituting better oversight 
procedures to ensure that contractors are meeting the specifications of 
the system?
    Answer. NOAA has existing procedures in place to ensure contractor 
performance meets the specifications of the DART station. The quality 
of work by the contractors is not a reason for buoy failure. Buoys can 
fail for a variety of reasons related to technology, mechanical or 
mooring systems.

    Question 1a. When can we expect all six DART buoys to be 
operational again?
    Answer. One of the three buoys is now operational, and once the 
weather permits, NOAA is ready to repair the other two. We expect all 6 
DART stations to be operational by summer 2005, and we will follow our 
maintenance schedule to ensure they remain functional. While it is not 
possible to guarantee that these prototype stations will be operational 
100 percent of the time, NOAA is focused on making the DART network 
more robust.

    Question 1b. Will you notify Congress in a timely fashion if other 
failures occur?
    Answer. For any outages of longer than 60 days, NOAA will notify 
the Committee of the status of the network. Additionally, the Committee 
can visit the National Data Buoy Center website for up-to-date 
information on the status of the DART buoys (http://www.ndbc.noaa.gov/
dart.shtml).

    Question 1c. How will you ensure these buoys--and the new buoys--
are serviced regularly and stay in operational condition?
    Answer. NOAA will ensure all DART stations are serviced regularly 
to ensure operational condition to the greatest extent possible. NOAA 
plans for the network to meet operational requirements, even with 
occasional DART station outages. NOAA will develop capabilities to 
address network coverage and redundancy to ensure, as best we can, that 
single DART station failures will not impact the integrity of the 
entire network. Planned redundancy and hardening of the infrastructure, 
combined with the addition of a two-way communication capability, will 
mitigate risk from system-wide failures. In addition to these measures, 
NOAA is also procuring three redundant DART buoys for the Alaska DART 
buoy array and will acquire 10 spare DART buoys as part of expansion of 
the tsunami warning system in FY 2005 and FY 2006. These spare buoys 
will ensure that NOAA can rapidly respond to buoy failure. As the 
expanded network is transitioned from a prototype to a fully 
operational network, NOAA will inform Congress of any outages impacting 
the integrity of the network as a whole.

    Question 2. Funding. The President has committed $37.5 million over 
the next two years (through the end of Fiscal Year 2006) to expand the 
tsunami warning system. Of that funding, how much will go towards (1) 
inundation mapping for all coastal communities; (2) continued 
technology research and development for next generation equipment and 
forecasting; and (3) public education to ensure our communities are 
prepared?
    Answer. Of the $24M scheduled for NOAA use, approximately $4.75M 
will be spent on inundation mapping and modeling, as well as education 
and outreach (e.g., community preparedness activities including 
TsunamiReady). Of this $4.75M, approximately $2.25M will be spent on 
inundation mapping and modeling and $2.5M will go towards public 
education activities. Following the current plan, inundation mapping 
for the major population centers will be complete in 2015. Of the $24M 
scheduled for NOAA use, approximately $1.0M will be directed to support 
Deep-ocean Assessment and Reporting of Tsunamis (DART) buoy research 
and development activities.

    Question 2a. What are the out-year costs (beyond Fiscal Year 2006) 
of maintaining in working order the entire expanded detection system, 
and the associated tsunami programs?
    Answer. By the middle of calendar year 2007, NOAA expects to fully 
deploy the new suite of DART stations, to continue accelerated 
inundation mapping and modeling activities, and to continue accelerated 
community preparedness activities. NOAA anticipates additional 
operation and maintenance (O&M) costs to maintain the expanded 
detection network in working order, as well as continued costs for 
efforts in tsunami inundation mapping and education/outreach programs. 
The level of funding required beyond FY 2006 will be determined through 
the budget process.

Agency Participation in the National Tsunami Hazard Mitigation Program
    Question 3. Both you and Ms. Shea have provided testimony about the 
importance of interagency cooperation in the National Tsunami Hazard 
Mitigation Program, specifically cooperation among the National Oceanic 
and Atmospheric Administration (NOAA), the United States Geological 
Survey (USGS), the National Science Foundation (NSF), and the Federal 
Emergency Management Agency (FEMA). I have some questions about FEMA's 
role in the program.
    In 1996, the Tsunami Hazard Mitigation Federal/State Working Group 
presented its Tsunami Hazard Mitigation Implementation Plan to the 
Senate Appropriations Committee. In this plan, FEMA was given 
responsibilities to produce inundation and evacuation maps, and to 
implement state and local tsunami mitigation programs. The 
Implementation Plan called for over $2.2 million in funding from FEMA 
to carry out these responsibilities--including mapping and mitigation.
    How much funding or in-kind work has FEMA contributed to this 
interagency program since 1996? How does this compare with the other 
federal and state agency contributions?
    Answer. Under the original National Tsunami Hazard Mitigation 
Program (NTHMP), FEMA responsibilities were limited to the mitigation 
and implementation of the mapping. While the original plan may have 
called for FEMA funding, under the NTHMP there was no funding made 
available for FEMA.
    Up until last year, FEMA contribution to the NTHMP has primarily 
been in-kind support. This includes the support of two FEMA Regional 
staff members who have been members of the NTHMP Mitigation committee 
since its inception. At least one regional staff person has spent 25 
percent of her time on the tsunami hazard over a 10-year period. A 
rough estimate of staff time and travel over this time is approximately 
$200,000. In addition, one FEMA Headquarters scientist has also been 
involved in this committee as a technical liaison for several years.
    As described in further detail in question 3b, for the first three 
years of the NTHMP, FEMA was the distribution agency for the NOAA state 
grant funding. This was done since NOAA did not have a mechanism to 
transfer funds to the states, while FEMA did. While the actual funds 
came from NOAA, this activity did require significant staff resources 
on the part of FEMA.
    Also described in further detail in question 3a, FEMA jointly co-
funded a $400,000 project with NOAA to study and develop tsunami 
shelter design guidance. This project builds on a first phase, which 
involved a five-state engineer concept feasibility workshop funded by 
NOAA and led by the State of Washington and the identification of 
existing guidance material. The project will work with the engineering 
community and the states to research and produce the construction 
design guidance for a tsunami shelter structure capable of withstanding 
both the severe ground shaking expected during a design earthquake and 
specific velocities and water pressure that a tsunami will bring to 
bear on structures. The product will be especially useful to low-lying 
communities that lack evacuation access to high ground following a 
local great earthquake and that may have to rely on vertical evacuation 
in existing buildings.
    FEMA has also jointly funded 66 percent of a $412,000 pilot project 
through its National Flood Insurance Program (NFIP) with NOAA and the 
USGS to develop risk identification products that will help communities 
understand their actual level of risk from tsunami in a way that could 
be conveyed on FEMA's existing flood hazard maps. The goal of the 
project is to develop techniques that can be used to determine the 
probability and magnitude of tsunami in other communities along the 
west coast of the United States. The location of the pilot project is 
Seaside, Oregon. FEMA's NFIP is involved because FEMA is responsible 
for mapping areas subject to flooding in order to properly rate flood 
insurance policies and provide risk assessment information to states 
and local communities.
    In addition, it should be noted that FEMA's NFIP has considered 
tsunami wave heights during the development of its Flood Insurance Rate 
Maps since the late 1970's for areas of Hawaii and the West Coast where 
tsunami was considered a significantly probable flood threat. The NFIP 
flood maps still reflect tsunami wave heights for areas such as Hawaii 
where inundation heights from that hazard are considered that most 
probable form of flooding.
    Other federal agencies that participate in the National Tsunami 
Hazard Mitigation Program (NTHMP) include NOAA, which has contributed 
approximately $27M, and USGS. The five states participating in the 
NTHMP (Alaska, Hawaii, Washington, Oregon, and California) have 
contributed a total of $5.0M in in-kind contributions since FY 1997.

    Question 3a. Has NOAA transferred funds to FEMA in order for the 
agency to perform any work for the program? Please explain.
    Answer. There are two instances of NOAA transferring funds to FEMA 
to perform work under the program. First, as mentioned above, was that 
for the first three years NOAA transferred the state grant funds to 
FEMA, who then distributed those funds through our existing State 
Emergency Management Preparedness Grant program. FEMA did not receive 
any compensation for managing this activity. NOAA subsequently took 
over this function and has been distributing the state grants directly.
    Second, also mentioned above, FEMA and NOAA jointly funded a 
project to determine if it is possible to design and build a structure 
to withstand specific tsunami loads and, if so, to develop technical 
design and construction guidance for special shelter facilities that 
would allow for vertical evacuation. Funding for this two-year $400,000 
effort is equally divided between FEMA, through the National Earthquake 
Hazards Reduction Program (NEHRP), and NOAA, through the NTHMP. The 
project will produce construction design guidance for a tsunami shelter 
structure capable of withstanding both the severe ground shaking 
expected during a design earthquake and specific velocities and water 
pressure from a tsunami that would impact structures. This is a 
significant challenge since current design practice takes into account 
earthquake or coastal storm surge but does not address stronger forces 
that a tsunami would generate. The project, which is being done under 
contract, was initiated last fall and is just getting underway.
    A potential future phase of this project may include developing 
information for states and local communities on how this tsunami 
shelter design guidance can be utilized. This information would 
especially be critical for low-lying communities that lack evacuation 
access to high ground following a local earthquake and that may have to 
rely on vertical evacuation. Future funding would be equally divided 
between NOAA and FEMA.

    Question 3b. Given that FEMA's priorities have shifted from natural 
disaster mitigation to preparing and responding to terror attacks, how 
much funding and effort can FEMA reasonably be expected to contribute 
in the post-9/11 environment?
    Answer. Although the Department of Homeland Security (DHS) is 
focused on terrorism and protecting the homeland, it is also committed 
to an all-hazards approach of preparedness for, response to, recovery 
from, and mitigation against all events, including natural disasters. 
Recent efforts to improve response to and recovery from a terrorism 
event does not diminish FEMA's commitment to dealing with the 
destruction of a natural disaster--just the opposite. FEMA has enjoyed 
a long history of focusing on an all-hazards approach, and being part 
of DHS has strengthened that approach. FEMA has successfully continued 
to respond to and recover from a multitude of natural disasters in the 
past year. At the same time, these efforts provide FEMA with 
opportunities not only to better prepare for terrorism events, but also 
for catastrophic events, whether they are natural or caused by 
terrorism.

    Question 3c. What financial burden does this place on NOAA, as the 
primary federal partner, as well as on the states?
    Answer. FEMA's participation has not placed any financial burdens 
on NOAA. NOAA is not in a position to comment on financial burden 
placed on the states.
Tsunami and Earthquake Program Compatability
    Question 4. As you may know, Congress recently enacted this 
Committee's reauthorization of the multi-agency National Earthquake 
Hazards Reduction Program (NEHRP), which is aimed at both improving 
earthquake detection and community resilience to earthquakes--including 
building construction and planning guidelines. Similarly, S. 50, would 
authorize NOAA's National Tsunami Hazard Mitigation Program (NTHMP), 
another multi-agency program involving many of the witnesses here 
today.
    Looking at these two programs together, are the activities of the 
Earthquake program consistent with the goals of the Tsunami program? 
For instance, is a building designed to be earthquake resilient also 
designed to be resilient against tsunami?
    Answer. The National Earthquake Hazard Reduction Program (NEHRP) 
activities, under the leadership of the National Institute of Standards 
and Technology (NIST), are consistent with those of the National 
Tsunami Hazard Mitigation Program. NEHRP operates the Global 
Seismographic Network and the National Earthquake Information Center, 
which provide data essential to the tsunami warning system. Currently, 
buildings designed to be earthquake resilient are not also designed to 
be resilient against tsunamis. NEHRP has a nascent effort to develop 
tsunami hazard maps and design criteria for shelters and critical 
facilities in cooperation with the Tsunami program. While it would not 
be economically feasible to build a typical structure to withstand a 
tsunami, NEHRP believes that structures could be designed to withstand 
at least some specific level of tsunami without collapse. This is 
especially important for buildings such as community shelters or 
critical facilities (e.g., hospitals).

    Question 4a. Does the Earthquake Program have any programs or 
approaches that should be adopted by the Tsunami program? For example, 
should we expand programs regarding construction and planning?
    Answer. The Administration has recently proposed significant 
expansion of the National Tsunami Hazard Mitigation Program. The 
primary goal of this proposed expansion is to develop and maintain a 
fully operational tsunami warning system. While construction practices 
may be of interest, our efforts are currently focused on improving our 
Nation's tsunami warning capabilities.

    Question 4b. Has the Federal Emergency Management Agency (FEMA) 
participated meaningfully or financially in either program? Are there 
limitations that we should know about?
    Answer. FEMA has the opportunity to play an important role as a 
participant in the National Tsunami Hazard Mitigation Program (NTHMP). 
The NTHMP receives strong regional level support from FEMA Region X, 
whose staff attends all NTHMP meetings. FEMA Region X also supports 
including tsunamis as part of the FEMA National Flood Insurance 
Program, and has funded a pilot project being conducted by NOAA to 
evaluate this inclusion. NOAA does not participate in the National 
Earthquake Hazard Reduction Program (NEHRP), and therefore cannot speak 
to FEMA's contributions to that program. Our federal partners, such as 
NSF, NIST, and USGS, are better suited to address FEMA's participation 
in the NEHRP.

    Question 4c. How can we improve coordination and better define 
agency roles in our legislation?
    Answer. An effective National Tsunami Hazard Mitigation Program 
requires active participation of key federal and state partners. NOAA 
believes this can be accomplished within the existing NTHMP.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to
                    Brigadier General John J. Kelly
    Question 1. I recently visited the Pacific Marine Environmental 
Laboratory (PMEL) in Seattle, which, as you know, provides research 
support for all aspects of the U.S. tsunami program. I was extremely 
impressed by their work and dedication and I thank you for your support 
of this critical facility. As I'm sure you know, PMEL developed the 
DART buoys, which are, and will be, a critical component of our 
Nation's tsunami warning system. These technologies have greatly 
reduced the number of false tsunami alerts, which helps people take 
real alarms seriously. However, I was troubled to learn that three out 
of the six buoys in the Pacific Ocean, including the one off 
Washington's coastline, are currently not functioning properly. An 
emergency repair last month only lasted four days, and then a few days 
ago the buoy started working again. What this situation illustrates, I 
believe, is the need for more reliable buoys and a more redundant 
system. When I visited PMEL, I learned they were working on developing 
a new generation of buoys that would be more reliable, have a longer 
working life, have improved two-way communications, and hopefully be 
less expensive to produce than the older models. Can you please explain 
how you feel passage of this legislation will accelerate the timeline 
for completion of these buoys? Will the buoys deployed under the 
Administration's plan be more reliable?
    Answer. NOAA agrees that we need a reliable and redundant tsunami-
warning system, and we have accounted for some redundancy in our plan. 
It is important to note that the current DART network (DART I) is a 
research system that was only recently (October 2003) transitioned into 
operations. As you mentioned, the DART stations are being redesigned to 
include redundant features so that they will better withstand the harsh 
conditions in the northern Pacific. The redundant capabilities built 
into the stations will increase the life span of the DART systems, as 
will routine maintenance of the stations. NOAA will also maintain three 
redundant in-water backup stations in the Gulf of Alaska, where sea 
conditions are particularly harsh and servicing buoys can be difficult.
    The Administration's plan was developed in response to the Indian 
Ocean Tsunami, and is designed to improve and expand coverage for the 
United States. This plan represents an accelerated version of NOAA's 
current efforts through the National Tsunami Hazard Mitigation Program 
(NTHMP), and has accelerated the timeline for completion of the full 
network of DART stations. The U.S. Tsunami Warning System, as described 
in the Administration's plan, will use the funds over the next two 
years to expand U.S. tsunami detection and monitoring capabilities. The 
complete network of 39 DART stations is planned to be fully operational 
by mid-2007. These measures will provide the United States with nearly 
100 percent detection capability for a U.S. coastal tsunami, allowing 
response within minutes.
    The buoys that will be deployed in the Administration's plan are 
those you describe--capable of two way communications and we expect 
this next generation DART system, DART II, to be more reliable. As 
there is always room for improvement, the Administration's 2-year plan 
also provides $1M for research and development for future innovation of 
the DART network.

    Question 2. I understand the next major tsunami to hit the 
Washington coast could originate from an earthquake along the Cascadia 
plate rather than a deep ocean earthquake. However, the buoy-based 
warning system would be largely useless detecting a near-shore tsunami. 
Are there ways to make our current tsunami warning system more 
effective for mitigating near-shore hazards? For example, the NSF's 
NEPTUNE program to wire the Juan de Fuca plate with fiber optic lines 
seems to be supportive of these efforts. Do you feel that there are 
other technologies or approaches Congress should consider funding that 
might produce more timely warning for near-shore generated tsunamis?
    Answer. Near-shore generated tsunamis present a difficult 
challenge. NOAA and federal, state and local emergency managers have 
ensured warning dissemination capabilities are in place for people to 
receive tsunami warnings. With response time for these events measured 
in ``minutes'' rather than ``hours,'' education and outreach are 
critical, as with tornadoes, to enable people to understand their 
vulnerabilities and take appropriate action immediately. The 
Administration's plan includes $2.5M for education and outreach 
efforts, including NOAA's TsunamiReady program.

    Question 3. On my recent visit to PMEL, I learned that Washington 
State is vulnerable not only to tsunamis generated by distant 
earthquakes in the North Pacific Ocean or the closer Cascadia 
subduction zone, but also from faults within the Puget Sound. In fact, 
there is a fault line that goes right across Puget Sound and downtown 
Seattle. While the last major earthquake event happened in the year 
1100, scientists believe another event could happen at any time. 
Although a Puget Sound generated tsunami would provide almost no time 
to effectively evacuate citizens to higher ground, the vulnerability 
assessments and inundation mapping authorized by this bill is critical 
to inform city planners on future siting and permitting considerations. 
Can you tell me the current plans to analyze the tsunami risk for 
inland bodies of water like the Puget Sound?
    Answer. The impact of tsunamis on inland bodies of water, such as 
the Puget Sound, is being researched by NOAA through inundation mapping 
and computer modeling efforts. The analysis of risks to areas such as 
these is included in NOAA's inundation mapping efforts.

    Question 4. Considering the short warning time for earthquake-
derived tsunamis within the Puget Sound, are there other technologies 
that you think could provide more timely warning to these inland areas?
    Answer. Issuing improved local tsunami warnings due to near-shore 
earthquakes requires enhanced earthquake detection capabilities. The 
U.S. Geological Survey (USGS), which operates the Advanced National 
Seismic System to detect domestic earthquakes and jointly operates the 
Global Seismographic Network (GSN) with the National Science 
Foundation, is best suited to answer this question. However, the 
Administration's plan includes funding for upgraded seismometers used 
to improve tsunami detection and includes funding for improvements to 
the GSN. Most tsunamis are triggered by seismic events, and 
improvements to the GSN are critical to (1) quickly determine the 
precise location of the seismic event (2) its precise magnitude and (3) 
quickly disseminate this information to the USGS National Earthquake 
Information Center and the NOAA Tsunami Warning Centers. Prior planning 
and rapid response are the most effective means of minimizing 
casualties in any local tsunami event. People must be educated to move 
to higher ground if they are in tsunami threatened area and can feel a 
strong ground shaking. Until we are able to forecast earthquakes, we 
are limited in how well we can forecast local tsunami events.

    Question 5. I am grateful for NOAA's work through the TsunamiReady 
program preparing coastal communities for tsunami hazards. However, you 
yourself noted in your testimony that very few coastal communities 
currently meet NOAA's standards of tsunami preparedness. In fact, only 
three Washington State communities qualify as ``tsunami ready'' under 
NOAA's program. How do you plan to work with communities and local 
emergency response agencies to improve and develop emergency response 
strategies?
    Answer. NOAA is committed to accelerating and expanding its 
TsunamiReady community program to all at-risk communities. The 
Administration's plan provides $2.5M to NOAA over two years to support 
public education activities, including community preparedness 
activities such as the TsunamiReady Program. While NOAA recognizes 
achieving TsunamiReady status requires significant state and local 
support, NOAA will continue working with local communities to leverage 
existing assets and community warning preparedness programs, which 
provide the foundation for allowing a community to become 
``TsunamiReady.'' NOAA will also continue to work with communities and 
local emergency response agencies interested in developing or improving 
emergency response strategies, through our participation in the 
National Tsunami Hazard Mitigation Program (NTHMP).

    Question 6. Although I am very concerned about the threat of a 
tsunami to a coastal or Puget Sound community, I would also like to 
state for the record that I remain concerned about all hazards. 
Therefore, it is important to me that related threats be considered 
when investing resources in tsunami preparedness. Do you see ways in 
which earthquake preparedness can be combined with tsunami preparedness 
with the passage of this bill? Please explain if you see opportunities 
to maximize hazard preparedness by preparing for both earthquake and 
tsunami threats.
    Answer. The National Earthquake Hazard Reduction Program (NEHRP) 
activities, under the leadership of the National Institute of Standards 
and Technology (NIST) and other experts, are consistent with those of 
the National Tsunami Hazard Mitigation Program.

    Question 7. Like Senator Stevens, I am concerned about coordination 
of agency efforts to ensure effective use of resources and efficient 
warning systems. I understand that the National Earthquake Information 
Center of the USGS is the recognized worldwide authority for rapid 
earthquake detection and location and already has most of the 
technological resources to provide earthquake information rapidly to 
anyone globally. I would like to know specifically how the NOAA tsunami 
warning centers and the USGS NEIC can coordinate to make sure that we 
create the best warning system possible without duplication of effort.
    Answer. NOAA and the U.S. Geological Survey (USGS) National 
Earthquake Information Center (NEIC) currently coordinate to make sure 
that we have the best, and most efficient, tsunami warning system 
possible. The USGS operates the Advanced National Seismic System 
domestically and jointly operates the Global Seismographic Network 
(GSN) with the National Science Foundation. These networks provide data 
in real time to NOAA's tsunami warning centers through the USGS NEIC. 
The NEIC has a direct link into the NOAA dissemination network, which 
immediately transmits earthquake information to the NOAA tsunami 
warning centers. NOAA, USGS, and FEMA are members of the NTHMP and as 
such, have worked together to ensure coordination. Installation of the 
Consolidated Reporting of Earthquakes and Tsunamis (CREST) system is an 
example of coordination between NOAA and USGS to strengthen the ability 
to rapidly detect tsunamigenic earthquakes.

    Question 8. I understand that the conditions in which the DART 
buoys operate can be dangerous and that a certain rate of equipment 
failure may be unavoidable. However, I'm concerned that 3 of 6 DART 
buoys are currently unreliable, including the buoy off the Washington 
coast. In your estimation, what is the failure rate of these buoys and 
the new buoys that might succeed the current generation of DART buoys? 
Given that failure rate, what is your estimation of the average 
effectiveness of this system?
    Answer. While it is true that, at the time of the hearing, 2 of the 
6 DART stations were offline, this does not indicate that these buoys 
are unreliable in general. The reliability of the DART stations, since 
October 2003, the time when they were transitioned from a research 
program of NOAA Research to an operational program of NOAA's National 
Weather Service, has been 72 percent. This percentage represents the 
combined number of hours the stations have been operational, and 
indicates that the DART station array is a highly effective system 
overall. Our goal is to have a fully capable network of 29 DART 
stations in the Pacific, with 3 additional in-water backups on the Gulf 
of Alaska. While it is not possible to guarantee that these prototype 
stations will be operational 100 percent of the time, NOAA is focused 
making the DART I network more robust and deploying a DART II network 
with reliability built into the design. NOAA plans for the network to 
meet operational requirements, even with occasional DART station 
outages. NOAA will develop capabilities to address network coverage and 
redundancy to ensure, as best we can, that single DART station failures 
will not impact the integrity of the entire network. Planned redundancy 
and hardening of the infrastructure, combined with the addition of a 
two-way communication capability, will mitigate risk from system-wide 
failures.

    Question 9. Confronted with a fresh reminder of the potential 
devastation of an off-shore, tsunami-causing earthquake, I share 
Senator Stevens' concern about ensuring sufficient warning systems are 
in place so that loss of human life can be minimized. Senator Stevens 
requested an estimation of what it would take to establish a 
comprehensive tsunami notification system. I am very interested in your 
response and ask that you please forward me a copy of your answer to 
Senator Stevens' question.
    Answer. A copy of the NOAA response to Senators Stevens and Inouye 
(as well as the incoming letter from the Senators) was faxed to your 
staff (Amit Ronen) on Thursday, March 3, 2005.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to
                    Brigadier General John J. Kelly
Voice Sirens for Effective, Reliable Tsunami Warning
    Question 1. Effective tsunami warning should rely on a variety of 
redundant modes of communication. While there are several technologies 
for communicating tsunami warnings highlighted in the Tsunami 
Preparedness Act of 2005 (S. 50), it is a concern that voice capable 
sirens are not among the technologies mentioned. Emergency managers 
have long depended on sirens to warn the public of emergency and civil 
defense situations including tsunamis, tornados, floods, hurricanes, 
hazardous material accidents, and of a potential nuclear attack.
    Sirens have a number of significant advantages: they insure that 
all residents and visitors to a particular area can be informed without 
regard to the cell phone or pager technology platform or provider they 
may have, when equipped with backup power supplies they will work even 
when the electricity or phone lines are out; when equipped with live 
public address or pre-recorded messages they can be used BEFORE and 
AFTER the incident to communicate important public safety information.
    Without the use of/installation of voice sirens as part of a 
preparedness plan, how do you warn people on the ground? Are there 
other effective warning systems available for this purpose? What 
criteria are used to determine which warning system is reliable in case 
of tsunami?
    Answer. The National Oceanic and Atmospheric Administration (NOAA) 
works with the emergency management community to ensure warnings are 
received by the public in as many ways as possible--including cell 
phones, pagers, Internet, NOAA Weather Radio All-Hazards, television, 
radio, and sirens. All of these methods are effective, and emergency 
managers must decide how to best warn the public. NOAA's dissemination 
systems are available for the emergency management community to use in 
broadcasting emergency messages. NOAA will continue working with 
federal, state and local emergency managers to ensure warnings are as 
widely distributed as possible. Some National Weather Service Offices 
also issue tsunami warnings via High Frequency (HF) and Very High 
Frequency (VHF) marine radio as well, as do other federal agencies. 
There are no unique criteria for determining which warning systems are 
reliable for tsunamis.

    Question 1a. Should a preparedness plan include a warning mechanism 
for small fishing boats trawling near the coastline? National Oceanic 
and Atmospheric Administration (NOAA) weather radios can be used to 
inform these fishing boats at minimal cost (approximately $20).
    Answer. A comprehensive preparedness plan must address how to get 
messages to people, whenever they need it, wherever they are. NOAA 
Weather Radio All-Hazards is an effective way to reach fishing boats 
near the coast. There are other alternatives available as well, 
including satellite based communications links (Internet and cell 
phone). We employ all possible methods of delivering warnings to those 
at risk.
Improving Tsunami Prediction and Preparedness
    Question 2. NOAA's National Weather Service has been able to mark 
its progress in severe weather prediction and forecasting with a number 
of useful metrics. For example, they have substantially increased 
warning times for hurricanes and tornadoes, while at the same time 
increasing accuracy of forecasts. Unlike these events, tsunamis are 
caused by largely unpredictable tectonic events that can strike without 
warning, which makes improving prediction a bit harder. However, it is 
important that we use the same approach to improving out tsunami 
prediction and warnings. One way we have started to characterize our 
success is a 75 percent reduction in false alarms since 1996. This is 
indeed an accomplishment. But we also want to make sure that when a 
deadly tsunami is headed for our coasts, we have the best information 
possible for our communities on time, place and severity.
    What kind of progress have we made in accuracy of forecasting and 
prediction since 1996? What is a good measure of such progress?
    Answer. Tsunamis often result from unpredictable seismic events 
that strike without warning. It is a challenge to improving the 
prediction of tsunami-genesis. With each tornado or hurricane, NOAA 
collects a tremendous amount of data. We are able to learn new things 
about these natural disasters with every event; this information aids 
us in our efforts to improve prediction. Fortunately, tsunamis are 
relatively infrequent. That means we record fewer events and have much 
we can learn when it comes to tsunami generation and propagation. 
Understanding how these natural disasters develop is key to determining 
how we can predict these destructive events.
    The Administration's plan calls for NOAA to have a network of 39 
advanced-technology Deep-Ocean Assessment and Reporting of Tsunamis 
(DART) buoys for a fully operational enhanced tsunami warning system by 
mid-2007. With a complete network of DART stations, we will have the 
opportunity to detect more tsunami events, and we have the opportunity 
to learn from each one. In November 2003, a large earthquake occurred 
in the Aleutian Islands and generated a tsunami. The DART stations 
recorded this event, confirming only a small tsunami. During post 
analysis of the event, DART data were used for a model simulation and 
the output from the simulation accurately predicted the 2 cm tsunami 
recorded at Hilo, Hawaii. With each tsunami-event recorded by the DART 
stations, we have the opportunity to fine-tune our models used to 
predict tsunami impacts. The DART data combined with forecast models 
promise to significantly reduce false alarm rates as well as provide a 
better measure of the severity of destructive tsunamis for Hawaii and 
all other parts of the Pacific. The accurate forecasting of a non-
destructive tsunami in November 2003 saved Hawaii an estimated $68M in 
projected evacuation costs. With the additional DART stations, we 
expect to substantially reduce false alarm rate for distant tsunamis 
from 75 percent to less than 25 percent over the next 4 years. Little 
change is expected in reducing false alarms for local tsunamis (those 
generated from near-shore causes). A reduction in the rate of false 
alarms, and the associated cost-savings for our states and territories, 
is an appropriate measure of our progress in tsunami detection.

    Question 2a. What other metrics will be important to pay attention 
to? For example, only 30 percent of our communities at risk have 
inundation maps--shouldn't this percentage improve? How much will this 
metric improve with the funds proposed under the President's plan?
    Answer. NOAA agrees that the percentage of at-risk communities with 
complete inundation maps is an important metric, and we are working to 
increase the number of areas covered by inundation maps. Another 
important metric is the number of at-risk communities that are 
``TsunamiReady.'' NOAA's TsunamiReady program promotes tsunami hazard 
preparedness as an active collaboration among federal, state and local 
emergency management agencies, the public, and the National Weather 
Service tsunami warning system. The Administration's plan provides 
funding to allow NOAA to increase the number of mapped and TsunamiReady 
communities. Of the $24M scheduled for NOAA use, approximately $4.75M 
will be spent on inundation mapping and modeling, as well as education 
and outreach (e.g., community preparedness activities, including 
TsunamiReady). Of this $4.75M, approximately $2.25M will be spent on 
inundation mapping and modeling and $2.5M will go towards public 
education activities. Following the current plan, inundation mapping 
for the major population centers will be complete in 2015.

    Question 2b. Since we have experienced a 50 percent decline in buoy 
service in the past 2 years, wouldn't this be another metric to focus 
on? What will be your goal?
    Answer. It is not accurate to say that we have experienced a 50 
percent decline in buoy service in the past 2 years. We believe you are 
referring to technical malfunctions of 3 of the 6 DART buoys in the 
weeks preceding the hearing. While it is true that at the time of the 
hearing, 2 of the 6 DART stations were offline, this does not indicate 
a 50 percent decline in performance over the last 2 years. The 
reliability of the DART stations since October 2003, the time when they 
were transitioned from a research program of the Office of Oceanic and 
Atmospheric Research to an operational program of the National Weather 
Service, has been 72 percent. This percentage represents the combined 
number of hours the stations have been operational, and is an 
appropriate metric to use in evaluating the reliability of the DART 
system. Further, this percentage indicates that the DART station array 
is a highly effective system overall.
    Our goal is to have a fully capable network of 29 DART stations in 
the Pacific, with 3 additional in-water backups in the Gulf of Alaska, 
where sea conditions are particularly harsh. While it is not possible 
to guarantee that these stations will be operational 100 percent of the 
time given the demanding environmental conditions in which these 
stations operate, NOAA is focused on making the current DART network 
(DART I) more robust and deploying a next generation DART network (DART 
II) with reliability built into the design. NOAA plans for the network 
to meet operational requirements, even with occasional DART station 
outages. NOAA will develop capabilities to address network coverage and 
redundancy to ensure, as best we can, that single DART station failures 
will not impact the integrity of the entire network. Planned redundancy 
and hardening of the infrastructure, combined with the addition of a 
two-way communication capability, will mitigate risk from system-wide 
failures.
Funding for Tsunami Mitigation and Response
    Question 3. The Administration recently released its plan to expand 
and modernize its tsunami detection and warning system. This plan 
includes the expansion of the system into areas such as the Atlantic 
Ocean, Caribbean, and Gulf of Mexico. I applaud the Administration's 
timely response, however, I am concerned that while the plan addresses 
the issue of tsunami detection, it does not completely address the 
issue of response to tsunami, as well as community preparation.
    Which agency will be taking the lead for mitigation, mapping, and 
response?
    Answer. NOAA, the Federal Emergency Management Agency (FEMA), and 
the United States Geologic Survey (USGS), through the National Tsunami 
Hazard Mitigation Program, coordinate inundation mapping efforts with 
state and local emergency management officials. FEMA is the lead agency 
for mitigation and response, with NOAA assisting any way possible. 
NOAA's role is to assist in identifying the tsunami hazard (required 
inundation mapping), providing tsunami warning guidance (including 
site-specific tsunami forecast models) and providing tsunami mitigation 
program support through community-based preparedness programs and 
education outreach--including the TsunamiReady Program.

    Question 3a. Does the funding proposed by the Administration 
include funding for tsunami response? How much?
    Answer. The two-year plan proposed by the Administration includes 
funding for NOAA and USGS for an improved tsunami detection and warning 
system. FEMA is the lead federal agency in the response area and is 
best suited to answer questions regarding response funding.

    Question 3b. Will these amounts be adequate given the plans for 
expanded areas of coverage for the tsunami program?
    Answer. The new NOAA funding for mitigation includes $2.5M for 
education and outreach and $2.25M for inundation mapping. This is a 
significant increase from the base funding levels managed through the 
National Tsunami Hazard Mitigation Program. FEMA is the lead federal 
agency in the response area and is best suited to answer questions 
regarding response funding.
                                 ______
                                 
  Response to Letter Dated February 7, 2005 from Chairman Stevens and 
     Co-Chairman Inouye to Vice Admiral Conrad C. Lautenbacher, Jr.
    In response to a letter, dated February 7, 2005 from Chairman Ted 
Stevens and Co-Chairman Daniel K. Inouye, asking to:
    Please explain what information or resources your agency requires 
before it can issue a public warning notification of a natural hazard 
or disaster. In addition, we would like to know which entities or 
organizations receive warnings from, or through, your agency, such as 
the appropriate federal and local disaster response entities, first 
responders/911, and local and national media outlets. To the extent 
possible, your report should also demonstrate which communications 
technologies are currently used to deliver these public warnings, such 
as automatic alert televisions and radios, telephones, wireless and 
satellite technology, including cellular telephones, pagers, personal 
digital assistants (PDAs), and the internet. If such communications 
technologies are not being used, we would like to know what the 
impediments are, and the status of any discussions to expand the 
warning system's capability to do so.
    Your report should also specify a process by which your agency, 
either on its own, or in conjunction with other relevant agencies, can 
maximize effective dissemination of public warning notifications. 
Lastly, we would be interested to know how your agency interacts with 
the Department of Homeland Security (including the Federal Emergency 
Management Agency), the Federal Communications Commission, the 
Department of Commerce, or other relevant agencies with respect to 
warning systems.
Response
    Thank you for your letter regarding General John J. Kelly's 
testimony at the February 2, 2005, hearing of the Senate Committee on 
Commerce, Science and Transportation on the U.S. tsunami warning system 
and the Tsunami Preparedness Act of 2005. At the hearing, you asked us 
to tell the Committee how the National Oceanic and Atmospheric 
Administration (NOAA) could improve public notification of impending 
natural hazards and disasters.
    NOAA's National Weather Service (NWS) is acknowledged as the 
premier agency in government for disseminating warning information. We 
are efficient at disseminating weather and natural hazard information 
through our vast communication network. We currently provide public 
notification of weather warnings as well as other natural hazards and 
disasters, such as earthquakes, tsunamis, and civil emergency messages, 
e.g., hazardous materials spills. These warnings can be received and 
transmitted by a myriad of other users providing access to virtually 
all of the people across the Nation. We can provide access, but we 
cannot ensure the message is received.
    While our system is effective, we can still make improvements. We 
can make our systems more reliable and improve public education. We can 
work with the private sector to utilize new technology to make warnings 
available, and develop other methods to increase accessibility of 
warnings.
    NOAA Weather, Alert, and Readiness Network (NOAA WARN), includes 
all NOAA's National Weather Service warning dissemination systems (see 
attachment). This includes the NOAA Weather Radio All Hazards (NWR) 
program, which consists of over 900 radio transmitters covering nearly 
97 percent of the nation's population. The President's FY06 Budget 
request includes funds to modernize 64 of 400 remaining vintage 1970's 
NWR transmitters. These improvements will make them more robust by 
including backup power supply, and make them easier to maintain. Backup 
power is critical during major weather events, such as hurricanes, when 
commercial power is out.
    Our assessment and decision-making equipment, the Advanced Weather 
Interactive Processing System (AWIPS), is the initial generation point 
for all NWS disseminated warnings. We are working to ensure AWIPS has 
appropriate software capabilities, capable of disseminating new 
information technology standard formats, to effectively support the new 
technologies such as Geophysical Information Systems (GIS) and Personal 
Digital Assistants (PDAs).
    Issuing weather and water related warnings (including tsunamis) are 
the culmination of a complex process, beginning with observations, 
analysis, and interpretation, and culminating with disseminating the 
warning. NOAA's NWS maintains a complex infrastructure of people and 
technology to create, and then issue those warnings. It is our mission. 
It is what we do.
    Issuing civil emergency warnings or earthquake warnings has a 
different process. NWS serves as a dissemination service for these 
warnings. We rely on communication processing, which is automated for 
earthquake warnings, and is being automated for federal, state and 
local civil emergency messages. For these civil emergency messages to 
be disseminated, we need to ensure agreements are in place to allow 
access to NOAA dissemination systems. In June 2004, the Department of 
Homeland Security (DHS) and NOAA signed a Memorandum of Agreement 
allowing DHS to use the NOAA Weather Radio All Hazards network to 
disseminate civil emergency messages.
    Once warnings are in NOAA WARN, they are automatically transmitted 
to the Emergency Alert System (EAS; for wide distribution in real and 
near-real time), the NWS dissemination network, and through other 
private and public dissemination systems. NOAA WARN systems include 
NWR, NOAA Weather Wire, NOAAPort, Emergency Managers Weather 
Information Network (EMWIN), and the Internet. Most local and all 
national media outlets have links to NOAA's NWS dissemination network 
to receive warning information.
    Warning messages from NOAA's NWS activate the EAS and also reach 
the private sector, which rebroadcast the emergency information via 
television, radio, internet (e.g., e-mail warnings), pagers, and in 
some cases PDAs and cell phones. Through this warning system, all 
appropriate federal and local emergency officials have access to the 
warning information and can receive warnings.
    Newer technology (e.g., cell phones, reverse 911, PDA's, pagers) 
can receive warning information, but most are set up to do so only when 
requested by the user or as a subscription service. There is no 
federal, state or local policy in place to mandate redistribution of 
warning information. While there are some technical challenges to 
alert, for example, every cell phone within a certain area, it is 
possible. The difficulty with broadcast cell phone warnings is there 
are no national standards. NOAA will continue to work with appropriate 
public and private entities to ensure warning information is available 
in industry standard formats for ease of interoperability.
    NOAA and DHS have ongoing discussions with satellite communications 
operators, such as XM Satellite Radio, who already have a channel 
devoted to emergency messages. This method to deliver warnings shows 
promise, with the only reservation at this point the limited number of 
users.
    Effective dissemination of public warning notification requires 
using existing systems and infrastructure where possible and public 
education and outreach to recommend what actions to take once the 
warnings are issued. For example, USGS uses the NWS infrastructure to 
disseminate earthquake messages and, as stated above, DHS also has 
access to NWR to disseminate warnings. This is an efficient use of 
government infrastructure. All federal agencies involved in warning the 
public need to continue to work together to leverage available assets. 
NOAA has been working with DHS, the Federal Communications Commission 
(FCC), and other agencies within the Department of Commerce to help 
coordinate the federal effort on a consolidated warning system to 
ensure the public is able to receive emergency messages. This dialogue 
will continue.
    For example, NWS is working with the Federal Emergency Management 
Agency (FEMA) on a system to streamline the ability of pre-approved and 
authenticated officials at federal, state, and local levels to submit 
messages for broadcast over NWS systems. The NWS received funds in the 
FY 2004 Omnibus Appropriations Act to streamline and automate the 
current manual creation, authentication, and collection of all types of 
non-weather emergency messages in a quick and secure fashion for 
subsequent alert, warning, and notification purposes. HazCollect, as 
the new system is known, will function through FEMA's Disaster 
Management Interoperability Service (DMIS). All weather and non-weather 
emergency messages will be available on the DMIS backbone network for 
national, state and local dissemination through myriad public and 
private sector systems.
    Essential to any effective warning system is education and 
outreach. NOAA's NWS has two programs to help ensure local communities 
can receive warning information they need--StormReady and TsunamiReady. 
These programs focus on preparedness and education activities to make 
sure local communities can take appropriate steps once the warning 
information is received. One of the criteria for a community to be 
certified as StormReady is to have in place alternate and redundant 
ways to receive warnings. For example, an emergency operations center 
may have Internet notification as well as NWR as their methods to 
receive warnings. Receiving warnings through multiple systems reduces 
the possibility of missing critical information.
    NOAA is working with DHS and other federal, state and local 
agencies to increase usage of NWR and expand the use of new and 
emerging technology to deliver warnings. Timeliness is always a factor, 
but existing NWS dissemination systems transmit warnings usually within 
seconds. Redistribution through EAS is also quick. However, the Nation 
needs a federal lead agency for a nationwide warning system, using a 
common message standard. We believe DHS/FEMA is the appropriate agency 
to lead such an effort, and must build on existing warning systems, 
such as NOAA WARN, to create a warning ``system of systems.''
    American territories, such as American Samoa, do not have an 
extensive communications infrastructure. NOAA is working with these 
communities and our international partners to ensure warning 
information is communicated to government officials. Much communication 
is done through the Emergency Managers Weather Information Network 
(EMWIN) and Radio and Internet (RANET) systems.
    Enclosed is a brief summary of existing NOAA/NWS and related 
federal dissemination systems. We would be pleased to meet with you and 
your staff to provide more detailed information about NOAA warning 
dissemination methods and processes.
    An Integrated Public Alert and Warning System is an important 
element to help keep the people of this Nation safe. Public safety is a 
fundamental responsibility of federal, state and local governments. 
Public alert and warning systems save lives by informing, reducing 
fear, and assisting emergency managers. NOAA will continue to work with 
DHS, FCC and other government agencies to continue to integrate these 
systems.
                               Enclosure
NOAA Weather Radio All Hazards
    NOAA Weather Radio All Hazards (NWR) is a nationwide network of 
transmitters broadcasting continuous weather information directly from 
a National Weather Service office. NWR broadcasts National Weather 
Service warnings, watches, forecasts, and other hazard information 24-
hours per day. Known as the ``voice of NOAA's National Weather 
Service,'' NWR is provided as a public service by the Department of 
Commerce's National Oceanic and Atmospheric Administration (NOAA). NWR 
includes more than 925 transmitters, covering more than 97 percent of 
the United States, Puerto Rico, the U.S. Virgin Islands, and the U.S. 
Pacific Territories. NWR requires a special radio receiver or scanner 
capable of picking up the signal. Broadcasts are found in the public 
service band on seven frequencies.
    Currently, about 17 percent of the U.S. population owns a NOAA 
Weather Radio, though the actual percentage of the population reached 
may be greater due to the promulgation of receivers in public places 
such as schools, hospitals, fire stations, and malls. NOAA Weather 
Radio receivers can be purchased at many retail stores selling 
electronic merchandise. Some televisions are now equipped with 
AlertGuard<SUP>TM</SUP>, which is essentially an embedded NWR receiver 
with alert capability. NOAA Weather Radio All Hazards receivers are 
often sold in boat and marine accessory businesses, as they are popular 
in the marine community. These are just some of the places NOAA Weather 
Radio receivers can be purchased.
    A survey on Weather Radio Interests and Awareness conducted in 
August 2002 by eBrain Market Research (a service of the Consumer 
Electronics Association) identified the following key points:

  <bullet> The most common type of the NOAA Weather Radio owned is a 
        hand-held model (50 percent). Additionally, 32 percent of 
        owners possess a desktop weather radio, 19 percent own a marine 
        weather radio that picks up NOAA Weather Radio, 11 percent have 
        a clock-radio equipped to receive NOAA alerts, and 10 percent 
        can pick up NOAA announcements on their CB.

  <bullet> Given the right product offerings and marketing campaigns to 
        promote awareness of weather radios, it is possible 
        manufacturers can sell 7.4 million weather radios over the next 
        year.

Emergency Alert System
    The Emergency Alert System serves two functions:

  <bullet> It provides a last resort method for the President to 
        address the Nation in times of national attack or major crisis 
        (National Alert).

  <bullet> When not in use by the President, it can be used to issue 
        warning messages of imminent or ongoing hazards at the state 
        and local levels by radio, television, and cable systems in 
        selected regions. (NOAA Weather Alert, State and Local Alerts). 
        \1\

    \1\ Plan for the Operation of the Emergency Alert System (EAS) 
during a National Emergency (FEMA EAS OPLAN), dated September 1995.
---------------------------------------------------------------------------
    During a national alert, all radio and television stations and 
cable television systems must either broadcast Presidential alerts 
immediately or cease transmission during the message. Broadcasting of 
state and local alerts is not mandatory, and stations/systems can 
postpone broadcasting a given warning or alert still in force until 
there is a programming pause. National alerts are issued through the 
Primary Entry Point (PEP) system via dialup telephone lines (with High 
Frequency (HF) radio backups) to 34 continental U.S. and territorial 
radio stations. For national alert and warning, the 34 PEP stations 
would then serve as relay points for the Presidential message to 
automatically seize the broadcasts of all U.S. radio and TV and cable 
stations monitoring the PEP stations. The direct PEP radio station 
broadcasts cover approximately 95 percent of the continental U.S. and 
Hawaii and the seized broadcast would cover well over 95 percent of the 
American public.
    State and local alerts generally originate in the State Emergency 
Operations Center or other similar official location. Because there is 
no standard in the country for EAS plans, some states have more robust 
systems than others. For example, Florida and Pennsylvania use 
satellite technology to get out emergency messages from the Governor 
reaching the entire state. Most other states rely on the cascade system 
used for typical EAS messages where stations monitor ``up stream'' 
stations for a signal until the entire state is covered. ``Amber 
Alerts'' are also sent out over the system; these may originate from a 
law enforcement agency within the state. The only thing states using 
the system have in common is that they all must enter the system at 
some point from an authorized official.
    All non-PEP broadcast stations and cable systems are required to 
follow their state EAS plans. \2\ Integral to all state plans is they 
must specify monitoring assignments for all broadcast stations and 
cable systems in the state. All broadcast stations and cable systems 
are required to monitor at least two EAS sources according to their 
state EAS plan. At least one PEP station should be monitored by a 
state's EAS network so national level EAS messages can be distributed 
in the state. In an effort to bring order to the system, all broadcast 
stations and cable systems have EAS designations. PEP stations have an 
EAS designation of National Primary (NP), since they are the source of 
national level messages. State level sources have designations of State 
Primary (SP) and State Relay (SR) and local sources are designated 
Local Primary (LP).
---------------------------------------------------------------------------
    \2\ There is no requirement from the FCC for states to have an EAS 
plan, but regulations require states choosing to develop an EAS plan to 
have it reviewed by the FCC.
---------------------------------------------------------------------------
    There is also one national network, National Public Radio (NPR), 
which has voluntarily agreed to distribute national level messages to 
its affiliates via satellite. The NPR directly monitors a PEP/NP 
station and will relay a national level EAS message as soon as it is 
received.
    The National Weather Service (NWS) originates about 90 percent of 
all EAS alerts. Many participating EAS entities voluntarily monitor the 
National Weather Service's NOAA Weather Radio (NWR) transmitting 
alerts. NWR supplies local EAS encoded alerts to broadcast and cable 
entry points as described in each approved state and local EAS plan. In 
many localities, emergency managers can originate EAS alerts through 
NWS, through a broadcaster or cable operator, or through their own 
equipment if they have made prior arrangements documented in EAS plans. 
Proper operation of the EAS depends on those state and local plans 
specifying how stations are linked together in monitoring webs; how 
State Primary (SP), State Relay (SR) and Local Primary (LP) EAS sources 
get EAS warnings; how EAS testing is accomplished; and which EAS 
messages may be relayed.
National Warning System
    FEMA maintains and operates the National Warning System (NAWAS), 
which was developed and installed during the 1950s, as the primary 
national emergency communication system among federal, state, and local 
emergency operations centers. NAWAS is a dedicated, 24-hour, 
specialized party telephone line with 1,850 terminals at state and 
local emergency operations centers, 911 centers, and police and fire 
stations to all be activated at the same time. The system is used to 
relay national and local information within states. It also has direct 
links to the command center at the North American Aerospace Defense 
Command. Every NWS forecast office has connectivity to NAWAS.
NOAA Weather Wire System
    The NOAA Weather Wire Service (NWWS) also plays a role in getting 
weather warnings to the public. NWWS is a satellite data collection and 
dissemination system. NWWS broadcasts can be received anywhere in the 
United States and Puerto Rico. NWWS disseminates warnings in less than 
10 seconds. The warnings have embedded digital information identifying 
specific threats and specific geographic areas at risk. Satellite 
receivers are commercially available. At least one emergency management 
or law enforcement agency in each state has NWWS. These agencies 
rebroadcast the information to other state and local emergency managers 
and also provide local hazard information to the NWS for broadcast, 
when appropriate.
    Negotiations are underway to add the National Law Enforcement 
Telecommunications System to NWWS. This would permit several thousand 
law enforcement agencies around the country to exchange all-hazard 
warnings.
Emergency Managers Weather Information Network
    The Emergency Managers Weather Information Network (EMWIN) 
transmits real time weather and emergency information. The EMWIN signal 
is available anywhere within the NOAA's Geostationary Operational 
Environmental Satellites (GOES) footprint, which covers most of the 
western hemisphere as well as the central and eastern Pacific Ocean. 
The National Weather Service gathers real time weather and emergency 
information from sources across the globe and broadcasts the 
information via EMWIN. Emergency management groups and municipal 
agencies receive EMWIN data from the satellite and retransmit it on 
local radio frequencies. State and local agencies select the 
information to fit their specific area. The EMWIN datastream is 
rebroadcast by the University of Hawaii over the PEACESAT satellite 
covering much of the Pacific Ocean including remote Pacific islands. In 
some small island countries, it is the most reliable way to get 
forecasts and warnings and information. Commercial software is 
available to allow local computers to be configured to trigger alarms 
for specific hazards.
RANET
    Advancement of communication and dissemination capacities in 
developing countries for purposes of tsunami and other hazards warning 
is being addressed in part through the NOAA and USAID Office of Foreign 
Disaster Assistance supported Radio and Internet (RANET) program. RANET 
works to develop dissemination capacities for distribution of critical 
weather and climate information to rural and remote populations in 
developing countries. This program is active throughout Africa and the 
Pacific, and activities are expected to begin in late spring and early 
summer in Asia. The RANET program utilizes WorldSpace digital satellite 
broadcast capacity, provided through the not-for-profit First Voice 
International, to deliver a variety of graphic and text based 
information to national weather services and remote field offices 
anywhere in Africa, Central Asia, South Asia, Southeast Asia, and the 
Pacific. The broadcast on the AsiaStar and AfriStar WorldSpace 
satellites is a comprehensive suite of weather forecasts, observations, 
bulletins, and related information. RANET ties this broadcast capacity 
to traditional FM and HF radio broadcasts, as well as other networks. 
In response to the December 26, 2004, tsunami disaster, RANET is 
working with the Pacific Tsunami Warning Center to develop a `global' 
cell phone based SMS/text messaging service. Technical development of 
the system was completed on February 14, 2005, and it is now undergoing 
a series of tests before being formally announced. The service will 
provide notification to foreign government officials and those 
appointed by a country point-of-contact when bulletins from the Pacific 
Tsunami Warning Center and other centers are released. Similarly, RANET 
is developing a web-based alert notification system. While receiving 
activity support and coordination, RANET is not currently provided 
operational resources.
Dissemination of Tsunami Warning Information to the Public
    The NOAA National Weather Service (NWS) Richard H. Hagemeyer 
Pacific Tsunami Warning Center (PTWC) disseminates bulletins by a 
variety of methods to (1) eliminate single points of failure, and (2) 
to reach all of its clients. PTWC relies heavily on the established 
communications infrastructure used by the weather side of the NWS. 
Bulletins are sent via a dedicated circuit to the NWS 
Telecommunications Gateway (NWSTG) in Silver Springs, Maryland, and 
from there they are forwarded into the Advanced Weather Information 
Processing System and delivered to NWS Forecast Offices. From NWS 
Forecast Offices tsunami information is relayed into the NOAA Weather 
Radio (NWR) and Emergency Alert System (EAS) when necessary. Bulletins 
are also forwarded from the National Weather Service Telecommunications 
Gateway (NWSTG) into the World Meteorological Organization's Global 
Telecommunications System for delivery to weather offices worldwide. 
Bulletins are also forwarded from the NWSTG into the Emergency Managers 
Weather Information Network (EMWIN) for delivery over the GOES and 
PEACESAT satellites to many places including remote Pacific islands. 
PTWC bulletins are also sent to the NWSTG over the NOAA Weather Wire 
System (NWWS), a satellite based system with a 2-way dish at PTWC. In 
addition to providing a redundant path from PTWC to the NWSTG, the NWWS 
provides NWS products including tsunami bulletins to a variety of 
customers, including the media, via an NWS program called the Family of 
Services (FOS). Television stations in Hawaii, for example, subscribe 
to an Associated Press (AP) feed over which they receive PTWC 
bulletins. The AP receives its weather information from multiple NWS 
forecast and warning dissemination systems to help ensure high 
reliability. PTWC sends tsunami information to the U.S. Armed Forces 
via a legacy dial-out GateGuard terminal delivering the bulletins via 
the AUTODIN system to approximately 200 commands. PTWC also informs the 
Pacific Command of U.S. Forces and the Navy Command Center for the 
Hawaii Region by telephone. PTWC also sends its bulletins to 
approximately 30 airfields and other locations in the Pacific over the 
Aeronautical Fixed Telecommunications Network. In addition, bulletins 
are sent via e-mail to about 100 addresses and via fax to about 20 
offices.
    The procedure PTWC has always operated under is it only provides 
tsunami warning guidance to national and local authorities. This is no 
different than for other natural disasters, such as hurricanes, floods, 
etc. NWS provides the information to decision-makers. Those authorities 
are then responsible for making decisions about whether or not to issue 
an evacuation order, and for disseminating such orders to the public. 
In some cases, such as an urgent local tsunami warning in Hawaii, the 
issuance of evacuation orders with sirens sounding and an activation of 
the EAS and NWR (by the NWS Honolulu Forecast Office in response to a 
PTWC bulletin) is pre-approved by State Civil Defense (SCD) in the 
interest of time when minutes and seconds count. But in other cases 
such as a distant tsunami approaching Hawaii, SCD may consult with its 
own tsunami advisors and control the issuance and timing of any 
evacuation. Local authority for evacuations is critical since PTWC 
warnings to various parts of the Pacific, being based initially on only 
the seismic data, have a high false alarm rate. It could be very 
confusing to the public if PTWC issued evacuation guidance to a region, 
but local authorities in that region had decided not to evacuate.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                       Dr. John H. Marburger, III
    Question. What actions are being taken by the U.S. in response to 
the health threats that continue to exist in the affected countries?
    Answer. My office, the Office of Science and Technology Policy, is 
not coordinating the U.S. response to health threats in the affected 
countries. However, I have asked the U.S. Agency for International 
Development (USAID), the Department of Defense (DoD), and the 
Department of Health and Human Services (HHS) to provide detailed 
information on their response to health threats, which are described 
below. In addition, I have asked NASA to summarize its less direct, but 
nevertheless important, contributions through satellite imaging.
USAID
    USAID/Office of U.S. Foreign Disaster Assistance (OFDA) has 
provided over $30 million to non-governmental organizations (NGOs) and 
international organizations to provide assistance in health, water/
sanitation, and psychological and social activities. OFDA has provided 
$8 million to NGOs and international organizations for health sector 
programs (excluding psychological and social activities, and water/
sanitation). OFDA funded partners have provided mobile health clinics 
and field hospitals, rehabilitated primary health care clinics and 
hospitals, and provided medicines and emergency health care supplies. 
In addition, OFDA-funded international organizations are tracking 
patterns of life-threatening diseases, and assisting in the control of 
communicable diseases through surveillance and early warning systems, 
immunization, distribution of hygiene kits, and health/hygiene 
education.
    USAID/OFDA has provided $17 million to organizations for water and 
sanitation activities to ensure sanitary conditions and access to 
potable drinking water for affected populations. Partner activities 
include construction of latrines, provision of containers for 
transportation of water and water storage bladders, disinfection of 
water sources, water purification and treatment, hygiene education, and 
distribution of hygiene kits.
    In addition to the traditional emergency health activities, OFDA is 
supporting organizations that are carrying out interventions to 
mitigate the psychological trauma of the tsunami. OFDA is providing 
funding in India, Sri Lanka, and Indonesia for programs that provide 
psychological and social support for survivors of the tsunami. Total 
support for these activities totals approximately $5.2 million. We have 
given particular attention to the needs of children and are supporting 
several organizations that are facilitating structured activities for 
children and adolescents, often through child-centered spaces. These 
activities are being implemented in internally displaced persons (IDP) 
program settlements and tsunami-affected communities alike.
    OFDA is currently funding the following organizations to implement 
Health, Psychological and Social, and Water/Sanitation programs 
benefiting tsunami-affected populations:

        Action Contre la Faim
        American Center for International Labor
        The Asia Foundation
        CARE
        Catholic Relief Services
        Christian Children's Fund
        Church World Services
        Cooperative Housing Foundation International
        GOAL
        International Medical Corps
        International Organization for Migration
        International Rescue Committee
        International Relief and Development
        Johns Hopkins Program for International Education in Gynecology 
        and Obstetrics
        Project Concern International
        Sarvodaya
        Save the Children/US
        Save the Children/UK
        Shelter for Life
        Sri Lanka Red Cross
        United Nations Children's Fund
        World Health Organization

    USAID is also considering proposals from NGOs and others and 
working to respond to the needs assessments being developed for the 
region. For additional details, see the INDIAN OCEAN--Earthquake and 
Tsunamis Fact Sheet, available on the USAID website (http://
www.usaid.gov/locations/asia_near_east/tsunami).
DoD
    The Defense Department has dispatched the medical ship USNS Mercy 
off the coast of Banda Aceh Indonesia. This medical ship is staffed by 
a unique combination of military personnel and American volunteers from 
the medical community coordinated by the NGO Project HOPE. In 
coordination with the Government of Indonesia, the military staff and 
volunteers are providing state of the art medical services to those 
patients that cannot be treated by the hospitals on shore. They are 
also providing consultation services, limited training, and 
bioengineering repair services in hospitals on shore.
HHS
    HHS has deployed 54 employees to the region, including four people 
assigned to the U.S. Disaster Assistance Response Teams, as well as 
Centers for Disease Control and Prevention (CDC) epidemiologists and 
field staff in Indonesia, Thailand, and Sri Lanka. They are assisting 
with activities related to vaccine-preventable diseases, childhood 
injuries and trauma, malaria control, health and nutrition, mental 
health, rapid needs assessment, and response coordination. Among the 
diseases that are being monitored are cholera, dysentery, malaria and 
typhoid fever. In addition, HHS staff are assisting the Department of 
Defense aboard the USNS Mercy.
    Since late December, CDC staff in Thailand and India, where HHS has 
ongoing programs, have been assisting local health and other officials, 
under the direction of the respective U.S. embassies. Their activities 
include assessing health needs, monitoring for diseases, and 
documenting the dead and missing. HHS scientists are assisting teams 
led by Department of Defense, the State Department and international 
organizations. HHS officials in the United States are in daily contact 
with American, international and local officials involved in the 
tsunami response.
    HHS is working with other agencies of the U.S. government planning 
for the recovery and reconstruction phase of the tsunami response.
NASA
    NASA satellite observations and predictions of Earth processes are 
being used to support human health aid programs in the tsunami affected 
regions and elsewhere in the world. Health factors that are measurable 
from NASA research instruments include, air and water contaminants, 
ambient temperature extremes, ultra-violet radiation and a myriad of 
other factors that contribute to our knowledge of public health 
challenges. NASA collaborates to expand the use of Earth observing 
instruments, advanced communication technology, high speed computing 
capabilities, data products, and predictive models associated with the 
occurrence of disease to assist partners in enhancing their 
surveillance systems.
    For example, NASA's Socioeconomic Data and Applications Center 
(SEDAC) is working with the Geographic Information Support Team (GIST), 
which includes representatives from the U.S. Office of Foreign Disaster 
Assistance (OFDA), the UN Office for the Coordination of Humanitarian 
Affairs (OCHA), the World Bank, the World Food Programme (WFP), the UK 
Department for International Development (DFID), the World Health 
Organization (WHO), and others. This group is providing access to key 
geospatial data needed by working teams in the field.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to
                       Dr. John H. Marburger, III
    Question. Dr. Marburger, confronted with a fresh reminder of the 
potential devastation of an off-shore, tsunami-causing earthquake, I 
share Senator Stevens' concern about ensuring sufficient warning 
systems are in place so that loss of human life can be minimized. Thank 
you for the outline you provided in your written testimony of the 
generic components for a successful disaster detection, warning, and 
reduction system. Senator Stevens requested an estimation of what it 
would take to establish a comprehensive tsunami notification system, 
such as the one you outlined in your testimony. I am very interested in 
your response and ask that you please forward me a copy of your answer 
to Senator Stevens' question.
    Answer. I share your concern that the citizens of the U.S. have 
sufficient warning of any tsunami event on our shores. In fact, tsunami 
warnings are a part of a larger effort to provide warnings for all 
natural and human-caused disasters within the U.S.
    The responses to Senator Stevens' question come mostly from the 
agencies charged with the development of a comprehensive tsunami 
notification system. The U.S. already has significant warning 
capabilities for a variety of severe weather events and other 
emergencies. For example, I have attached an extended excerpt from a 
letter submitted by NOAA Administrator Lautenbacher in response to 
questions by Senators Stevens and Inouye in which the current warning 
capabilities of the U.S. are summarized nicely. We believe that the 
efforts of the Department of Commerce (NOAA), the U.S. Geological 
Survey (USGS), the National Science Foundation (NSF), and the 
Department of Homeland Security (FEMA) are effective and should 
continue their development. The next steps in this process are outlined 
in the fact sheet that the Office of Science and Technology Policy 
released (copy attached) describing the Administration's immediate 
steps to strengthen the U.S. tsunami detection and warning capabilities 
in the Pacific Ocean, Atlantic Ocean, and Caribbean Sea. Furthermore we 
have assembled an interagency working group under the National Science 
and Technology Council to provide the detailed planning and 
identification of responsibilities to implement these improvements. 
This group will issue a detailed plan by mid-summer.
    In addition, the evolving emergency notification situations 
following the events of September 11, 2001 have motivated us to create 
an interagency effort to coordinate the activities with the Federal 
Government that deal with emergency warnings. This new group is now 
being formed under the National Science and Technology Council and will 
be called the Task Force on Effective Warnings. This Task Force will be 
charged with examining both natural disaster warnings and homeland 
security warnings, and to will examine and make recommendations about 
disaster warning/communication systems, networks or facilities to 
provide effective disaster warning systems for the Nation. We believe 
that the integration of warning systems for natural hazards should be 
combined with warning associated with homeland security into a single 
``all hazards'' warning system for the people of the U.S.
Excerpt from letter to Senators Stevens and Inouye from Vice Admiral 
        Conrad C. Lautenbacher on February 22, 2005:
    NOAA's National Weather Service (NWS) is acknowledged as the 
premier agency in government for disseminating warning information. We 
are efficient at disseminating weather and natural hazard information 
through our vast communication network. We currently provide public 
notification of weather warnings as well as other natural hazards and 
disasters, such as earthquakes, tsunamis, and civil emergency messages, 
e.g., hazardous materials spills. These warnings can be received and 
transmitted by a myriad of other users providing access to virtually 
all of the people across the Nation. We can provide access, but we 
cannot ensure the message is received.
    While our system is effective, we can still make improvements. We 
can make our systems more reliable and improve public education. We can 
work with the private sector to utilize new technology to make warnings 
available, and develop other methods to increase accessibility of 
warnings.
    NOAA Weather, Alert, and Readiness Network (NOAA WARN), includes 
all NOAA's National Weather Service warning dissemination systems (see 
attachment). This includes the NOAA Weather Radio All Hazards (NWR) 
program, which consists of over 900 radio transmitters covering nearly 
97 percent of the nation's population. The President's FY06 Budget 
request includes funds to modernize 64 of 400 remaining vintage 1970's 
NWR transmitters. These improvements will make them more robust by 
including backup power supply, and make them easier to maintain. Backup 
power is critical during major weather events, such as hurricanes, when 
commercial power is out.
    Our assessment and decision-making equipment, the Advanced Weather 
Interactive Processing System (AWIPS), is the initial generation point 
for all NWS disseminated warnings. We are working to ensure AWIPS has 
appropriate software capabilities, capable of disseminating new 
information technology standard formats, to effectively support the new 
technologies such as Geophysical Information Systems (GIS) and Personal 
Digital Assistants (PDAs).
    Issuing weather and water related warnings (including tsunamis) are 
the culmination of a complex process, beginning with observations, 
analysis, and interpretation, and culminating with disseminating the 
warning. NOAA's NWS maintains a complex infrastructure of people and 
technology to create, and then issue those warnings. It is our mission. 
It is what we do.
    Issuing civil emergency warnings or earthquake warnings has a 
different process. NWS serves as a dissemination service for these 
warnings. We rely on communication processing, which is automated for 
earthquake warnings, and is being automated for federal, state and 
local civil emergency messages. For these civil emergency messages to 
be disseminated, we need to ensure agreements are in place to allow 
access to NOAA dissemination systems. In June 2004, the Department of 
Homeland Security (DHS) and NOAA signed a Memorandum of Agreement 
allowing DHS to use the NOAA Weather Radio All Hazards network to 
disseminate civil emergency messages.
    Once warnings are in NOAA WARN, they are automatically transmitted 
to the Emergency Alert System (EAS; for wide distribution in real and 
near-real time), the NWS dissemination network, and through other 
private and public dissemination systems. NOAA WARN systems include 
NWR, NOAA Weather Wire, NOAAPort, Emergency Managers Weather 
Information Network (EMWIN), and the Internet. Most local and all 
national media outlets have links to NOAA's NWS dissemination network 
to receive warning information.
    Warning messages from NOAA's NWS activate the EAS and also reach 
the private sector, which rebroadcast the emergency information via 
television, radio, internet (e.g., email warnings), pagers, and in some 
cases PDAs and cell phones. Through this warning system, all 
appropriate federal and local emergency officials have access to the 
warning information and can receive warnings.
    Newer technology (e.g., cell phones, reverse 911, PDA's, pagers) 
can receive warning information, but most are set up to do so only when 
requested by the user or as a subscription service. There is no 
federal, state or local policy in place to mandate redistribution of 
warning information. While there are some technical challenges to 
alert, for example, every cell phone within a certain area, it is 
possible. The difficulty with broadcast cell phone warnings is there 
are no national standards. NOAA will continue to work with appropriate 
public and private entities to ensure warning information is available 
in industry standard formats for ease of interoperability.
    NOAA and DHS have ongoing discussions with satellite communications 
operators, such as XM Satellite Radio, who already have a channel 
devoted to emergency messages. This method to deliver warnings shows 
promise, with the only reservation at this point the limited number of 
users.
    Effective dissemination of public warning notification requires 
using existing systems and infrastructure where possible and public 
education and outreach to recommend what actions to take once the 
warnings are issued. For example, USGS uses the NWS infrastructure to 
disseminate earthquake messages and, as stated above, DHS also has 
access to NWR to disseminate warnings. This is an efficient use of 
government infrastructure. All federal agencies involved in warning the 
public need to continue to work together to leverage available assets. 
NOAA has been working with DHS, the Federal Communications Commission 
(FCC), and other agencies within the Department of Commerce to help 
coordinate the federal effort on a consolidated warning system to 
ensure the public is able to receive emergency messages. This dialogue 
will continue.
    For example, NWS is working with the Federal Emergency Management 
Agency (FEMA) on a system to streamline the ability of pre-approved and 
authenticated officials at federal, state, and local levels to submit 
messages for broadcast over NWS systems. The NWS received funds in the 
FY 2004 Omnibus Appropriations Act to streamline and automate the 
current manual creation, authentication, and collection of all types of 
non-weather emergency messages in a quick and secure fashion for 
subsequent alert, warning, and notification purposes. HazCollect, as 
the new system is known, will function through FEMA's Disaster 
Management Interoperability Service (DMIS). All weather and non-weather 
emergency messages will be available on the DMIS backbone network for 
national, state and local dissemination through myriad public and 
private sector systems.
    Essential to any effective warning system is education and 
outreach. NOAA's NWS has two programs to help ensure local communities 
can receive warning information they need--StormReady and TsunamiReady. 
These programs focus on preparedness and education activities to make 
sure local communities can take appropriate steps once the warning 
information is received. One of the criteria for a community to be 
certified as Storm Ready is to have in place alternate and redundant 
ways to receive warnings. For example, an emergency operations center 
may have Internet notification as well as NWR as their methods to 
receive warnings. Receiving warnings through multiple systems reduces 
the possibility of missing critical information.
    NOAA is working with DHS and other federal, state and local 
agencies to increase usage of NWR and expand the use of new and 
emerging technology to deliver warnings. Timeliness is always a factor, 
but existing NWS dissemination systems transmit warnings usually within 
seconds. Redistribution through EAS is also quick. However, the Nation 
needs a federal lead agency for a nationwide warning system, using a 
common message standard. We believe DHS/FEMA is the appropriate agency 
to lead such an effort, and must build on existing warning systems, 
such as NOAA WARN, to create a warning ``system of systems.''
    American territories, such as American Samoa, do not have an 
extensive communications infrastructure. NOAA is working with these 
communities and our international partners to ensure warning 
information is communicated to government officials. Much communication 
is done through the Emergency Managers Weather Information Network 
(EMWIN) and Radio and Internet (RANET) systems.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to
                       Dr. John H. Marburger, III
    The questions voiced by Senator Pryor reflect concern and interest 
in the success and effectiveness of existing warning mechanisms and the 
likelihood that these systems will get better in the future. I share 
those concerns and have assembled an interagency working group under 
the National Science and Technology Council to gather together the 
agencies working on tsunami warning systems to provide the detailed 
planning and identification of responsibilities to implement these 
improvements. This group will issue a detailed plan by mid-summer and 
we will follow up with the agencies to ensure effective implementation.
    The specific questions submitted by Senator Pryor are identical to 
the questions submitted to NOAA. Since NOAA is the agency responsible 
for managing the TsunamiReady Program and is primarily responsible for 
instituting any needed changes in the U.S. tsunami warning system, I 
will defer to NOAA's detailed responses to these questions, listed 
here.
Voice Sirens for Effective, Reliable Tsunami Warning
    Question 1. Effective tsunami warning should rely on a variety of 
redundant modes of communication. While there are several technologies 
for communicating tsunami warnings highlighted in the Tsunami 
Preparedness Act of 2005 (S. 50), it is a concern that voice capable 
sirens are not among the technologies mentioned. Emergency managers 
have long depended on sirens to warn the public of emergency and civil 
defense situations including tsunamis, tornados, floods, hurricanes, 
hazardous material accidents, and of a potential nuclear attack.
    Sirens have a number of significant advantages: they insure that 
all residents and visitors to a particular area can be informed without 
regard to the cell phone or pager technology platform or provider they 
may have, when equipped with backup power supplies they will work even 
when the electricity or phone lines are out; when equipped with live 
public address or pre-recorded messages they can be used BEFORE and 
AFTER the incident to communicate important public safety information.
    Without the use of/installation of voice sirens as part of a 
preparedness plan, how do you warn people on the ground? Are there 
other effective warning systems available for this purpose? What 
criteria are used to determine which warning system is reliable in case 
of tsunami?
    Answer. NOAA works with the emergency management community to 
ensure warnings are received by the public in as many ways as 
possible--including cell phones, pagers, Internet, NOAA Weather Radio 
All-Hazards, television, radio, and sirens. All of these methods are 
effective, and emergency managers must decide how to best warn the 
public. NOAA's dissemination systems are available for the emergency 
management community to use in broadcasting emergency messages. NOAA 
will continue working with federal, state and local emergency managers 
to ensure warnings are as widely distributed as possible. Some National 
Weather Service Offices also issue tsunami warnings via High Frequency 
(HF) and Very High Frequency (VHF) marine radio as well, as do other 
federal agencies. There are no unique criteria for determining which 
warning systems are reliable for tsunamis.

    Question 1a. Should a preparedness plan include a warning mechanism 
for small fishing boats trawling near the coastline? National Oceanic 
and Atmospheric Administration (NOAA) weather radios can be used to 
inform these fishing boats at minimal cost (approximately $20).
    Answer. A comprehensive preparedness plan must address how to get 
messages to people, whenever they need it, wherever they are. NOAA 
Weather Radio All-Hazards is an effective way to reach fishing boats 
near the coast. There are other alternatives available as well, 
including satellite based communications links (Internet and cell 
phone). We employ all possible methods of delivering warnings to those 
at risk.
Improving Tsunami Prediction and Preparedness
    Question 2. NOAA's National Weather Service has been able to mark 
its progress in severe weather prediction and forecasting with a number 
of useful metrics. For example, they have substantially increased 
warning times for hurricanes and tornadoes, while at the same time 
increasing accuracy of forecasts. Unlike these events, tsunamis are 
caused by largely unpredictable tectonic events that can strike without 
warning, which makes improving prediction a bit harder. However, it is 
important that we use the same approach to improving out tsunami 
prediction and warnings. One way we have started to characterize our 
success is a 75 percent reduction in false alarms since 1996. This is 
indeed an accomplishment. But we also want to make sure that when a 
deadly tsunami is headed for our coasts, we have the best information 
possible for our communities on time, place and severity.
    What kind of progress have we made in accuracy of forecasting and 
prediction since 1996? What is a good measure of such progress?
    Answer. Tsunamis often result from unpredictable seismic events 
that strike without warning. It is a challenge to improving the 
prediction of tsunami-genesis. With each tornado or hurricane, the 
National Oceanic and Atmospheric Administration (NOAA) collects a 
tremendous amount of data. We are able to learn new things about these 
natural disasters with every event; this information aids us in our 
efforts to improve prediction. Fortunately, tsunamis are relatively 
infrequent. That means we record fewer events and have much we can 
learn when it comes to tsunami generation and propagation. 
Understanding how these natural disasters develop is key to determining 
how we can predict these destructive events.
    The Administration's plan calls for NOAA to have a network of 39 
advanced-technology Deep-Ocean Assessment and Reporting of Tsunamis 
(DART) buoys for a fully operational enhanced tsunami warning system by 
mid-2007. With a complete network of DART stations, we will have the 
opportunity to detect more tsunami events, and we have the opportunity 
to learn from each one. In November 2003, a large earthquake occurred 
in the Aleutian Islands and generated a tsunami. The DART stations 
recorded this event, confirming only a small tsunami. During post 
analysis of the event, DART data were used for a model simulation and 
the output from the simulation accurately predicted the 2 cm tsunami 
recorded at Hilo, Hawaii. With each tsunami-event recorded by the DART 
stations, we have the opportunity to fine-tune our models used to 
predict tsunami impacts. The DART data combined with forecast models 
promise to significantly reduce false alarm rates as well as provide a 
better measure of the severity of destructive tsunamis for Hawaii and 
all other parts of the Pacific. The accurate forecasting of a non-
destructive tsunami in November 2003 saved Hawaii an estimated $68M in 
projected evacuation costs. With the additional DART stations, we 
expect to substantially reduce false alarm rate for distant tsunamis 
from 75 percent to less than 25 percent over the next 4 years. Little 
change is expected in reducing false alarms for local tsunamis (those 
generated from near-shore causes). A reduction in the rate of false 
alarms, and the associated cost-savings for our states and territories, 
is an appropriate measure of our progress in tsunami detection.

    Question 2a. What other metrics will be important to pay attention 
to? For example, only 30 percent of our communities at risk have 
inundation maps--shouldn't this percentage improve? How much will this 
metric improve with the funds proposed under the President's plan?
    Answer. NOAA agrees that the percentage of at-risk communities with 
complete inundation maps is an important metric, and we are working to 
increase the number of areas covered by inundation maps. Another 
important metric is the number of at-risk communities that are 
``TsunamiReady.'' NOAA's TsunamiReady program promotes tsunami hazard 
preparedness as an active collaboration among federal, state and local 
emergency management agencies, the public, and NOAA's National Weather 
Service tsunami warning system. The Administration's plan provides 
funding to allow NOAA to increase the number of mapped and TsunamiReady 
communities. Of the $24M scheduled for NOAA use, approximately $4.75M 
will be spent on inundation mapping and modeling, as well as education 
and outreach (e.g., community preparedness activities, including 
TsunamiReady). Of this $4.75M, approximately $2.25M will be spent on 
inundation mapping and modeling and $2.5M will go towards public 
education activities. Following the current plan, inundation mapping 
for the major population centers will be complete in 2015.

    Question 2b. Since we have experienced a 50 percent decline in buoy 
service in the past 2 years, wouldn't this be another metric to focus 
on? What will be your goal?
    Answer. It is not accurate to say that we have experienced a 50 
percent decline in buoy service in the past 2 years. We believe you are 
referring to technical malfunctions of 3 of the 6 DART buoys in the 
weeks preceding the hearing. While it is true that at the time of the 
hearing, 2 of the 6 DART stations were offline, this does not indicate 
a 50 percent decline in performance over the last 2 years. The 
reliability of the DART stations, since October 2003, the time when 
they were transitioned from being operated by NOAA Research to NOAA's 
National Weather Service, has been 72 percent. This percentage 
represents the combined number of hours the stations have been 
operational, and is an appropriate metric to use in evaluating the 
reliability of the DART system. Further, this percentage indicates that 
the DART station array is a highly effective system overall.
    Our goal is to have a fully capable network of 29 DART stations in 
the Pacific, with 3 additional in-water backups in the Gulf of Alaska, 
where sea conditions are particularly harsh. While it is not possible 
to guarantee that these prototype stations will be operational 100 
percent of the time given the demanding environmental conditions in 
which these stations operate, NOAA is focused making the DART I network 
more robust and deploying a DART II network with reliability built into 
the design. NOAA plans for the network to meet operational 
requirements, even with occasional DART station outages. NOAA will 
develop capabilities to address network coverage and redundancy to 
ensure, as best we can, that single DART station failures will not 
impact the integrity of the entire network. Planned redundancy and 
hardening of the infrastructure, combined with the addition of a two-
way communication capability, will mitigate risk from system-wide 
failures.
Funding for Tsunami Mitigation and Response
    Question 3. The Administration recently released its plan to expand 
and modernize its tsunami detection and warning system. This plan 
includes the expansion of the system into areas such as the Atlantic 
Ocean, Caribbean, and Gulf of Mexico. I applaud the Administration's 
timely response, however, I am concerned that while the plan addresses 
the issue of tsunami detection, it does not completely address the 
issue of response to tsunami, as well as community preparation.
    Which agency will be taking the lead for mitigation, mapping, and 
response?
    Answer. NOAA, FEMA and USGS, through the National Tsunami Hazard 
Mitigation Program, coordinate inundation mapping efforts with state 
and local emergency management officials. FEMA is the lead agency for 
mitigation and response, with NOAA assisting any way possible. NOAA's 
role is to assist in identifying the tsunami hazard (required 
inundation mapping), providing tsunami warning guidance (including 
site-specific tsunami forecast models) and providing tsunami mitigation 
program support though community-based preparedness programs and 
education outreach--including the TsunamiReady Program.

    Question 3a. Does the funding proposed by the Administration 
include funding for tsunami response? How much?
    Answer. FEMA is the lead federal agency in the response area and is 
best suited to answer this question.

    Question 3b. Will these amounts be adequate given the plans for 
expanded areas of coverage for the tsunami program?
    Answer. NOAA funding for mitigation includes $2.5 million for 
education and outreach and $2.25M for inundation mapping. This is a 
significant increase from prior year funding levels managed through the 
National Tsunami Hazard Mitigation Program. FEMA is the primary federal 
agency in the response area and is best suited to answer that portion 
of this question.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Letter Dated February 7, 2005 from Chairman Stevens and 
             Co-Chairman Inouye to Dr. Arden L. Bement, Jr.
    In response to a letter, dated February 7, 2005 from Chairman Ted 
Stevens and Co-Chairman Daniel K. Inouye, asking to:
    Please explain what information or resources your agency requires 
before it can issue a public warning notification of a natural hazard 
or disaster. In addition, we would like to know which entities or 
organizations receive warnings from, or through, your agency, such as 
the appropriate federal and local disaster response entities, first 
responders/911, and local and national media outlets. To the extent 
possible, your report should also demonstrate which communications 
technologies are currently used to deliver these public warnings, such 
as automatic alert televisions and radios, telephones, wireless and 
satellite technology, including cellular telephones, pagers, personal 
digital assistants (PDAs), and the internet. If such communications 
technologies are not being used, we would like to know what the 
impediments are, and the status of any discussions to expand the 
warning system's capability to do so.
    Your report should also specify a process by which your agency, 
either on its own, or in conjunction with other relevant agencies, can 
maximize effective dissemination of public warning notifications. 
Lastly, we would be interested to know how your agency interacts with 
the Department of Homeland Security (including the Federal Emergency 
Management Agency), the Federal Communications Commission, the 
Department of Commerce, or other relevant agencies with respect to 
warning systems.
    Potential Enhancements to the Global Seismographic Network (GSN)
Background
    Over the past 20 years, the National Science Foundation (NSF), 
through funding to the Incorporated Research Institutions for 
Seismology (IRIS) Consortium, has established the 137-station Global 
Seismographic Network (GSN). This network serves as the primary 
international source of data for earthquake location and tsunami 
warning. Although the establishment of the GSN is an NSF-supported 
function and the acquisition of GSN equipment is solely supported 
through the NSF, the GSN-station operation is shared with the U.S. 
Geological Survey (USGS), which supports the maintenance of 
approximately 2/3 of the network. The GSN infrastructure includes not 
only the in situ observing stations, but also global telemetry, and 
data collection and distribution through the IRIS Data Management 
System. The Data Management System, in addition to being the primary 
world repository for seismic data, analysis tools, and visualization 
software, provides an essential quality-control function for the GSN 
hardware and communication links that are so vital to real-time hazard 
warning functions related to earthquakes.
    Real-time GSN data formed the critical core of the early warning of 
the December 26, 2004 Sumatran Earthquake. Within 8 minutes of the 
initial rupture of the M=9.0 earthquake, GSN data flashed 
electronically via satellite and the Internet to the GSN Data 
Collection Center and then to the Pacific Tsunami Warning Center (PTWC/
NOAA) and the National Earthquake Information Center (NEIC/USGS). GSN 
seismometers recorded with full-fidelity the ultra-long period energy 
radiated by the earthquake's 1000 km long rupture. The unique long-
period response of the GSN is the key factor in providing an accurate 
measure of the size, character, and tsunami-potential of such mega-
events.
Potential Enhancements
    Although the GSN system is working very well, there is much that 
can be improved. Some of the enhancements that might be possible with 
the appropriate resources, over the next five years are:
(1) Telemetry and Information Technology--Expansion and Reliability
    The rapid collection of GSN data and distribution of earthquake 
information is at the heart of an earthquake/tsunami warning system. 
Over 80 percent of the GSN now has real-time telemetry links. However, 
the means of telemetry are very heterogeneous. These include local 
Internet and telemetry links supported by local host organizations; 
Internet infrastructure supported by IRIS and USGS; satellite telemetry 
links supported by IRIS, USGS, National Weather Service, and NSF; and 
global satellite infrastructure shared by the Comprehensive Nuclear 
Test Ban Treaty Organization (CTBTO). To complete GSN telemetry to 100 
percent coverage and to enhance low-bandwidth links, 40 telemetry links 
need to be established and maintained.
(2) Expanding Coverage--International and National Cooperation
    Under NSF supervision, the GSN and the IRIS Data Management System 
are prepared to work with the international community (in particular 
Australia, Japan, France, India, and China) and U.S. agencies, such as 
NOAA and USGS, to enhance the GSN capabilities. This includes the 
installation of much-needed stations on the ocean floor to augment and 
complement the land-based GSN. As new seismic stations are proposed and 
installed in the Indian Ocean region and elsewhere, arrangements need 
to be made to ensure that these stations will contribute to the GSN 
system. IRIS successfully worked with international organizations and 
governments to establish similar networks in Kyrghizstan and Africa. 
The GSN's success is predicated on its close relationship with the many 
local organizations that host the seismic stations. The international 
Federation of Digital Seismograph Networks (FDSN) and the Global Earth 
Observing System of Systems (GEOSS) provide appropriate pathways for 
international collaboration. Needs include data and information 
exchange, shared telemetry, joint stations, coordination of 
infrastructure and the development of local capacity for seismological 
observations and research. Portable seismic systems provided through 
IRIS offer a basis for collaborative research projects between U.S. 
Earth scientists and specialists in South Asia on the structure, 
dynamics, and seismic hazard of the region.
(3) Long-term Viability of the GSN--Operation and Maintenance
    The Sumatran earthquake once again points to the importance of 
diligence in maintaining a highly reliable and fully operational system 
at all times. Relationships must be nurtured to improve local help for 
GSN maintenance and interagency support by the NSF and the USGS must be 
provided on an ongoing basis.
    With the resources at its disposal, the GSN currently operates at 
about 90 percent data availability. About 10 percent of the network 
(14 stations) is down at any given time, awaiting repair. Increasing 
station uptime requires more field engineer FTE's and travel support. 
The GSN equipment is currently spared and refreshed at a yearly rate 
equal to 5 percent of the total installed equipment base. Increasing 
station uptime will deplete spares more rapidly, requiring an increased 
rate of equipment sparing.
(4) Sensor Development--Next Generation Ultra-long Period Seismometers
    The Streckeisen STS-1, the premier seismometer used by the GSN for 
recording ultra-long period Earth motions, is no longer manufactured or 
available. The information provided by this unique sensor is the single 
key component in determining the size, and tsunami potential, of great 
earthquakes. As these sensors age and fail, the prospect of a decline 
in network quality looms very real. That there is no comparable 
replacement for the STS-1 is an internationally recognized problem. 
Given the small market (<1000) for such exquisite seismic sensors, 
there is no financial motivation for the private sector to undertake 
such a development. This a potential area for collaboration among 
groups at NSF involved in sensor design. The United States has an 
opportunity to take the lead in developing the next generation ultra-
long period sensor, which serves both tsunami warning and scientific 
purposes.
    The NSF Division of Earth Sciences has an ongoing Memorandum of 
Understanding (MOU) with the USGS regarding joint operation and 
maintenance of the Global Seismographic Network, joint support of the 
Southern California Earthquake Center (SCEC), and participation of the 
USGS in the EarthScope project. The NSF also participates in the 
National Earthquake Hazard Reduction Program (NEHRP) with the USGS, 
FEMA, and the National Institute of Standards and Technology (NIST). 
NEHRP fosters cooperative activities with respect to the nation's 
vulnerability to earthquake hazards, and fosters knowledge transfer 
efforts related to earthquake hazards. It should be noted that in 
addition to earthquake/tsunami research, the NSF also maintains a broad 
research portfolio relevant to potential hazards from volcanic 
eruptions, landslides, and hydrological hazards such as floods, 
droughts, and ground-water contamination. We look forward to continuing 
these interagency activities. It is certainly in the public interest 
that efforts in ameliorating the effects of natural hazards are 
improved by our activities in fundamental research.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to
                        Dr. Arden L. Bement, Jr.
    Question 1. Please describe how you expect the Ocean Observatories 
Initiative to cooperate with other seismic research projects within the 
Foundation and other agencies.
    Answer. The National Science Foundation (NSF) supports basic subsea 
research to understand fundamental earth processes, including those 
that generate earthquakes with tsunami potential. The Ocean Observatory 
Initiative (OOI) will add to understanding and monitoring of large 
submarine fault zones. Sites constructed through the OOI will 
contribute to the seismometer arrays of the Ocean Seismic Network 
(OSN), as well as provide other research tools such as undersea 
pressure sensors. Both these efforts will enable the research and 
technological advancements that will enhance the warning system for 
earthquakes and tsunamis.
    NSF is committed to cooperation and coordination between all 
environmental observing networks, including those that are part of the 
tsunami warning system. Program managers from each of the NSF observing 
systems and geophysical facilities (e.g., EarthScope, OOI, Incorporated 
Research Institutions for Seismology--IRIS, Network for Earthquake 
Engineering Simulation Research (NEES), and UNAVCO) promote 
interactions and synergies between the observing systems and work 
together to respond to common needs for measurement tools, data 
management and cyberinfrastructure, as well as to develop novel 
approaches to interactions across disciplines. For example, studies by 
the Integrated Ocean Drilling Program (IODP) drill ship Joides 
Resolution include instrumented subsea boreholes linked to seafloor 
observatory networks. These are similar to those proposed for the OOI 
and provide excellent prototype information for the future OOI system.
    Further coordination and cooperation between the OOI and other 
seismic research projects within the Foundation and other agencies also 
occurs through shared facility support as well as use of common data 
management systems such as that funded by NSF through the IRIS 
consortium. Program officers for the NSF, USGS, NASA, and NOAA work 
together to coordinate scientific projects and share support for 
geophysical facilities. This ensures the full capacity and cost 
effective use of these facilities.

    Question 2. Could you please detail how you anticipate OOI, and 
particularly the NEPTUNE project, could contribute to the science that 
will lead to a better understanding of tsunami?
    Answer. The Regional Cabled Observatory (NEPTUNE) that is part of 
NSF's Ocean Observatories Initiative will be constructed off the 
Washington and Oregon coasts. This ocean observing network will be 
equipped with an array of seismic and acoustic sensors that will 
provide data that will complement the Deep-ocean Assessment and 
Reporting of Tsunamis (DART) buoy array for effective warning of 
tsunami generation and will also enable researchers to investigate 
processes leading to creation of large tsunamis. Information collected 
by NEPTUNE will flow instantly to shore where it will be relayed via 
the Internet to the Tsunami Warning Center, researchers, educational 
institutions, science centers and the public.
    The oceanic region off the coasts of Washington and Oregon is an 
ideal location to create an undersea laboratory to investigate the 
processes leading to tsunami generation. This area is home to a variety 
of active environments each of which will be instrumented with seismic 
and pressure sensors. This will enable researchers to better understand 
how differences in tectonic regimes can lead to variations in the 
amplitude and direction of tsunamis. In addition, this region has areas 
of gas hydrate generation that will be instrumented and their evolution 
studied as part of the NEPTUNE array. Therefore, the effects of gas 
hydrate release on submarine slides and their influence on tsunami 
generation can be studied in detail. Another significant benefit will 
be the ability to investigate all of the processes leading to tsunami 
generation in one location at the scales at which these processes occur 
so that the outcomes of these combined influences can be quantified.

    Question 3. Senator Stevens requested an estimation of what it 
would take to establish a comprehensive tsunami notification system. I 
am very interested in your response and ask that you please forward a 
copy of your answer to Senator Stevens' question.
    Answer. We have attached a discussion of ``Potential Enhancements 
to the Global Seismic Network'' (GSN). This paper describes NSF's role 
in the GSN, a system that provides real-time information on location 
and tsunami potential of great earthquakes, and also suggests some 
improvements to the system that could be made over the next few years. 
NSF has supported acquisition of equipment for the GSN, and shares 
operation of the GSN with the U.S. Geological Survey (USGS). Immediate 
notification of significant earthquake events is made to the National 
Earthquake Information Center (NEIC), operated by the USGS.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to
                        Dr. Arden L. Bement, Jr.
    Question 1. Without the use of/installation of voice sirens as part 
of a preparedness plan, how do you warn people on the ground? Are there 
other effective warning systems available for this purpose? What 
criteria are used to determine which warning system is reliable in case 
of tsunami?
    Question 1a. Should a preparedness plan include a warning mechanism 
for small fishing boats trawling near the coastline? National Oceanic 
and Atmospheric Administration (NOAA) weather radios can be used to 
inform these fishing boats at minimal cost (approximately $20).
    Answer. We have attached a discussion of ``Potential Enhancements 
to the Global Seismic Network''(GSN). This paper describes NSF's role 
in the GSN, a system that provides real-time information on location 
and tsunami potential of great earthquakes. NSF has supported 
acquisition of equipment for the GSN, and shares operation of the GSN 
with the U.S. Geological Survey (USGS). Immediate notification of 
significant earthquake events is made to the National Earthquake 
Information Center (NEIC), operated by the USGS. Although NSF 
participates in the interagency National Earthquake Hazard Reduction 
Program (NEHRP), agencies other than NSF have primary responsibility 
for issuing public disaster warnings and NSF defers to them to provide 
detailed responses concerning warning mechanisms.
                                 ______
                                 
  Response to Letter Dated February 7, 2005 from Chairman Stevens and 
              Co-Chairman Inouye to U.S. Geological Survey
    In response to a letter, dated February 7, 2005 from Chairman Ted 
Stevens and Co-Chairman Daniel K. Inouye:
Explain what information or resources your agency requires before it 
        can issue a public warning notification of a natural hazard or 
        disaster.
    The U.S. Geological Survey (USGS) has responsibility under the 
Stafford Act to issue forecasts and warnings for earthquakes, 
volcanoes, and landslides. For tsunamis, wildfire, flood and hurricane 
hazards, USGS provides critical support to the National Oceanic and 
Atmospheric Administration (NOAA) and other agencies tasked with 
warning responsibility. In order to carry out these mandates, USGS 
requires a monitoring infrastructure that includes local, national and 
global networks; reliable and redundant telecommunications; modem 
computing centers for data analysis and dissemination; and a skilled 
staff of analysts, technicians, scientists, and network support people. 
To ensure that publicly funded monitoring networks and education 
programs are targeted to regions at highest risk, USGS performs 
assessments of the distribution and extent of each natural hazard 
listed above at various scales--from national to, in high-hazard urban 
areas, local. To improve the accuracy and timeliness of warnings and to 
minimize false alarms, we perform (and fund university and State 
partners to perform) targeted research to understand the underlying 
processes and their predictability. To maximize the extent to which 
hazard information is received and acted upon by appropriate 
individuals when disasters strike, we actively pursue and foster links 
with local governments, emergency management agencies and the media. 
The USGS targets these capabilities to areas with the highest hazard 
and the greatest risk.
Volcanoes
    Impending volcanic eruptions can be forecast and warnings issued in 
time for communities to take preparatory actions. Eruption forecasts 
and warnings depend on telemetered, real-time data streams from diverse 
suites of monitoring instruments on volcanoes, including reliable data 
streams transmitted by other agencies (e.g., GOES satellite data from 
NOAA, seismic data from key university cooperators). Observatory-based 
scientists are necessary to interpret monitoring data, as eruptions are 
too complex for the fully automatic generation of alerts directly from 
machine signals. Automatic warnings of large volcanic debris flows 
(lahars) based on signals from acoustic-flow-monitor arrays may be the 
exception. These capabilities are currently deployed at the highest-
priority volcanoes. The USGS has closely monitored the eruption of 
Mount St. Helens since September 2004, correctly forecasting the style 
of eruption, and remaining in daily communication with the Washington 
State Emergency Management Division and the U.S. Forest Service (USFS) 
who rely on USGS information to restrict public access to potentially 
threatened areas surrounding the volcano.
Landslides
    Landslides, whether induced by rainfall or earthquakes, involve 
complicated physical processes that are not sufficiently well 
understood to permit reliable predictions, but the capability to 
provide advanced warning of increased landslide danger now exists. 
Doing so requires accurate landslide thresholds to monitor the hazard 
and travel distances to gauge possible impact. The first step is a 
detailed study of susceptible geographic regions having the requisite 
geology and topography. Probable landslide paths and travel distances 
are analyzed to identify possible landslide hazards, for example, by 
specifying areas where landslides have a high probability of impacting 
roads and buildings. Within different regions, the timing of landslides 
needs to be observed during storms and correlated with the rainfall 
intensity and duration in order to develop the criteria of rainfall 
thresholds for triggering landslides. Advanced weather forecasts can be 
combined with the threshold models to evaluate whether landslides are 
likely to occur within regions susceptible to landsliding. Real-time 
monitoring of rainfall and site measurements of rising groundwater and 
initial slope movements near landslide sources can provide critical 
information for issuing immediate public warning of landslide hazards. 
Numerous rainstorms in southern California this winter have resulted in 
serious landslides and debris flows. USGS scientists have issued 
advisories of potential landslides to the National Weather Service, 
California Office of Emergency Services (OES), other state and federal 
agencies, and the public--as recently as February 15, 2005. The San 
Bernardino County Sun and other local newspapers have used these 
advisories in crafting news articles alerting their readers to the 
possibility of landslide occurrence and instructing their readers on 
ways to protect themselves.
    The USGS and NOAA recently signed an MOA to develop a joint watch/
warning system for rainfall-generated landslides (debris flows). The 
MOA calls for NOAA-generated precipitation observations and forecasts 
to be forwarded to the USGS, where they will be compared with the 
threshold models. When a watch/warning is warranted, the USGS will 
forward the pertinent information to NOAA for NOAA to disseminate a 
joint message using its standard watch/warning communication 
procedures. The prototype of this system will be fielded by September 
2005 in the area of operation of NOAA's Weather Forecasting Offices of 
Oxnard (CA) and San Diego (CA), and will cover a number of counties, 
including San Bernardino and Ventura counties.
Earthquakes
    For earthquakes, it is not yet possible to predict the time and 
location of damaging events, but it is possible to predict their 
impacts and deliver rapid post-event information to emergency 
responders. First, USGS delivers long-term forecasts of earthquake 
shaking in the form of hazard maps that underlie most building codes 
used in the United States. Second, within minutes after a domestic 
earthquake, USGS and its regional network partners issue an alert with 
location and magnitude. In five urban areas where dense arrays of 
strong-motion instruments have been deployed through the Advanced 
National Seismic System (ANSS), Internet-distributed ShakeMaps showing 
the intensity of ground shaking are available to prioritize response 
efforts. Following the December 22, 2003, magnitude 6.5 San Simeon 
earthquake, the California OES was automatically notified within five 
minutes, and the first ShakeMap was pushed to OES and other users in 
less than nine minutes. Third, in the time scale of hours to days 
following large earthquakes, USGS provides short-term predictions for 
the likelihood of aftershocks in California.
Which entities or organizations receive warnings from, or through, your 
        agency (such as federal and local disaster response entities, 
        first 
        responders/911, and local and national media outlets).
Earthquakes
    The USGS provides hazard alerts to a broad suite of federal, state 
and local government agencies, and private-sector entities, including 
the media. The scope of the USGS notification process depends on the 
severity, extent, location, and possible impact of the hazard at hand. 
For damaging domestic earthquakes, USGS notifies by telephone, fax, e-
mail and/or pager:

        White House, The Situation Room
        Federal Emergency Management Agency (FEMA)
        Department of the Interior (DOI) Watch office
        Dam and power plant operators (including U.S. Army Corps of 
        Engineers (USACE, Bureau of Reclamation, Nuclear Regulatory 
        Commission and some public and private utilities)
        Pipeline operators
        Railroads
        Insurance companies
        Department of Defense (DoD) offices with domestic civil defense 
        responsibilities
        State and local offices of emergency services
        State geological surveys
        Veterans Administration
        Department of Agriculture
        Department of Transportation including the Federal Aviation 
        Administration (FAA)
        Department of Homeland Security (DHS) Transportation Security 
        Administration
        NOAA
        The Weather Channel
        National Science Foundation (NSF)
        National Institute of Standards and Technology

    For both domestic and international damaging earthquakes, USGS also 
e-mails earthquake notifications to over 40,000 subscribers including 
many print and broadcast media companies. For public and news media, 
notices are automatically posted to the Web. In the first few days 
after the Sumatra disaster, USGS earthquake Web sites received over 120 
million hits. The ANSS regional networks also have e-mail/pager 
notification lists that reach further into affected States and 
communities. Depending on the location and severity of the earthquake, 
targeted distribution also proceeds to key users that can include the 
Department of Health and Human Services, U.S. Environmental Protection 
Agency, NOAA Pacific and Alaska/West Coast Tsunami Warning Centers, 
state and local emergency managers, and 200 foreign agencies.
    For damaging international earthquakes, USGS notifies by telephone, 
fax, e-mail and/or pager:

        White House, The Situation Room
        Department of State
        U.S. Embassies and consulates in affected countries
        U.S. Agency for International Development
        United Nations Office of Coordinator of Humanitarian Affairs
        Department of Defense
        Federal Aviation Administration
        Federal Emergency Management Agency
        Earthquake Engineering Research Institute
        Humanitarian groups (Red Cross, Red Crescent)
        International Atomic Energy Commission
        Private sector and government search-and-rescue groups

Volcanoes
    For volcanic alerts, each of the five U.S. volcano observatories 
has developed communication protocols tailored to the appropriate 
hazard and region. For notifications of explosive eruptions that can 
send volcanic particles (``ash'') into the atmosphere, USGS eruption 
alerts are sent to

        FAA air traffic control centers
        NOAA meteorological watch offices and Volcanic Ash Advisory 
        Centers Air Force Weather Agency
        U.S. Coast Guard
        Military bases
        Airports

    For volcanic ground hazards (such as lava flows and debris flows), 
USGS relies on the interagency incident command system (ICS), operated 
either by state emergency or federal land managers (like the one 
established by the U.S. Forest Service in 2004 for the eruption of Mt. 
St. Helens). In the absence of an operating ICS, the protocol for 
ground hazards is to alert State emergency and land managers (e.g., 
National Park Service, U.S. Forest Service, and Washington Emergency 
Management Department), who in turn alert county emergency managers and 
other federal agencies. When an eruption is expected or underway, USGS 
also makes ash fall forecast graphics and sends them to appropriate 
FEMA regional offices and may have a FEMA representative on-site at an 
observatory. To communicate with the local and national media--before, 
during, and after an eruption or episode of unrest--each observatory 
commits experienced staff to talk directly with media representatives.
Landslides
    Landslide advisories and warnings are sent to the appropriate State 
Offices of Emergency Management and the National Weather Service. 
Notice is also provided (through the DOI Watch Office) to the White 
House, DOI land management agencies, DHS (including FEMA), and Military 
Commands. To communicate with local and national media prior to, 
during, and after landslide events, Landslide Hazard Program scientists 
are available to respond to media inquiries. The Landslide Hazard 
Program also posts detailed information and maps on its Web site, which 
is available to the media, public officials, and the public.
Demonstrate which communications technologies are currently used to 
        deliver these public warnings, such as automatic alert TVs and 
        radios, telephones, digital assistants (PDAs), and the 
        Internet. If such 
        communications technologies are not being used, we would like 
        to know what the impediments are, and the status of any 
        discussions to expand the warning system's capability to do so.
    The USGS uses a broad range of technologies to distribute alerts 
and notifications, including the public Internet, private/government 
Internet, text messaging, pager, phone, fax, NOAA Weather Wire, and 
briefings to local and national media. Currently, over 40,000 e-mails 
will be sent following a large earthquake. Users have the choice of a 
full message by e-mail or a shorter message suitable for a cell phone 
or PDA. Several improved distribution programs are in development under 
the ANSS, including a replacement for the current e-mail notification 
system that will allow users to customize which earthquake sizes and 
locations will generate alerts. In the Pacific Northwest, the National 
Tsunami Hazard Mitigation Program--a partnership that includes NOAA, 
FEMA, NSF, USGS and five Pacific States--is deploying all-hazards 
warning system technology to coastal communities in that region, 
providing tsunami, earthquake and mudflow warnings. The pole-mounted 
All Hazard Alert Broadcast system has a blue warning light to cut 
through fog, a siren warning, and a voice warning that is keyed by NOAA 
Weather Radio or local emergency managers. Washington Emergency 
Management is developing this warning system as part of the National 
Tsunami Hazard Mitigation Program. This Program is a model for how 
federal agencies and their State partners can work together to reduce 
risk.
    The USGS relies on FAA and NOAA communications systems to relay 
notifications of volcanic activity to enroute aircraft and airline 
dispatchers. For other groups, USGS primarily uses brief phone calls, 
followed by fax and e-mail, to provide more detailed information. 
During both the premonitory and eruptive phases of a volcanic crisis, 
PDAs and text messaging are used to notify off-duty scientists 
automatically of changes in monitoring parameters.
Specify a process by which your agency, either on its own, or in 
        conjunction with other relevant agencies, can maximize 
        effective dissemination of public warning notifications.
    The USGS hazard/disaster notification process relies on a 
``notification tree'' or infrastructure, in which federal and state 
agencies alerted by USGS take responsibility for disseminating USGS 
information to emergency responders and other critical users. This 
system contributes to an all-hazards approach to public warning. This 
process is supplemented regionally and locally by direct (and in many 
cases automated) alerting to critical users (e.g., earthquake ShakeMap 
delivery to utilities, state transportation departments, homeland 
security command centers, and regional pager/text-messaging to 
emergency managers). We believe this is an effective strategy for USGS, 
and it is appropriate to our mission. The USGS is continually honing 
its disaster response strategy.
    As part of the President's plan for an improved tsunami warning 
system, USGS proposes to deploy software developed by the California 
Integrated Seismic Network (a USGS, university and State partnership) 
to speed USGS-generated earthquake information directly to local 
emergency managers with a dual use capability to also provide NOAA 
tsunami warnings.
    Tsunamis are not solely produced by earthquakes. Approximately five 
percent of tsunamis in the past 250 years were produced by volcanoes, 
and some of these are among the most destructive tsunami events known. 
Volcano induced tsunamis are generated in various ways; the largest, 
most destructive tsunamis have been caused by large explosive eruptions 
and flank collapse events on island and coastal volcanoes. There is a 
demonstrated volcanic tsunami hazard in Alaska and Hawaii and a likely 
one in the Commonwealth of the Northern Mariana Islands. Improved 
volcano monitoring systems and response planning at volcanoes that have 
a potential tsunami hazard would help provide better mitigation 
concerning an important natural hazard.
    The USGS will continue its broad-based public awareness activities, 
which are integral to effective use of warnings and other hazards 
information by the public and civil defense authorities. For example, 
USGS is working with the FAA, NOAA and others, to formulate a National 
Interagency Operational Plan for Volcanic Ash Episodes, and we continue 
to develop other inter-agency response plans for ground hazards. Such a 
plan is necessary for USGS to meet the aviation sector's stated need 
for notification of explosive ash-producing eruptions by a volcano 
observatory to the appropriate FAA air-traffic control center within 5 
minutes of the event. The USGS offices in California and Washington 
provide training programs for local emergency managers and media on how 
to use ShakeMap and other earthquake notification and assessment 
products generated by the regional and national networks. The USGS is 
working with the American Planning Association to develop a best-
practices manual on landslides that will become available to thousands 
of planners this spring.
    The USGS is working with the National Weather Service to develop a 
protocol for issuing landslide warnings over NOAA Weather Radio All 
Hazards network. State and county emergency managers--the agencies most 
responsible for issuing instructions to citizens--rely on this 
communication network for timely warnings. Part of the protocol will 
allow real-time transmittal of current weather conditions to USGS 
landslide experts to better pinpoint the areas of greatest danger.
    For improved delivery of flood warnings, USGS currently partners 
with other federal agencies, including the National Weather Service, 
Army Corps of Engineers, and Bureau of Reclamation. This includes 
efforts to raise public awareness about appropriate responses to flood 
watches and warnings. In addition, there are a number of proof-of-
concept experiments underway to improve the timeliness and quality of 
USGS information used by public and private entities to reduce flood 
damages and loss of life.
    To aid wildland fire suppression, USGS manages and hosts the 
Geospatial Multi-Agency Coordination Group or GeoMAC, an Internet-based 
tool that permits fire managers to access online maps of current fire 
locations and perimeters in the conterminous 48 States and Alaska using 
a standard Web browser. GeoMAC is a multi-agency group with technical 
and subject matter experts from the Department of the Interior's fire 
management agencies--the Bureau of Land Management, National Park 
Service, U.S. Fish and Wildlife Service, and the Bureau of Indian 
Affairs, and the United States Forest Service of the Department of 
Agriculture, as well as numerous other agencies and firms.
    The USGS is working with the National Interagency Fire Center and 
the University of Alaska Fairbanks, specifically the Geographic 
Information Network of Alaska (GINA) to develop a process for analyzing 
satellite information to obtain daily updates of vegetation condition 
for Alaska to improve the sensitivity to fire weather conditions. A 
cooperative project called LANDFIRE is conducted by USGS and the Forest 
Service to provide regional and local scale geospatial data of 
vegetation, fuel, and fire regime. The project will enhance prediction 
of fire danger and understanding of fire behavior for incident 
commanders and a broad range of other users.
Specify how your agency interacts with the Department of Homeland 
        Security (including FEMA), the Federal Communications 
        Commission, the Department of Commerce, or other relevant 
        agencies with respect to warning systems.
    The USGS interacts with DHS, Department of Commerce, DoD and many 
other Federal agencies on matters related to hazard mitigation, 
preparedness and disaster alerting. Key among these are FEMA, National 
Weather Service and, for volcanic hazards, FAA. Notifications are 
either direct to the responding agency or coordinated through the 
Department of the Interior Watch Office, which operates around the 
clock to compile and disseminate information relevant to law 
enforcement, homeland security, and natural disasters impacting the 
Department's responsibilities across the United States. For 
earthquakes, USGS National Earthquake Information Center has a direct 
phone line to the DHS/FEMA operations center in Washington. The USGS 
and FEMA are partners in the National Earthquake Hazards Reduction 
Program and have developed and tested a coordinated earthquake response 
plan. For tsunami coordination, USGS exchanges telephone, e-mail, data, 
and Web products with the NOAA Tsunami Warning Centers (and with 
tsunami warning centers in Japan, Chile and Russia). The USGS also 
provides earthquake alerting through the NOAA Weather Wire, as 
previously noted.
    For volcanic hazards, USGS works with FAA, NOAA, and DoD to 
disseminate notifications of explosive eruptions and associated ash 
clouds to the aviation sector (both military and commercial). For 
ground volcanic hazards, USGS relies on the interagency Incident 
Command System (ICS), operated either by state emergency or federal 
land managers (like the one established by USFS in 2004 for the 
eruption of Mt. St. Helens). In the absence of an operating ICS, the 
protocol for ground hazards is to alert state emergency and land 
managers (e.g., NPS, USFS), who in turn alert county emergency managers 
and other federal agencies. The USGS sends ash fall forecast graphics 
to appropriate FEMA regional offices.
    To improve the effectiveness of flood warnings, USGS collaborates 
with many federal, state and local government agencies and the private 
sector. The FEMA, and state and local officials monitor flood watches 
and warnings and use USGS Internet sites to ascertain flood conditions 
for those rivers not serviced by the National Weather Service river 
forecast system.
Explain how your agency could improve public notification of impending 
        natural hazards and disasters.
    The USGS could improve public hazard notification and warning of 
natural hazards in three basic areas: (1) Modernization and expansion 
of monitoring networks; (2) increased robustness and redundancy of 
communication links; and, (3) accelerated development and deployment of 
capabilities to take full advantage of new data streams, research 
findings and communication technologies to improve the accuracy and 
timeliness of information we provide for emergency management.
(1) Modernization and expansion of monitoring networks
    The President's proposal for improving tsunami warning systems 
would replace legacy hardware and software systems at the USGS National 
Earthquake Information Center (NEIC) and establish 24<greek-e>7 
operations, actions that will improve response time, benefiting both 
earthquake notification and tsunami warning. The proposal also includes 
support to improve station up-time in the Global Seismographic Network 
(GSN)--a partnership of USGS, the National Science Foundation, the 
Incorporated Research Institutions for Seismology, and the University 
of California--and to install additional stations in the Caribbean 
region. The NEIC modernization is a key component of the Advanced 
National Seismic System (ANSS). As described in USGS Circular 1188, the 
ANSS plan includes both notification and early warning of earthquakes 
as fundamental goals.
    Impending volcanic eruptions can be forecast and warnings issued in 
time for communities to take preparatory actions. To improve this 
warning capability, USGS is developing a plan for a National Volcano 
Early Warning System (NVEWS). This plan will outline priorities for 
monitoring instrumentation at our most threatening volcanoes, along 
with development of a new generation of information technology tools 
for sharing of data.
    Fire danger information and specific information on fire fuels 
assessment depend on reliable timely satellite observations. It is 
important that USGS continue to provide remote sensing technology to 
the fire management agencies. It is, therefore, important to support 
the ongoing development of the Landsat Data Continuity Mission (LDCM) 
and the companion National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), a satellite system used to monitor global 
environmental conditions, and collect and disseminate data related to: 
weather, atmosphere, oceans, land and near-space environment.
(2) Robust telemetry and communication links
    For rapid-onset events like earthquakes, tsunamis, volcanic 
eruptions and landslides, only realtime systems can provide data in 
sufficient time to issue actionable notifications and warnings. The 
funding in the Emergency Supplemental for improved tsunami detection 
and warning system for the United States, along with the funding in the 
2006 budget for the same purpose, will expand and improve telemetry 
connections to monitoring stations, so that the seismic stations in the 
Global Seismographic Network provide real-time data. This will 
contribute to decreasing the reporting time for global earthquakes from 
over one hour to about twenty minutes.
    USGS data and products often travel across a web of communications 
links from the monitoring network to the public, typically involving 
satellite uplinks and downlinks, the Internet, and radio or television 
bands. Although some USGS systems employ redundant links (e.g., 
satellite, phone lines, and/or Internet communications), in many cases 
the communications channels are vulnerable to a single point of 
failure. Hardening of these telecommunication links is essential to 
ensure a reliable warning system is available with the appropriate 
level of redundancy.
    As part of the NEIC upgrade, the President's proposal calls for 
24<greek-e>7 network operations and robust Internet serving of seismic 
data. It would also increase the number of USGS-operated GSN stations 
that provide real-time data to NEIC and the NOAA tsunami warning 
centers. Currently, only 80 percent of GSN stations have digital 
telemetry links that allow for real-time communication. Both for the 
GSN and the ANSS, a fully telemetered system with redundant 
communications links will improve response time for damaging 
earthquakes. For volcano hazards, establishing a local Internet portal 
in Alaska would strengthen the robustness and reliability of warnings.
(3) New capabilities
    The USGS is testing dedicated ground-based Doppler radar at 
volcanoes in order to improve its ability to provide notification of 
explosive ash-producing eruption to the appropriate FAA air traffic 
control center within 5 minutes of the event, a need identified by the 
aviation sector. By adding such radar units to the suite of monitoring 
instruments in place at restless or erupting volcanoes, rapid detection 
and confirmation of eruptive ash plumes at night and in bad weather is 
greatly improved.
    Increased use of new remote-sensing technologies such as airborne 
LiDAR and satellite-based InSAR would allow USGS to provide more 
accurate information for a number of hazards. In the case of 
landslides, LiDAR delivers highly detailed topography, which is 
critical for landslide susceptibility characterization and 
identification of past landslide scars. InSAR allows monitoring of 
large slow-moving landslides. These technologies have proven valuable 
for early detection of volcano re-activation as well as providing 
important insights on earthquake fault rupture characteristics.
    Forecasting coastal hazards associated with hurricanes and other 
major storms is critically-dependent on the availability of accurate 
and up-to-date information on nearshore and coastal elevations. In 
cooperation with NASA, NOAA, and the USACE, USGS is developing a 
comprehensive national assessment of coastal hazards based on high-
resolution LiDAR surveys of coastal and nearshore elevation. Data 
developed within this program have supported the development of models 
relating coastal response to storm surge and wave run-up and nearshore, 
beach, and dune elevations. Forecasts of coastal vulnerability to 
impending storm landfall are developed prior to landfall and made 
available to state and federal agencies to guide pre-storm evacuation 
and post-storm recovery planning. At present, forecasts rely on 
historic or ``model'' storm characteristics and USGS and NOAA are 
working collaboratively to develop vulnerability products that 
incorporate hurricane forecasts issued by the National Hurricane 
Center.
    The USGS routinely acquires and distributes global satellite image 
data from its Landsat satellite system; receives and distributes data 
from several NASA earth-observing satellites; and obtains and 
redistributes data from U.S. commercial and international satellite 
systems. In support of tsunami disaster-response, USGS is distributing 
many types of tsunami-related satellite imagery, maps, and other 
geospatial data and working with commercial satellite data providers to 
support the needs of Federal Government agencies. For disaster 
situations such as these, where hundreds of thousands of digital files 
have already been distributed, USGS posts digital data on a server and 
users electronically ``pull'' what they need over the Internet. The 
President's budget request for USGS includes funds to ensure the 
continued operation of Landsat 7, along with NASA and NOAA, and to 
begin work on an upgraded ground-processing system to acquire, process, 
archive and distribute data from a new generation of satellite-based 
land image sensors. This Landsat Data Continuity Mission is expected to 
begin operations in 2009.
    The President's proposal for upgrading NEIC will accelerate 
development of several rapid-response products, including the Prompt 
Assessment of Global Earthquakes for Response (PAGER) system, which 
uses information about an earthquake's source, combined with 
information regarding population and infrastructure in the affected 
region to estimate potential damage and loss of life in a major 
earthquake. The PAGER system is ideal for both domestic and 
international areas where a dense seismic network is not available, but 
where a rapid assessment is critical for estimating impact.
    In several metropolitan areas, the ANSS ShakeMap System supports 
direct links to critical users. In California for example, ShakeMap is 
automatically sent by Internet to:

        California Department of Transportation (DOT)
        California Office of Emergency Services (OES)
        Utilities (Southern California Edison, Pacific Gas & Electric, 
        Southern California Gas, the Los Angeles Department of Water 
        and Power, East Bay Municipal Utility District)
        Bay Area Rapid Transit system
        National media outlets
        Communications companies
        California Earthquake Authority
        Los Angeles County Office of Emergency Services
        Local media outlets
        FEMA regional offices

    Outside of California, ShakeMap is in various stages of development 
and integration. ShakeMap requires dense instrumentation. ShakeMap has 
been deployed in Salt Lake City, Utah, Anchorage, Alaska, and Seattle, 
Washington. In those cities, ShakeMap has been integrated into their 
emergency management and response procedures. The ShakeCast software, 
now under development at a pilot level, is designed to help users 
overcome Internet security barriers and effectively integrate USGS 
earthquake notifications into emergency procedures.
    The USGS is exploring the feasibility of earthquake early warning, 
in which rapid computer analysis and communication links are used to 
provide seconds of warning before earthquake waves arrive. Such warning 
systems are in place in Japan, Mexico and Taiwan. The 2000 re-
authorization of the National Earthquake Hazards Reduction Program 
(NEHRP) called for development of a U.S. early warning system for 
earthquakes. The USGS currently sponsors modest research and 
development in this area, including research on earthquake early 
warning feasibility and efforts to improve the numbers of seismic 
stations reporting in real time and the speed and reliability of 
earthquake reporting.
    Building on current capabilities for issuing aftershock 
probabilities, USGS and its partners in the California Integrated 
Seismic Network will be releasing a public Web site this spring with 
the probability of strong earthquake shaking in the next 24 hours, 
based upon a background probability from our understanding of geology, 
modified by the probability that earthquakes that have just occurred 
will trigger other activity. In southern California, USGS is 
investigating what information from structural instrumentation can be 
used to provide rapid estimates of structural damage following 
earthquakes or explosions. An experimental instrumentation package is 
being installed in two buildings in the Los Angeles area and we are 
developing tools to analyze the structural health of the buildings from 
those data streams.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                            Roger A. Hansen
    Question. Dr. Hansen, thank you for your work to improve local 
communication systems for tsunami warnings in Alaska. Because of his 
strong interest in protecting coastal communities, Senator Stevens 
requested a written suggestion of what a pilot project for improving 
and expanding local tsunami warning systems would look like in your 
estimation. Because of Washington State's high risk for a tsunami 
disaster in the next 50 years, I'm very interested in your vision of a 
possible pilot project and request that you please also send me your 
suggestions.

    Answer.
          Pilot Project for Improving Tsunami Safety in Alaska
The Problem
    The December 26, 2004 Sumatra Earthquake and Tsunami illustrated a 
fundamental failure: The inability to communicate a warning message to 
remote areas. This failure existed (both nationally and 
internationally) at all levels of observation, information 
dissemination, and local education and outreach.

  <bullet> Lack of warning system contributed to deaths of 10s or 100s 
        of thousands of people.

  <bullet> All links in chain missing.
          Scientists--National Authorities--Local Authorities--Populace

    A Secondary failure (scientific) comes from the inability to obtain 
a rapid and robust estimate of an earthquake magnitude using current 
instrumentation.

  <bullet> The Magnitude of the earthquake was dramatically 
        underestimated in real time.

  <bullet> But we can do something about it. The combination of strong 
        motion seismic stations and GPS data in the near regional area 
        of a large earthquake can be shown to estimate magnitude 
        rapidly within 0.1-0.2 magnitude units of the final estimate.

    Forty years earlier on March 27, 1964 a magnitude 9.2 earthquake 
ripped through the Prince William Sound in southern Alaska, generating 
a devastating tsunami. Though the death toll in the 1964 Good Friday 
quake is miniscule compared to the Indian Ocean disaster, Alaska today 
is vastly different but still faces difficult challenges with warning 
its at-risk communities of the occurrence of tsunamis. These challenges 
come in part from the nature of our remote location, irregular 
coastlines with complex bathymetry and topography; the vast size of the 
state that we live in, one of the most seismically active regions of 
the world; the lack of infrastructure throughout the area for both 
operations and maintenance of monitoring systems; and consistent and 
timely communication of warning messages.
The Solution
    As presented in my testimony to the Senate Committee on Commerce, 
Science, and Transportation, I will concentrate on addressing some of 
the needs for improving tsunami safety in Alaska by focusing this pilot 
project on combining warning guidance, hazard assessment, and 
mitigation in the very seismically active Alaska Peninsula and Aleutian 
Islands region.
    The pilot project area has been recognized as the most seismically 
active area in the United States. The area generates large tsunamis 
that can affect not only the coastlines of Alaska, but also the rest of 
the Pacific Ocean. The goals of this project will be accomplished by 
engaging the partnerships that already exist in Alaska for addressing 
tsunami safety. This team of professionals from the University of 
Alaska, and state and federal agencies are already operating as a 
partnership within the Tsunami Warning and Environmental Observatory 
for Alaska (TWEAK) program coordinated out of the University of Alaska.
Warning Guidance
    The region of Southern Alaska extending into the Aleutian Islands 
is severely lacking in modern earthquake instrumentation even though 
there have been more large earthquakes in the past 50 years than 
anywhere else in the United States.
    First and foremost, we must be able to detect events that can 
trigger tsunamis. The primary method of event detection is accomplished 
using seismology and seismic networks. Sea level data (both tide gauges 
and deep ocean buoys) are also monitored to verify the existence of and 
danger posed by tsunamis. Our primary hazard (like that in Sumatra) 
comes from a ``local'' tsunami generated by nearby large earthquakes in 
or near the coast of Alaska. Therefore, we must rely on the rapid 
warnings that can be issued from the detection of large earthquakes by 
the seismic network.
    Modern seismic recordings combined with GPS data can provide rapid 
information on earthquake location, size, and distribution of sea floor 
deformation that generates tsunamis. However, since much of the seismic 
network in Alaska has been in operation since the late 1960s, many 
stations are in need of modernization.
    Over the past few years, AEIC was tasked through the National 
Tsunami Hazard Mitigation Program (NTHMP) to develop 18 of these modern 
stations for Alaska and to ensure timely delivery of this data to the 
warning centers. The University program has now increased the number of 
modern stations AEIC can provide to augment this sparse improvement, 
and provides enhanced information on local earthquakes through applied 
research efforts. However, even with the funding of both the NTHMP and 
the University TWEAK program, nearly 75 percent of the Alaska seismic 
network still relies on outdated equipment, leaving vast areas of 
Alaska (and in particular the very seismically active Aleutian Islands) 
still under-populated with modern seismic stations.
    To improve this situation we propose to augment the network with:

  <bullet> 20 Modern broad band seismic stations with high dynamic 
        range and frequency bandwidth.

  <bullet> 20 Modern strong motion seismic sensors that will stay on 
        scale for even the large magnitude 9+ earthquakes that can 
        occur in the region.

  <bullet> 20 continuously reporting GPS sensors that can directly 
        measure permanent deformation and robust earthquake size.

  <bullet> Modern tide gauges.

  <bullet> Modern satellite telemetry to record seismic and deformation 
        signals in real time at the Alaska Earthquake Information 
        Center and the Alaska Tsunami Warning Center.

  <bullet> Near real time processing of the combined signals to rapidly 
        estimate the earthquake size, and distribution of deformation. 
        This gives direct and rapid estimates of tsunami potential.

  <bullet> A prototype multi-observing deep ocean buoy system 
        consisting of at least an ocean bottom pressure sensor and an 
        ocean bottom seismometer giving lateral constraint to the land 
        based seismic network.

    Unique to this effort is the co-location of modern seismic and GPS 
instrumentation. The combined observations give rich information for 
the rapid determination of earthquake location, size, and distribution 
of sea floor deformation that generates tsunamis.
Hazard Assessment
    Tsunami warning and safety procedures require an understanding of 
hazards and risks associated with tsunamis. Alaska researchers at UAF 
are evaluating the risk by constructing inundation maps for at-risk 
communities through super computer modeling of the tsunami water waves 
from scenario earthquakes and landslides. Reliable modeling results, 
however, require that we have accurate bathymetry to a resolution that 
is not generally available in Alaska. Much of the sea floor along the 
shallow waters off the coast of Alaska have not been mapped in many 
years. Some areas have not been mapped since before the 1964 Prince 
William Sound M9.2 earthquake (Note that large earthquakes can change 
bathymetry in local regions of the sea floor by tens of meters.). 
Collection of improved bathymetry is necessary along Alaska's coastal 
communities and should be a top priority for our pilot project area.
    High resolution modeling and mapping is needed to identify 
potential areas for evacuation and lifeline infrastructure at risk. As 
a part of the pilot project at least one community at risk should be 
selected for acquisition of very high resolution bathymetry. This data 
will enable the construction of very detailed flooding maps for the 
community. Benefits of this process include the enhanced understanding 
of the local risk, construction of evacuation routes for the community, 
and an evaluation of the capabilities (and potential errors) of 
numerical modeling and forecasting of tsunamis with the highest quality 
data available. The models would then be hosted for evaluation by the 
research community as part of the Alaska Region Super Computer Center 
tsunami portal system developed as part of the TWEAK program. A 
candidate community for this evaluation is Akutan. Akutan has one of 
the largest communities in the Aleutian Islands, which supports the 
largest fishing industry in the United States. Other candidate 
communities could include Sand Point, Adak, Dutch Harbor, and a host of 
others among Alaska's 76 coastal communities.
Mitigation
    Last, but not least, to tie together all the components of tsunami 
identification and warning with the hazard assessment, the pilot 
community needs a comprehensive public education program. It is 
important to recognize that tsunami warning systems must go beyond just 
the ability to detect a tsunami and send a warning message. The most 
important aspect of tsunami warning systems is the existence of a 
mechanism for disseminating warning information to the people on the 
shorelines, and for the recipient of the warning message to understand 
how to react. Tsunami hazard mitigation requires a long-term sustained 
effort of continuing public education, and responsible planning 
decisions in coastal communities.
    The power of education is clear.
    The State of Alaska partners' are well aware of our difficulties in 
reaching our 76 communities at risk to tsunamis. Enhancing the warning 
communication and outreach infrastructure at the state and local level 
for both emergency managers and the public represents the most 
important improvement to be made in Alaska for saving lives.
    Among the pilot project community enhancements to be made include:

  <bullet> Tsunami training for schools at all grade levels--Adult 
        public education through media, community workshops, and other 
        means.

  <bullet> Exercises and drills for elected officials, schools, and the 
        general public.

  <bullet> Focus groups for mitigation, contingency and continuity 
        planning workshops for essential services and tsunami-at-risk 
        businesses.

  <bullet> (Note that Public education could have saved thousands of 
        lives around the Indian Ocean.)

    Tied to this effort will be an enhanced technical communication 
infrastructure package that can ensure tsunami warnings are broadcast 
to people along the coastlines or in their homes, businesses, and 
boats. Within the pilot community, we will explore all possible 
communication possibilities, including but not limited to:

  <bullet> Local alert and notification communication equipment such as 
        the Emergency Management Weather Information Network, NOAA 
        Weather Radios for indoor use, and All Hazard Alert 
        Broadcasting (AHAB) Siren and Radio for outdoor use.

  <bullet> Support from Alaska Division of Homeland Security and 
        Emergency Management professionals for disseminating existing 
        alert notification, and other enhanced communication protocols, 
        to ensure tsunami warning and evacuation messages can be 
        received by the public rapidly and effectively.

    The key to success is developing a strong communications link from 
the Tsunami Warning Center to a hazard control center or emergency 
contact point that can be assured of receiving and relaying the 
warnings to the local people through the above considerations.

Summary
    In summary, Alaska has partnerships in place to address the threat 
from tsunamis. Yet we still have continuing needs for improved 
monitoring with seismic and tide gauge networks, scientific 
infrastructure for numerical forecasting of tsunamis, and the civil 
infrastructure to educate and warn people.
    This pilot will demonstrate the techniques and procedures necessary 
to enhance the delivery of hazard warnings to very remote areas of the 
world. It will focus on an integrated approach of improved monitoring, 
coupled with extensive hazard and risk assessment and quantification, 
tied together with a strong approach for education and outreach, and 
reliable information delivery. In addition, the enhanced monitoring 
with world class multi-use sensing stations will allow for rapid 
evaluation of earthquake size and characteristics, estimates of the 
deformation of the sea floor, and more accurate forecasting of tele-
tsunamis that would potentially impact Hawaii, the west coast of the 
United States, and other coastlines of the Pacific Ocean.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to
                            Charles G. Groat
    Question 1. Dr. Groat, I understand that the Cascadia Subduction 
zone off the coast of Washington state is similar to the fault that 
produced the Indian Ocean tsunami. The last major Cascadia quake on 
January 26, 1700 caused 30-foot high tsunamis that inundated the 
Washington coastline. In your testimony, you stated that USGS 
scientists and others have estimated that there is a 10-14 percent 
chance of a repeat of the Cascadia magnitude 9 earthquake and tsunami 
event in the next 50 years. What is the basis for this estimate?
    Answer. The 10-14 percent probability of having a magnitude-9 
earthquake on the Cascadia subduction zone in the next 50 years was 
derived from the average recurrence time of these great earthquakes 
observed in studies of coastal subsidence. For example, at Willapa Bay, 
WA there are wetland soils that were buried during coastal subsidence 
that occurred during great Cascadia earthquakes. These buried soils are 
evidence that seven great earthquakes occurred along the Cascadia 
subduction zone during the past 3500 years. The dates of when these 
soils were buried are consistent with the dates of subsidence events 
found at other locations along the Pacific Northwest coast, further 
supporting the concept that these buried soils record the occurrence of 
great earthquakes along the coast. The ages of these buried soils 
indicate an average recurrence time of about 500 years for great 
Cascadia earthquakes. The USGS used this average recurrence time to get 
two probability estimates for the next 50 years: the 10 percent 
estimate is derived from a model that does not consider the time from 
the last earthquake and the 14 percent estimate is derived from a model 
that considers the time since the last great Cascadia earthquake (in 
1700 A.D.) and the variability in the recurrence time of past great 
earthquakes as seen in the record of buried soils.

    Question 1a. Please explain what makes this fault especially prone 
to generating a tsunami-causing earthquake.
    Answer. Nearly all of the world's major tsunamis occur in 
subduction zones. The geometry between two adjacent tectonic plates in 
subduction zones gives rise to the possibility of tsunami generation in 
areas like Cascadia, where the offshore Juan de Fuca plate is moving 
landward about 1.5 inches per year. Because the rocks in the Juan de 
Fuca plate are more dense than the rocks in the North American plate, 
the Juan de Fuca plate begins to dip slightly into the earth just off 
the Pacific Coast. The contact between the two plates is the Cascadia 
fault. Unlike the San Andreas fault, which is nearly vertical, the 
Cascadia fault is nearly horizontal. This shallow, dipping, geometry 
establishes a very wide contact area--perhaps as much as 60-80 miles--
between the two plates. The wide contact area combines with the 600-
mile length of Cascadia to give a huge earthquake fault area. When an 
earthquake occurs on the Cascadia fault, there is as much as 30-60 feet 
of displacement of one plate against the other, and that motion can 
cause rapid changes in the level of the sea floor, resulting in 
tsunamis.
    Not all subduction-zone earthquakes generate damaging tsunamis. If 
the fault displacement does not cause significant movement on the ocean 
floor, then only small waves are generated. In some cases, the initial 
earthquake ground shaking may generate huge underwater landslides that 
can either produce their own tsunamis or complicate a tsunami generated 
by displacement of the ocean floor. Although most tsunamis are 
generated in the world's active subduction zones such as Cascadia, 
occasionally large gravity-driven slumps have occurred elsewhere that 
produced significant waves.
    One issue that needs more study in Cascadia is the effectiveness of 
existing warning systems in the event that only a portion of the 
subduction zone ruptures. In the case where the entire subduction zone 
from Vancouver Island to northern California ruptures, the immediate 
response of coastal residents must be keyed on the strong ground 
shaking. However, the geologic record shows that earthquakes are more 
frequent in the northern California-southern Oregon portion of Cascadia 
than off the Washington coast. If only a portion of the subduction zone 
breaks during an earthquake, then warning systems could be used to help 
guide initial response on the portion of the coast adjacent to the 
immediate earthquake area. The June 14, 2005, magnitude-7.1 earthquake 
off northern California highlighted the need for strengthening seismic 
warning systems to provide better guidance to state officials in the 
event of the next Cascadia earthquake rupturing along only a portion of 
the coast.

    Question 2. Dr. Groat, I understand that a tsunami generated by an 
earthquake along the Cascadia fault could reach the coast of Washington 
state within 10-20 minutes. I'm concerned because only three Washington 
towns are considered prepared under the TsunamiReady program, meaning 
that many, many coastal residents would not have adequate time to 
escape a tsunami. Would the USGS earthquake notification system be able 
to notify coastal communities in time to allow for an orderly 
evacuation?
    Answer. It is important to distinguish the roles of the USGS and 
NOAA with regard to notifying the public about tsunamis. The USGS 
supplies earthquake data to the NOAA West Coast/Alaska Tsunami Warning 
Center (WC/ATWC) in Palmer, AK, which is responsible for issuing 
warnings to coastal Washington. While the WC/ATWC receives USGS 
earthquake data within seconds, it takes their seismologists a few 
minutes to process the data and obtain a reliable earthquake location 
and magnitude and for the duty seismologist to execute the response 
procedures. Under optimal conditions the WC/ATWC can issue warnings as 
rapidly as two minutes after the earthquake.
    The USGS is also supporting the development of software like 
California Integrated Seismic Network (CISN) Display that enable 
emergency managers to receive notification about earthquakes and 
tsunami warnings quickly as they are distributed by USGS and NOAA. This 
technology eliminates any delays in information distribution and 
portrays the earthquake data on maps that can be customized with local 
highways, hospital locations, and other geographic features. The 
President's tsunami warning initiative provides funding to enhance CISN 
Display and provide it to coastal emergency managers.
    Even though the goal of the USGS is to put automated earthquake 
information into the hands of the emergency management community and 
the public within seconds, and likewise the WC/ATWC strives to issue 
tsunami warnings within a few minutes, it will be difficult, if not 
impossible, for many communities to successfully evacuate all citizens 
in inundation zones within 20 minutes. For that reason, education about 
tsunami hazards and proper evacuation procedures, land-use planning, 
and construction of structures that enable vertical evacuation will all 
be necessary to reduce the loss of life from a tsunami generated by a 
repeat of the 1700 Cascadia earthquake.
    In an effort to further coordinate U.S. national response to the 
threat from tsunamis, USGS and NOAA co-led two separate task groups 
organized by the National Science and Technology Council Subcommittee 
on Disaster Reduction and U.S. Group on Earth Observations: ``Tsunami 
Lessons Learned Interim Report'' provides a first look at what lessons 
can be taken from the December 26, 2004 earthquake and tsunami, and 
``Tsunami Risk Reduction for the United States: A Framework for 
Action'' provides a national plan to reduce future losses. These 
reports are expected to be released shortly.

    Question 3. Dr. Groat, I understand that the goal of USGS's 
National Earthquake Information Center (NEIC) is to rapidly determine 
location and size of all destructive earthquakes and immediately 
disseminate that information to the public. I understand this to be 
critical because a person on the ground can't tell if the earthquake 
they just felt was a little one under their feet, or a huge one off the 
coast that may be followed by a tsunami. However, I understand that in 
previous instances, such as the Nisqually Earthquake that gave Seattle 
quite a shake in 2001, NEIC notification came in too late to inform and 
improve emergency response efforts. For this reason, I'm pleased to see 
that under the Administration's proposal, the NEIC would upgrade their 
operations and be able to provide 24 hour, 7 day a week notification. 
It is my understanding that a Cascadia fault generated earthquake would 
give Washington state coastal communities only 10 to 20 minutes of time 
to evacuate. Is it possible to reach a two minute performance standard 
for issuing tsunami warnings?
    Answer. The speed at which seismic networks can report about an 
earthquake is governed by the number of seismic stations in the 
vicinity of the earthquake and the speed at which seismic monitoring 
systems can calculate earthquake location and magnitudes. For example, 
the coastal region of Washington is monitored by seismic stations of 
the Pacific Northwest Seismic Network (PNSN), operated by the 
University of Washington with funding from USGS. Data from the PNSN is 
continually transmitted to the WC/ATWC within seconds as a result of 
system upgrades funded by the National Tsunami Hazard Mitigation 
Program. As a result of this cooperative effort and because NOAA staff 
were on duty at the time of the earthquake, the WC/ATWC released the 
Nisqually earthquake location and magnitude within 2 minutes. It should 
be noted that the PNSN, like other U.S. seismic networks participating 
in the ANSS, typically releases automated earthquake information within 
3-5 minutes.
    Despite improvements in the speed in which USGS or NOAA systems can 
compute location and magnitude and rapid human response, the goal of 
reaching a two minute performance standard for issuing tsunami warnings 
is only possible if there are sufficient seismic stations in the 
epicentral area. For quakes that occur in remote areas of the planet 
where the nearest seismic stations are many hundreds of miles away, it 
can take 10 minutes for sufficient data to be available for a seismic 
network to release a reliable location and magnitude. Although 10 
minutes may seem like a long time to locate a distant earthquake, the 
transit times for distant tsunamis to reach U.S. shores are on the 
order of hours.
    Just as the PNSN provides seismic data to the ATWC , the NEIC also 
provides continuous transmission of data from seismic stations around 
the globe to the WC/ATWC in order for them to be able to issue tsunami 
warnings as fast as possible. With the planned upgrades for the NEIC 
with funding from the President's tsunami warning initiative, the NEIC 
is standing up 24<greek-e>7 operations and upgrading their software and 
hardware systems. Like the WC/ATWC, it will then be possible for the 
ANSS to release authoritative and reviewed earthquake information at 
the same speed at which the WC/ATWC releases earthquake information.
    We again want to emphasize that it is unlikely that a 2-minute 
performance standard would be sufficient to guarantee successful 
evacuation of all citizens in inundation zones. However, quick, 
reliable earthquake locations can be used to ``turn off'' initial 
activities that began with felt ground shaking. As noted above, the 
USGS is working to distribute these locations through such systems as 
CISN Display. The USGS is also working to provide a more complete 
description of the earthquake within minutes by automatically 
delivering ShakeMaps to emergency responders so that they can see the 
extent of strong shaking in their region. ShakeMaps also serve as input 
to the HAZUS program for rapidly calculating the expected losses from 
an earthquake.

    Question 4. Dr. Groat, I've heard that coordination and cooperation 
between NOAA, NSF, and USGS is very poor leading to lots of 
inefficiencies. Given the possibility of only 10 to 20 minutes warning, 
it is very important to me that both USGS and NOAA work together to 
disseminate information as fast as possible. Please explain how current 
procedures could be improved to ensure communication and dissemination 
of critical information.
    Answer. Since 1997, the USGS and NOAA have successfully partnered 
on tsunami warning efforts under the National Tsunami Hazard Mitigation 
Program (NTHMP) in cooperation with FEMA and the five Pacific states. 
The USGS installed dedicated data circuits connecting the two NOAA 
Tsunami Warning Centers to the ANSS to ensure reliable data exchange. 
USGS installed 53 new seismic stations in Alaska, California, Hawaii, 
Oregon and Washington to support improved earthquake detection for 
tsunami warnings and collaborated with NOAA staff in the installation 
of USGS seismological software in the Tsunami Warning Centers. As 
described above, the WC/ATWC also submits their calculations of 
earthquake location and magnitude into the ANSS earthquake information 
distribution system. The USGS and NOAA meet regularly under the 
auspices of the NTHMP to discuss how we could improve cooperation and 
coordination, and the level of cooperation between the ANSS operations 
and Tsunami Warning Center operations is excellent.
    In addition, USGS scientists often are active collaborators with 
NOAA scientists in performing tsunami inundation modeling. USGS 
scientists are tasked with specifying the ``source characteristics'' 
(e.g., the dimensions, orientation, and the amount of fault movement) 
of anticipated earthquakes for the models. The USGS has an active 
research program to investigate the geologic evidence from historic 
tsunamis to gain a better understanding of the amount of wave run-up 
and frequency of occurrence. These studies guide the inundation 
modeling of NOAA scientists and form the basis for mitigation planning.
    The USGS, NOAA, and FEMA all belong to the State-Local Tsunami 
Working group convened quarterly by Washington Emergency Management. 
The working group seeks to implement directions and programs developed 
by the NTHMP and provide guidance back to the national program. These 
meetings involve local emergency managers from all Washington coastal 
counties and outside experts as required by the items being discussed 
(e.g., a structural engineer, business continuity planner, etc.).
    The key to coordination among agencies in the NTHMP is the twice-
yearly meeting of the Steering Committee, made up of representatives 
from the three federal agencies and the five Pacific States. The NTHMP 
has used the steering committee structure to develop the priorities for 
the entire program, ensure a uniform message in tsunami-prone areas, 
and initiate new efforts such as the guidelines for construction in 
inundation zones. Washington State has been particularly aggressive in 
taking full advantage of this coordination by calling routinely on the 
federal partners to help improve public safety efforts in the state.
    As a research granting agency, the National Science Foundation is 
not directly involved with NTHMP or tsunami response. However, USGS and 
NSF collaborate extensively on research activities that contribute to 
an improved understanding of Earth processes that lead to earthquake 
generation. An important aspect of that collaboration is NSF's 
EarthScope initiative, which is establishing a dense array of geodetic 
stations along the western boundary of the North American tectonic 
plate to better understand plate interactions. EarthScope also includes 
a drilling project into the San Andreas fault, and a moving array of 
seismic stations to image the crust and deep structure of the 
continent. In all three projects, USGS scientists are closely 
collaborating with their NSF and university counterparts. NSF and USGS 
are partners in the National Earthquake Hazard Reduction Program (along 
with FEMA and the National Institute of Standards and Technology). 
NEHRP is focused on translating research into on-the-ground earthquake 
loss reduction.

    Question 5. Dr. Groat, on my recent visit to PMEL, I learned that 
Washington State is vulnerable not only to tsunamis generated by 
distant earthquakes in the North Pacific Ocean or the closer Cascadia 
subduction zone, but also from faults within the Puget Sound. In fact, 
there is a fault line that goes right across Puget Sound and downtown 
Seattle. Can you tell me the current plans to analyze the earthquake 
risk for this fault? Are there other technologies that could provide 
more timely warning to these inland areas?
    Answer. Pacific Northwest earthquakes occur in three source zones: 
along the Cascadia subduction zone boundary, within the subducting Juan 
de Fuca plate and within the crust of the overlying North American 
plate. Earthquakes from all three zones threaten the Puget Sound and 
western Washington, but a large crustal earthquake would have very 
severe consequences in Seattle and other cities.
    Crustal zone earthquakes, typically of small magnitudes and usually 
not felt, are the most common earthquakes in western Washington. 
Crustal earthquakes have been as large as magnitude 5.5 in the last 40 
years but have produced little damage. The initiation points 
(hypocenters) of earthquakes located beneath Puget Sound form a dense 
cloud of locations in the crust and do not define linear fault zones as 
seen in California. For many years, the lack of clear trends in the 
located earthquakes, coupled with a lack of known surface evidence in 
the form of fault scarps, contributed to the uncertainty as to how best 
to account for the possibility of crustal earthquakes in hazard 
assessments.
    There are three major fault zones--the Seattle, the Tacoma, and the 
Southern Whidbey Island--that cut through the heavily urbanized regions 
of central Puget Sound. Of these, the Seattle fault is the best studied 
and because of its proximity to so many people and infrastructure, is 
the most critical feature of regional hazard assessments. Although 
known for many years based on regional geology and geophysics, until 
1992 there was no evidence that the Seattle fault was active. In that 
year, paleoseismologists showed that large changes in the elevation of 
prehistoric beaches, in some cases as much as 22 feet, occurred during 
a very large earthquake on the Seattle fault about a thousand years 
ago. This large displacement is consistent with an earthquake of about 
magnitude 7. However, even with these large vertical motions, the exact 
location of the Seattle fault was still poorly known. The portion of 
the fault thought to be responsible for the elevation changes has yet 
to be found.
    Nevertheless, the discovery of the vertical land elevation changes 
sparked considerable research on the fault. In 1994 a basic model was 
developed linking the Seattle fault to the Seattle basin; the Seattle 
basin is a deep (5 miles in places) structural feature roughly centered 
beneath downtown Seattle and Bellevue. A regional aeromagnetic 
experiment suggested the location of three strands of the Seattle 
fault. These strands curve from southern Bainbridge Island through 
south Seattle before bending more northeastward and crossing Lake 
Washington to the greater Bellevue area.
    The introduction of LIDAR flights--Lidar stands for light detecting 
and ranging similar to radar, which stands for radio detecting and 
ranging-- over the Seattle fault on Bainbridge Island in 1998 allowed 
geologists to find the fault in the field for the first time. With a 
precision of about 20 centimeters, LIDAR can map very subtle changes in 
the surface topography, and allows scientists to organize features of 
the landscape. In particular, short linear features that might be 
missed with conventional topography are easily highlighted with LIDAR 
data. Field trenching very rapidly discovered several earthquakes on 
the Seattle fault on and near Bainbridge Island. USGS Geologists also 
found evidence for an active scarp near Vasa Park in southeastern 
Bellevue.
    USGS has used LIDAR since 1998 to document at least eight faults 
from the southeastern Olympic Peninsula to Whidbey Island that have had 
large earthquakes of magnitude 6.5 or greater during the last few 
thousand years, and there are many additional faults that have now been 
identified that need thorough study. Ground motions from crustal 
earthquakes of moderate size, magnitude 6-6.7, produce strong shaking 
on hard rock that can have major effects on buildings and lifelines.
    Fieldwork on various strands of the Seattle fault documents three 
or more large earthquakes in the last few thousand years. By modeling 
the expected ground motions from these earthquakes, seismologists can 
show that the ground and buildings will shake very hard when they next 
strike. The scientific and engineering understanding of the large 
crustal earthquakes on the Seattle fault is now well accepted and the 
USGS joined seven other agencies and organizations to develop a 
detailed scenario of the consequences of a major earthquake on the 
Seattle fault. The scenario, published in June 2005 by the Earthquake 
Engineering Research Institute and Washington Emergency Management, is 
being used to help the region develop a more aggressive strategy to 
lower losses from future events.
    Unfortunately, for crustal earthquakes in urban areas, there is 
little prospect of providing warning of possible tsunamis, because the 
travel time of the first arriving wave will be a few minutes at most. 
Thus, as with the offshore Cascadia events, sustained public education 
is the best way to lower losses and save lives in the event of strong 
shaking in Puget Sound. It is also why the region puts such a high 
premium on completing a full inventory of possible active faults using 
LIDAR data. Without LIDAR, possible crustal faults that could be 
tsunami sources in northern Puget Sound will be almost impossible to 
evaluate.
    Investigating the possibility of tsunamis in Puget Sound is a good 
example of USGS-NOAA cooperation. Under the NTHMP, Washington State 
asked USGS and NOAA to consider this issue. The USGS and NOAA jointly 
convened a panel of experts to discuss shallow earthquake faults in the 
inland waters and consider their potential to generate tsunamis. 
Washington State's request was built on the Seattle fault geologic 
history, which generated a tsunami about 1100 years ago. That tsunami 
overtopped the site of the current West Point Wastewater Treatment 
plant in Seattle and has been traced as far north as Whidbey Island.
    The expert panel developed reasonable fault parameters for several 
major crustal faults that cross the inland waters. NOAA has completed 
modeling a worst-case scenario for the Seattle fault and is now 
beginning modeling on the Tacoma fault. Future modeling will likely 
include the Southern Whidbey Island fault and the Devils Mountain-
Darrington fault. Modeling of the last fault is hindered by a lack of 
high-resolution topographic data from LIDAR along much of the fault 
trace.
    Much of Seattle and the surrounding area is underlain by poorly 
consolidated glacial materials that may be prone to landslides during 
earthquakes in areas of steep slopes. In addition, the inland waters of 
Washington are subject to landslides that sometimes cause local 
tsunamis. Although not nearly as widespread as other types of tsunamis, 
landslide driven tsunamis may have very high local run-up. Again, at 
the request of Washington State, USGS and NOAA held a meeting to assess 
possible landslide tsunami sources in the inland waters. Using a series 
of maps showing steep, geologically unstable slopes and deep waters, 
the panel designated sections of the inland waters as more likely than 
others to generate tsunamis. NOAA is now studying the best way to use 
the source areas in developing models of possible tsunami inundation 
areas from landslides.

    Question 6. Dr. Groat, I understand that it is most likely that a 
tsunami hitting the Washington coast would originate from an earthquake 
along the Cascadia plate rather than a deep ocean earthquake. I also 
understand that there may be several ways to make our current tsunami 
warning system more effective for mitigating hazards. For example, the 
NSF's NEPTUNE program to wire the Juan de Fuca plate with fiber optic 
lines seems to be supportive of these efforts. Do you feel that there 
are other technologies or approaches Congress should consider funding 
that might produce more timely warning for near shore generated 
tsunamis?
    Answer. There are certainly many reasons to take advantage of 
collaborative opportunities in the region. Already, USGS and the 
University of Washington are collaborating with the NSF-sponsored 
Earthscope initiative that will improve deformation monitoring and 
seismic capabilities in the region. With respect to NEPTUNE, there have 
been discussions between the university departments responsible for 
NEPTUNE and the Pacific Northwest Seismic Network about studying 
possible deployment of offshore seismometers.
    The greatest benefit of offshore seismometers would be more 
reliable earthquake locations for events occurring there. Some offshore 
seismometers might help resolve the forces producing the occasional 
offshore earthquake west of Oregon and Washington, and that would give 
seismologists a better understanding of these events. However, improved 
locations would still be within the time constraints discussed in the 
above questions, meaning that ongoing, consistent education would 
remain their best hope for people on the beach of surviving a 
devastating Cascadia earthquake and tsunami.

    Question 7. Dr. Groat, confronted with a fresh reminder of the 
potential devastation of an off-shore, tsunami-causing earthquake, I 
share Senator Stevens' concern about ensuring sufficient warning 
systems are in place so that loss of human life can be minimized. 
Senator Stevens requested an estimation of what it would take to 
establish a comprehensive tsunami notification system. I am very 
interested in your response and ask that you please forward me a copy 
of your answer to Senator Stevens' question.
    Answer. Sen. Stevens and Sen. Inouye jointly asked USGS to explain 
how we could improve public notification of impending natural hazards 
and disasters. The components of the USGS answer related to earthquakes 
and tsunamis follow:
    The USGS could improve public hazard notification and warning of 
natural hazards in three basic areas: (1) modernization and expansion 
of seismic monitoring networks; (2) increased robustness and redundancy 
of electronic communication links; and, (3) accelerated development and 
deployment of capabilities to take full advantage of new data streams, 
research findings and communication technologies to improve the 
accuracy and timeliness of information we provide for emergency 
response and management.
(1) Modernization and expansion of monitoring networks
    The President's proposal for improving tsunami warning systems 
would replace legacy hardware and software systems at the USGS National 
Earthquake Information Center (NEIC) and establish 24<greek-e>7 
operations, actions that will improve response time, benefiting both 
earthquake notification and tsunami warning. The proposal also includes 
support to improve station up-time in the Global Seismographic Network 
(GSN)--a partnership of USGS, the National Science Foundation, the 
Incorporated Research Institutions for Seismology, and the University 
of California--and to install additional stations in the Caribbean 
region. The NEIC modernization is a key component of the Advanced 
National Seismic System (ANSS). As described in USGS Circular 1188, the 
ANSS plan includes both notification and early warning of earthquakes 
as fundamental goals.
(2) Robust telemetry and communication links
    For rapid-onset events like earthquakes, tsunamis, volcanic 
eruptions and landslides, only real-time systems can provide data in 
sufficient time to issue actionable notifications and warnings. The 
funding in the FY 2005 Emergency Supplemental for improved tsunami 
detection and warning system for the United States, along with the 
funding in the 2006 budget for the same purpose, will expand and 
improve telemetry connections to monitoring stations, so that the 
seismic stations in the Global Seismographic Network provide real-time 
data. This will contribute to decreasing the reporting time for global 
earthquakes from over one hour to about twenty minutes.
    USGS data and products often travel across a web of communications 
links from the monitoring network to the public, typically involving 
satellite uplinks and downlinks, the Internet, and radio or television 
bands. Although some USGS systems employ redundant links (e.g., 
satellite, phone lines, and/or Internet communications), in many cases 
the communications channels are vulnerable to a single point of 
failure. Hardening of these telecommunication links is essential to 
ensure a reliable warning system is available with the appropriate 
level of redundancy.
    As part of the NEIC upgrade, the President's proposal calls for 
24<greek-e>7 network operations and robust Internet serving of seismic 
data. It would also increase the number of USGS-operated GSN stations 
that provide real-time data to NEIC and the NOAA tsunami warning 
centers. Currently, only 80% of GSN stations have digital telemetry 
links that allow for real-time communication. Both for the GSN and the 
ANSS, a fully telemetered system with redundant communications links 
will improve response time for damaging earthquakes.
(3) New capabilities
    The President's proposal for upgrading NEIC will accelerate 
development of several rapid-response products, including the Prompt 
Assessment of Global Earthquakes for Response (PAGER) system, which 
uses information about an earthquake's source, combined with 
information regarding population and infrastructure in the affected 
region to estimate potential damage and loss of life in a major 
earthquake. The PAGER system is ideal for both domestic and 
international areas where a dense seismic network is not available, but 
where a rapid assessment is critical for estimating impact.
    The USGS is exploring the feasibility of earthquake detection and 
early warning, in which rapid computer analysis and communication links 
are used to provide seconds of warning before earthquake waves arrive. 
Such warning systems are in place in Japan, Mexico and Taiwan. The 2000 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) called for development of a U.S. early warning system for 
earthquakes. The USGS currently sponsors modest research and 
development in this area, including research on earthquake early 
warning feasibility and efforts to improve the numbers of seismic 
stations reporting in real time and the speed and reliability of 
earthquake reporting.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                            Charles G. Groat
    Tsunami and Earthquake Program Compatibility. As you may know, 
Congress recently enacted this Committee's reauthorization of the 
multi-agency National Earthquake Hazard Mitigation Program (NEHRP), 
which is aimed at both improving earthquake detection and community 
resilience to earthquakes--including building construction and planning 
guidelines. Similarly, S. 50, would authorize NOAA's National Tsunami 
Hazard Mitigation Program (NTHMP), another multi-agency program 
involving many of the witnesses here today.

    Question 1. Looking at these two programs together, are the 
activities of the Earthquake Program consistent with the goals of the 
Tsunami program? For instance, is a building designed to be earthquake 
resilient also designed to be resilient against tsunami?
    Answer. Because earthquakes are the triggering mechanism for most 
tsunamis, NEHRP activities aimed at improving seismic monitoring 
capabilities are directly relevant to improved tsunami warnings. The 
2000 reauthorization of NEHRP authorized the development of the 
Advanced National Seismic System (ANSS). The data from ANSS stations is 
provided to the NOAA Tsunami Warning Centers. In addition, NSF's George 
E. Brown Jr. Network for Earthquake Engineering Simulation (NEES) 
facility, authorized as part of NEHRP legislation, includes a tsunami-
wave tank at Oregon State University that is making significant 
contribution to our understanding of tsunami phenomena.
    With respect to the second part of this question, the forces 
generated by a tsunami wave are different from those generated by 
strong seismic shaking, and the building design for the earthquakes 
does not necessarily address the hydrodynamic forces generated by 
tsunamis. USGS is not directly involved in the issuance of model 
building codes, although USGS data provides a critical input to the 
process. This question would be best directed to our NEHRP partner 
agencies, NIST and FEMA. FEMA is in the process of developing model 
tsunami inundation zone vertical evacuation shelter construction 
guidance for coastal areas, a project that was initiated before the 
Sumatra earthquake and tsunami brought this issue to the forefront.

    Question 2. Does the Earthquake Program have any programs or 
approaches that should be adopted by the Tsunami program? For example, 
should we expand programs regarding construction and planning?
    Answer. The USGS operates seismic networks in order to record data 
from large earthquakes. We conduct extensive research on this data to 
document the amount of shaking that earthquakes can generate and to 
predict the probability of strong shaking for the entire nation. This 
information is utilized by engineers to make improvements to the 
International Building Code so that structures can withstand the 
shaking from strong earthquakes.
    This collaboration between engineering seismologists in the USGS 
Earthquake Hazards Program and the engineers who are responsible for 
modifications of the building code serves as a model for developing 
structures that could withstand the forces of a tsunami. 
Hydrodynamicists can study and model these forces for input to 
engineers developing building codes for inundation areas.

    Question 3. Has the Federal Emergency Management Agency (FEMA) 
participated meaningfully or financially in either program? Are there 
limitations that we should know about?
    Answer. FEMA plays a crucial role in both programs, ensuring that 
fundamental and applied research activities are implemented into loss-
reduction practice. FEMA's role in the NTHMP flexes according to the 
needs of the five Pacific states. During the first formative years of 
the program, the mitigation budget was divided between the five states 
and FEMA, with FEMA running a multi-state project. However, rather than 
transfer funds to FEMA for a multi-state project, a few years ago the 
Steering Committee decided to support these projects through a grant 
directly to one of the states. Currently, the NTHMP is funding the 
Guidelines for Construction in Tsunami Inundation Zones, a multi-state 
program effort, through Washington State. FEMA Headquarters has 
contributed about $250K to match the funding from NTHMP for this 
effort.

    Question 4. How can we improve coordination and better define 
agency roles in our legislation?
    Answer. The NTHMP program has provided the impetus for interagency 
coordination and cooperation. Under guidance of a federal-state 
steering committee, the need for reducing the hazard of future tsunamis 
has been foremost in guiding cooperative efforts by NOAA, FEMA, and 
USGS. Continued support for this program, with a strong interagency 
steering committee and active interaction at the working level, is in 
the best interest of furthering this work. No single federal agency has 
the resources or mission to address this complex hazard.
     Response to Written Questions Submitted by Hon. Mark Pryor to
                            Charles G. Groat
Voice Sirens for Effective, Reliable Tsunami Warning
    Effective tsunami warning should rely on a variety of redundant 
modes of communication. While there are several technologies for 
communicating tsunami warnings highlighted in the Tsunami Preparedness 
Act of 2005 (S. 50), it is a concern that voice capable sirens are not 
among the technologies mentioned. Emergency managers have long depended 
on sirens to warn the public of emergency and civil defense situations 
including tsunamis, tornados, floods, hurricanes, hazardous material 
accidents, and of a potential nuclear attack.
    Sirens have a number of significant advantages: they insure that 
all residents and visitors to a particular area can be informed without 
regard to the cell phone or pager technology platform or provider they 
may have, when equipped with backup power supplies they will work even 
when the electricity or phone lines are out; when equipped with live 
public address or pre-recorded messages they can be used BEFORE and 
AFTER the incident to communicate important public safety information.
    Question 1. Without the use of/installation of voice sirens as part 
of a preparedness plan, how do you warn people on the ground? Are there 
other effective warning systems available for this purpose? What 
criteria are used to determine which warning system is reliable in case 
of tsunami?

    Question 2. Should a preparedness plan include a warning mechanism 
for small fishing boats trawling near the coastline? National Oceanic 
and Atmospheric Administration (NOAA) weather radios can be used to 
inform these fishing boats at minimal cost (approximately $20).
    Answer. USGS will defer to NOAA's responses to these questions.

                                  <all>

</pre></body></html>
